No. 19-____
IN THE

Supreme Court of the United States
————
IN RE MATCO TOOLS CORPORATION, NMTC, INC. D/B/A
MATCO TOOLS AND FORTIVE CORPORATION,
Petitioners,
v.
U.S. DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA,
Respondent;
JOHN FLEMING,
Real Party in Interest.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
PETITION FOR WRIT OF CERTIORARI
————
CHRISTIAN J. ROWLEY
Counsel of Record
ERIC M. LLOYD
MATTHEW A. GOODIN
SEYFARTH SHAW LLP
560 Mission Street, 31st Floor
San Francisco, CA 94105
(415) 397-2823
crowley@seyfarth.com
elloyd@seyfarth.com
mgoodin@seyfarth.com
Counsel for Petitioners
March 26, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Courts adjudicating forum non conveniens motions
seeking to enforce forum-selection clauses as a general
rule do not consider whether the underlying contract
is valid. Instead, they determine only whether the
forum-selection clause itself is valid and enforceable.
Here, however, the Ninth Circuit held this rule does
not apply when the forum-selection clause is contained
in an allegedly invalid arbitration agreement.
The question presented here is: May a district
court create an exception to the rule that the validity
of a forum-selection clause does not depend upon the
validity of the underlying contract containing the
clause, based upon the subject matter of the contract?

(i)

ii
PARTIES TO THE PROCEEDINGS
Petitioners Matco Tools Corporation, Fortive
Corporation and NMTC, Inc., d/b/a Matco Tools
(collectively, “Petitioners”) are the defendants in the
United States District Court for the Northern District
of California, and the Petitioners who sought and were
denied a writ of mandamus in the Ninth Circuit Court
of Appeals.
Respondent United States District Court for the
Northern District of California denied Petitioners’
motion to dismiss or transfer Real Party in Interest
John Fleming’s (“Plaintiff”) civil complaint, pursuant
to the doctrine of forum non conveniens, and was
respondent to Petitioners’ request for a writ of
mandamus in the Ninth Circuit Court of Appeals.
Real Party in Interest John Fleming is the named
plaintiff in a putative class action pending in the
United States District Court for the Northern District
of California, alleging violations of the California Labor
Code and the California Business and Professions Code.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of the Rules of the Supreme
Court of the United States, undersigned counsel states
that Petitioner Matco Tools Corporation is a whollyowned subsidiary of Fortive Corporation; and that
Petitioner Fortive Corporation is a publicly traded
company. Prior to June 3, 2016, Petitioner Matco
Tools Corporation was known as NMTC, Inc., d/b/a
Matco Tools.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDINGS ..................

ii

CORPORATE DISCLOSURE STATEMENT .....

iii

TABLE OF AUTHORITIES ................................

viii

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTES INVOLVED .....................................

1

STATEMENT OF THE CASE ............................

2

REASONS FOR GRANTING THE PETITION..

10

I.

This Court’s Jurisprudence Strongly
Suggests, But Does Not Authoritatively
Determine, That The Validity Of The
Underlying Contract Has No Bearing On
Whether A Forum-Selection Clause Is
Enforceable................................................

10

The Ninth Circuit’s Ruling, By Making
The Enforceability Of A Forum-Selection
Clause Dependent On The Validity Of
The Underlying Contract, Conflicts With
The Unanimous Views Of Its Sister
Circuits ......................................................

13

III. Left Unresolved, The Circuit Split Will
Deprive Parties Of Their Substantive
Rights And Encourage Forum Shopping ..

17

A. The Circuit Split Ensures The Merits
Of Cases Will Be Determined Based
Upon The Forum In Which They Are
Filed .....................................................

18

II.

(v)

vi
TABLE OF CONTENTS—Continued
Page
B. The Circuit Split Promotes Forum
Shopping ..............................................

20

CONCLUSION ....................................................

21

APPENDIX
APPENDIX A: MEMORANDUM,
Ninth
Circuit Court of Appeals (October 25, 2019) .

1a

APPENDIX B: ORDER, District Court for
the Northern District of California (May 3,
2019) ...............................................................

4a

APPENDIX C: ORDER, Court of Appeals
for the Ninth Circuit (June 24, 2019) ............

25a

APPENDIX D: ORDER, Court of Appeals
for the Ninth Circuit (January 3, 2020) ........

27a

APPENDIX E: 9 U.S.C. § 16 .........................

28a

APPENDIX F: California Business and
Professions Code § 20040.5 ............................

29a

APPENDIX G: California
Labor
Code
§ 2698 ..............................................................

30a

APPENDIX H: California
Labor
Code
§ 2699 ..............................................................

31a

APPENDIX I: NOTICE, Northern California
District Court (April 3, 2019) ........................

36a

APPENDIX J: DECLARATION OF MIKE
SWANSON, District Court for the Northern
District of California (April 3, 2019) ............

71a

vii
TABLE OF CONTENTS—Continued
Page
APPENDIX K: OPPOSITION, District Court
for the Northern District of California (April
3, 2019) .......................................................... 184a
APPENDIX L: REPLY, District Court for
the Northern District of California (April 24,
2019) .............................................................. 230a
APPENDIX M: PETITION, Ninth Circuit
Court of Appeals (May 31, 2019) .................. 264a
APPENDIX N: ANSWER TO PETITION,
District Court for the Northern District of
California (July 11, 2019) ............................. 302a

viii
TABLE OF AUTHORITIES
CASES

Page(s)

AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ................................... 19-20
Atl. Marine Constr. Co. v. Dist. Ct.,
571 U.S. 49 (2013) ....................................passim
Autoridad de Energia ElElectrica v. Vitol S.A.,
859 F.3d 140 (1st Cir. 2017) ....................passim
Bradley v. Harris Research, Inc.,
275 F.3d 884 (9th Cir. 2001) ................... 4, 9, 17
The Bremen v. Zapata Off-Shore Co.,
407 U.S. 1 (1972) ......................................passim
Buckeye Check Cashing, Inc. v. Cardegena,
546 U.S. 440 (2006) ...................................

15

Cream v. N. Leasing Sys., Inc.,
No. 15-cv-1208, 2015 U.S. Dist. LEXIS
100537 (N.D. Cal. Jul. 31, 2015) ..............

6

Fleming v. Matco Tools Corp.,
384 F. Supp. 3d 1124 (2019) .....................

1

Fleming v. Matco Tools Corp.,
781 Fed. Appx. 681
(9th Cir. Oct. 25, 2019) .............................

1

Fleming v. Matco Tools Corp.,
2020 U.S. App. LEXIS 95
(9th Cir. Jan. 3, 2020) ...............................

1

Iskanian v. CLS Transp. Los Angeles, LLC,
59 Cal. 4th 348 (Cal. 2014) .......................

7

Jones v. GNC Franchising, Inc.,
211 F.3d 495 (9th Cir. 2000) .....................

9

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Lizdale v. Advanced Planning Servs., Inc.,
No. 10-cv-0834, 2011 U.S. Dist. LEXIS
31277 (S.D. Cal. Mar. 25, 2011) ...............

6

Marra v. Papandreou,
216 F.3d 1119 (D.C. Cir. 2010) .................

16

Murphy v. Schneider Nat’l, Inc.,
362 F.3d 1133 (9th Cir. 2004) ...................

11

Muzumdar v. Wellness Int’l Network, Ltd.,
438 F.3d 759 (7th Cir. 2006) ....................passim
Rucker v. Oasis Legal Fin., LLC,
632 F.3d 1231 (11th Cir. 2011) ................passim
Sakkab v. Luxottica Retail N. Am., Inc.,
803 F.3d 425 (9th Cir. 2015) ..................... 5, 7, 9
Scherk v. Alberto-Culver Co.,
417 U.S. 506 (1974) ...................................

16

SeeComm Network Servs. Corp. v.
Colt Telecomm.,
No. C 04-1283, 2004 U.S. Dist. LEXIS
18049 (N.D. Cal. Sept. 3, 2004) ................

6

Textile Unlimited, Inc. v. A..BMH and Co., Inc.,
240 F.3d 781 (9th Cir. 2001) ..................... 19, 21
Van Cauwenberghe v. Biard,
486 U.S. 517 (1988) ...................................

19

Washington v. Cashforiphones.com,
No. 15-cv- 0627-JAH (JMA), 2016 U.S.
Dist. LEXIS 192253 (S.D. Cal. Jun. 1,
2016) ..........................................................

6

x
TABLE OF AUTHORITIES—Continued
STATUTES

Page(s)

9 U.S.C. § 16(a)(1)(B)....................................

19

28 U.S.C. § 1254(l) ........................................

1

Federal Arbitration Act, 9 U.S.C. § 1
et seq. ........................................................passim
Cal. Bus. & Prof. Code § 20040.5 ................passim
Cal. Private Attorneys General Act,
Cal. Lab. Code § 2698 et seq. .................... 1, 5, 7

PETITION FOR A WRIT OF CERTIORARI
Petitioners Matco Tools Corporation, Fortive Corporation and NMTC, Inc., d/b/a Matco Tools, respectfully
petition for a writ of certiorari to review the judgment
of the Ninth Circuit in this case.
OPINIONS BELOW
The opinion of the U.S. District Court for the Northern
District of California (App. 4a-24a) is reported at 384
F. Supp. 3d 1124 (2019). The Ninth Circuit’s Order
directing Plaintiff/Real Party in Interest to file an
answer and staying the district court litigation (App.
25a-26a) is unreported. The Ninth Circuit’s Memorandum denying Petitioners’ Petition for a Writ of Mandamus
(App. 1a-3a) is reported at 781 Fed. Appx. 681 (9th Cir.
Oct. 25, 2019). The Ninth Circuit’s Order denying
Petitioners’ Petition for Rehearing En Banc (App. 27a)
is reported at 2020 U.S. App. LEXIS 95 (9th Cir. Jan.
3, 2020).
JURISDICTION
The Ninth Circuit’s Memorandum denying Petitioners’
Petition for a Writ of Mandamus was entered on
October 25, 2019. The Ninth Circuit’s order denying
Petitioners’ Petition for Rehearing En Banc was entered
on January 3, 2020. The jurisdiction of this Court
rests on 28 U.S.C. § 1254(1).
STATUTES INVOLVED
Pertinent portions of the Federal Arbitration Act
(“FAA”), 9 U.S.C. § 1 et seq. (App. 28a), California
Business and Professions Code § 20040.5 (App. 29a)
and California Labor Code § 2698, et seq. (App. 30a35a) are reproduced in Petitioners’ Appendix.

2
STATEMENT OF THE CASE
1. Matco Tools Corporation (“Matco”), which is headquartered in Stow, Ohio, markets high quality, durable
and innovative mechanic repair tools, diagnostic equipment and toolboxes. (App. 72a, ¶ 3.) Matco contracts
with franchisees who sell Matco’s products in designated areas through their “mobile stores.” (App. 72a,
¶ 3.) Defendant Fortive Corporation is Matco’s corporate parent. (App. 72a, ¶ 3.) Prior to June 3, 2016,
Matco was known as NMTC Inc. (App. 72a, ¶ 3.)
2. Plaintiff and Matco’s predecessor entered into
two separate Distributorship Agreements in July 2012
and October 2013, respectively.1 (App. 73a, ¶¶ 4-5;
App. 75a-183a.) Starting in July 2012, Plaintiff operated at least one Matco distributorship in the Monterey,
California area, until December 2018. (App. 73a,
¶¶ 4-5, 7.) In connection with this operation, Plaintiff
purchased Matco tools which he then sold to his
customers, all of which were based in California. (App.
73a,¶ 7.)
3. Pursuant to his Distributorship Agreement,
Plaintiff agreed to arbitrate any and all claims against
Petitioners. That Distributorship Agreement states,
in relevant part:
12.1 Arbitration. Except as expressly provided in Section 12.5 of this Agreement, all
breaches, claims, causes of action, demands,
disputes and controversies (collectively referred
to as “breaches” or “breach”) between the
Distributor, including [related parties], and
1

For ease of reference, these two Agreements are referred to
in the singular (“Distributorship Agreement”) as their relevant
provisions do not differ.

3
Matco, including [related parties], whether
styled as an individual claim, class action claim,
private attorney general claim or otherwise,
arising from or related to this Agreement,
the offer or sale of the franchise and distribution rights contained in this Agreement,
the relationship of Matco and Distributor, or
Distributor’s operation of the Distributorship,
including any allegations of fraud, misrepresentation, and violation of any federal, state
or local law or regulation, will be determined
exclusively by binding arbitration on an individual, non-class basis only in accordance with
the Rules and Regulations of the American
Arbitration Association (“Arbitration”).
(App. 116a, 171a.)
4. In addition, Plaintiff agreed any arbitration would
take place in the State of Ohio:
12.10 Venue and Jurisdiction. Unless
this requirement is prohibited by law, all
arbitration hearings must and will take place
exclusively in Summit or Cuyahoga County,
Ohio. All court actions, mediations or other
hearings or proceedings initiated by either
party against the other party must and
will be venued exclusively in Summit or
Cuyahoga County, Ohio. Matco (including
[related parties]) and the Distributor (including [related parties]) do hereby agree and
submit to personal jurisdiction in Summit
or Cuyahoga County, Ohio in connection with
any Arbitration hearings, court hearings or
other hearings, including any lawsuit challenging the arbitration provisions of this
Agreement or the decision of the arbitrator,

4
and do hereby waive any rights to contest
venue and jurisdiction in Summit or Cuyahoga
County, Ohio and any claims that venue and
jurisdiction are invalid . . .”
(App. 122a, 177a.)
5. Plaintiff terminated his last-effective Distributorship Agreement in December 2018.
(App. 73a,
¶¶ 4-5.) In January 2019, he filed the present putative
class action in the Northern District of California
alleging Petitioners had misclassified him as an
“independent contractor.” (App. 4a.)
6. On February 19, 2019, Petitioners moved to enforce
the Ohio forum-selection clause in the Distributorship
Agreement by filing a motion to dismiss, or, to transfer,
pursuant to the doctrine of forum non conveniens.
(App. 36a-70a.) Citing Atl. Marine Constr. Co. v. Dist.
Ct., 571 U.S. 49 (2013), Petitioners explained Plaintiff
could not carry his burden to show that the mandatory
forum-selection clause was invalid because: first, he
did not allege, and could not prove, that the forumselection clause resulted from fraud or overreaching
(App. 56a-57a); second, he would receive his day in
court if the forum-selection clause were enforced
(App. 57a-58a); and third, enforcement of the forumselection clause would not contravene the public policy
reflected in California Business and Professions Code
section 20040.5 (“Section 20040.5”), which purports to
void non-California forum-selection clauses in franchise
agreements, because the FAA preempts that provision. (App. 58a-60a, citing Bradley v. Harris Research,
Inc., 275 F.3d 884, 892 (9th Cir. 2001)).
7. Accordingly, because the forum-selection clause
was valid, Petitioners argued that, pursuant to Atl.
Marine, Plaintiff’s choice of forum was to be afforded

5
no weight. That meant that the District Court could
properly consider only the so-called “public interest”
factors in deciding whether to enforce the forumselection clause (i.e. administrative difficulties resulting
from court congestion; the local interest in the matter;
and familiarity with the applicable law)—all of which
were either neutral or favored litigation in Ohio. (App.
67a-69a.)
8. In his opposition, Plaintiff did not contest that
the FAA preempts Section 20040.5. (App. 207a-210a.)
Nor did he produce a shred of evidence that the forumselection clause in the Distributorship Agreement had
resulted from fraud or overreaching. (App. 199a-200a,
n.1.)
9. Instead, Plaintiff attacked the enforceability of
the arbitration provision which contained the forumselection clause. As relevant here, he argued that the
entire arbitration provision was invalid under Sakkab
v. Luxottica Retail N. Am., Inc., 803 F.3d 425 (9th Cir.
2015), which held that pre-dispute waivers of claims
under California’s Private Attorneys General Act, Cal.
Lab. Code § 2698 et seq. (“PAGA”), are unenforceable.2
(App. 207a-210a.)
10. Based on the premise that the entire arbitration
provision was invalid, Plaintiff contended that the
forum-selection clause contained within it was
2

Section 12.7 of the Distributorship Agreement states,
“THE DISTRIBUTOR EXPRESSLY WAIVES ANY RIGHT TO
ARBITRATE OR LITIGATE . . . IN A PRIVATE ATTORNEY
GENERAL CAPACITY.” (App. 120a, 175a.) Section 12.12 then
states that “if the provision prohibiting . . . private attorney
general arbitration is deemed invalid, then the provision requiring arbitration of breaches between the parties shall be null and
void and there shall be no obligation to arbitrate any such
breaches.” (App. 123a, 178a.)

6
necessarily invalid as well. And based on that latter
premise, Plaintiff argued that the private interest
factors were therefore relevant and compelled denial
of the motion to dismiss or transfer. (App. 225a-227a.)
11. In their reply, Petitioners demonstrated that
Plaintiff had provided no justification for departing
from the general rule that a valid forum-selection
clause must be enforced unless, as was not the case
here, the “public interest” factors compelled otherwise:
--first, Plaintiff had not carried his burden of
showing that the forum-selection clause itself was
invalid because he had not contested that the FAA
applied and preempted Section 20040.5 (App. 239a); and
--second, as reflected in numerous district court
decisions,3 the supposed invalidity of the underlying
arbitration provision was of no moment because
the proper question on a forum non conveniens motion
is whether the forum-selection clause itself is
enforceable, not whether the underlying agreement is
enforceable. (App. 240a-241a.)

3

Washington v. Cashforiphones.com, No. 15-cv-0627-JAH
(JMA), 2016 U.S. Dist. LEXIS 192253, *12-13 (S.D. Cal. Jun. 1,
2016) (“When the issue before a district court is limited to
venue[,] the court need not address the validity of an entire
contract.”); SeeComm Network Servs. Corp. v. Colt Telecomm.,
No. C 04-1283, 2004 U.S. Dist. LEXIS 18049, *12-13 (N.D. Cal.
Sept. 3, 2004) (“To hold that the Forum-Selection Clause is
invalid because the contract as a whole is invalid…requires the
Court to assess the merits of the case. [This] analysis is clearly
backwards. The question before the Court is the validity of the
Forum-Selection Clause, not the validity of the contract as a
whole.”); Cream v. N. Leasing Sys., Inc., No. 15-cv-1208, 2015
U.S. Dist. LEXIS 100537, *18-19 (N.D. Cal. Jul. 31, 2015) (same);
Lizdale v. Advanced Planning Servs., Inc., No. 10-cv-0834, 2011
U.S. Dist. LEXIS 31277, *15-16 (S.D. Cal. Mar. 25, 2011).

7
12. The District Court denied Petitioners’ motion.
(App. 23a.) At the outset, it acknowledged that Petitioners were “correct in stating that, typically, forum
selection clauses are considered prima facie valid and
courts are not to consider other parts of the contract,
or the validity of the contract as a whole, when ruling
on a motion to dismiss or transfer.” (App. 10a-11a.)
13. Nonetheless, and citing no authority, it decided
to “make a threshold determination on the validity of
the arbitration provision to determine if it preempts
Section 20040.5.” (App. 11a.) Such a determination
was appropriate, it reasoned, “because the only reason
that a directly on point state statute does not invalidate the [Distributorship] Agreement’s forum selection
clause is the preemptive effect of an allegedly invalid
arbitration provision.” (App. 11a.)
14. Further, in its view, “[Petitioners’] cited authority to the contrary does not apply because none of the
cases involve similar state statutes or the preemptive
effects of arbitration agreements under the FAA,” but
establish only that “generally it is inappropriate to
analyze the validity of the contract as a whole when
determining the applicability of a forum selection
clause.” (App. 11a-12a.)
15. The District Court proceeded to find that the
arbitration provision was void under Ninth Circuit
and California law precluding the enforcement of predispute waivers of PAGA claims, and assumed the
outcome would be no different under Ohio law. (App.
13a-16a (citing Sakkab and Iskanian v. CLS Transp.
Los Angeles, LLC, 59 Cal. 4th 348 (Cal. 2014)).)
16. Based on its conclusion that the arbitration
provision was void, the District Court held that “the
FAA does not preempt Cal. Bus. & Prof. Code

8
§ 20040.5” and that “the forum selection clause has no
effect.” (App. 16a.) It then analyzed both the private
interest factors and public interest factors relating
to the enforcement of the forum-selection clause,
determined that they favored Plaintiff, and denied
Petitioners’ motion to dismiss or transfer the case.
(App. 20a-24a.)
17. On May 31, 2019, Petitioners filed a timely
Petition for Writ of Mandamus in the Ninth Circuit,
asking it to vacate the District Court’s Order, and to
remand with instructions to either dismiss or transfer
the case to the Northern District of Ohio. (App. 264a299a.)
18. In their Petition, Petitioners stressed that the
First, Seventh and Eleventh Circuits had all previously held that the validity of a forum-selection clause
does not depend upon the validity of the underlying
contract containing the clause. (App. 288a (citing
Autoridad de Energia ElElectrica v. Vitol S.A., 859
F.3d 140, 147-148 (1st Cir. 2017); Muzumdar v.
Wellness Int’l Network, Ltd., 438 F.3d 759, 762 (7th
Cir. 2006); Rucker v. Oasis Legal Fin., LLC, 632 F.3d
1231, 1237-38 (11th Cir. 2011).) Petitioners accordingly argued the District Court had committed plain
error in denying transfer based on the purported
invalidity of the underlying arbitration provision containing the forum-selection clause. (App. 289a-292a.)
19. On June 24, 2019, a Ninth Circuit motion panel
found that the Petition raised issues warranting an
answer, directed Plaintiff to file an answer, and stayed
the trial court proceedings. (App. 25a-26a.)
20. Plaintiff filed his answer on July 11, 2019. He
cited no authorities contrary to the unanimous view of
the First, Seventh and Eleventh Circuits that the

9
validity of the underlying contract has no bearing on
the validity of a forum-selection clause. (App. 302a-330a.)
21. After Petitioners filed their reply, a merits panel
issued a summary disposition on October 25, 2019
denying the Petition. (App. 1a-3a.) The panel held:
The district court did not err—much less
clearly so—in considering the validity of the
franchise agreement’s arbitration provision
in the course of deciding Matco’s motion. To
the contrary, the district court followed binding Ninth Circuit precedent in concluding:
(i) [Petitioners] and Fleming did not agree to
arbitrate their dispute under the plain terms
of their contract, see Sakkab v. Luxottica
Retail N. Am., Inc., 803 F.3d 425, 439 (9th
Cir. 2015); (ii) absent a valid arbitration
provision, the Federal Arbitration Act, 9
U.S.C. §§ 1-307, does not preempt section
20040.5, see Bradley v. Harris Research, Inc.,
275 F.3d 884, 892 (9th Cir. 2001); and (iii)
applying section 20040.5, the forum-selection
clause here is unenforceable because it would
require Fleming, a California franchisee, to
litigate in a non-California venue, see Jones v.
GNC Franchising, Inc., 211 F.3d 495, 498
(9th Cir. 2000).
(App. 3a.) The Ninth Circuit never addressed why,
contrary to the unanimous view of its Sister Circuits,
it was proper to assess the validity of the underlying
contract in determining the enforceability of its forumselection clause.
22. Petitioners filed a Petition for Rehearing En
Banc on November 8, 2019, which the Ninth Circuit
denied on January 3, 2020. (App. 27a.)

10
REASONS FOR GRANTING THE PETITION
This Court should grant certiorari in order to resolve
an irreconcilable split between the Ninth Circuit on
the one hand, and the First, Seventh and Eleventh
Circuits on the other. It is unequivocal, black letter
law, within the latter Circuits that district courts may
not assess the validity of the contract containing a
forum-selection clause when a party seeks to enforce
the forum-selection clause itself. The Ninth Circuit,
however, ruled here that the District Court properly
deviated from this rule because the forum-selection
clause in question appeared within an arbitration
agreement. These holdings are diametrically opposed,
and the rift between the Circuits is consequential.
Left unresolved, the split ensures parties will engage
in forum shopping aimed at securing collateral rulings
on the merits of issues extraneous to the enforceability
of a forum-selection clause—such as here, where the
arbitration provision in Plaintiff’s Distributorship
Agreement was deemed void despite the fact that
Petitioners did not seek to enforce it.
I. This
Court’s
Jurisprudence
Strongly
Suggests, But Does Not Authoritatively
Determine, That The Validity Of The
Underlying Contract Has No Bearing On
Whether A Forum-Selection Clause Is
Enforceable.
This Court has made clear that “a valid forumselection clause [should be] given controlling weight
in all but the most exceptional cases.” Atl. Marine
Constr. Co., 571 U.S. at 60 (internal quotation
omitted). As it explained:
When parties have contracted in advance to
litigate disputes in a particular forum, courts

11
should not unnecessarily disrupt the parties’
settled expectations.
A forum-selection
clause . . . may, in fact, have been a critical
factor in their agreement to do business
together in the first place. In all but the most
unusual cases, therefore, “the interest of
justice” is served by holding parties to their
bargain.
Id. at 66.
To that end, this Court’s precedent sets forth a
multi-step process to determine whether a forumselection clause is enforceable in the face of a plaintiff’s
objection.
First, “the plaintiff bears the burden of establishing
that transfer to the forum for which the parties
bargained is unwarranted.” Id. at 63. To overcome
the presumption that a forum-selection clause is valid,
a plaintiff must show that: (a) “enforcement [of the
clause] would be unreasonable or unjust, or that the
clause was invalid for such reasons as fraud or
overreaching”; (b) “trial in the contractual forum will
be so gravely difficult and inconvenient that he will for
all practical purposes be deprived of his day in court;
or (c) “enforcement [of the forum-selection clause]
would contravene a strong public policy of the forum
in which the suit is brought.” The Bremen v. Zapata
Off-Shore Co., 407 U.S. 1, 15, 18 (1972). See also
Murphy v. Schneider Nat’l, Inc., 362 F.3d 1133, 1140
(9th Cir. 2004) (adopting the Bremen factors).
Second, if the forum-selection clause withstands
scrutiny under Bremen and is adjudged to be valid, “a
district court may consider arguments about public
interest factors only” when deciding whether enforcement of the clause would promote the interests of

12
justice. Atl. Marine Constr. Co., 571 U.S. at 63-64.
This is so because the plaintiff “waive[d] the right to
challenge the preselected forum as inconvenient or
less convenient.” Id. at 64.
The public interest factors district courts may
consider are “the administrative difficulties flowing
from court congestion; the local interest in having
localized controversies decided at home; [and] the
interest in having the trial of a diversity case in a
forum that is at home with the law.” Id. at 64 n.6.
With that said, public interest factors “will rarely
defeat a transfer motion, [and] the practical result is
that forum-selection clauses should control except in
unusual cases.” Id. at 64.
This Court’s jurisprudence accordingly makes clear
that forum-selection clauses are presumed valid, and
that the presumption of validity may only be overcome
for one of several enumerated reasons. See The
Bremen, 407 U.S. at 15, 18. Moreover, if a plaintiff
fails to carry his or her burden of showing that one of
the Bremen factors operates to invalidate a forumselection clause, then Atl. Marine requires district
courts to enforce the clause in all but “unusual cases.”
Atl. Marine Constr. Co., 571 U.S. at 63-64.
In sum, neither The Bremen nor Atl. Marine contemplate that the validity of the underlying contract
should be litigated before the validity of a forumselection clause contained within it. However, this
Court has not explicitly addressed the precise question
presented here: whether it is permissible to create
exceptions to the general rule that courts should not
consider the validity of the contract containing a
forum-selection clause, based upon the subject matter
of the contract.

13
As explained below, this question divides the Circuit
courts and clarity from this Court is accordingly much
needed.
II. The Ninth Circuit’s Ruling, By Making
The Enforceability Of A Forum-Selection
Clause Dependent On The Validity Of The
Underlying Contract, Conflicts With The
Unanimous Views Of Its Sister Circuits.
The First, Seventh and Eleventh Circuits agree: the
validity of a forum-selection clause is not dependent
upon the validity of the contract containing it. Until
the present case, no Circuit court had even suggested
to the contrary.
--The Seventh Circuit. The Seventh Circuit has
squarely held that courts should not first analyze
whether a contract is valid before enforcing its forumselection clause. Muzumdar v. Wellness Int’l Network,
Ltd., 438 F.3d 759 (7th Cir. 2006). In Muzumdar, a
party to multiple distributorship contracts sued the
other alleging it had engaged in an unlawful pyramid
scheme under federal and state law. The district court
dismissed without prejudice pursuant to the Texas
forum-selection clauses in the distributorship contracts.
Id. at 760-761.
On appeal, the Seventh Circuit rejected plaintiff’s
contention that the forum-selection clauses were invalid
because the underlying distributorship contracts were
purportedly “void and unenforceable” because “they
set out a pyramid scheme.” Id. at 762. As it explained,
it would be backwards for a court not selected by the
parties to resolve the merits in deciding whether to
enforce the parties’ forum-selection clause:
The logical conclusion of [plaintiffs’] argument
would be that the federal courts in Illinois

14
would first have to determine whether the
contracts were void before they could decide
whether, based on the forum selection clauses,
they should be considering the cases at all.
An absurdity would arise if the courts in
Illinois determined the contracts were not
void and that therefore, based on valid forum
selection clauses, the cases should be sent to
Texas—for what? A determination as to
whether the contracts are valid?
Id. Applying the Bremen factors, the Seventh Circuit
affirmed the transfer order because plaintiff had
introduced no evidence that the forum-selection
clauses had been secured by fraud, or that their
enforcement would be “unreasonable or unjust.” Id.
--The First Circuit. The First Circuit likewise
rejected as “absurd” the position that was endorsed
here by the Ninth Circuit. Autoridad de Energia
ElElectrica v. Vitol S.A., 859 F.3d 140 (1st Cir. 2017).
There, the parties had entered into oil delivery
contracts containing a Puerto Rico state court forumselection clause. Id. at 142-143. The plaintiff brought
suit in that court, seeking a declaration that the contracts were void because the other party had allegedly
made illegal payments to Iraqi officials.
After defendants removed, the district court issued
a remand order, concluding the contractual forumselection clauses in the contracts precluded removal.
Id. at 145. The First Circuit affirmed, rejecting plaintiff’s contention that enforcement of the forumselection clauses would be unreasonable because
defendant had taken “seemingly inconsistent positions
by seeking enforcement of the forum-selection clauses
while arguing the contracts containing those clauses
are void ab initio.” Id. at 146-147.

15
Quoting Muzumdar, the First Circuit highlighted
“the absurdity of [plaintiff’s] position” that, in a lawsuit
challenging the validity of the underlying contract, the
court asked to rule on the validity of a forum-selection
clause should first adjudicate the validity of the
underlying contract. See id. at 147.
In so ruling, the First Circuit relied on Buckeye
Check Cashing, Inc. v. Cardegena, 546 U.S. 440 (2006),
which held that a challenge to the validity of an arbitration provision must be resolved by the arbitrator,
whether or not the underlying contract was void.
Similarly, it held “the forum selection clauses are
enforceable even if [the appellee] argues that the
contracts are void.” Autoridad, 859 F.3d at 147-148.
--The Eleventh Circuit. In Rucker v. Oasis Legal
Fin., LLC, 632 F.3d 1231 (11th Cir. 2011), plaintiffs
brought suit outside the contractually designated
forum seeking a declaration that their “purchase
agreements” were void as illegal gambling contracts.
Id. at 1234-35. The Eleventh Circuit reversed the
denial of defendant’s motion to dismiss, concluding
plaintiffs had not established that the forum-selection
clause was unenforceable under Bremen.
Of particular relevance, the Eleventh Circuit rejected
plaintiffs’ contention that the forum-selection clause
was “void” because it “is included within” “purchase
agreements [that] are void as illegal gambling contracts under Alabama law.” Id. at 1237-38. As it
explained, “[a] forum selection clause is viewed as a
separate contract that is severable from the contract
in which it is contained.” Id.
Thus, the Eleventh Circuit squarely held that the
purported illegality of the underlying purchase agreements had no bearing on the enforceability of the

16
forum-selection clause under Bremen. Id. (citing
Scherk v. Alberto-Culver Co., 417 U.S. 506, 519 n.14
(1974) (forum-selection clause in fraudulent contract
enforceable if clause itself not the product of fraud);
Marra v. Papandreou, 216 F.3d 1119, 1123 (D.C. Cir.
2010) (forum-selection clause enforceable notwithstanding revocation of underlying contract)).
--The Ninth Circuit’s Conflicting View. The
District Court here correctly recognized, as reflected
in the foregoing cases, that “typically[,] courts are not
to consider other parts of the contract, or the validity
of a contract as a whole, when ruling on a motion to
transfer or dismiss.” (App. 10a-11a.) Nonetheless,
it departed from this well-established rule because,
unlike the supposed “typical situation,” “the only
reason that the forum selection clause would not be
invalidated [here was] the preemptive effect of the
Distribution Agreement’s arbitration provision.” (App.
11a.) Believing the enforceability of the forum-selection
clause “hinge[d] on the preemptive effect of the arbitration provision,” it declined to “turn a blind eye
toward questions of its validity.” (App. 11a.)
The Ninth Circuit then affirmed, holding that the
“district court did not err—much less clearly so—in
considering the validity of the franchise agreement’s
arbitration provision.” (App. 3a.)
Thus, the ruling of the Ninth Circuit here flatly
conflicts with the prior decisions of the First, Seventh
and Eleventh Circuits. Those Circuits, consistent
with this Court’s decision in Schreck, view a forumselection clause as separate from the underlying
agreement in which it is contained. And for that
reason, those Circuits do not examine the supposed
invalidity of the underlying contract in adjudicating
the enforceability of the forum-selection clause.

17
Here, in sharp contrast, the Ninth Circuit strayed
from the “typical” approach solely because the forumselection clause appeared in an arbitration provision.
Rather than viewing the forum-selection clause as
distinct from the arbitration provision in which it is
contained, it held that the forum-selection clause was
unenforceable because the underlying agreement was
supposedly invalid. (App. 3a.)
This difference in approach is not merely theoretical, but case-dispositive. Had the Ninth Circuit
followed the “typical” approach of “not consider[ing]
other parts of the contract, or the validity of [the]
contract as a whole,” it is unquestionable that the FAA
would have preempted the application of Section
20040.5 under that court’s precedent. (App. 10a, n.2
(Bradley remains binding precedent in the Ninth
Circuit).) And if Section 20040.5 were preempted,
there would be no basis for finding the forum-selection
clause invalid.
The “typical” approach disavowed by the District
Court and the Ninth Circuit is the correct one, and,
the one consistent with this Court’s precedent. As
explained next, this Court should grant certiorari and
resolve this mature Circuit conflict by reversing the
decision of the Ninth Circuit.
III. Left Unresolved, The Circuit Split Will
Deprive Parties Of Their Substantive Rights
And Encourage Forum Shopping.
The conflict between the Circuits could not be more
stark. The approach sanctioned by the Ninth Circuit
is precisely the one deemed “absurd” by the First
Circuit in Autoridad and the Seventh Circuit in
Muzumdar, and rejected by the Eleventh Circuit in
Rucker. Because the issue is squarely presented on

18
this record and result-dispositive, this case provides
an ideal vehicle for this Court to consider and resolve
this Circuit split, which it now should do in order to
promote clarity, discourage forum shopping, and
protect important substantive rights.
A. The Circuit Split Ensures The Merits Of
Cases Will Be Determined Based Upon
The Forum In Which They Are Filed.
Until resolved, the Circuit split addressed herein
would not merely impact the disposition of forum non
conveniens motions in the district courts, it would also
deprive litigants of their contractual and statutory
rights.
The First, Seventh and Eleventh Circuits, in Autoridad,
Muzumdar and Rucker, respectively, all recognize
that adjudicating the validity of the contract containing a forum-selection clause would, in many cases,
operate as a ruling on the ultimate merits of the
litigation. This is obviously troublesome where, as
here, the original court denies the transfer motion—in
that instance, a merits determination has been made
by a court other than the one contractually selected by
the parties.
But it is equally troublesome even if the original
court grants the transfer motion. As the Seventh
Circuit noted in Muzumdar, where the merits turned
on the validity of purportedly illegal contracts, had the
district court “determined the contracts were not void
and that therefore, based on valid forum selection
clauses, the cases should be” transferred to Texas,
“[a]n absurdity would arise”—the cases would have
arrived in Texas with their merits pre-determined.
See Muzumdar, 438 F.3d at 762. Again, the wrong

19
court would have effectively decided the matters,
contrary to the parties’ contractual preference.
The regime endorsed by the Ninth Circuit not only
impairs contractual rights, it also impairs the parties’
statutory rights in cases like the present one. Had the
District Court deemed the arbitration provision in
Plaintiff’s Distributorship Agreement valid and the
forum-selection clause enforceable, the case would
have been transferred to Ohio—where Petitioners
would have moved the court to order Plaintiff to
arbitrate his claims in Ohio. If that court were to deny
that motion, Petitioners would have an absolute
statutory right to take an immediate appeal. See 9
U.S.C. § 16(a)(1)(B).
In contrast, however, an order denying a forum non
conveniens motion is not immediately appealable. Van
Cauwenberghe v. Biard, 486 U.S. 517, 529 (1988). As
a consequence, even though the District Court’s order
forecloses arbitration under Plaintiff’s Distributorship
Agreement by deeming the arbitration provision void,
Petitioners cannot invoke appellate rights available to
them under the FAA because they did not move to
compel arbitration.4
Petitioners respectfully submit that the Ninth
Circuit’s ruling thus interferes with arbitration by
effectively depriving parties in Petitioners’ position of
their statutory rights under the FAA and this Court’s
precedents favoring arbitration. See AT&T Mobility

4

Petitioners did not also file a petition to compel arbitration
because the forum California court could not have ordered the
parties to arbitrate in Ohio. Textile Unlimited, Inc. v. A..BMH
and Co., Inc., 240 F.3d 781, 785 (9th Cir. 2001) (FAA confines
arbitration to district in which petition is filed).

20
LLC v. Concepcion, 563 U.S. 333, 346-347 (2011)
(striking down law that interfered with arbitration).
In sum, regardless of which approach is correct, the
fact remains that the Circuit courts are not aligned
on a uniform approach. The resulting uncertainty is
intolerable because it undermines the clarity regarding the enforceability of forum-selection clauses that
had been established by this Court’s decisions in
Bremen and Atl. Marine, and in doing so frustrates
contractual and statutory rights. For this reason
alone, this Court should grant certiorari and authoritatively resolve, whether, depending upon the subject
matter of the contract in question, courts may depart
from the general rule that the validity of a forumselection clause is not dependent on the validity of the
underlying contract.
B. The Circuit Split Promotes Forum
Shopping.
The lack of uniformity among the Circuits, if left
unresolved, also would encourage unnecessary forum
shopping. Plaintiffs would be incentivized to file
suit in Ninth Circuit district courts in order to avail
themselves of a full-scale analysis of the underlying
contract which would not be available in another
forum, in an effort to circumvent the forum-selection
clauses to which they agreed.
The likelihood of this scenario is particularly
enhanced where an arbitration agreement contains a
forum-selection clause. A defendant seeking to compel
arbitration under such circumstances would face a
Catch-22: either a) move to enforce the forum-selection
clause as a precedent to moving to compel arbitration
in the contractually agreed upon forum and assume
the risk that the court will void the arbitration

21
agreement without any prospect of appellate recourse
under the FAA, or b) move to compel arbitration in the
plaintiff’s chosen forum, in contravention of the forumselection clause, to ensure the right to appeal an order
denying the motion is protected.5
Regardless of whether the Ninth Circuit’s minority
view is correct, adoption of a uniform rule applicable
to all Circuits is essential to deter forum shopping. For
this reason as well, this Court should grant certiorari.
CONCLUSION
For the foregoing reasons, the Court should grant
Petitioners’ petition for a writ of certiorari.
Respectfully submitted,
CHRISTIAN J. ROWLEY
Counsel of Record
ERIC M. LLOYD
MATTHEW A. GOODIN
SEYFARTH SHAW LLP
560 Mission Street, 31st Floor
San Francisco, CA 94105
(415) 397-2823
crowley@seyfarth.com
elloyd@seyfarth.com
mgoodin@seyfarth.com
Counsel for Petitioners
March 26, 2020

5

As previously noted, a district court may only order arbitration within its district. Textile Unlimited, 240 F.3d at 785.

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed: October 25, 2019]
————
No. 19-71352
D.C. No. 3:19-cv-00463-WHO
————
In re: MATCO TOOLS CORPORATION; ET AL.,
————
MATCO TOOLS CORPORATION,
a Delaware Corporation; et al.,
Petitioners,
v.
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA, SAN FRANCISCO,
Respondent,
JOHN FLEMING, On Behalf of Himself and
All Others Similarly Situated,
Real Party in Interest.
————
Petition for a Writ of Mandamus
Submitted October 23, 2019**
San Francisco, California
————

**

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

2a
MEMORANDUM*
Before: THOMAS, Chief Judge, and HAWKINS and
BADE, Circuit Judges.
Matco Tools Corporation, NMTC, Inc., and Fortive
Corporation (collectively “Matco”) seek a writ of mandamus compelling the district court to dismiss Fleming’s
action or transfer it to Ohio under a forum-selection
clause. Because the facts are known to the parties, we
need not recount them here. We have jurisdiction pursuant to 28 U.S.C. § 1651 and deny Matco’s petition.
Matco has failed to show that it is entitled to the
“drastic and extraordinary remedy” of mandamus.
In re Pangang Grp. Co., LTD., 901 F.3d 1046, 1054
(9th Cir. 2018) (internal citation and quotations
omitted). Whether a writ of mandamus should be
granted is determined case by case, weighing the
factors outlined in Bauman v. U.S. District Court, 557
F.2d 650 (9th Cir. 1977): (1) the party seeking the writ
has no other means, such as a direct appeal, of
attaining the desired relief; (2) the petitioner will be
damaged in a way not correctable on appeal; (3) the
district court’s order is clearly erroneous as a matter
of law; (4) the order is an oft-repeated error, or
manifests a persistent disregard of the federal rules;
and (5) the order raises new and important problems,
or issues of law of first impression. Id. at 654-55.
We may not disturb the district court’s order absent
“clear error”—a “significantly deferential” standard of
review. In re United States, 884 F.3d 830, 836 (9th Cir.
2018) (internal citation and quotations omitted); see
also In re Pangang Grp., 901 F.3d at 1060 (denying
*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

3a
mandamus relief upon concluding that order was not
clearly erroneous).
The district court did not err—much less clearly so—
in considering the validity of the franchise agreement’s arbitration provision in the course of deciding
Matco’s motion. To the contrary, the district court
followed binding Ninth Circuit precedent in concluding: (i) Matco and Fleming did not agree to arbitrate
their dispute under the plain terms of their contract,
see Sakkab v. Luxottica Retail N. Am., Inc., 803 F.3d
425, 439 (9th Cir. 2015); (ii) absent a valid arbitration
provision, the Federal Arbitration Act, 9 U.S.C.
§ 1-307, does not preempt section 20040.5, see Bradley
v. Harris Research, Inc., 275 F.3d 884, 892 (9th Cir.
2001); and (iii) applying section 20040.5, the forumselection clause here is unenforceable because it would
require Fleming, a California franchisee, to litigate in
a non-California venue, see Jones v. GNC Franchising,
Inc., 211 F.3d 495, 498 (9th Cir. 2000).1
Accordingly, the petition for a writ of mandamus is
DENIED.

1

We decline to consider the purported error that Matco raises
only in a footnote of its petition. See Estate of Saunders v. Comm’r,
745 F.3d 953, 962 n.8 (9th Cir. 2014).

4a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
[Filed May 3, 2019]
————
Case No. 19-cv-00463-WHO
————
JOHN FLEMING,
Plaintiff,

v.

MATCO TOOLS CORPORATION, et al.,
Defendants.
————
ORDER DENYING MOTION TO DISMISS
OR TRANSFER VENUE; DENYING
MOTION TO FILE SUR-REPLY
Re: Dkt. Nos. 16, 25
————
Plaintiff John Fleming brings suit on behalf of
himself and a putative class of other distributors that
he asserts were misclassified as independent contractors, rather than employees, by defendants Matco
Tools Corporation, NMTC, Inc., d/b/a Matco Tools, and
Fortive Corporation (collectively “Matco”). Complaint
(“Compl.”) at ¶¶ 1,5 [Dkt. No. 1]. Matco moves to dismiss or transfer this case pursuant to a forum selection clause contained in an agreement between it and
Fleming. There is a state statute that would invalidate
the forum selection clause contained in the agreement,
but Matco argues that I must enforce the forum
selection clause because the statute is preempted by
the Federal Arbitration Act (“FAA”). Fleming responds

5a
that the FAA does not apply because the arbitration
agreement is void by its own terms and that I must
apply the state statute invalidating the forum selection clause. I agree with Fleming and will deny
Matco’s motion to dismiss or transfer.
BACKGROUND
Matco manufactures and distributes mechanic’s
tools and service equipment. Id. at ¶ 6. It relies on
distributors to make sales and service calls to existing
and prospective customers through mobile distributorship stores. Id. Fleming was a distributor for Matco
from July of 2012 through December of 2018. Id. at
¶ 9. He claims that, by allegedly misclassifying him
and similarly situated distributors as independent
contractors, Matco has sought to avoid various duties
and obligations owed to employees under California’s
Labor Code and Industrial Welfare Commission wage
orders, including: the duty to indemnify employees for
all expenses and losses necessarily incurred in connection with their employment; the duty to pay overtime
compensation for hours worked in excess of eight
hours in a day or forty hours a week; the duty to
provide off-duty meal periods; the duty to authorize
and permit paid rest periods; the duty to furnish
accurate wage statements; the duty to pay employees
all wages owed upon termination; and unlawful collection and receipt of earned wages. Id. at ¶ 6.
According to Matco, Fleming entered into two distributorship agreements with it in July 2012 and
October 2013.1 Declaration of Mike Swanson at ¶¶ 4,
5 [Dkt. No. 16-1]. The July 2012 distributorship
1

In evaluating a motion to dismiss based on a forum selection
clause, I may consider declarations by the parties. Argueta v.
Banco Mexicano, S.A., 87 F.3d 320, 324 (9th Cir. 1996).

6a
agreement was amended in October 2013 and
November 2016. Id. The October 2013 distributorship
agreement was terminated in September 2015. Id.
at ¶ 5. For the purposes of this motion, both the July
2012 agreement and October 2013 are functionally
the same and will be collectively referred to as the
“Distribution Agreement.” The Distribution Agreement contains a forum selection clause which states:
Unless this requirement is prohibited by law,
all arbitration hearings must and will take
place exclusively in Summit or Cuyahoga
County, Ohio. All court actions, mediations or
other hearings or proceedings initiated by
either party against the other party must and
will be venued exclusively in Summit or
Cuyahoga County, Ohio. Matco (including its
employees, agents, officers or directors and its
parent, subsidiary or affiliated companies)
and the Distributor (including where applicable the Distributor’s Spouse, immediate family members, owners, heirs, executors, successors, assigns, shareholders, partners, and
guarantors) do hereby agree and submit to
personal jurisdiction in Summit or Cuyahoga
County, Ohio in connection with any Arbitration hearings, court hearings or other hearings, including any lawsuit challenging the
arbitration provisions of this Agreement or
the decision of the arbitrator, and do hereby
waive any rights to contest venue and jurisdiction in Summit or Cuyahoga County, Ohio
and any claims that venue and jurisdiction
are invalid. In the event the law of the
jurisdictions in which Distributor operates
the Distributorship require that arbitration
proceedings be conducted in that state, the

7a
Arbitration hearings under this Agreement
shall be conducted in the state which the
principal office of the Distributorship is located, and in the city closest to the Distributorship in which the American Arbitration Association has an office. Notwithstanding this
Article, any actions brought by either party to
enforce the decision of the arbitrator may be
venued in any court of competent jurisdiction.
July 2012 Distributorship Agreement at ¶ 12.10 [Dkt.
No. 16-2]; October 2012 Distributorship Agreement at
¶ 12.10 [Dkt. No. 16-4].
Matco moves to dismiss the complaint or, in the
alternative, to transfer this case to the Northern District of Ohio in light of the above forum selection clause
and the arbitration clause contained in the Distribution Agreement. Motion to Dismiss (“Mot.”) [Dkt. No.
16]. If this case is transferred, Matco will move to
compel arbitration once the matter is lodged in the
Northern District of Ohio. Id.
LEGAL STANDARD
Forum selection clauses are “presumptively valid,”
and “honored” “absent some compelling and countervailing reason.” Murphy v. Schneider Nat’l Inc., 362
F.3d 1133, 1140 (9th Cir. 2004). “The party challenging the clause bears a heavy burden of proof and must
clearly show that enforcement would be unreasonable
and unjust, or that the clause was invalid for such
reasons as fraud or over-reaching.” Id. at 1140 (internal quotation marks and citation omitted). A forum
selection clause may be unreasonable if: (1) “the inclusion of the clause in the agreement was the product of
fraud or overreaching”; (2) “the party wishing to repudiate the clause would effectively be deprived of his

8a
day in court were the clause enforced”; or (3) “enforcement would contravene a strong public policy of the
forum in which suit is brought.” Id.
“[T]he appropriate way to enforce a forum-selection
clause pointing to a state or foreign forum is through
the doctrine of forum non conveniens.” Atl. Marine
Constr. Co. v. U.S. Dist. Ct., 571 U.S. 49, 60 (2013).
When a motion to dismiss is based on a forum selection
clause, rather than solely on the doctrine of forum non
conveniens, the Supreme Court has held that a district
court cannot consider the “private interest” factors,
such as the plaintiff's choice of forum and the convenience of parties and witnesses. See id. at 62–64.
Instead, the court may only weigh the “public interest”
factors, which “may include the administrative difficulties flowing from court congestion; the local interest
in having localized controversies decided at home;
[and] the interest in having the trial of a diversity case
in a forum that is at home with the law.” Id. at 62 n.6.
“For the convenience of parties and witnesses, in the
interest of justice, a district court may transfer any
civil action to any other district or division where it
might have been brought or to any district or division
to which all parties have consented.” 28 U.S.C.
§ 1404(a). When a case concerns an enforcement of a
forum selection clause, section 1404(a) provides a
mechanism for its enforcement and “a proper application of § 1404(a) requires that a forum-selection clause
be given controlling weight in all but the most
exceptional cases.” Marine, 571 U.S. at 59-60 (internal
quotation marks omitted). Plaintiff bears the burden
of showing these exceptional circumstances that make
transfer inappropriate. Id. at 64. Plaintiff must show
either that the forum selection clause is not valid
or that the public interest factors recognized under

9a
section 1404(a) make transfer inappropriate. Id. at 64;
see also Bayol v. Zipcar, Inc., No. 14-cv-02483-TEH,
2014 WL 4793935, at *1 (N.D. Cal. Sept. 25, 2014).
DISCUSSION
I. THE APPLICABILITY OF CALIFORNIA
BUSINESS AND PROFESSIONS CODE
§ 20040.5 AND THE FEDERAL ARBITRATION ACT
The success of Matco’s motion to dismiss or transfer
this case depends on the applicability of California
Business and Professions Code § 20040.5. The statute
makes void any “provision in a franchise agreement
restricting venue to a forum outside this state . . . with
respect to any claim arising under or relating to a
franchise agreement involving a franchise business
operating within this state.” Cal. Bus. & Prof. Code
§ 20040.5. The Ninth Circuit has held that it “expresses a strong public policy of the State of California to
protect California franchisees from the expense, inconvenience, and possible prejudice of litigating in a nonCalifornia venue.” Jones v. GNC Franchising, Inc., 211
F.3d 495, 498 (9th Cir. 2000). A forum selection clause
“that requires a California franchisee to resolve claims
related to the franchise agreement in a non-California
court[,]” such as the one here, “directly contravenes
this strong public policy and is unenforceable under
the directives of Bremen.” Id. (citing M/S Bremen v.
Zapata Off-Shore Co., 407 U.S. 1 (1972)).
Matco argues that California Business and Professions Code § 20040.5 does not apply because the
Distribution Agreement contains a valid arbitration
provision and, as a result, the state statute is preempted by the FAA. Mot. at 10-11 (citing Bradley v.
Harris Research, Inc., 275 F.3d 884, 890 (9th Cir.

10a
2001)). In Bradley, the Ninth Circuit analyzed the
Supreme Court’s decisions in Doctor’s Associates, Inc.
v. Casarotto, 517 U.S. 681 (1996) and Perry v. Thomas,
482 U.S. 483 (1987), as well as the language of 9 U.S.C.
§ 2, to determine that “a state law that invalidates
arbitration provisions is not preempted by the FAA
only if the law is ‘generally applicable,’ or applies to
‘any contract.’” Id. at 890 (quoting Doctor’s Assocs., 517
U.S. at 687; 9 U.S.C. § 2). The court reasoned that
Section 20040.5 was preempted by the FAA because it
“applies only to forum selection clauses and only to
franchise agreements” and “therefore [Section 20040.5]
does not apply to ‘any contract.’” Id. This led the Ninth
Circuit to reverse the district court’s order compelling
the parties to participate in private arbitration in
California, rather than in Utah, as dictated by the
franchise agreement’s forum selection clause. Id.
Matco contends that I should follow Bradley and find
that Section 20040.5 is preempted here by the FAA
and that I must enforce the forum selection clause.
2

Matco is correct in stating that, typically, forum
selection clauses are considered prima facie valid and
courts are not to consider other parts of the contract,
2

Although Bradley has been called into question by the Ninth
Circuit’s decision in Sakkab v. Luxottica Retail N. Am., Inc., 803
F.3d 425, 432-33 (9th Cir. 2015) based on the Supreme Court’s
decision in AT&T Mobility LLC v. Concepcion, 563 U.S. 333
(2011), it remains good law. As the Honorable Jaqueline Scott
Corley held in Bell Prod., Inc. v. Hosp. Bldg. & Equip. Co.,
“[n]either the Ninth Circuit sitting en banc nor the Supreme
Court have overruled Bradley[,] . . . [n]or did the three-judge panel in Sakkab expressly overrule Bradley in light of Concepcion”
and that “[a]bsent an order overruling the decision, it remains
good law in the Ninth Circuit and binding precedent on the
Court.” No. 16-cv-04515-JSC, 2017 WL 282740, at *4 (N.D. Cal.
Jan. 23, 2017)

11a
or the validity of a contract as a whole, when ruling on
a motion to transfer or dismiss. Defendants’ Reply in
Support of Motion to Dismiss, or, in the Alternative,
Transfer Venue to the U.S. District Court for the
Northern District of Ohio (“Reply”) at 1-3 [Dkt. No.
22]. But, as Fleming argues, this is not a typical situation. The only reason that the forum selection clause
would not be invalidated by Section 20040.5 is the
preemptive effect of the Distribution Agreement’s
arbitration provision. Plaintiff’s Opposition to Defendants’ Motion to Dismiss (“Oppo.”) at 4-6 [Dkt. No. 21].
But because the arbitration provision is invalid,
Fleming contends, Bradley is not controlling and the
arbitration provision in the Distribution Agreement
cannot serve as a predicate to evade the reach of
Section 20040.5. Id. He insists that I must go beyond
the terms of the forum selection clause itself and first
evaluate the validity of the arbitration provision. Id.
I agree with Fleming that in order to rule on Matco’s
motion, I must make a threshold determination on the
validity of the arbitration provision to determine if it
preempts Section 20040.5. The analysis required here
is less straightforward than in the typical motion to
dismiss or transfer because the only reason that a
directly on point state statute does not invalidate the
Distribution Agreement’s forum selection clause is the
preemptive effect of an allegedly invalid arbitration
provision. Put differently, but for the existence of the
arbitration provision, Section 20040.5 would apply
and the forum selection clause would be void. This
motion hinges on the preemptive effect of the arbitration provision and I cannot turn a blind eye toward
questions of its validity.
Matco’s cited authority to the contrary does not
apply because none of the cases involve similar state

12a
statutes or the preemptive effects of arbitration agreements under the FAA. Instead, each stands for the
uncontroversial proposition that generally it is inappropriate to analyze the validity of the contract as a
whole when determining the applicability of a forum
selection clause. Id. (citing Buckeye Check Cashing,
Inc. v. Cardegna, 546 U.S. 440, 445 (2006) (holding
that federal courts may consider claim of fraud in the
inducement of the arbitration clause itself but not
fraud in the inducement of a contract generally);
Washington v. Cashforiphones.com, No. 15-cv-0627,
2016 WL 6804429, *4 (S.D. Cal. Jun. 1, 2016) (rejecting arguments related to contract validity for failure
to identify the contracting parties, fraud, and public
policy); Cream v. N. Leasing Sys., Inc., No. 15-cv-1208MEJ, 2015 WL 4606463, *6 (N.D. Cal. Jul. 31, 2015)
(rejecting arguments related to concealment, fraudulent inducement, and public policy); Lizdale v. Advanced
Planning Servs., Inc., No. 10-cv-0834, 2011 WL 1103642,
*6, (S.D. Cal. Mar. 25, 2011) (rejecting arguments
related to fraudulent inducement, lack of consideration, inconvenience of parallel litigation, risk of unfair
prejudice, and risk of conflicting judgments); See
Comm Network Servs. Corp. v. Colt Telecomm., No. 04cv-1283-MEJ, 2004 WL 1960174, *4 (N.D. Cal. Sept. 3,
2004) (rejecting arguments related to unilateral
mistake, fraudulent inducement, and affordability)).
In order to determine if Section 20040.5 applies or is
preempted, I must first decide whether the arbitration
provision in the Distribution Agreement is enforceable. Fleming gives several reasons that it is not: it is
void by its own terms; even if it is not, it would
expressly exclude his claims; it is invalid; and it is not
severable. Oppo. at 10-19. I review those arguments
below.

13a
II. THE ENFORCEABILITY OF THE ARBITATION PROVISION
Fleming asserts that, by its own terms, the arbitration provision is null and void in light of the Distribution Agreement’s severability provision and the impermissible waiver of his PAGA claim. Oppo. at 10-12.
The portion of the Distribution Agreement titled
“Severability” states:
It is the desire and intent of the parties to this
Agreement that the provisions of this Article
be enforced to the fullest extent permissible
under the laws and public policy applied in
each jurisdiction in which enforcement is
sought. Accordingly, if any part of this Article
is adjudicated to be invalid or unenforceable,
then this Article will be deemed amended to
delete that potion thus adjudicated to be invalid or unenforceable, such deletion to apply
only with respect to the operation of this
Article in the particular jurisdiction in which
the adjudication is made. Further, to the
extent any provision of this Article is deemed
unenforceable by virtue of its scope, the
parties to this Agreement agree that the same
will, nevertheless be enforceable to the fullest
extent permissible under the laws and public
policies applied in such jurisdiction where
enforcement is sought, and the scope in such
a case will be determined by Arbitration as
provided herein, provided, however that if
the provision prohibiting classwide or private
attorney general arbitration is deemed invalid, then the provision requiring arbitration of
breaches between the parties shall be null

14a
and void and there shall be no obligation to
arbitrate such breaches.
Distribution Agreement at ¶ 12.12 (emphasis added).
The portion of the Distribution Agreement titled “No
Class Actions” states in relevant part:
No matter how styled by the party bringing
the claim, any claim or dispute is to be
arbitrated on an individual basis and not as a
class action. THE DISTRIBUTOR EXPRESSLY WAIVES ANY RIGHT TO ARBITRATE
OR LITIGATE AS A CLASS ACTION OR IN
A PRIVATE ATTORNEY GENERAL CAPACITY.
Distribution Agreement at ¶ 12.7 (emphasis in original). Read together, Fleming contends that if the
PAGA waiver in ¶ 12.7 is found to be invalid, the
arbitration provision is similarly invalid under ¶ 12.12.
Oppo. at 10-12.
PAGA “authorizes an employee to bring an action
for civil penalties on behalf of the state against his or
her employer for Labor Code violations committed
against the employee and fellow employees, with most
of the proceeds of that litigation going to the state.”
Sakkab, 803 F.3d at 429 (citing Iskanian v. CLS
Transportation Los Angeles, LLC, 59 Cal.4th 348 (Cal.
2014)). It was enacted to (i) provide civil penalties for
violations of parts of the labor code that had previously
only carried criminal penalties, and (ii) to make up for
the shortage of government enforcement resources to
combat violations of the labor code. Id. at 429-30
(internal citations omitted). To compensate for the
shortage of resources, PAGA permitted aggrieved
employees to act as private attorneys general to collect
civil penalties for labor code violations, with seventy

15a
five percent of recovered penalties distributed to the
California Labor and Workforce Development Agency.
Id. (internal citations omitted).
In Sakkab, the Ninth Circuit held that pre-dispute
agreements to waive PAGA claims are unenforceable
for two reasons. Id. at 430-31 (citing Iskanian, 59
Cal.4th at 382–83). First, California Civil Code § 1668
states that agreements exculpating a party for violations of the law are unenforceable. Id. (internal
citations omitted). Second, under California Civil Code
§ 3513, a law established for a public reason may not
be contravened by private agreement. Id. (internal
citations omitted). Describing the California Supreme
Court’s reasoning in Iskanian, the Ninth Circuit
stated that “agreements requiring the waiver of PAGA
rights would harm the state’s interests in enforcing
the Labor Code and in receiving the proceeds of civil
penalties used to deter violations.” Id. (internal citations omitted). This applies to agreements waiving the
right to bring “representative” PAGA claims—claims
seeking penalties for Labor Code violations affecting
other employees—as well. Id. (internal citations
omitted).
Applying the rule in Sakkab and Iskanian here, the
Distribution Agreement’s PAGA waiver contained in
¶ 12.7 constitutes an impermissible pre-dispute agreement to waive Fleming’s PAGA claims. Combined with
the severability provision contained in ¶ 12.12, the
provision requiring arbitration of breaches between
Fleming and Matco is null and void and neither party
has an obligation to arbitrate. Similar non-severability
clauses have been found to void arbitration agreements in other cases as well. See McArdle v. AT&T
Mobility LLC, No. 09-cv-01117-CW, 2017 WL 4354998,
at *5 (N.D. Cal. Oct. 2, 2017) (denying motion to

16a
compel arbitration based on non-severability provision); Securitas Sec. Servs. USA, Inc. v. Superior
Court, 234 Cal. App. 4th 1109, 1125 (Cal. App. Ct.
2015). Accordingly, I need not consider Fleming’s
arguments related to the unconscionability of the
arbitration provision. Oppo. at 12-19.
In its briefing, Matco’s only counterarguments were
that (1) I should not consider the text of the arbitration
provision because it is the forum selection clause
that is at issue and (2) the governing law has yet to
be determined. Reply at 1-4. At the hearing held on
April 24, 2019, Matco also argued (3) that because the
severability provision refers to “such breaches” it only
contemplates PAGA claims. I have already disposed
of Matco’s first argument above. Matco’s second argument is not persuasive because the terms of the
arbitration provision encapsulated in ¶¶ 12.1, 12.7,
and 12.12 are clear and there is no indication that my
interpretation of their plain terms would differ under
either California or Ohio law. As to the third argument, the term “breaches” in the Distribution Agreement is defined to include “all breaches, claims, causes
of action, demands, disputes and controversies” between Fleming and Matco. Distribution Agreement
¶ 12.1. Matco’s argument that “such breaches” would
mean only PAGA claims need not be arbitrated does
not make sense given how the Distribution Agreement
defines “breaches.” Because the arbitration provision
is void, the FAA does not preempt Cal. Bus. & Prof.
Code § 20040.5 and the forum selection clause has no
effect.3
3

Fleming argues that in addition to Section 20040.5, the
forum selection clause is also governed by California Labor Code
§ 925. Mot. at 6-10. Like Section 20040.5, California Labor Code
§ 925 invalidates forum selection clauses in employment agree-

17a
III. IS CALIFORNIA BUSINESS & PROFESSIONS CODE § 20040.5 ENFORCEABLE?
A. The Dormant Commerce Clause
Matco claims that the Dormant Commerce Clause of
the United States Constitution invalidates Cal. Bus. &
Prof. Code § 20040.5 because it places a substantial
burden on interstate commerce. Mot. at 11-13. It
argues that although the legislative history of the statute states that it is to protect franchisees who cannot
typically afford to litigate out of state, it is actually
designed to deprive out-of-state franchisors, which are
more likely to litigate in federal court with franchisees
than in-state franchisors, from the protections of
federal law in diversity cases. Id. It contends that the
statute has the potential to wreak havoc on out-ofstate franchisors’” interest of uniformity in franchise
operations” because there is no assurance that the
same laws, court rules, and regulations will apply to
their franchise agreements. Id. Instead, California
franchisors, whose contracts would typically be governed by California law and interpreted by California
courts, will derive a competitive advantage over outof-state franchisors because they may rely on consistent judicial interpretations of their obligations
as franchisors. Id. It argues that the legislature
could have achieved its stated purpose by nondiscriminatory means, such as requiring franchisors to
ments that require employees to arbitrate claims that arise in
California outside of the state. Because Section 20040.5 is dispositive of this motion, I need not address the parties’ arguments
related to California Labor Code § 925. Additionally, because
Fleming’s proposed sur-reply is dedicated to argument related to
California Labor Code § 925, it is not needed and Fleming’s
Objection to Reply Evidence and Administrative Motion for Leave
to File Sur-Reply [Dkt. No. 25] is denied.

18a
cover expenses incurred by California franchisees that
are unique to litigating in the designated out of state
forum. Id.
Matco’s argument fails. To the extent that Matco is
concerned about having the same laws, court rules,
and regulations applied to its franchise agreements, it
may always remove a case filed in state court to
federal court. As the Ninth Circuit has stated, “[t]he
purpose of diversity jurisdiction is to provide a federal
forum for out-of-state litigants where they are free
from prejudice in favor of a local litigant.” Tosco Corp.
v. Communities for a Better Env't, 236 F.3d 495, 502
(9th Cir. 2001), abrogated on other grounds by Hertz
Corp. v. Friend, 559 U.S. 77 (2010) (internal citation
and quotation marks omitted). For this reason also,
Matco’s claim that enforcement of Cal. Bus. & Prof.
Code § 20040.5 would lead to “economic balkanization”
is also unpersuasive. Reply at 4-5.
Matco also cites 1-800-Got-Junk? LLC v. Superior
Court, 189 Cal. App. 4th 500, 515 (Cal. Ct. App. 2010)
for the proposition that it has “interest of uniformity
in franchise operations” that would be harmed by
application of Cal. Bus. & Prof. Code § 20040.5. Mot.
at 11-13. That case does not help Matco. There, the
court needed to determine whether the franchise
agreement’s choice of law provision requiring application of Washington law violated the anti-waiver
provision contained in California Franchise Relations
Act (“CFRA”). 189 Cal. App. 4th at 515. The court had
to resolve two issues. First, was there was a reasonable basis for a choice of law provision in a franchise
agreement? Id. at 511-12. Second, was the provision
contrary to a fundamental public policy of California?
Id. at 511-12.

19a
Answering the first question, the court found that
there was a reasonable basis because “a multi-state
franchisor has an interest in having its franchise
agreements governed by one body of law[.]” Id. at 515.
Here, the choice of law provision is not challenged; any
federal court is equally well equipped to interpret
California or Ohio law.
On the second question, the court reasoned that
because the purpose of the CFRA was to protect franchisees, the franchisee in its case would be better
protected by Washington law than California law and
so the application of Washington law was not contrary
to the goals of the CFRA. Id. at 514-19. By way of
example, the court actually identified Section 20040.5
as a model for how the legislature could have drafted
the antiwaiver provision to have the preclusive effect
suggested by the franchisor. Id. at 518. Here, the
franchisee is better protected by California laws.
1-800-Got-Junk? is of no help to Matco. The dormant
commerce clause does not preclude application of Section 20040.5 here because there is no reason to believe
that a federal court sitting in California cannot apply
California or Ohio law, in this case, without prejudicing Matco. The statute is enforceable.
B. Equitable Estoppel
Matco also argues that Fleming is equitably estopped
from repudiating the forum selection clause because
his claims are inherently intertwined with the Distribution Agreement and his purported employment
relationship with Matco arises from the Agreement.
Mot. at 13-14. This argument fails because the forum
selection clause is inoperative as a matter of law under
Section 20040.5.

20a
IV. PUBLIC AND PRIVATE FACTORS UNDER 28
U.S.C. § 1404(a)
Because the forum selection clause is void pursuant
to Section 20040.5, I must decide whether to transfer
the action under 28 U.S.C. 1404(a) “[f]or the convenience of parties and witnesses [or] in the interest of
justice.” In assessing a motion to transfer for convenience, the court considers public factors, which go to
the interests of justice, and private factors, which go
to the convenience of the parties and witnesses.
Brackett v. Hilton Hotels Corp., 619 F. Supp. 2d 810,
820 (N.D. Cal. 2008) (Alsup, J.) (internal citation
omitted).
A. Private Interest Factors
“Factors relating to the parties’ private interests
include ‘relative ease of access to sources of proof;
availability of compulsory process for attendance of
unwilling, and the cost of obtaining attendance of
willing, witnesses; possibility of view of premises, if
view would be appropriate to the action; and all other
practical problems that make trial of a case easy,
expeditious and inexpensive.’” Atl. Marine Constr.
Co., 571 U.S. at 63 n.6 (quoting Piper Aircraft Co. v.
Reyno, 454 U.S. 235, 241, n.6 (1981). Here, the private
interest factors strongly favor Fleming.
Matco does not dispute the following: the Distribution Agreement was presented to Fleming in
California; his claims are brought pursuant to
California law; courts in California are more familiar
with California law than Ohio courts; the action arose
based on conduct in California; Fleming has only
worked for Matco in California and only seeks to
represent California distributors; the majority of witnesses are located in California; and it would be

21a
significantly more expensive for Fleming to represent
the interest of California-based Matco distributors in
Ohio.4 Oppo. at 23-24. Matco makes no counterarguments, seeking to stand on the forum selection clause.
Reply at 14.
Although Matco’s corporate headquarters are in
Ohio, it has hired numerous citizens of California as
distributors and implemented policies that allegedly
violate California labor laws. That it is headquartered
in Ohio “does not negate the local impact of [their]
decisions when they are implemented elsewhere.” Karl
v. Zimmer Biomet Holdings, Inc., No. 18-cv-04176WHA, 2018 WL 5809428, at *5 (N.D. Cal. Nov. 6, 2018)
(citing Schultz v. Hyatt Vacation Marketing Corp., 10cv-04568-LHK, 2011 WL 768735, at *5 (N.D. Cal. Feb.
28, 2011). As I have found that the forum selection
clause is invalidated by Section 20040.5 and Matco
makes no other arguments in relation to its private
interests here, the private interest factors identified
by Fleming favor denial of Matco’s motion to transfer.
B. Public Interest Factors
“Public factors include the administrative difficulties flowing from court congestion; the local interest in
having localized controversies decided at home; the
interest in having the trial of a diversity case in a
forum that is at home with the law that must govern
the action; the avoidance of unnecessary problems in
conflict of laws, or in the application of foreign law;
and the unfairness of burdening citizens in an unre4

Fleming also contends that California Labor Code § 925
requires that California law apply to the instant action. Id. at 24.
As noted above, because Section 20040.5 is dispositive, I decline
to address the applicability of California Labor Code § 925 at this
point.

22a
lated forum with jury duty.” Decker Coal Co. v.
Commonwealth Edison Co., 805 F.2d 834, 843 (9th Cir.
1986) (quoting Piper Aircraft Co., 454 U.S. at 241 n.6).
The public interest factors slightly favor Fleming.
The parties disagree if the relative court congestion
between here and the Northern District of Ohio weighs
for or against transfer. Mot. at 16; Oppo. at 25. Matco
points out that as of March 31, 2018, there were 4,700
civil cases pending in the Northern District of Ohio
and 8,502 civil cases pending in this district. Mot. at
16. It also notes that in its 2018 Annual Assessment,
the Northern District of Ohio reported that total civil
case filings decreased by 13.8% from 2016 to 2017. Id.
Fleming counters that under Ninth Circuit caselaw,
“[t]he real issue is not whether a dismissal [or
transfer] will reduce a court's congestion but whether
a trial may be speedier in another court because of its
less crowded docket” and the median time from filing
to disposition in civil cases is 7 months in this district
compared to 10.3 months in the Northern District of
Ohio. Oppo. at 24 (citing Gates Learjet Corp. v. Jensen,
743 F.2d 1325, 1337 (9th Cir. 1984)). Matco counters
that the median time from filing to trial is more than
eight months longer in this district than the Northern
District of Ohio. Reply at 13. This factor, which is
seldom informative, is neutral.
Fleming argues that the public interest in adjudicating local controversies lies here because Matco presented Fleming the Distribution Agreement in
California; Fleming worked for Matco solely in
California; and Matco employs over a hundred of other
drivers in California. Oppo. at 25. In contrast, he and
other putative plaintiffs have no connection to Ohio.
Id. Matco responds that Ohio has an equivalent
interest given that Matco is headquartered there and

23a
negotiated contracts containing choice of law and
forum selection clauses that point to Ohio law and
Ohio as a forum respectively. Mot. at 16. At most, this
factor is neutral as well, if not slightly favoring
Fleming and California as the forum because the purpose of Section 20040.5 is to protect franchisees from
being forced to litigate claims based on a franchise
agreement out of state.
The final factor is familiarity with the underlying
law. Fleming contends that Ohio law has no corollary
to most of Fleming’s claims, no statute similar to
PAGA, no statute similar to California Labor Code
§ 2802, no daily overtime, and no meal and rest breaks.
Oppo. at 25. Matco replies that because the governing
law remains an open question this factor is neutral.
Reply at 13-14. Further, federal judges routinely apply
the law of other states than the one in which they sit.
Id. (citing Rowen v. Soundview Commc’ns, Inc., No. 14cv-05530-WHO, 2015 WL 899294, at *7 (N.D. Cal.
Mar. 2, 2015)). I agree with Matco, and this factor is
neutral.
Here the private factors, to a great degree, and the
public factors, to a much lesser extent, favor Fleming.
Matco has failed to meet the factors outlined in 28
U.S.C. 1404(a). I deny its alternative motion to transfer.
CONCLUSION
Matco’s motion to dismiss is denied because by the
Distribution Agreement’s own terms, the arbitration
provision is invalid and Section 20040.5’s prohibition
of forum selection clauses in franchise agreements
restricting venue to a forum outside California is not
preempted by the FAA. I deny the motion to transfer.
Matco shall answer the complaint within 15 days.

24a
IT IS SO ORDERED.
Dated: May 3, 2019
/s/ William H. Orrick
William H. Orrick
United States District Judge

25a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed: June 24, 2019]
————
No. 19-71352
D.C. No. 3:19-cv-00463-WHO
Northern District of California,
San Francisco
————
In Re: MATCO TOOLS CORPORATION; et al.
————
MATCO TOOLS CORPORATION,
a Delaware corporation; et al.,
v.

Petitioners,

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA, SAN FRANCISCO,
Respondent,
JOHN FLEMING, On Behalf of Himself and
All Others Similarly Situated,
Real Party in Interest.
————
ORDER
Before: CLIFTON, N.R. SMITH, and FRIEDLAND,
Circuit Judges.
This petition for a writ of mandamus raises issues
that warrant an answer. See Fed. R. App. P. 21(b).

26a
Accordingly, within 14 days after the date of this
order, the real party in interest shall file an answer.
The district court, within 14 days after the date of
this order, may address the petition if it so desires. The
district court may elect to file an answer with this
court or to issue an order and serve a copy on this
court. Petitioners may file a reply within 5 days after
service of the answer(s). The petition, answer(s), and
any reply shall be referred to the next available merits
panel.
Petitioners’ motion to stay district court proceedings
pending appeal (Docket Entry No. 2) is granted. See
Hilton v. Braunskill, 481 U.S. 770, 776 (1987).
The Clerk shall serve this order on the district court
and District Judge William H. Orrick.

27a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed: January 3, 2020]
————
No. 19-71352
D.C. No. 3:19-cv-00463-WHO
Northern District of California,
San Francisco
————
In Re: MATCO TOOLS CORPORATION; ET AL.
————
MATCO TOOLS CORPORATION,
a Delaware corporation; et al.,
Petitioners,
v.
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA, SAN FRANCISCO,
Respondent,
JOHN FLEMING, On Behalf of Himself and
All Others Similarly Situated,
Real Party in Interest.
————
ORDER
Before: THOMAS, Chief Judge, and HAWKINS and
BADE, Circuit Judges.
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has
requested a vote on the petition for rehearing en banc.
Fed. R. App. P. 35(b).
The petition for rehearing en banc is denied.

28a
APPENDIX E
§16. Appeals
(a) An appeal may be taken from—
(1) an order—
(A) refusing a stay of any action under section
3 of this title,
(B) denying a petition under section 4 of this
title to order arbitration to proceed,
(C) denying an application under section 206 of
this title to compel arbitration,
(D) confirming or denying confirmation of an
award or partial award, or
(E) modifying, correcting, or vacating an award;
(2) an interlocutory order granting, continuing, or
modifying an injunction against an arbitration that
is subject to this title; or
(3) a final decision with respect to an arbitration
that is subject to this title.
(b) Except as otherwise provided in section 1292(b)
of title 28, an appeal may not be taken from an
interlocutory order—
(1) granting a stay of any action under section 3
of this title;
(2) directing arbitration to proceed under section
4 of this title;
(3) compelling arbitration under section 206 of
this title; or
(4) refusing to enjoin an arbitration that is
subject to this title.

29a
APPENDIX F
CALIFORNIA LEGISLATIVE
Business and Professions Code – BPC
Division 8. Special Business Regulations
[18400 - 22949.51]
(Division 8 added by Stats. 1941, Ch. 44.)
Chapter 5.5. Franchise Relations [20000 - 20043]
(Chapter 5.5 added by Stats. 1980, Ch. 1355, Sec. 1.)
ARTICLE 8. Venue of Disputes [20040.5- 20040.5.]
(Article 8 added by Stats. 1994, Ch. 1277, Sec. 1.)
20040.5. A provision in a franchise agreement
restricting venue to a forum outside this state is void
with respect to any claim arising under or relating
to a franchise agreement involving a franchise
business operating within this state.
(Added by Stats. 1994, Ch. 1277, Sec. 1. Effective
January 1, 1995.)

30a
APPENDIX G
STATE OF CALIFORNIA
Labor Code, Section 2698
Section 2698. This part shall be known and may be
cited as the Labor Code Private Attorneys General Act
of 2004.
(Added by Stats. 2003, Ch. 906, Sec. 2. Effective
January 1, 2004.)

31a
APPENDIX H
STATE OF CALIFORNIA
Labor Code, Section 2699
Section 2699. (a) Notwithstanding any other provision of law, any provision of this code that provides for
a civil penalty to be assessed and collected by the
Labor and Workforce Development Agency or any of
its departments, divisions, commissions, boards, agencies, or employees, for a violation of this code, may, as
an alternative, be recovered through a civil action
brought by an aggrieved employee on behalf of himself
or herself and other current or former employees
pursuant to the procedures specified in Section 2699.3.
(b) For purposes of this part, “person” has the same
meaning as defined in Section 18.
(c) For purposes of this part, “aggrieved employee”
means any person who was employed by the alleged
violator and against whom one or more of the alleged
violations was committed.
(d) For purposes of this part, “cure” means that
the employer abates each violation alleged by any
aggrieved employee, the employer is in compliance
with the underlying statutes as specified in the notice
required by this part, and any aggrieved employee
is made whole. A violation of paragraph (6) or (8) of
subdivision (a) of Section 226 shall only be considered
cured upon a showing that the employer has provided
a fully compliant, itemized wage statement to each
aggrieved employee for each pay period for the threeyear period prior to the date of the written notice sent
pursuant to paragraph (1) of subdivision (c) of Section
2699.3.

32a
(e) (1) For purposes of this part, whenever the Labor
and Workforce Development Agency, or any of its
departments, divisions, commissions, boards, agencies,
or employees, has discretion to assess a civil penalty,
a court is authorized to exercise the same discretion,
subject to the same limitations and conditions, to
assess a civil penalty.
(2) In any action by an aggrieved employee
seeking recovery of a civil penalty available under
subdivision (a) or (f), a court may award a lesser
amount than the maximum civil penalty amount
specified by this part if, based on the facts and
circumstances of the particular case, to do otherwise
would result in an award that is unjust, arbitrary
and oppressive, or confiscatory.
(f) For all provisions of this code except those for
which a civil penalty is specifically provided, there is
established a civil penalty for a violation of these
provisions, as follows:
(1) If, at the time of the alleged violation, the
person does not employ one or more employees, the
civil penalty is five hundred dollars ($500).
(2) If, at the time of the alleged violation, the
person employs one or more employees, the civil
penalty is one hundred dollars ($100) for each
aggrieved employee per pay period for the initial
violation and two hundred dollars ($200) for each
aggrieved employee per pay period for each subsequent violation.
(3) If the alleged violation is a failure to act by the
Labor and Workplace Development Agency, or any
of its departments, divisions, commissions, boards,
agencies, or employees, there shall be no civil penalty.

33a
(g) (1) Except as provided in paragraph (2), an
aggrieved employee may recover the civil penalty
described in subdivision (f) in a civil action pursuant
to the procedures specified in Section 2699.3 filed on
behalf of himself or herself and other current or former
employees against whom one or more of the alleged
violations was committed. Any employee who prevails
in any action shall be entitled to an award of reasonable attorney’s fees and costs, including any filing fee
paid pursuant to subparagraph (B) of paragraph (1) of
subdivision (a) or subparagraph (B) of paragraph (1) of
subdivision (c) of Section 2699.3. Nothing in this part
shall operate to limit an employee’s right to pursue or
recover other remedies available under state or federal
law, either separately or concurrently with an action
taken under this part.
(2) No action shall be brought under this part for
any violation of a posting, notice, agency reporting,
or filing requirement of this code, except where the
filing or reporting requirement involves mandatory
payroll or workplace injury reporting.
(h) No action may be brought under this section by
an aggrieved employee if the agency or any of its
departments, divisions, commissions, boards, agencies,
or employees, on the same facts and theories, cites a
person within the timeframes set forth in Section
2699.3 for a violation of the same section or sections of
the Labor Code under which the aggrieved employee
is attempting to recover a civil penalty on behalf of
himself or herself or others or initiates a proceeding
pursuant to Section 98.3.
(i) Except as provided in subdivision (j), civil penalties recovered by aggrieved employees shall be
distributed as follows: 75 percent to the Labor and
Workforce Development Agency for enforcement of

34a
labor laws, including the administration of this part,
and for education of employers and employees about
their rights and responsibilities under this code, to
be continuously appropriated to supplement and not
supplant the funding to the agency for those purposes;
and 25 percent to the aggrieved employees.
(j) Civil penalties recovered under paragraph (1) of
subdivision (f) shall be distributed to the Labor and
Workforce Development Agency for enforcement of
labor laws, including the administration of this part,
and for education of employers and employees about
their rights and responsibilities under this code, to be
continuously appropriated to supplement and not
supplant the funding to the agency for those purposes.
(k) Nothing contained in this part is intended to
alter or otherwise affect the exclusive remedy provided
by the workers’ compensation provisions of this code
for liability against an employer for the compensation
for any injury to or death of an employee arising out of
and in the course of employment.
(l) (1) For cases filed on or after July 1, 2016, the
aggrieved employee or representative shall, within 10
days following commencement of a civil action pursuant to this part, provide the Labor and Workforce
Development Agency with a file-stamped copy of the
complaint that includes the case number assigned by
the court.
(2) The superior court shall review and approve
any settlement of any civil action filed pursuant to
this part. The proposed settlement shall be submitted to the agency at the same time that it is submitted
to the court.
(3) A copy of the superior court’s judgment in any
civil action filed pursuant to this part and any other

35a
order in that action that either provides for or denies
an award of civil penalties under this code shall be
submitted to the agency within 10 days after entry
of the judgment or order.
(4) Items required to be submitted to the Labor
and Workforce Development Agency under this
subdivision or to the Division of Occupational Safety
and Health pursuant to paragraph (4) of subdivision
(b) of Section 2699.3, shall be transmitted online
through the same system established for the filing
of notices and requests under subdivisions (a) and
(c) of Section 2699.3.
(m) This section shall not apply to the recovery of
administrative and civil penalties in connection
with the workers’ compensation law as contained in
Division 1 (commencing with Section 50) and Division
4 (commencing with Section 3200), including, but not
limited to, Sections 129.5 and 132a.
(n) The agency or any of its departments, divisions,
commissions, boards, or agencies may promulgate
regulations to implement the provisions of this part.
(Amended by Stats. 2016, Ch. 31, Sec. 189. (SB 836)
Effective June 27, 2016.)

36a
APPENDIX I
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
————
Case No. 3:19-cv-00463-WHO
————
JOHN FLEMING, on behalf of himself
and all others similarly situated,
Plaintiff,
v.
MATCO TOOLS CORPORATION, a Delaware
corporation; NMTC, INC. d/b/a MATCO TOOLS,
a Delaware corporation, FORTIVE CORPORATION,
a Delaware corporation; and DOES 1-20, inclusive,
Defendant.
————
DEFENDANTS’ NOTICE OF MOTION
AND MOTION TO DISMISS, OR, IN THE
ALTERNATIVE, TRANSFER VENUE TO
THE U.S. DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OHIO
[FORUM NON CONVENIENS]
————
Date: April 3, 2019
Time: 2:00 p.m.
Dept: Courtroom 2, 17th Floor
Judge: Hon. William Orrick
Complaint Filed: January 25, 2019
————

37a
SEYFARTH SHAW LLP
Christian J. Rowley (SBN 187293)
crowley@seyfarth.com
Matthew A. Goodin (SBN 169674)
mgoodin@seyfarth.com
Eric M. Lloyd (SBN 254390)
elloyd@seyfarth.com
560 Mission Street, 31st Floor
San Francisco, California 94105
Telephone: (415) 397-2823
Facsimile: (415) 397-8549
Attorneys for Defendant
Matco Tools Corporation, NMTC, Inc.
and Fortive Corporation

38a
TABLE OF CONTENTS
Page
I. INTRODUCTION .....................................

2

II. THE PARTIES ..........................................

2

A. Defendants Matco Tools Corporation,
NMTC, Inc. And Fortive Corporation.

2

B. Plaintiff John Fleming ........................

3

III. FACTUAL BACKGROUND .....................

3

A. Plaintiff’s Distributorship Agreements
Require Arbitration In Ohio................

3

IV. LEGAL STANDARD.................................

5

V. LEGAL ARGUMENT ...............................

6

A. Plaintiff Agreed To Arbitrate All
Claims Alleged Against Defendants
In Ohio. ................................................

6

1. The Forum-Selection Clause Applies
To All Defendants. .........................

6

2. All Of Plaintiff’s Claims Are
Covered By The Forum-Selection
Clause. ............................................

8

B. Plaintiff Cannot Carry His Burden
Of Showing That The Presumptively
Valid Forum-Selection Clause Is Unenforceable. ..............................................

8

1. The Forum-Selection Clause Is Free
From Fraud Or Overreaching .........

8

2. Plaintiff Will Receive His Day In
Court If This Motion Is Granted. ..

9

39a
3. The Forum-Selection Clause Must
Be Enforced Because California’s
Public Policy Considerations Are
Superseded By Federal Preemption, The Dormant Commerce
Clause And The Doctrine Of Equitable Estoppel. ................................

10

a. The FAA Preempts Section
20040.5. .....................................

10

b. Section 20040.5 Cannot Withstand Scrutiny Under A
Dormant Commerce Clause
Analysis. ....................................

11

c. Plaintiff Is Equitably Estopped
From Refuting The ForumSelection Clause. .......................

13

d. Dismissal Or Transfer Is Necessary To Uphold The Principal
Purpose Of The FAA: To Enforce
Private Arbitration Agreements
According To Their Terms. ........

14

C. Public Interest Factors Weigh In
Favor Of Dismissal Or Transfer. ........

15

1. The Northern District Of Ohio Is
Far Less Congested Than The
Northern District Of California. ....

16

2. The Local Interest Factor Is
Neutral. ..........................................

16

3. The Northern District Of Ohio Is
Capable Of Applying Ohio Or
California Law, Regardless Of
Which State’s Law Governs. ..........

16

VI. CONCLUSION ...........................................

17

40a
TABLE OF AUTHORITIES
Federal Cases

Page(s)

Allied-Bruce Terminix Cos., Inc. v. Dobson,
513 U.S. 265 (1995) ...................................

10

AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ...................................

15

Atl. Marine Constr. Co. v. Dist. Ct.,
134 S. Ct. 568 (2013) ........................... 5, 6, 9, 15
Balducci v. Congo Ltd.,
No. 17-cv-04062-KAW, 2017 U.S. Dist.
LEXIS 154523 (N.D. Cal. Sept. 21,
2017) .........................................................passim
Bell Prods. v. Hosp. Bldg. & Equip. Co.,
No. 16-cv-04515-JSC, 2017 U.S. Dist.
LEXIS 9183 (N.D. Cal. Jan. 23, 2017) .....

10

Bradley v. Harris Research,
275 F.3d 884 (9th Cir. 2001) ..................... 10, 11
Brady Mktg. Co. v. KAI USA, Ltd.,
No. 16-cv-02854-RS, 2016 U.S. Dist.
LEXIS 115877 (N.D. Cal. Aug. 29, 2016) . 5, 6, 8
The Bremen v. Zapata Off-Shore Co.,
407 U.S. 1 (1972) .......................................

9

Carnival Cruise Lines, Inc. v. Shute,
499 U.S. 585 (1991) ...................................

9

E.E.O.C. v. United Airlines, Inc.,
No. C 09-2469 PJH, 2009 U.S. Dist.
LEXIS 130565 (N.D. Cal. Dec. 3, 2009) ...

16

Glob. Quality Foods, Inc. v. Van Hoekelen
Greenhouses,
No. 16-cv-00920-LB, 2016 U.S. Dist.
LEXIS 107121 (N.D. Cal. Aug. 12, 2016) . 5, 16

41a
Holland Am. Line Inc. v. Wartsila N. Am.,
Inc., 485 F.3d 450 (9th Cir. 2007) ............

7

Int’l Franchise Ass’n v. City of Seattle,
803 F.3d 389 (9th Cir. 2015) .............. 11, 12, 13
Jones v. GNC Franchising, Inc.,
211 F.3d 495 (9th Cir. 2000) .....................

10

Kelso Enters., Ltd. v. M/V Wisida Frost,
8 F. Supp. 2d 1197 (C.D. Cal. 1998) .........

3

Manetti-Farrow, Inc. v. Gucci Am., Inc.,
858 F.2d 509 (9th Cir. 1988) .....................

5, 7

Marcotte v. Micros Sys., Inc.,
No. C 14-01372 LB, 2014 U.S. Dist.
LEXIS 128054 (N.D. Cal. Sept. 11, 2014)

9

Mechanix Wear, Inc. v. Performance
Fabrics, Inc.,
No. 2:16-cv-09152-ODW, 2017 U.S. Dist.
LEXIS 13357 (C.D. Cal. Jan. 31, 2017)....

5

Monastiero v. appMobi, Inc.,
No. C 13-05711 SI, 2014 U.S. Dist.
LEXIS 67202 (N.D. Cal. May 15, 2014) . 5, 6, 15
Moretti v. Hertz Corp.,
No. C 13-02972 JSW, 2014 U.S. Dist.
LEXIS 50660 (N.D. Cal. Apr. 11, 2014) ...

7

Murphy v. Schneider Nat’l, Inc.,
362 F.3d 1113 (9th Cir. 2004) ................. 6, 9, 12
Roberts v. C.R. England, Inc.,
827 F. Supp. 2d 1078 (N.D. Cal. 2011) .....

9

Robles v. Schneider Nat’l Carriers, Inc.,
No. EDCV 16-2482 JGB (KKx), 2017
U.S. Dist. LEXIS 222314 (C.D. Cal. Dec.
11, 2017) ....................................................

8

42a
S. Cty. Prof’l Park, Ltd. v. Orchard Supply
Co. LLC,
No. 5:14-cv-02348-PSG, 2014 U.S. Dist.
LEXIS 100064 (N.D. Cal. July 21, 2014) .

15

Scott v. Lopez,
No. C12-01456 HRL, 2013 U.S. Dist.
LEXIS 40636 (N.D. Cal. Mar. 21, 2013) ..

8

Simonoff v. Expedia, Inc.,
643 F.3d 1202 (9th Cir. 2011) ...................

2

Sunkist Soft Drinks, Inc. v. Sunkist
Growers, Inc.,
10 F.3d 753 (11th Cir. 1993) .....................

13

TAAG Linhas Aereas de Angola v.
Transamerica Airlines, Inc.,
915 F.2d 1351 (9th Cir. 1990) ...................

8

Textile Unlimited v. A..BMH and Co.,
240 F.3d 781 (9th Cir. 2001) .....................

15

Turner v. Thorworks Indus.,
No. CIV S-05-02653 WBS
KJM, 2006 U.S. Dist. LEXIS
21668 (E.D. Cal. Mar. 28, 2006) ............... 13, 14
in re Yahoo! Inc. Customer
Data Sec. Breach Litig.,
No. 16-MD-02752-LHK, 2017 U.S. Dist.
LEXIS 140212 (N.D. Cal. Aug. 30, 2017) .

7

Zaklit v. Glob. Linguist Sols., LLC,
No. CV13-08654MMM, 2014 U.S. Dist.
LEXIS 197536 (C.D. Cal. Mar. 24, 2014) .

7

STATE CASES
LLC v. Super. Ct.,
189 Cal. App. 4th 500
(Cal. Ct. App. 2010) .................................. 11, 12

43a
FEDERAL STATUTES
9 U.S.C. § 2 ...................................................

10

9 U.S.C. § 4 ...................................................

15

Federal Arbitration Act .......................... 10, 14, 15
STATE STATUTES
Business and Professions Code § 17200,
et seq. .........................................................

3

Cal. Civ. Code § 3521 ...................................

14

California Business and Professions Code
§ 20040.5 ..................................................passim
California Franchise Investment Laws
(Cal. Corp. Code §§ 31000 et seq.) ............

14

California Labor Code § 925 ........................

10

California Private Attorneys General Act ...

3

RULES
Rule 12(b)(3) .................................................

5

CONSTITUTIONAL PROVISIONS
U.S. Constitution Dormant Commerce
Clause ........................................................ 10, 11
OTHER AUTHORITIES
United States District Court, Northern
District of Ohio, Counties Served By
Division, https://www.ohnd.uscourts.
gov/counties-served-division .....................

2

44a
NOTICE OF MOTION AND MOTION
NOTICE IS HEREBY GIVEN that on April 3, 2019,
at 2:00 p.m. in Courtroom 2, 17th Floor of this Court,
located at 450 Golden Gate Avenue, San Francisco, CA
94102, Defendants MATCO TOOLS CORPORATION,
NMTC, INC. and FORTIVE CORPORATION (“Defendants”) will and do hereby move the Court for an order
dismissing Plaintiff’s Complaint, or, alternatively,
transferring this matter to the U.S. District Court for
the Northern District of Ohio, pursuant to the doctrine
of forum non conveniens. This Motion is based on this
Notice of Motion and Motion, the accompanying Memorandum of Points and Authorities, the Declaration of
Mike Swanson and the exhibits thereto, the Request
for Judicial Notice, the accompanying Proposed Order,
all other papers and pleadings on file in this action,
and on any further evidence that may be presented at
the hearing of this matter.
RELIEF SOUGHT
Plaintiff John Fleming (“Plaintiff”) entered into two
distributorship agreements with Defendant NMTC,
Inc. which contain binding provisions requiring arbitration of his claims against Defendants in Ohio.
Because this Court cannot order the parties to arbitrate in Ohio, Defendants respectfully request an
order from this Court, pursuant to the doctrine of
forum non conveniens, dismissing Plaintiff’s Complaint, or, in the alternative, transferring this matter
to the U.S. District Court for the Northern District of
Ohio, so that Defendants may file a petition to compel
arbitration in Ohio.
DATED: February 19, 2019

45a
Respectfully submitted,
SEYFARTH SHAW LLP
By:

/s/ Eric M. Lloyd

Christian J. Rowley
Matthew A. Goodin
Eric M. Lloyd
Attorneys for Defendant
MATCO TOOLS CORPORATION,
NMTC, INC. and FORTIVE
CORPORATION
————
MEMORANDUM OF POINTS AND
AUTHORITIES IN SUPPORT OF MOTION
I. INTRODUCTION
This motion is straightforward. Plaintiff agreed to
arbitrate any and all claims against Defendants
arising from his franchise agreements, or, his relationship with Defendants, in the State of Ohio.1 Neverthe1

Plaintiff’s Distributor Agreements specify that all arbitrations or court proceedings must be venued “in Summit or Cuyahoga County, Ohio.” (Declaration of Mike Swanson (“Swanson
Dec.”) ¶ 4, Ex. 1 at § 12.10; id. ¶ 5, Ex. 3 at § 12.10.) Accordingly,
should the Court decline to dismiss this matter and instead
determine that transfer is warranted, the Northern District of
Ohio, which has jurisdiction over Summit County and Cuyahoga
County, is the appropriate forum for this diversity action. See
Simonoff v. Expedia, Inc., 643 F.3d 1202, 1205-07 (9th Cir. 2011)
(“[W]e hold that a forum selection clause that vests ‘exclusive
jurisdiction and venue’ in the courts ‘in’ a county provides venue
in the state and federal courts located in that county.”). See also
United States District Court, Northern District of Ohio, Counties
Served By Division, https://www.ohnd.uscourts.gov/countiesserved-division (listing Summit County and Cuyahoga County).

46a
less, in violation of his contracts, Plaintiff filed suit in
this Court. Defendants seek to hold Plaintiff to the
bargains he struck and intend move to compel arbitration in Ohio. However, this Court cannot order the
parties to arbitrate in a forum outside of its jurisdiction. Thus, dismissal of Plaintiff’s Complaint, or, alternatively, transfer of this matter to the Northern
District of Ohio, pursuant to the doctrine of forum non
conveniens, is warranted.
Motions seeking dismissal or transfer on forum non
conveniens grounds are only denied in exceptional
cases. This, however, is not an exceptional case.
Plaintiff cannot carry his burden of showing that the
forum-selection clause in his franchise agreements is
invalid. The clause is not tainted by fraud or overreaching, and, Plaintiff will not be denied his day in
court if it is upheld. Moreover, no California public
policy poses an obstacle to enforcement of the clause.
Finally, none of the public interest factors considered
by courts in ruling on a forum non conveniens motion
involving a mandatory forum-selection clause warrant
the disruption of the parties’ contractual agreement to
arbitrate in Ohio. Accordingly, the Court should grant
Defendants’ motion.
II. THE PARTIES
A. Defendants Matco Tools Corporation,
NMTC, Inc. And Fortive Corporation.
Matco Tools Corporation (“Matco”), which is headquartered in Stow, Ohio, markets high quality, durable and innovative mechanic repair tools, diagnostic
equipment and toolboxes. (Swanson Dec. ¶ 3.) Matco
contracts with franchisees who sell Matco’s products
in designated geographic areas through their “mobile

47a
stores.” (Id. ) Prior to June 3, 2016, Matco was known
as NMTC Inc., d/b/a Matco Tools. (Id.) Defendant
Fortive Corporation, which is headquartered in Everett,
Washington, is the corporate parent of Matco. (Id.)
2

B. Plaintiff John Fleming.
Plaintiff entered into two separate distributorship
agreements with NMTC in July 2012 and October
2013, respectively. (Swanson Dec. ¶¶ 4-5, Exs. 1, 3.)
Starting in July 2012, Plaintiff operated at least one
Matco distributorship in the Monterey, California
area, until December 2018. (Id. ¶¶ 4-5, 7.) All of Plaintiff’s customers and potential customers were based in
California. (Id. ¶ 7.) In connection with the operation
of his distributorships, Fleming purchased tools from
NMTC (and its successor entity, Matco) which he then
sold to his customers. (Id.)
Plaintiff alleges that Defendants misclassified him
as an “independent contractor” due to their purported
control over his work as a distributor. (Dkt. No. 1
(“Compl.”) ¶¶ 5-6, 34, 35.) In January 2019, Plaintiff
filed a putative class action lawsuit against Defendants, alleging causes of action for: 1) reimbursement of
business expenses; 2) failure to pay overtime; 3)
unlawful collection and receipt of earned wages; 4)
failure to provide meal and rest periods; 5) failure to
furnish accurate wage statements; 6) waiting time
penalties; 7) violation of Business and Professions
2

Courts may consider declarations submitted in connection
with a forum non conveniens motion. See Kelso Enters., Ltd. v.
M/V Wisida Frost, 8 F. Supp. 2d 1197, 1201 (C.D. Cal. 1998) (“In
reviewing a motion to dismiss based on the enforcement of a forum selection clause, the court does not need to accept the pleadings as true, and the court is permitted to consider facts outside
of the pleadings.”).

48a
Code section 17200, et seq.; and 8) violation of the
California Private Attorneys General Act. (See generally Compl.)
III. FACTUAL BACKGROUND
A. Plaintiff’s
Distributorship
Require Arbitration In Ohio.

Agreements

Pursuant to his Distributorship Agreements,
Plaintiff agreed to arbitrate any and all claims against
NMTC, Matco and Fortive.3 Plaintiff’s Distributorship
Agreements state, in relevant part:
12.1 Arbitration. Except as expressly provided in Section 12.5 of this Agreement, all
breaches, claims, causes of action, demands,
disputes and controversies (collectively
referred to as “breaches” or “breach”) between
the Distributor, including his/her Spouse,
immediate family members, heirs, executors,
successors, assigns, shareholders, partners or
guarantors, and Matco, including its employees, agents, officers or directors and its parent, subsidiary or affiliated companies,
whether styled as an individual claim, class
action claim, private attorney general claim
or otherwise, arising from or related to this
Agreement, the offer or sale of the franchise
and distribution rights contained in this
3

Plaintiff’s July 2012 Distributor Agreement was amended in
October 2013 and November 2016. (Swanson Dec. ¶ 4, Ex. 2.)
None of the amendments modified Section 12 of the Distributor
Agreement concerning arbitration and the venue for arbitration.
(Id.) Moreover, the July 2012 Distributor Agreement was not
amended, modified or extended after December 31, 2016. (Id.
¶ 4.) Plaintiff terminated his October 2013 distributorship
agreement in September 2015. (Id. ¶ 5.)

49a
Agreement, the relationship of Matco and
Distributor, or Distributor’s operation of the
Distributorship, including any allegations of
fraud, misrepresentation, and violation of any
federal, state or local law or regulation, will
be determined exclusively by binding arbitration on an individual, non-class basis only in
accordance with the Rules and Regulations of
the American Arbitration Association (“Arbitration”).
(Swanson Dec. ¶ 4, Ex. 1 at § 12.1; id. ¶ 5, Ex. 3 at
§ 12.1.)
In addition, Plaintiff agreed to arbitrate any and all
disputes against the Defendants in the State of Ohio:
12.10 Venue and Jurisdiction. Unless this
requirement is prohibited by law, all arbitration hearings must and will take place
exclusively in Summit or Cuyahoga County,
Ohio. All court actions, mediations or other
hearings or proceedings initiated by either
party against the other party must and will
be venued exclusively in Summit or Cuyahoga
County, Ohio. Matco (including its employees,
agents, officers or directors and its parent,
subsidiary or affiliated companies) and the
Distributor (including where applicable the
Distributor’s Spouse, immediate family members, owners, heirs, executors, successors,
assigns, shareholders, partners, and guarantors) do hereby agree and submit to personal
jurisdiction in Summit or Cuyahoga County,
Ohio in connection with any Arbitration hearings, court hearings or other hearings, including any lawsuit challenging the arbitration
provisions of this Agreement or the decision

50a
of the arbitrator, and do hereby waive any
rights to contest venue and jurisdiction in
Summit or Cuyahoga County, Ohio and any
claims that venue and jurisdiction are invalid. In the event the law of the jurisdictions in
which Distributor operates the Distributorship require that arbitration proceedings be
conducted in that state, the Arbitration hearings under this Agreement shall be conducted
in the state in which the principal office of the
Distributorship is located, and in the city
closest to the Distributorship in which the
American Arbitration Association has an
office. Notwithstanding this Article, any
actions brought by either party to enforce the
decision of the arbitrator may be venued in
any court of competent jurisdiction.
(Id. ¶ 4, Ex. 1 at § 12.10; id. ¶ 5, Ex. 3 at § 12.10.)
Plaintiff plainly knew that his Distributorship
Agreements contained provisions affecting his rights
with regard to the forum for any prospective arbitration. In his Distributor Disclosure Questionnaires,
which he executed on the same dates as his Distributorship Agreements, Plaintiff acknowledged that he
personally reviewed the Distributorship Agreements,
and, that he understood that the Agreements contained provisions regarding “required arbitration” and
“designated locations or states for arbitration.” (Id.
¶ 6, Exs. 4-5 (Responses to Questions Nos. 5-6).)
IV. LEGAL STANDARD
“The appropriate way to enforce a forum-selection
clause pointing to a state or foreign forum is through
the doctrine of forum non conveniens.” Atl. Marine
Constr. Co. v. Dist. Ct., 134 S. Ct. 568, 580 (2013). A

51a
party may file a motion to dismiss, or, alternatively, to
transfer venues, pursuant to the forum non conveniens
doctrine as an initial response to a plaintiff’s complaint. Glob. Quality Foods, Inc. v. Van Hoekelen
Greenhouses, No. 16-cv-00920-LB, 2016 U.S. Dist.
LEXIS 107121, *8-9 (N.D. Cal. Aug. 12, 2016) (converting Rule 12(b)(3) motion to motion to dismiss for forum
non conveniens pursuant to the U.S. Supreme Court’s
decision in Atl. Marine Constr. Co.; dismissing complaint on forum non conveniens grounds); Monastiero
v. appMobi, Inc., No. C 13-05711 SI, 2014 U.S. Dist.
LEXIS 67202, *4, 20-21 (N.D. Cal. May 15, 2014)
(dismissing case on forum non conveniens grounds
pursuant to motion for reconsideration following issuance of Atl. Marine Constr. Co. decision); Mechanix
Wear, Inc. v. Performance Fabrics, Inc., No. 2:16-cv09152-ODW, 2017 U.S. Dist. LEXIS 13357, *6 (C.D.
Cal. Jan. 31, 2017) (converting Rule 12(b)(3) motion to
motion to dismiss for forum non conveniens). See also
Brady Mktg. Co. v. KAI USA, Ltd., No. 16-cv-02854RS, 2016 U.S. Dist. LEXIS 115877, *3-4 (N.D. Cal.
Aug. 29, 2016) (“Whether to grant a motion to dismiss
or to transfer a case based on the doctrine of forum non
conveniens lies in the sound discretion of district
courts.”) (internal citations omitted).
Federal law governs the interpretation of forumselection clauses. Manetti-Farrow, Inc. v. Gucci Am.,
Inc., 858 F.2d 509, 513 (9th Cir. 1988). Pursuant to
federal law, “a valid forum-selection clause [should be]
given controlling weight in all but the most exceptional cases.” Atl. Marine Constr. Co., 134 S. Ct. at 581
(alterations in original and internal quotation
omitted). As the Supreme Court explained:
When parties have contracted in advance to
litigate disputes in a particular forum, courts

52a
should not unnecessarily disrupt the parties’
settled expectations. A forum-selection clause
. . . may, in fact, have been a critical factor in
their agreement to do business together in the
first place. In all but the most unusual cases,
therefore, “the interest of justice” is served by
holding parties to their bargain.
Id. at 583. Thus, where, as here, “the parties have
agreed to a valid forum-selection clause, a district
court should ordinarily transfer the case to the forum
specified in that clause.” Id. at 581.
“In the face of a valid forum-selection clause, the
plaintiff bears the burden of showing why the forum
he or she selected is appropriate.” Brady Mktg. Co.,
2016 U.S. Dist. LEXIS 115877 at *4 (citing, e.g., Atl.
Marine Constr. Co.). To overcome the presumption
that a forum-selection clause is valid, a plaintiff must
show: “(1) that the inclusion of the clause in the agreement was the product of fraud or overreaching; (2) that
the party wishing to repudiate the clause would effectively be deprived of his day in court were the clause
enforced; or (3) that enforcement would contravene a
strong public policy of the forum in which suit is
brought.” Id. at *4-5 (citing Murphy v. Schneider Nat’l,
Inc., 362 F.3d 1113, 1140 (9th Cir. 2004) and Richards
v. Lloyd’s of London, 135 F.3d 1289, 1294 (9th Cir.
1998) (internal punctuation omitted).)
Where a valid forum-selection clause is mandatory,
“the plaintiff’s choice of forum merits no weight, and
he or she has waived the right to challenge the preselected forum as inconvenient or less convenient.” Atl.
Marine Constr. Co., 134 S. Ct. at 582. Thus, in determining whether a plaintiff resisting the enforcement
of a mandatory forum-selection clause has carried his
or her burden, courts “should not consider the parties’

53a
private interests because such considerations were
waived by agreement to the forum selection clause.”
Balducci v. Congo Ltd., No. 17-cv-04062-KAW, 2017
U.S. Dist. LEXIS 154523, *20 (N.D. Cal. Sept. 21,
2017) (citing Atl. Marine Constr. Co.). Instead, courts
should consider only the following public interest factors, which will “rarely defeat” a forum non conveniens
motion: “the administrative difficulties flowing from
court congestion; the local interest in having localized
controversies decided at home; [and] the interest in
having the trial of a diversity case in a forum that is
at home with the law.” Monastiero, 2014 U.S. Dist.
LEXIS 67202 at *11-14 (citing Atl. Marine Constr.
Co.).
The forum-selection clause at issue is valid and
enforceable and there are no extraordinary circumstances warranting the disruption of the parties’ agreements. Accordingly, this case should be dismissed, or,
in the alternative, transferred to the U.S. District
Court for the Northern District of Ohio.
V. LEGAL ARGUMENT
A. Plaintiff Agreed To Arbitrate All Claims
Alleged Against Defendants In Ohio.
1. The Forum-Selection Clause Applies To
All Defendants.
Plaintiff’s agreement to arbitrate his potential
claims in Ohio by virtue of the forum-selection clause
in his Distributorship Agreements applies to all of the
Defendants. There can be no question that NTMC,
which executed Plaintiff’s Distributorship Agreements,
is bound by the forum-selection clause. Likewise,
Matco and Fortive, although non-signatories to Plaintiff’s Distributorship Agreements, fall within the
scope of the forum-selection clause. As noted above,

54a
the arbitration provision (Section 12.1 of the Distributorship Agreements), which contains the forumselection clause, applies to NTMC and “its parent,
subsidiary or affiliated companies.” (Swanson Dec.
¶ 4, Ex. 1 at § 12.1; id. ¶ 5, Ex. 3 at § 12.1.) Accordingly,
as the successor entity to NTMC and the parent
of its successor, respectively, Matco and Fortive have
standing to enforce the forum-selection clause as
third-party beneficiaries. See Moretti v. Hertz Corp.,
No. C 13-02972 JSW, 2014 U.S. Dist. LEXIS 50660,
*13 (N.D. Cal. Apr. 11, 2014) (“A third-party qualifies
as a beneficiary under a contract if the parties
intended to benefit the third party and the terms of
the contract make that intent evident.”) (quoting Karo
v. San Diego Symphony Orchestra Ass’n, 762 F.2d 819,
821–22 (9th Cir. 1985).) Moreover, the forum-selection
clause is enforceable by and against Matco and Fortive
because “[their] alleged conduct . . . is closely related
to the contractual relationship” such that they are considered “transaction participants” intended to “benefit
from and be subject to” the forum-selection clause.
Holland Am. Line Inc. v. Wartsila N. Am., Inc., 485
F.3d 450, 456 (9th Cir. 2007); Manetti-Farrow, Inc.,
858 F.2d at 514 (“[A] range of transaction participants,
parties and non-parties, should benefit from and be
subject to forum selection clauses.”) (quoting Clinton
v. Janger, 583 F.Supp. 284, 290 (N.D. Ill. 1984)). The
“closely related” standard is met here given the
Defendants’ corporate relationships. See in re Yahoo!
Inc. Customer Data Sec. Breach Litig., No. 16-MD02752-LHK, 2017 U.S. Dist. LEXIS 140212, *176
(N.D. Cal. Aug. 30, 2017) (holding that non-party to
the contract, who was a subsidiary of the signatory to
the forum-selection agreement, was closely related
and thus bound by the agreement).

55a
Moreover, because Plaintiff alleges that all Defendants purportedly misclassified him as an “independent
contractor,” and, that “Fortive Corporation guarantees
Matco Tools Corporation’s obligations under the Distributorship Agreement,” it follows that Matco and
Fortive should be able to enforce the forum-selection
clause. (Compl. ¶¶ 5-6, 12-13.) See Zaklit v. Glob.
Linguist Sols., LLC, No. CV13-08654MMM (MANx),
2014 U.S. Dist. LEXIS 197536, *37 n.92 (C.D. Cal.
Mar. 24, 2014) (finding non-signatory defendant to be
so closely related to signatory such that it could
enforce forum-selection provision because plaintiff
alleged all defendants, whether signatories or nonsignatories to forum-selection provision, were plaintiff’s employer). In addition, where, as here, a nonsignatory defendant seeks to enforce a forum-selection
clause against a plaintiff, and, the signatory and nonsignatory defendants agree that the plaintiff’s relationship with the non-signatory defendant is related to
the relationship between the plaintiff and the signatory defendant, courts will permit the non-signatory
defendant to enforce a forum-selection clause. See
TAAG Linhas Aereas de Angola v. Transamerica
Airlines, Inc., 915 F.2d 1351, 1354 (9th Cir. 1990)
(finding that it was not unjust to enforce forumselection clause where third-party defendants agreed
to jurisdiction of the designated forum).
2. All Of Plaintiff’s Claims Are Covered By
The Forum-Selection Clause.
Plaintiff’s causes of action all clearly fall within the
scope of the forum-selection clause. Indeed, the arbitration provision is all-encompassing, as it covers “all
breaches, claims, causes of action, demands, disputes
and controversies . . . arising from or related to this
Agreement, the offer or sale of the franchise and dis-

56a
tribution rights contained in this Agreement, the
relationship of Matco and Distributor, or Distributor’s
operation of the Distributorship, including any allegations of fraud, misrepresentation, and violation of any
federal, state or local law or regulation.” (Swanson
Dec. ¶ 4, Ex. 1 at § 12.10; id. ¶ 5, Ex. 3 at § 12.10.) The
absence of any limiting or qualifying language renders
each cause of action asserted by Plaintiff subject to the
forum-selection clause. Robles v. Schneider Nat’l
Carriers, Inc., No. EDCV 16-2482 JGB (KKx), 2017
U.S. Dist. LEXIS 222314, *7 (C.D. Cal. Dec. 11, 2017)
(citing LaCross v. Knight Transp., Inc., 95 F. Supp. 3d
1199, 1207 (C.D. Cal. 2015) (forum-selection clause
applied to plaintiff’s California Labor Code claims due
to its broad “arising from or in connection with” language); Scott v. Lopez, No. C12-01456 HRL, 2013 U.S.
Dist. LEXIS 40636, *9 (N.D. Cal. Mar. 21, 2013)
(“[C]lauses using the phrase ‘relating to’ indicate that
the scope of the clause is subject to broader interpretation.”).
B. Plaintiff Cannot Carry His Burden Of Showing That The Presumptively Valid ForumSelection Clause Is Unenforceable.
Plaintiff has the burden of showing that the forumselection clause is invalid. Brady Mktg. Co., 2016 U.S.
Dist. LEXIS 115877 at *4. He cannot carry this burden.
1. The Forum-Selection Clause Is Free
From Fraud Or Overreaching.
A party asserting that a forum-selection clause is
the product of fraud or overreaching must demonstrate that the at-issue provision itself, and not the
contract as a whole, was obtained through illicit
means. Roberts v. C.R. England, Inc., 827 F. Supp. 2d
1078, 1086 (N.D. Cal. 2011). The parties’ relative posi-

57a
tions in terms of bargaining power are irrelevant to
this analysis, because “[u]nder Carnival Cruise, a
differential in power or education on a non-negotiated
contract will not vitiate a forum-selection clause.”
Murphy, 362 F.3d at 1141 (citing Carnival Cruise
Lines, Inc. v. Shute, 499 U.S. 585, 595 (1991)); see also
Marcotte v. Micros Sys., Inc., No. C 14-01372 LB, 2014
U.S. Dist. LEXIS 128054, *20 (N.D. Cal. Sept. 11,
2014) (“the Ninth Circuit has rejected the argument
that unequal bargaining power is a ground to reject
enforcement of a forum selection clause in an employment contract” (citing Murphy, 362 F.3d at 1141)).
Plaintiff does not allege any fraud or overreaching
with regard to the forum-selection clause contained in
his Distributorship Agreements, and indeed, no such
evidence exists. The forum-selection clause should
thus be enforced.
2. Plaintiff Will Receive His Day In Court If
This Motion Is Granted.
Having agreed to commit all disputes relating to the
Distributorship Agreements, or, his relationship with
Defendants, to arbitration in Ohio, Plaintiff cannot
now complain of being denied his day in court. See The
Bremen v. Zapata Off-Shore Co., 407 U.S. 1, 17-18
(1972) (“Whatever ‘inconvenience’ [Plaintiff] would
suffer by being forced to litigate in the contractual
forum as [he] agreed to do was clearly foreseeable at
the time of contracting.”). As the Supreme Court has
explained, “when a plaintiff agrees by contract to bring
suit only in a specified forum—presumably in exchange
for other binding promises by the defendant—the
plaintiff has effectively exercised its ‘venue privilege’
before a dispute arises” and “waive[s] the right to
challenge the preselected forum as inconvenient or
less convenient for [his or her self] or [his or her]

58a
witnesses.” Atl. Marine Constr. Co., 134 S. Ct. at 58182. Accordingly, expense and inconvenience are not
sufficient grounds for invalidating a forum-selection
clause. Balducci, 2017 U.S. Dist. LEXIS 154523 at
*11-12 (plaintiff’s assertion of increased expense and
inconvenience by virtue of litigating in Colorado was
“inadequate to show that litigating this case in
Colorado would effectively deprive him of his day in
court”). Absent a grave hardship, which, Defendants
submit, Plaintiff cannot demonstrate, Plaintiff will not
be deprived of his day in court—he must simply adhere
to his agreement to have that day in Ohio. Id. (quoting
Storm v. Witt Biomedical Corp., No. C-95-3718 SI,
1996 U.S. Dist. LEXIS 1493 (N.D. Cal. Jan. 23, 1996)
(“These difficulties are not the grave hardships that
would deprive plaintiff of a meaningful day in court.”)).
3. The Forum-Selection Clause Must Be
Enforced Because California’s Public
Policy Considerations Are Superseded By
Federal Preemption, The Dormant
Commerce Clause And The Doctrine Of
Equitable Estoppel.
Defendants are aware the Ninth Circuit has ruled
that California Business and Professions Code section
20040.5 (“Section 20040.5”), which voids non-California
forum-selection clauses in franchise agreements
signed by California franchise businesses, is a “strong
public policy.” Jones v. GNC Franchising, Inc., 211
F.3d 495, 498 (9th Cir. 2000). Nevertheless there are
three reasons why Section 20040.5 does not invalidate
the forum-selection clause here. First, the Ninth Circuit has determined that Section 20040.5 is preempted

59a
by the Federal Arbitration Act (“FAA”).4 Second,
application of Section 20040.5 would violate the
Dormant Commerce Clause of the U.S. Constitution.
Third, Plaintiff is estopped from repudiating the
forum-selection clause because his claims arise from
the very same Distributorship Agreements which contain it.5
a. The FAA Preempts Section 20040.5.
Section 20040.5 must yield to the FAA’s preemptive
scope and cannot preclude enforcement of the forumselection clause. In Bradley v. Harris Research, the
Ninth Circuit held that Section 20040.5 is preempted
by the FAA. Bradley v. Harris Research, 275 F.3d 884,
892 (9th Cir. 2001). The defendant in Bradley
appealed the district court’s order dismissing the
plaintiff franchisees’ lawsuit and ordering the parties
to arbitrate in California on account of Section
20040.5, despite the franchise agreement’s requirement that arbitration occur in Utah. Id. at 886. The
Ninth Circuit reversed, holding that Section 20040.5
was preempted by the FAA, and, that the district court
thus lacked the authority to order arbitration in
4

The FAA applies here because Plaintiff’s and NMTC’s/
Matco’s dealings “involve commerce” within the broad meaning
of that phrase. See 9 U.S.C. § 2 (FAA applies to “written provision
in. . . a contract evidencing a transaction involving commerce”);
Allied-Bruce Terminix Cos., Inc. v. Dobson, 513 U.S. 265, 274
(1995) (“[W]e conclude that the word ‘involving,’ like ‘affecting,’
signals an intent to exercise Congress’ commerce power to the
full.”).
5

California Labor Code section 925, even if applicable to a
franchisor-franchisee dispute (which it is not), does not apply
here because Plaintiff’s Distributor Agreements were not entered
into, modified or extended on or after January 1, 2017. (Swanson
Dec. ¶¶ 4-5.) Cal. Lab. Code § 925.

60a
California. Id. at 890, 892 (noting that Section 20040.5
“applies only to forum selection clauses and only to
franchise agreements,” and accordingly is preempted
by the FAA because it is not generally applicable to
“any contract”). This Court recently affirmed that
Bradley remains binding precedent in the Ninth
Circuit. Bell Prods. v. Hosp. Bldg. & Equip. Co., No.
16-cv-04515-JSC, 2017 U.S. Dist. LEXIS 9183, *12
(N.D. Cal. Jan. 23, 2017) (“Bradley remains good law
in the Ninth Circuit and binding precedent on the
Court. The Court therefore must follow that decision,
particularly given that Bradley is directly on point
with the facts of this case[.]”). Plaintiff, therefore,
cannot rely on Section 20040.5 to evade his binding
agreement to arbitrate in Ohio.6
b. Section 20040.5 Cannot Withstand
Scrutiny Under A Dormant Commerce Clause Analysis.
Section 20040.5 should also be disregarded because
it violates the Dormant Commerce Clause of the U.S.
Constitution. “Modern dormant commerce clause
jurisprudence primarily is driven by concern about
economic protectionism—that is, regulatory measures
designed to benefit in-state economic interests by
6

The legislative history of Section 20040.5 confirms that the
Legislature contemplated that disputes involving California
franchisees could still be transferred to non-California forums,
notwithstanding the proposed law. (Request for Judicial Notice
(“RJN”) ¶ 1, Ex. A (“While AB 1920 would thus permit the action
to be filed in California, the doctrine of ‘forum non convenience’
may persuade a California court to transfer the action to another
venue, particularly if the contract binds the parties to follow the
law of another forum. [. . .] Nothing in AB 1920 would preclude
application of the doctrine of ‘forum non convenience’ to cause the
transfer of a franchise dispute brought in California by reason by
AB 1920.”).)

61a
burdening out-of-state competitors.” Int’l Franchise
Ass’n v. City of Seattle, 803 F.3d 389, 399 (9th Cir.
2015) (quoting Dep’t of Revenue of Ky. V. Davis, 553
U.S. 328, 338 (2008) (internal punctuation omitted)).
A party raising a Dormant Commerce Clause argument must show that the challenged law places a
substantial burden on interstate commerce. Id. “If a
statute discriminates against out-of-state entities on
its face, in its purpose, or in its practical effect, it is
unconstitutional unless it serves a legitimate local
purpose, and this purpose could not be served as well
by available non-discriminatory means.” Id. at 399
(internal punctuation omitted). Courts may consider
legislative history to determine whether a statute is
motivated by a discriminatory purpose. Id. at 402 n.10.
The discriminatory purpose of Section 20040.5 is
made plain by the legislative history of the statute. In
enacting Section 20040.5, the Legislature sought to
frustrate out-of-state franchisors’ legitimate interest
in ensuring the uniform enforcement of their franchise
agreements. See 1-800-Got-Junk? LLC v. Super. Ct.,
189 Cal. App. 4th 500, 515 (Cal. Ct. App. 2010)
(petitioner franchise had “interest of uniformity in
franchise operations”) (“Because a multistate franchisor has an interest in having its franchise agreements
governed by one body of law, Got Junk had a reasonable basis for inserting a choice of law provision in the
franchise agreement. Further, given Washington
State’s proximity to Got Junk’s headquarters in
Vancouver, Canada, there was a reasonable basis for
the designation of that state’s laws in particular.”). As
reflected in the California State Senate’s Bill Analysis,
Section 20040.5 targets out-of-state franchisors:

62a
1. Stated need for legislation
Many franchise contracts contain clauses
that require a civil action or proceeding
arising under or relating to a franchise agreement be commenced in a designated out-ofstate venue, which is usually the state of the
franchisor's headquarters. Few franchisees
can easily afford to defend or prosecute their
actions in another state. The author of AB
1920 contends that these contractual provisions put the California franchisee at a great
disadvantage in pursuing meritorious actions
against a franchisor. Moreover, he asserts,
these provisions are usually part of the standard contract which the franchisee is offered
on a "take-it or leave-it" basis. In the absence
of arms length negotiations and equal bargaining position, such terms are usually
unconscionable. The author asserts that it is
in the state’s interest and powers to void such
contractual terms to protect its residents.
(RJN ¶ 1, Ex. A.)
While the Legislature’s stated need for the statute
was ostensibly to protect California-based franchisees
from costly out-of-state litigation, the discriminatory
purpose of Section 20040.5 is apparent nonetheless.
Section 20040.5 is premised on a presumption that
non-California forum-selection clauses necessarily
evince inequality in bargaining power. However, this
consideration is irrelevant to the enforceability of a
forum-selection clause under federal law. Murphy, 362
F.3d at 1141. Section 20040.5 therefore deprives outof-state franchisors, which are more likely to litigate
in federal court with California franchisees than are
California franchisors, from the protections of federal

63a
law in diversity cases. The statute therefore holds the
potential to wreak havoc on out-of-state franchisors’
“interest of uniformity in franchise operations”
because there is no assurance that the same laws,
court rules and regulations will apply to their franchise agreements. 1-800-Got-Junk? LLC, 189 Cal.
App. 4th at 515. California franchisors, whose contracts would typically be governed by California law
and interpreted by California courts, thus derive a
competitive advantage over out-of-state franchisors
insofar as they are able to rely on consistent judicial
interpretations of their obligations as franchisors. See
Int’l Franchise Ass’n, 803 F.3d at 401 (“[S]tatutes
struck down for their impermissible purpose have contained language promoting local industry or seeking to
level the playing field.”).
The Legislature’s stated purpose of protecting
California franchisees could be served equally well by
non-discriminatory means. See Int’l Franchise Ass’n,
803 F.3d at 399. For instance, the Legislature could
have required franchisors to cover expenses incurred
by California franchisees which are unique to litigating in the forum designated by the forum-selection
clause. Such a requirement would protect California
franchisees from the expense of litigation outside of
California while placing California and out-of-state
franchisors on equal footing—California and nonCalifornia franchisors alike would be able to ensure
uniformity in their franchise operations by designating an appropriate forum, and, both would be required
to pay for the perceived benefit of ensuring that any
disputes would be litigated in a non-California forum.
In light of the foregoing, the Dormant Commerce
Clause should preclude application of Section 20040.5.

64a
c. Plaintiff Is Equitably Estopped From
Refuting The Forum-Selection Clause.
Finally, Plaintiff is equitably estopped from repudiating the forum-selection clause because his claims
are inherently intertwined with his Distributorship
Agreements and his purported employment relationship with the Defendants arising from them. “Equitable estoppel . . . precludes a party from claiming the
benefits of a contract while simultaneously attempting
to avoid the burdens that contract imposes.” Turner v.
Thorworks Indus., No. CIV S-05-02653 WBS KJM,
2006 U.S. Dist. LEXIS 21668, *9 (E.D. Cal. Mar. 28,
2006) (internal citations and punctuation omitted). In
Turner—a case initiated long after Section 20040.5
became effective—the court granted, in part, the defendants’ motion to dismiss for forum non conveniens
on account of an Ohio forum-selection clause in a
franchise agreement. Id. at *12-14. The California
franchisee plaintiffs alleged several claims arising
from their franchise agreement, including fraud and
breach of contract. Id. at *1-5. The court rejected the
plaintiffs’ argument that the Ohio forum-selection
clause was unenforceable, holding that the plaintiffs
could not seek to vindicate their rights under the
contract while at the same time purporting to reject
one of its terms. See id. at *9 (discussing Sunkist Soft
Drinks, Inc. v. Sunkist Growers, Inc., 10 F.3d 753, 757758 (11th Cir. 1993) (“The [Sunkist] court reasoned
that the plaintiff could not selectively rely on the
contract when convenient but disavow such reliance
when it became inconvenient.”). Because the plaintiffs
“asserted certain claims in the complaint that
necessarily [relied] upon the Franchise Agreement
and the relationships thereby created,” the court ruled
that the plaintiffs were bound by the Ohio forumselection clause with respect to those claims—despite

65a
the plaintiffs’ argument that the California Franchise
ws (Cal. Corp. Code §§ 31000 et seq.) warranted the
court’s retention of jurisdiction in order to protect
California citizens. Id. at *9-10, 12-13.
Turner’s rationale applies with equal force here.
Plaintiff’s claims arise from his Distributorship Agreements and his (purported) employment relationships
with Defendants as a consequence of those contracts.
Indeed, Plaintiff’s Complaint is rife with allegations
confirming that his claims are entirely dependent
upon his alleged misclassification as an independent
contractor pursuant to his franchise agreements. (E.g.,
Compl. ¶ 9 (“Plaintiff Fleming entered into Matco’s
form Distributor Agreement, under which he served as
a Matco Distributor.”), ¶¶ 15-19 (citing the Distributorship Agreements as evidence that distributors
purportedly “Perform Work Within Matco’s Usual
Course of Business And Are Not Engaged In An
Independent Trade, Occupation, or Business”), ¶¶ 2023 (citing the Distributorship Agreements as evidence
that Defendants have “All Necessary Control Over
The Manner And Means By Which Distributors
Perform Their Work”), ¶¶ 24-26 (citing the Distributorship Agreements as evidence that “Defendants
Dictate Distributors’ Appearance And Equipment”),
¶¶ 27-31 (citing the Distributorship Agreements as
evidence that Defendants require distributors to incur
business expenses), ¶¶ 32-33 (citing the Distributorship Agreements as evidence that Matco has “The
Right To Terminate Distributors For Virtually Any
Reason”).) But for Plaintiff’s Distributorship Agreements, and, his (purported) employment relationships
with Defendants, none of his claims in this lawsuit
would exist. Accordingly, because Plaintiff is invoking
the Distributorship Agreements to pursue his remedies against Defendants, he must pursue his claims in

66a
Ohio pursuant to the forum-selection clause. Turner,
2006 U.S. Dist. LEXIS 21668 at *9-14 (dismissing
claims which arose from franchise agreement pursuant to Ohio forum-selection clause). See also Cal. Civ.
Code § 3521 (“He who takes the benefit must bear the
burden.”).
d. Dismissal Or Transfer Is Necessary
To Uphold The Principal Purpose Of
The FAA: To Enforce Private
Arbitration Agreements According To
Their Terms.
Although neither Section 20040.5, nor any other
public policy, precludes enforcement of the forumselection clause, the parties’ binding agreement to
arbitrate in Ohio cannot be upheld unless this Court
dismisses Plaintiff’s case or transfers it to the Northern District of Ohio. This is so because the FAA
confines arbitration to the district in which a petition
to compel arbitration is filed. Textile Unlimited v. A.
BMH and Co., 240 F.3d 781, 785 (9th Cir. 2001) (citing
9 U.S.C. § 4). Defendants therefore cannot petition
this Court to order the parties to arbitrate in Ohio.
Dismissal or transfer is thus necessary to uphold the
“principal purpose of the FAA[:] to ensure that private
arbitration agreements are enforced according to their
terms.” AT&T Mobility LLC v. Concepcion, 563 U.S.
333, 344 (2011) (internal citation and punctuation
omitted). Indeed, only the Northern District of Ohio
can order the parties to arbitrate in Summit or
Cuyahoga Counties in Ohio. 9 U.S.C. § 4. For this
reason, Defendants ask the Court to dismiss or
transfer this case so that they may seek an order

67a
compelling arbitration within the Northern District of
Ohio.7
C. Public Interest Factors Weigh In Favor Of
Dismissal Or Transfer.
Because the forum-selection clause is mandatory,8
Plaintiff’s choice of forum is afforded no weight, and
the Court may only consider public interest factors in
deciding whether to enforce the forum-selection
clause. Atl. Marine Constr. Co., 134 S. Ct. at 582;
Balducci, 2017 U.S. Dist. LEXIS 154523 at *20;
Monastiero, 2014 U.S. Dist. LEXIS 67202 at *11-14.
Following the Supreme Court’s decision in Atl. Marine
Constr. Co., courts recognize that public interest
factors will “rarely defeat” a motion to transfer venue.
See Monastiero, 2014 U.S. Dist. LEXIS 67202 at *1314. The outcome should be no different here.

7

The Court should disregard any argument by Plaintiff that
the arbitration provision in his Distributor Agreements is
somehow unenforceable. The forum-selection clause also provides
that any court proceedings must occur in Ohio, and so Plaintiff
must pursue a civil lawsuit there if a court declines to order
arbitration. (Swanson Dec. ¶ 4, Ex. 1 at § 12.10; id. ¶ 5, Ex. 3 at
§ 12.10.)
8

There can be no dispute that the forum-selection clause is
mandatory. (See Swanson Dec. ¶ 4, Ex. 1 at § 12.10; id. ¶ 5, Ex. 3
at § 12.10 (“all arbitration hearings must and will take place
exclusively in Summit or Cuyahoga County, Ohio”) (“[a]ll court
actions, mediations or other hearings or proceedings initiated by
either party against the other party must and will be venued
exclusively in Summit or Cuyahoga County, Ohio”).) See S. Cty.
Prof’l Park, Ltd. v. Orchard Supply Co. LLC, No. 5:14-cv-02348PSG, 2014 U.S. Dist. LEXIS 100064, *8 (N.D. Cal. July 21, 2014)
(“Under Ninth Circuit authority, the phrase ‘shall be brought’ in
a forum selection clause makes the clause mandatory.”).

68a
1. The Northern District Of Ohio Is Far
Less Congested Than The Northern
District Of California.
As of March 31, 2018, there were 4,700 civil cases
pending in the Northern District of Ohio. (RJN ¶ 2, Ex.
B.) The Northern District of California, by comparison,
had 8,502 civil cases pending as of March 31, 2018.
(Id.) In addition, in its 2018 Annual Assessment, the
Northern District of Ohio reported that total civil case
filings decreased by 13.8% from 2016 to 2017. (Id. ¶ 3,
Ex. C.) The less crowded docket in the Northern
District of Ohio warrants dismissal, or, transfer, to
that forum.
2. The Local Interest Factor Is Neutral.
While California has an interest in this lawsuit
given that Plaintiff operated distributorships here,
“this interest is insufficient to prevent transfer in this
case.” Balducci, 2017 U.S. Dist. LEXIS 154523 at *23
(internal citation omitted). The State of Ohio has an
equivalent interest given that NMTC and Matco are
headquartered there, and, negotiated contracts containing Ohio choice of law and forum-selection clauses.
(Swanson Dec. ¶¶ 3-5, Ex. 1 at §§ 12.10 and 13.3, Ex.
3 at §§ 12.10 and 13.3.) Accordingly, this factor is
neutral and does not defeat the application of the
forum-selection clause. Balducci, 2017 U.S. Dist.
LEXIS 154523 at *23-24 (granting forum non conveniens motion; plaintiff’s choice of California forum
merited no weight and Colorado had a local interest in
the case); E.E.O.C. v. United Airlines, Inc., No. C 092469 PJH, 2009 U.S. Dist. LEXIS 130565, *15 (N.D.
Cal. Dec. 3, 2009) (“because the company’s headquarters and the Chicago O’Hare Airport are located
in Illinois, [the Northern District of Illinois] has a
greater local interest in this case”).

69a
3. The Northern District Of Ohio Is Capable
Of Applying Ohio Or California Law,
Regardless Of Which State’s Law Governs.
Plaintiff’s Distributorship Agreements specify that
Ohio law governs the rights of the parties. (Swanson
Dec. ¶ 4, Ex. 1 at § 13.3; id. ¶ 5, Ex. 3 at § 13.3.) Thus,
assuming Ohio law applies, this factor weighs in favor
of dismissal, or, a transfer.9 Glob. Quality Foods, Inc.,
2016 U.S. Dist. LEXIS 107121 at *26-27 (“This factor
too weighs in favor of enforcing the forum-selection
clause. [. . .] This court is certainly capable of applying
Ohio law, but it has no particular familiarity therewith.”) (internal citation and punctuation omitted).
However, even if California law applies (which it does
not), the Northern District of Ohio remains an appropriate forum because “federal judges routinely apply
the law of a State other than the State in which they
sit.” Balducci, 2017 U.S. Dist. LEXIS 154523 at *23
(quoting Atl. Marine Constr. Co.) (transferring case to
Colorado pursuant to forum non conveniens doctrine).
This factor is thus neutral and cannot defeat the
instant motion.
VI. CONCLUSION
The forum-selection clause requiring Plaintiff to
arbitrate his claims against Defendants in Ohio is
valid and enforceable. However, this Court cannot
compel the parties to arbitrate in Ohio as required by
Plaintiff’s Distributorship Agreements. Accordingly,
9

Courts within the Ninth Circuit typically consider choice of
law provisions irrelevant to the determination of whether a
forum-selection clause is enforceable. Balducci, 2017 U.S. Dist.
LEXIS 154523, *13-14 (collecting cases). Plaintiff therefore cannot defeat the instant motion by reference to the Ohio choice of
law provisions in his Distributorship Agreements.

70a
for the reasons set forth above, Defendants respectfully request that the Court grant this motion, and
dismiss Plaintiff’s Complaint, or, alternatively transfer this matter to the Northern District of Ohio, pursuant to the doctrine of forum non conveniens.
DATED: February 19, 2019
Respectfully submitted,
SEYFARTH SHAW LLP
By:
/s/ Eric M. Lloyd
Christian J. Rowley
Matthew A. Goodin
Eric M. Lloyd
Attorneys for Defendant
MATCO TOOLS CORPORATION,
NMTC, INC. and FORTIVE
CORPORATION

71a
APPENDIX J
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
————
Case No. 3:19-cv-00463-WHO
————
JOHN FLEMING, on behalf of himself and
all others similarly situated,
Plaintiff,
v.
MATCO TOOLS CORPORATION, a Delaware corporation;
NMTC, INC. d/b/a MATCO TOOLS,
a Delaware corporation, FORTIVE CORPORATION,
a Delaware corporation; and DOES 1-20, inclusive,
Defendant.
————
Date: April 3, 2019
Time: 2:00 p.m.
Dept: Courtroom 2, 17th Floor
Judge: Honorable William H. Orrick
Complaint Filed: January 25, 2019
————
SEYFARTH SHAW LLP
Christian J. Rowley (SBN 187293)
crowley@seyfarth.com
Matthew A. Goodin (SBN 169674)
mgoodin@seyfarth.com
Eric Lloyd (SBN 254390)
elloyd@seyfarth.com
560 Mission Street, 31st Floor
San Francisco, California 94105
Telephone: (415) 397-2823 Facsimile: (415) 397-8549
Attorneys for Defendants Matco Tools Corporation,
NMTC, Inc. And Fortive Corporation

72a
DECLARATION OF MIKE SWANSON IN
SUPPORT OF DEFENDANTS’ MOTION TO
DISMISS, OR, IN THE ALTERNATIVE,
TRANSFER VENUE TO THE U.S. DISTRICT
COURT FOR THE NORTHERN DISTRICT OF
OHIO [FORUM NON CONVENIENS]
I, Mike Swanson, declare as follows:
1. I am over the age of 18, and I make this
Declaration based upon my own personal knowledge,
and if called upon, I could and would testify competently to the facts stated herein.
2. I am the Director of Franchise Programs and
Development for Matco Tools Corporation (“Matco”)
and work in the company’s Stow, Ohio headquarters.
I started with Matco in May of 1988. In my capacity,
my duties include writing and/or approving the various programs, processes and SOPS for our Distributors
and Field Management, as well as being the Compliance
Officer. I also have access to the distributor agreements into which Matco has entered with its
California-based distributors and am familiar with
Matco’s California-based distributors. In addition, my
responsibilities require me to be familiar with the
organizational and operational structure of Matco.
3. Matco, which is headquartered in Stow, Ohio,
markets high quality, durable and innovative mechanic
repair tools, diagnostic equipment and toolboxes.
Matco contracts with franchisees who sell Matco’s
products in designated geographic areas through
their “mobile stores.” Prior to June 3, 2016, Matco was
known as NMTC Inc., d/b/a Matco Tools (“NMTC”).
Fortive Corporation, which is headquartered in Everett,
Washington, is the corporate parent of Matco.

73a
4. John Fleming entered into a distributorship agreement with NMTC in July 2012. A true and correct copy
of Mr. Fleming’s July 2012 distributorship agreement
is attached hereto as Exhibit 1. Mr. Fleming’s July
2012 distributorship agreement was amended in
October 2013 and November 2016. A true and correct
copy of the October 2013 and November 2016 amendments to Mr. Fleming’s July 2012 distributorship
agreement is attached hereto as Exhibit 2. Mr.
Fleming’s July 2012 distributorship agreement was
not amended, modified or extended after December 31,
2016. Mr. Fleming terminated his July 2012 distributorship agreement in December 2018.
5. Mr. Fleming entered into an additional distributorship agreement with NMTC in October 2013. A
true and correct copy of Mr. Fleming’s October 2013
distributorship agreement is attached hereto as
Exhibit 3. Mr. Fleming terminated his October 2013
distributorship agreement in September 2015.
6. Mr. Fleming completed a document called a
“Distributor Disclosure Questionnaire” in connection
with each of his Distributorship Agreements. True
and correct copies of Mr. Fleming’s 2012 and 2013
Distributor Disclosure Questionnaires are attached
hereto as Exhibits 4 and 5 respectively.
7. Both of Mr. Fleming’s distributorships operated
in the Monterey, California area. All of Mr. Fleming’s
customers and potential customers were based in
California. In connection with the operation of his
distributorships, Mr. Fleming purchased tools from
NMTC (and its successor entity, Matco) which he then
sold to his customers.
I declare under the penalty of perjury under the
laws of the State of Ohio and the United States of

74a
America that the foregoing is true and correct. Executed
this 19th day of February, 2019, in Stow, Ohio.
DocuSigned by:
Mike Swanson
/s/ Mike Swanson

75a
EXHIBIT 1
MATCO TOOLS
DISTRIBUTORSHIP AGREEMENT
This Distributorship Agreement (this “Agreement”)
is entered into by and between NMTC, Inc. d/b/a Matco
Tools (“Matco”), a Delaware corporation, and John M.
Fleming (the “Distributor” or “you”).
RECITALS
Matco is the manufacturer and distributor of quality
tools, tool boxes, and service equipment, and has
developed a distinctive business system relating to the
establishment and operation of Matco mobile distributorships that sell tools, tool boxes, service equipment,
and other goods and services, including, without limitation, apparel, model cars and other collectible items,
and consumables (such as mechanic’s hand soaps), and
such other items that Matco may in its sole discretion
offer (collectively, the “Products”) to professional mechanics and other businesses which operate from a single
location and purchase tools for their own use (the
“Business System”).
The Business System is identified by means of certain
trade names, service marks, trademarks, logos, and
emblems, including, the trademarks and service marks
“MATCO®” and MATCO® TOOLS (the “Marks”).
Matco desires to appoint the Distributor as an authorized Matco mobile distributor to sell and service
the Products in a certain geographic area and the
Distributor desires to serve in such capacity.
The Distributor desires to operate a Matco mobile
distributorship in accordance with the Business System
and the other standards and specifications established
by Matco, including requirements for regular weekly

76a
customer sales calls, minimum inventory and sales
levels, communications and computer software usage
and other operating requirements.
In consideration of the mutual promises contained
in this Agreement, the Distributor and Matco agree
and contract as follows:
ARTICLE 1
APPOINTMENT OF DISTRIBUTOR
1.1 Grant of Distributorship. Matco grants the
Distributor the right, and the Distributor undertakes
the obligation, on the terms and conditions set forth in
this Agreement, to purchase, resell, and service the
Products as a Matco mobile distributor under the
Business System (the “Distributorship”).
1.2 List of Calls and Potential Customer List. The
Distributor will operate the Distributorship only at
those locations identified as potential stops along the
Distributor’s proposed route (the “List of Calls”) and in
the list of Potential Customers (defined in Section
13.6) (the “Potential Customer List”). The List of Calls
and Potential Customer List are identified and attached
to this Agreement as Exhibit A. Unless the List of
Calls and Potential Customer List is adjusted or
modified by Matco and the Distributor, the Distributor
may not offer or sell Products to any person, business,
entity or other Potential Customer, other than those
identified in the List of Calls. The Distributor acknowledges that: (A) as of the date of this Agreement there
are a minimum of three hundred twenty-five (325)
Potential Customers, the location of which will be
identified on the List of Calls, (B) there can be no
assurance that the Potential Customers identified in
the List of Calls will actually become Customers
(defined in Section 13.6) of the Distributor, and (C) the

77a
number of Potential Customers identified on the List
of Calls may increase or decrease after the date of
this Agreement due to a variety of reasons, which may
include economic changes, competition, sales and
service from the Distributor, businesses that close
or reduce staffing levels, and other reasons. Matco is
under no obligation to supplement the List of Calls
with additional stops or Potential Customers in the
event the number of Potential Customers declines. It
is important that you review your List of Calls to make
sure you are satisfied with it before you sign your
Distributorship Agreement. We therefore encouraged
you to ride through your List of Calls and identify all
of your shops and Potential Customers before you
signed this Agreement. It is and was your responsibility to perform this due diligence. However, if you
requested, a Matco representative was made available
to ride with you to assist with this process and answer
any questions you might have had. Prior to or in conjunction with your signing this Agreement, you also
must sign a Ride Along Acknowledgement that you
either did a ride through of your List of Calls or chose
not to do so.
1.3 Exclusive Rights. The Distributorship is a
business which operates principally from a vehicle,
and which is authorized to resell the Products to
potential purchasers identified on the List of Calls
with Potential Customers. Except as permitted under
Section 1.4, and for so long as the Distributor is in
compliance with this Agreement, Matco will not operate,
or grant a license or franchise to operate, a Matco
mobile distributorship that will be authorized to sell
Products to any Potential Customers identified on the
Distributor’s List of Calls, if such Customers purchase
Products at or from the business located and identified
on the List of Calls.

78a
1.4 Rights Reserved by Matco. The Distributor
acknowledges and agrees that except for the rights
expressly granted to the Distributor and provided
herein, Matco retains all rights to sell, and license or
authorize others to sell, Products to any customers, at
any location, and through any channels or methods
of distribution. Without limiting the foregoing, Matco
retains the following rights, on any terms and conditions Matco deems advisable, and without granting
Distributor any rights therein:
1.4.1 Matco, and any affiliates, licensees or franchisees of Matco, if authorized by Matco, will have
the absolute right to sell the Products, directly or
indirectly, or through non-mobile distributors, including commercial sales representatives, (A) to industrial
customers, industrial accounts, and owners of vehicle
repair businesses (including businesses, entities,
governmental agencies, and others, including those
which may be listed on the Distributor’s List of
Calls, but excluding the Potential Customers) who
(i) have central purchasing functions, or (ii) may
purchase and/or acquire special order products
designed for multiple-party use, which are not
included as part of Matco’s regular or special purchase inventory list, or (iii) may purchase Products
through a bidding process, such as railroads, airlines,
manufacturers, governmental agencies and schools,
(B) to industrial and multiple-line and multiple
brand wholesale distributors who may resell such
Products to any potential purchaser or customer,
including the Customers; and (C) to vocational and
training schools and programs, and to the students
and employees of such schools and programs.
1.4.2 Matco, and any affiliates, licensees or
franchisees of Matco, if authorized by Matco, will

79a
have the absolute right to sell the Products through
(A) mail orders, telephone orders, and the use of
catalogs distributed to potential customers (including
Distributor’s Potential Customers and Customers),
(B) any current or future means of electronic commerce, including the Internet and Matco’s website,
and (C) at special and/or temporary venues (including race tracks, and other motor sports events).
1.4.3 Matco, and any present or future affiliates
of Matco, may manufacture and/or sell products that
are the same as or similar to the Products, and
Matco’s present or future affiliates may sell such
products directly, or indirectly through wholesalers,
suppliers, distributors or others, to potential
customers who are the same as or similar to the
Distributor’s Potential Customers and Customers.
Matco and the Distributor acknowledge and agree
that Matco has no control over the sales or distribution methods or operations of its affiliates, and that
Matco has no liability or obligations to the Distributor due to any sales or distribution activities of
Matco’s affiliates.
1.5 Understandings and Acknowledgments. Matco
and the Distributor acknowledge and agree that Matco
shall have no liability or obligation to the Distributor
if any Customer or Potential Customer of the Distributor purchases or receives Products or competitive
products through any method or channel of distribution described in Section 1.4, or otherwise reserved to
Matco. Further, the Distributor and Matco acknowledge and agree that notwithstanding Section 1.3, Matco
has in the past granted (A) distributorships that do
not have any territorial restrictions or limitations on
the distributor, and (B) distributorships that have
territories in which the distributor is not limited to

80a
selling Products to a specified number of customers.
Matco shall use its reasonable efforts to deter such
distributors, and other distributors, from selling
Products to Potential Customers on the List of Calls,
but Matco cannot and does not provide the Distributor
with any guaranty or assurance that such distributors
will not offer and sell Products to the Distributor’s
Potential Customers.
1.6 Spouse. Matco, Distributor, and Spouse (defined
below) acknowledge and agree that Matco has granted
the rights under this Distributorship Agreement to
Distributor based in part on Distributor’s application
and Distributor’s promise and covenant that the person identified on the signature page of this Agreement
as “Distributor,” will operate the Mobile Store and
conduct the daily operations of the Distributorship.
Distributor has designated the person identified on
the signature page of this Agreement as “Spouse,” as
the person who will assist Distributor with certain
aspects of the operation of the Distributorship. Matco,
Distributor, and Spouse further acknowledge and
agree that both Distributor and Spouse are liable for
the financial obligations and debts of Distributor and
the Distributorship, and are responsible individually
for compliance with this Agreement and for causing
Distributor to comply with this Agreement. Without
limiting the foregoing, Distributor and Spouse acknowledge and agree to be ‘individually bound by all of the
terms of this Agreement, including, in particular,
those contained in Section 3.11, Article 9, Section 11.9,
and Article 12.

81a
ARTICLE 2
TERM OF AGREEMENT; DISTRIBUTOR’S
OPTION TO REACQUIRE DISTRIBUTORSHIP
2.1 Term. The term of this Agreement will be for ten
years, commencing on the date of this Agreement (the
“Term”). This Agreement will not be enforceable until
it has been signed by both the Distributor and Matco.
2.2 Distributor’s Option to Reacquire Distributorship.
At the end of the Term of this Agreement, the Distributor will have the right, at his option, to reacquire the
Matco Distributorship, and execute a successor Distributorship Agreement, to serve the existing Customers identified in Exhibit A, for an additional ten year
period, provided the Distributor complies in all respects with the following conditions: (A) the Distributor has given Matco written notice at least one
hundred eighty days, but not more than one year, prior
to the end of the Term of ibis Agreement of his
intention to reacquire the Matco Distributorship; (B)
the Distributor has complied with all of the material
terms and conditions of this Agreement, has materially complied with Matco’s operating and quality
standards and procedures, and has timely paid all
monetary obligations owed to Matco throughout the
Term of this Agreement; (C) the Distributor has been
in strict compliance with this Agreement and the
policies and procedures prescribed by Matco for (i) the
six-month period prior to the Distributor’s notice of its
intent to reacquire a successor Matco Distributorship,
and (ii) the six-month period prior to the expiration of
the Term of this Agreement; (D) the Distributor has
agreed, in writing, to make the reasonable capital
expenditures necessary to update, modernize, and/or
replace the Mobile Store and equipment used by
him in his Matco business to meet the then-current

82a
specifications and the general image portrayed by the
Matco Business System; (E) the Distributor agrees
to sign and comply with the then-current standard
Distributorship Agreement then being offered to new
distributors by Matco at the time the Distributor
elects to exercise his option to reacquire the Matco
Distributorship; and (F) the Distributor and Matco
have signed a joint and mutual general release of all
claims each may have against the other.
ARTICLE 3
DISTRIBUTOR’S DUTIES AND OBLIGATIONS
3.1 Promotion of Distributorship. The Distributor
will on a full-time basis diligently promote, market,
and work to increase Product sales, to increase the
Customer base, and to provide quality service and
warranty support to the Customers.
3.2 Restrictions on Sales. The Distributor will only
sell Products and other merchandise approved by
Matco, and will not sell any products, tools, equipment
or other merchandise which are competitive with any
of the Products, except for items that are traded-in
by the Distributor’s Customers, without Matco’s prior
written consent. Further, the Distributor shall not
offer for sale, sell, or distribute any product not
approved in advance by Matco (including, for example,
hazardous materials, pornographic materials, or products not related to the Distributor’s business) and shall
discontinue the offer, sale, or distribution of products
promptly upon notice from Matco. The Distributor may
not operate the Distributorship or sell any Products to
any person, entity, or business, or at any location not
identified on the Potential Customer List, even if such
Potential Customer or location is adjacent to, or near,
a location on the Distributor’s List of Calls or Potential

83a
Customer List, nor may the Distributor sell Products
to any Customer of the Distributor who moves to a
location or business not identified on the Potential
Customer List.
3.3 Inventory. The Distributor will (i) at all times
maintain a minimum inventory of Products equal to or
in excess of the New Distributor Starter Inventory;
(ii) on a weekly basis, purchase Products from Matco
in an amount not less than (a) 80% of the “National
Distributor Purchase Average” (or “NDPA”), or (b) 80%
of the “District Distributor Purchase Average” (or
“DDPA”) for the Distributor’s district, whichever is
lower, based on Distributor’s 12-month rolling average,
or, if Distributor has been operating the Distributorship for less than 12 months, based on Distributor’s
year-to-date average; and (iii) maintain a minimum of
a 60% ratio of a calculation of the Distributor’ s yearto-date purchase average divided by the Distributor’s
year-to-date sales average.
3.4 Weekly Customer Sales Calls and Sales Meetings.
To ensure high quality service, the Distributor will
make personal sales calls to each of the stops, shops or
locations on the Distributor’s List of Calls every week.
The Distributor will also attend at least 80% of district
sales meetings that Matco schedules in or for Distributor’s district each year for its distributors and district
managers. Matco expects to schedule a district sales
meeting approximately once every five weeks, provided, however, that Matco may modify the frequency
and timing of the meetings upon prior notice. Failure
to comply with the weekly sales calls requirements or
sales meeting requirements described in this Section
3.4 shall be a material default under this Agreement,
and shall be grounds for termination under Section
11.3. If the Distributor fails to make personal sales

84a
calls to each shop, stop, or location on the List of Calls
at least weekly, or if the Distributor fails to attend at
least 80% of the district sales meetings in any 12month period, then Matco may, in lieu of termination
of this Agreement, terminate, reduce, or modify in
all respects the Distributor’s exclusive rights under
Section 1.3 of this Agreement, immediately upon written notice from Matco to Distributor, and Matco will
have the absolute right to adjust the territory, the List
of Calls or Potential Customers accordingly or appoint
or permit one or more other distributors to sell
Products to the Distributor’s Potential Customers, or
to sell directly or indirectly, itself or through affiliate,
Products to the Distributor’s Potential Customers.
3.5 Time Payment Reserve Account. Matco acknowledges having received from the Distributor a deposit
for the Distributor’s Time Payment Reserve Account
in the amount designated by Matco, which will be
administered in accordance with Matco’s Time Payment
Reserve Account policies.
3.6 Mobile Store; Uniforms. The Distributor must
purchase or lease a Mobile Store, of the type and from
a dealer or supplier approved by Matco, prior to beginning operations of the Distributorship. The Distributor
will use the name MATCO TOOLS®, the approved
logo and all colors and graphics commonly associated
with the Matco Business System on the Mobile Store
in accordance with Matco’s specifications. The Distributor will keep the interior and exterior of the
Mobile. Store in a clean condition and will keep the
Mobile Store in good mechanical condition. The Mobile
Store must be used solely for the operation of the
Distributor’s Matco business. The Distributor must
wear Matco-approved uniforms, as prescribed by Matco
periodically, while operating the Distributorship. The

85a
Distributor is required to maintain a professional
appearance at all times and be clean and well groomed
while making calls on Potential Customers.
3.7 Computer; Software; Data. The Distributor will
purchase or lease a new (not previously owned or
refurbished) computer system that complies with the
specifications established by Matco (and that Matco
may update periodically), will sign the Matco Distributor Business System Software License, Maintenance
and Support Agreement (the “Software License Agreement”) (Exhibit O) as may be modified from time to
time, and will pay the required software license fees
and annual maintenance support fee set forth in the
Software License Agreement. The Distributor shall
comply with all of Matco’s standards and specifications
for computer hardware, software, and communications,
and the Distributor shall update its computer hardware, software, and communications to comply with
any new or changed standards or specifications
established by Matco. The Distributor agrees to use
all of the features of the Matco software in operating
the Distributorship, including, without limitation, the
order entry, inventory, accounts receivable and reporting features. The Distributor will communicate with
Matco, and will transmit to, and receive documents
from, Matco, electronically, in the manner specified by
Matco in the Manual (defined below) or as directed
by Matco through the Matco Distributor Business
System. Except for the Matco Distributor Business
System software, the Distributor will have sole and
complete responsibility for: (a) the acquisition, operation, maintenance and upgrading of the computer
system in order to maintain compliance with Matco’s
current standards as they may be modified from time
to time; (b) obtaining and maintaining access to the
Internet through a subscription with an Internet ser-

86a
vice provider or a then-current technologically capable
equivalent in accordance with Matco’ s standards
(which is currently high-speed Internet access through
cable, DSL, or high-speed cellular); (c) the manner in
which the Distributor’s system interfaces with Matco’s
computer system and those of other third parties;
and (d) any and all consequences that may arise if
the Distributor’s system is not properly operated,
maintained, and upgraded. All data provided by the
Distributor, uploaded to Matco’s system from the
Distributor’s system, and/or downloaded from the
Distributor’s system to the Matco system is and will
be owned exclusively by Matco, and Matco will have
the right to use such data ,in any manner that
Matco deems appropriate without compensation to the
Distributor. In addition, all other data created or
collected by Distributor in connection with the Matco
Distributor Business System, or in connection with the
Distributor’s operation of the business, is and will be
owned exclusively by Matco during the term of, and
following termination or expiration of, the Agreement.
Copies and/or originals of such data must be provided
to Matco upon Matco’s request.
3.8 Matco Business System Training (MBST)
Program. The Distributor must successfully complete
the “Matco Business System Training (MBST)
Program,” as defined in Section 4.1, before operating
the Distributorship. If the Distributor owns more than
one Matco Distributorship, then the Matco Business
System Training (MBST) Program must be successfully completed by the Operator who will operate
the Distributorship to which this Agreement relates
before the Distributorship opens for business. Matco
may provide additional training and certification for
its distributors from time to time and the Distributor
(and the Operator, if applicable) will attend this

87a
training and will complete the certification procedures
designated by Matco. At its option, Matco may require
distributors to pay all or some portion of the cost of
providing any such future additional training and/or
certification procedures.
3.9 Compliance with Laws. The Distributor and all
of his employees will comply with all federal, state and
local laws, ordinances, rules, orders and regulations
applicable to the operation of the Distributorship,
including all traffic and safety regulations. The
Distributor will file all federal and state tax returns
and will timely pay all federal withholding taxes,
federal insurance contribution taxes, and all other
federal, state, and local income, sales and other taxes.
3.10 Compliance with Manual. The Distributor will
operate the Distributorship in conformity with the
operating procedures and policies established in the
Matco Confidential Operating Manual (the “Manual”),
or otherwise in writing. Matco will loan the Distributor a copy of the Manual when the Distributor
begins the Matco Business System Training (MBST)
Program. Matco reserves the right to provide the
Manual electronically or in an electronic or computerreadable format, for example, via the Matco Distributor Business System or another method, or on a CD.
3.11 Payment Obligations. The Distributor will timely
pay all amounts owed to Matco for Product purchases
and under any credit agreement, promissory note, or
other agreement relating to the Distributorship. All
payments shall be made in accordance with Matco’s
instructions and Operations Manual, including payments by telephone and electronic funds transfer, as
described in Section 6.4 below.

88a
3.12 Management of Distributorship. The Distributor
will be responsible for managing all aspects of the
Matco Business, including sales, collection of accounts
receivable, purchases, inventory management, and
hiring of Operators, if permitted by Matco. The
Distributor may not hire Operators, managers or
drivers, or delegate any of his/her duties and obligations under this Agreement, unless approved in writing,
in advance, by Matco. Notwithstanding our Business
System standards, some of which address safety,
security, and related matters, these matters are solely
within the Distributor’s control, and the Distributor
retains all responsibility for these matters in the
operation of the Distributorship.
3.13 Matco’s Inspection Rights. The Distributor
will: (A) permit Matco and its agents to inspect the
Distributor’s Mobile Store and observe the Distributor’s business operations at any time during normal
business hours, (B) cooperate with Matco during any
inspections by rendering such assistance as Matco
may reasonably request, and (C) immediately, upon
written notice from Matco, take the steps necessary to
correct any deficiencies in the Distributor’s business
operations.
3.14 Use of the Internet. The Distributor specifically acknowledges and agrees that any Website (as
defined below) will be deemed “advertising” under this
Agreement, and will be subject to (among other things)
Matco’s approval under Section 7.4 below. (As used in
this Agreement, the term “Website” means an interactive electronic document, contained in a network of
computers linked by communications software, that
the Distributor operates or authorizes others to operate
and that refers to the Distributorship, the Marks,
Matco, and/or the Business System. The term Website

89a
includes, but is not limited to, Internet and World
Wide Web home pages.) In connection with any Website,
the Distributor agrees to the following:
3.14.1 Before establishing the Website, the Distributor will submit to Matco a sample of the
Website format and information in the form and
manner Matco may reasonably require.
3.14.2 The Distributor may not establish or use
the Website without Matco’s prior written approval.
3.14.3 In addition to any other applicable requirements, the Distributor must comply with Matco’s
standards and specifications for Websites as prescribed by Matco from time to time in the Manual
or otherwise in writing. If required by Matco, the
Distributor will establish its Website as part of
Matco’s Website and/or establish electronic links to
Matco’s Website. As of the date of this Agreement,
Matco has established a Website for the entire
system, and has offered Distributor a web page
(or subpage) on Matco’s Website. Distributor shall
execute Matco’s “Matco Tools Web Page Agreement”
(attached as Exhibit Q hereto), which permits Distributor to have its own subpage on Matco’s website.
Distributor shall pay all appropriate fees under the
Matco Tools Web Page Agreement, and shall comply
with Matco’s web policies as they may be modified
from time to time.
3.14.4 If the Distributor proposes any material
revision to the Website or any of the information
contained in the Website, the Distributor must
submit each such revision to Matco for Matco’s prior
written approval as provided above.
3.15 Substance Abuse and Drug Testing. The Distributor acknowledges and agrees that driving a

90a
Mobile Store in an unsafe manner, or under the
influence of alcohol or illegal drugs is potentially
hazardous to the Distributor and to third parties,
may cause physical injury to the Distributor and/or to
third parties, and is a violation of law and a violation
of Matco policies. In addition, such actions, and/or
illegal or unauthorized operation of the Mobile Store
and/or the Distributorship, may injure or harm the
Marks and the goodwill associated with the Marks.
The Distributor agrees not to drive or operate the
Mobile Store under the influence of alcohol or illegal
drugs and not to use or ingest illegal drugs at any time.
Matco may, from time to time, upon notice to the
Distributor and subject to compliance with applicable
law, require that the Distributor submit to, and undergo
periodic or random drug and/or alcohol testing at a
facility, clinic, hospital or laboratory specified by Matco,
at a reasonable distance from the Distributor’s home,
within the time period specified by Matco, which shall
not be less than two (2) days, nor more than five (5)
days following Matco’s notice. Matco will bear the cost
of any testing or lab fees. The Distributor’s failure to
submit to the testing, or the failure to pass the testing
and analysis, will be grounds for immediate termination of the Distributorship, upon notice from Matco.
3.16 Computer Transactions. The Distributor must
use his/her/its best efforts to timely and accurately
enter and maintain, in its entirety, all business pertinent data on the MDBS business system relative to
the operation of the Distributorship, including but not
limited to customer data, product data, sales, returns,
warranty and payments. Transactions must be completed in strict compliance with Matco’s standards,
specifications and procedures, and any unauthorized
adjustments, or non-compliant use or recordation of

91a
transactions (or failure to accurately record transactions), are prohibited.
3.17 Document Processing. In consideration of
Matco’s time and expense to prepare franchise and
financial documents in connection with Distributor’s
execution of this Agreement and related documents,
and if necessary, for Matco to file such documents with
appropriate government agencies, Distributor must
pay Matco a document processing fee of $99, on or
before signing the Agreement.
3.18 Late Fee. The Distributor must pay for all
Product purchases, and all charges, fees and other
amounts in a timely manner, as required by this
Agreement and any related or ancillary documents or
agreements. Product purchases and other fees and
charges will be charged to the Distributor’s Open
Purchase Account (“OPA”). If the Distributor fails to
make a payment within 21 days of the date of an
invoice from Matco, Distributor’s OPA will be deemed
delinquent. Matco may assess a late fee of 5% of the
overdue balance per week, with a maximum late fee,
per week, of $100.
ARTICLE 4
MATCO’S DUTIES
4.1 Matco Business System Training (MBST)
Program. Matco will provide a classroom training
program to the Distributor and, if applicable, the
Operator, in Stow, Ohio, or at such other location as
may be designated by Matco, to educate, familiarize
and acquaint the Distributor and the Operator with
the Matco Business Systems. The training will include
instruction (and, in some instances, may include training by videotape, computer-based training modules, or
interactive video) on basic business procedures, pur-

92a
chasing, selling and marketing techniques, customer
relations, basic computer operations, and other business and marketing topics selected by Matco. After
completion of the classroom training, hands-on training on the Distributor’s Mobile Store will be provided
by Matco. The classroom training at Stow, or other
designated location, together with the on-the-truck
training comprises Matco’s “‘Matco Business System
Training (MBST) Program.” The Distributor and the
Operator must successfully complete the classroom
training prior to commencing business operations. The
classroom training will be scheduled by Matco in its
sole discretion and will be for a minimum of seventy
hours. The Distributor must pay lodging and travel
costs for attendance at the classroom training program. Currently, Matco has negotiated group lodging
and meal accommodations and rates for distributors
while attending the classroom training program. Lodging
is located near Matco’s headquarters, Cleveland Hopkins
International Airport, and/or Akron-Canton Regional
Airport. The Distributor will be responsible for all
expenses (except for scheduled travel to and from the
airport and for daily travel to and from Matco’s headquarters) incurred during classroom training programs.
Lodging and meal costs will be billed directly to the
Distributor’s Open Purchase Account. If the Distributor
or initial Operator elects to bring their respective
Spouse, Matco will charge a flat fee in the amount of
two hundred ninety-five dollars ($295.00) for food,
lodging, and local transportation. The Distributor will
pay all other expenses incurred by the Distributor, the
Operator, and, if applicable, their Spouse(s), in
connection with the attendance and/or participation of
the Distributor and the Operator in Matco’s Matco
Business System Training (MBST) Program, including the Operator’s salary and fringe benefits.

93a
4.2 Field Training. Following the Distributor’s successful completion of the classroom portion of Matco’s
Matco Business System Training (MBST) Program, a
regional trainer, and/or a regional or district manager
designated by Matco (the ‘Designated Trainer”) will
assist and advise the Distributor in the operation of
his Matco business for a minimum of eighty hours
over a six-week period. This assistance may include
approximately one week of training prior to or after
the Distributor’s classroom training, approximately
one week of training during the period that the
Distributor commences sales activity, in conjunction
with the Distributor’s initial sales calls to Potential
Customers and locations identified on the List of Calls
and Potential Customer List, and a final phase of
training during a period following the Distributor’s
first week of operations. The Designated Trainer will
make sales calls with the Distributor and will provide
training and assistance to the Distributor relating to
purchasing, selling and marketing techniques, customer
relations, computer operations, Product knowledge
and other topics relating to the Distributor’s operation
of the Distributorship.
4.3 Periodic Meetings. Matco will schedule periodic
meetings with Matco personnel and other distributors
for additional training, Product updates and business
seminars. The Distributor must attend at least 80% of
the Matco-scheduled district sales meetings for its
district in any 12-month period.
4.4 Hiring of New Operator. In the event the
Distributor desires to hire an Operator to operate an
additional Mobile Store, the Distributor must notify
Matco of such intent, and obtain Matco’s prior written
authorization and approval to hire or engage an
Operator. If the new Operator has not successfully

94a
completed the Matco Business System Training
(MBST) Program prior to hiring by the Distributor,
then the new Operator will be required to successfully
complete the Matco Business System Training (MBST)
Program prior to operating the Distributorship. Matco
will not charge a training fee for training the new
Operator, but the Distributor will pay all travel, room
and board, living and other expenses in connection
with the new Operator’s attendance and/or participation in Matco’s Matco Business System Training
(MBST) Program. Additionally, the Distributor will
pay the Operator’s salary and fringe benefits.
ARTICLE 5
THE PARTIES’ RELATIONSHIP
5.1 Independent Contractor. The Distributor is and
will hold himself out to be an independent contractor,
and not an agent or employee of Matco. The Distributor is not authorized: (A) to sign in the name of Matco
(or on its behalf) any contract, check, note, or written
instrument; (B) to pledge the credit of Matco; (C) to
bind or obligate Matco in any way; or (D) to make any
promise, warranty, or representation on Matco’s behalf
with respect to the Products or any other matter,
except as expressly authorized in writing by Matco.
5.2 Financial Records and Reports. The Distributor
will keep complete and accurate books, records, and
accounts of all financial and business transactions and
activities relating to the Distributorship, and will
permit Matco and its representatives to audit the
books, records and accounts during regular business
hours during the Term of this Agreement and for
one year after termination or expiration of this
Agreement. The Distributor’s books, records and
accounts will be in the form designated by Matco, and

95a
the Distributor will use the chart of accounts
designated by Matco for all financial statements. The
Distributor will submit to Matco, on a weekly basis,
such business reports as Matco may designate in
writing. Matco may request that the Distributor
provide to Matco, within 90 days of the Distributor’s
fiscal year end, a physical inventory which must be
verified by a Matco District Manager, and an annual
financial statement prepared in a format that Matco
may designate. Once a physical inventory is completed, Distributor must adjust his books and MDBS
reports to reflect the verified physical inventory numbers. Matco may require that the financial statements
include a profit and loss statement, a balance sheet,
a cash flow statement and/or other information.
Depending upon Distributor’s overall business health
and compliance with the terms and conditions of this
Agreement, Matco may waive this physical inventory
requirement and/or may extend the frequency to a biannual basis. The Distributor must properly register
for its/his/her sales tax filing in its/his/her appropriate
state and provide Matco with a properly executed
exemption certificate.
5.3 Insurance. The Distributor will purchase and
maintain comprehensive general liability insurance
covering bodily injury and property damage with
minimum coverage of $2,000,000, and vehicle liability
insurance coverage for the Mobile Store with minimum
coverage of S2,000,000, insuring both the Distributor
and Matco against any loss, liability, damage, claim or
expense of any kind whatsoever, including claims for
bodily injury, personal injury and property damage
resulting from the operation of the Distributorship or
the operation of the Mobile Store or any other vehicle
used in connection with the Distributorship. In addition,
the Distributor will purchase and maintain all risk

96a
inland marine insurance coverage with limits of at
least “replacement” cost for the Mobile Store and the
Products, cargo, computer system and equipment used
in connection with the Distributorship, and will
purchase and pay for any and all other insurance
required by law. All insurance policies maintained by
the Distributor will: (A) name Matco as an additional
named insured, (B) provide that Matco will receive
copies of all notices of cancellation, nonrenewal or
coverage change at least thirty days prior to the
effective date, and (C) require the insurance company
to provide and pay for legal counsel to defend any
claims or actions brought against the Distributor or
Matco. Additional requirements concerning the insurance
to be obtained and maintained by the Distributor, if
any, may be designated by Matco from time to time in
writing. If Distributor does not obtain and maintain
the proper insurance coverage, Matco may purchase
said insurance on Distributor’s behalf and charge
Distributor’s Open Purchase Account for the premium
paid.
5.4 Indemnification. The Distributor will indemnify
and hold Matco harmless from any claims, damages,
judgments and losses, including attorney’s fees,
arising out of, from, in connection with, or as a result
of the Distributor’s operation of the Distributorship
and the business conducted under this Agreement, the
Distributor’s breach of this Agreement, the Distributor’s
negligence, or any acts or omissions of the Distributor
in connection with the operation of the Distributorship
including, without limitation, claims, damages, judgments and losses arising from any unauthorized
statements, representations or warranties made by
the Distributor with respect to the Products, and those
alleged to be caused by Matco’s negligence, unless (and
then only to the extent that) the claims, damages,

97a
judgments, and losses are determined to be caused
solely by Matco’s gross negligence or willful misconduct
according to a final, unappealable ruling issued by a
court or arbitrator of competent jurisdiction.
5.5 Exercise of Matco’s Judgment. Matco has the
right to operate, develop, and change the Business
System in any manner that is not specifically
precluded by this Agreement. Whenever Matco has
reserved in this Agreement a right to take or withhold
an action, or to grant or decline to grant the
Distributor a right to take or omit an action, except as
otherwise expressly and specifically provided in this
Agreement, Matco may make its decision or exercise
its rights on the basis of the information readily
available to it, and Matco’s judgment of what is in its
best interests and/or in the best interests of its
franchise network, at the time the decision is made,
without regard to whether other reasonable or even
arguably preferable alternative decisions could have
been made by Matco and without regard to whether
Matco’s decision or the action Matco takes promotes
its financial or other individual interest.
ARTICLE 6
PRODUCTS
6.1 Sale and Purchase of Products. Matco will sell
and the Distributor will buy the Products from Matco
at the prices and on the terms established and
published by Matco from time to time. Distributor will
not purchase or attempt to purchase any products,
including Products, directly from vendors supplying
products to Matco, or from vendors or other sources
that may or May not sell to or supply products to
Matco or its distributors. Prices and terms applicable
to each order placed by the Distributor will be those in

98a
effect on the date the order is accepted by Matco.
Matco reserves the right to add or delete Products,
make changes to the Products, increase Product prices,
and adjust the prices, terms, and discounts for the
Products, without notice or liability to the Distributor,
at any time.
6.2 Prices of Products. The Distributor will have the
absolute right to determine the prices at which the
Products are sold to the Distributor’s Customers. If
Matco institutes and implements a discount program,
incentive program, coupon program, or other product
sales or marketing program, the Distributor must
comply with the program, and honor all authorized
coupons, gift cards, gift certificates, and incentives.
6.3 Initial Inventory. Upon execution of this
Agreement, the Distributor will place an order with
Matco for the New Distributor Starter Inventory. The
Distributor will pay Matco for the New Distributor
Starter Inventory upon execution of this Agreement.
Shipment of the New Distributor Starter Inventory
will be made to the Distributor within 28 days of the
date of this Agreement.
6.4 Electronic Funds Transfers. All payments to
Matco by the Distributor on any promissory note or
for the purchase of Products and other goods and
services will be made by electronic funds transfers in
accordance with the instructions by Global Payment
Systems contained in the Manual. The Distributor
will, from time to time during the Term of this Agreement,
sign such documents as Matco may request to authorize the Distributor’s bank to transfer the payment
amounts designated by the Distributor to Matco’s bank.
6.5 Standard Payment Terms. Matco’s standard
payment terms for Products sold to the Distributor

99a
are “payment due upon receipt of invoice.” If the
Distributor fails to make any payment to Matco for
Products in a timely manner, then Matco may require
full or partial payment in advance or seek other
assurances of performance, including, but not limited
to, reducing credit limits and/or placing the Distributor
on credit hold prior to shipping any additional Products to the Distributor. Matco may assess late fees on
the overdue amounts, as provided for in Section 3.18
above.
6.6 Security. The Distributor hereby grants Matco
a security interest in all of the Distributor’s Products,
accounts receivable and other assets to secure any
unpaid credit or financing provided to the Distributor
and the Distributor will sign such security agreements, financing statements and other documents
as Matco may request to legally perfect its security
interest.
6.7 Shipment. The Distributor will be entitled to
one qualifying shipment of Products per week from
Matco’s warehouse, freight prepaid by Matco, if the
Distributor has complied with Matco’s rules and policies regarding the placement and payment of orders
for Products. Matco will ship Products “FOB” from
Matco’s warehouse, freight prepaid, but the title to the
Products, and the risk of loss, will pass to Distributor
as soon as the Products are delivered to the carrier at
Matco’s warehouse. Prepaid freight shipments will
not accumulate if the Distributor fails to request a
shipment for any particular week. Additional shipments, special orders, shipments to addresses other
than the Distributor’s normal business address, and
orders not made in compliance with Matco’s standard
order input procedures, will be shipped from Matco’s

100a
warehouse, freight collect, unless otherwise agreed to
in writing by Matco.
6.8 No Right To Withhold or Offset. The Distributor
will not withhold any payment due to Matco because
of any damage to the Products caused during transportation from Matco to the Distributor or as a result
of any legal or other claims the Distributor may allege
against Matco. The Distributor will not deduct any
charges for services, parts, or other items from any
payments due to Matco until such charges have been
agreed to in writing by Matco.
6.9 Acceptance of Orders/Force Majeure. All Product
orders placed by the Distributor will be subject to
acceptance by Matco. Matco will, with reasonable diligence and subject to Section 6.5, execute all accepted
Product orders received from the Distributor. However,
Matco expressly reserves the right at any time to
defer, postpone or forego any shipments of Products on
account of procedures or priorities established by any
state, federal or local government or because of production failures, strikes or other labor disturbances,
inability or delay in obtaining raw materials or other
supplies, floods, fires, accidents, wars, incidents of
terrorism or other causes or conditions beyond the
control of Matco, and Matco will not be liable to the
Distributor for any damages or loss of profits caused
by such delay in executing or failing to execute such
orders.
6.10 Taxes. The Distributor will pay, in addition to
the prices specified for the Products pursuant to
Matco’s then current price list, all applicable federal,
state, local and governmental taxes applicable to the
Distributor’s purchase of the Products.

101a
6.11 Risk of Loss. After any Products ordered by the
Distributor have been identified in such order, the risk
of loss will at all times be borne by the Distributor. The
Distributor will be responsible for making all claims
against the carrier for damages to the Products and for
all other losses.
ARTICLE 7
TRADEMARKS, TRADE NAMES AND PATENTS
7.1 Grant of License. Matco grants to the Distributor a non-exclusive, non-transferable right and license
to use the Marks in the normal course of operating the
Distributorship. The Distributor will only use the
Marks in connection with the sale of the Products sold
pursuant to the Business System and the terms of this
Agreement.
7.2 Rights of Matco. The Distributor will not take
any action which is adverse to Matco’s right, title or
interest in the Marks or Matco’s pending or issued
patents for various inventions and Products. The
Distributor will not register or attempt to register the
Marks or apply for any patent rights for the Products.
The Distributor further agrees that nothing in this
Agreement will give the Distributor any right, title
or interest in the patent rights or Marks other than
the right of use in accordance with the terms of
this Agreement. The Distributor acknowledges, the
validity and Matco’s exclusive ownership of the Marks
and the patent rights and agrees that any improvements made by the Distributor relating to the Marks
or the Business System, as well as any and all goodwill
resulting from the Distributor’s use of the Marks
pursuant to this Agreement, will inure solely to the
benefit of Matco.

102a
7.3 Conditions to Use of Marks. The Distributor will
not have the right to sublicense, assign or transfer its
license to use the Marks. The Distributor will not use
the Marks as part of its corporate or other legal name,
or as part of any e-mail address, domain name, or
other identification of the Distributor in any electronic
medium. The Distributor will use the Marks only
in the form and manner and with the appropriate
legends as prescribed from time to time by Matco. The
Distributor will modify its use of the Marks from time
to time in the manner designated in writing by Matco.
The Distributor will sign all documents deemed
necessary by Matco to obtain or maintain protection
for the Marks.
7.4 Approval of Printed Materials. The Distributor
will obtain Matco’s prior written approval for the use
of the Marks in any advertising, promotional or other
printed materials.
7.5 Defense of Actions. The Distributor will give
Matco immediate written notice of any claim made by
any party relating to the Marks or the Business
System and will, without compensation, cooperate in
all respects with Matco in any legal proceedings
involving the Marks or the Business System. Matco
will have the sole and absolute right to determine
whether it will commence or defend any litigation
involving the Marks or the Business System, and will,
at its expense, control and conduct any litigation
involving the Marks. If the Distributor is named as a
defendant in any action involving the Marks or the
Business System solely because the plaintiff is
alleging that the Distributor does not have the right to
use the Marks, then if the Distributor gives Matco
written notice of the action within ten days after the
Distributor receives notice of the claim, Matco will

103a
assume the defense of the action and will indemnify
and hold the Distributor harmless from any and all
damages assessed against the Distributor in connection with the action.
ARTICLE 8
WARRANTY AND TOOL RETURNS
8.1 Warranty Policy. All Matco Products are subject
to the warranty and liability limitations of the written
Product warranty of Matco (the “Matco Warranty”).
Matco’s Warranty policy, which may change over time,
provides, generally, that any Product that is branded
with the “Matco” name is warranted against defects
in materials and workmanship. Matco, or one of its
authorized representatives, will, at Matco’s option,
repair or replace any tool or part that is subject to
the warranty without charge, if the defect or
malfunctioning tool or part is returned to Matco or
its representative, shipping prepaid. There are certain
limitations under the Matco Warranty, and the Distributor must read and understand the warranty policies.
The Distributor must follow Matco’s policies and
procedures regarding returning tools for warranty
claims. Among the procedures that the Distributor
must follow is the requirement to send back the
products with the appropriate paperwork, product
specifications, codes and other required information.
In addition, the Distributor must pay all freight and
shipping charges to send the defective product to
Matco. In most cases, Matco will pay the shipping and
freight costs to send the Distributor a new or repaired
tool, part or product.
Also, there are certain warranty service functions
that the Distributor must perform. Currently, the
Distributor warranty responsibilities and functions

104a
include the following: “in the field” repair of ratchets
and toolboxes. For ratchet repairs, the Distributor
must purchase repair kits, which currently range in
price from $10 to $40 per kit and must pay the
shipping/freight charges to return the defective part to
Matco. Upon return of the defective parts to Matco,
Matco will credit the cost of the ratchet repair kit.
Matco intends to include ratchet repair instructions on
its website for distributors. You, as the distributor, are
not compensated for your time to make these repairs.
The Distributor is also currently responsible to perform minor warranty repairs on toolboxes within the
List of Calls, such as drawer slides, casters (wheels),
trim and/or drawer replacement if needed. Warranty
repairs are handled on a case-by-case basis after
contacting Matco’s Customer Service and/or Matco’s
toolbox manufacturing facility. There are no repair
kits for toolboxes, and you are not required to purchase
items to repair toolboxes under warranty.
The Matco Warranty may be amended or revised by
Matco at any time in its sole discretion. Matco will
have the right to adjust and resolve all warranty
claims, either directly with the Customer or through
the Distributor, as Matco in its sole discretion may
determine, and any action by Matco with respect to
warranty claims will be binding upon the Distributor.
8.2 Tool Return Policy. Matco will make its thencurrent tool return policy available to the Distributor.
The current policy provides that during the term of
the Distributorship Agreement or after its expiration
or termination, the Distributor may return for credit
to its Open Purchase Account any eligible Matco
Products purchased from Matco and listed in the then
current Matco Tools Price List, excluding special order
and high obsolescence electronic products. The current

105a
tool return policy specifies that the tools and other
products that are eligible for return for credit are new,
unused, and not abused products that are in saleable
condition, and in their original packaging. The products returned must be on the current inventory list
and cannot be discontinued items. Matco generally
tries to give distributors at least 180 days notice
following an announcement that a product has been
discontinued to return the product for credit. The
Distributor may take advantage of the tool return
policy at any time, such as if the Distributor has
overstocked items, or wishes to rotate or adjust the
product mix in its inventory. Matco will credit the
Distributor’s Open Purchase Account for the eligible
returned Products less a restocking fee, which in most
cases is 15% of the original purchase price of the
product. A good faith effort will be made by Matco
to issue credit within 90 days of acceptance of the
returned Products. The specific criteria for products
that are eligible for return for credit is stated in
Matco’s tool return policy. The Distributor must pay
for the packaging and shipping of such Products to
Matco. Matco may revise its tool return policy at
such times as it may determine, and will inform the
Distributor in writing. of any changes when made.
ARTICLE 9
CONFIDENTIALITY
The Distributor will not, during the Term of this
Agreement or thereafter, communicate, divulge or
use for the benefit of any other person or entity
any confidential information, knowledge or know-how
concerning the methods of operation of a Matco
Distributorship which may be communicated to the
Distributor by any employees of Matco, or which arises
by virtue of this Agreement. The Distributor will

106a
divulge such confidential information only to his
employees who must have access to it in order to
operate the Distributorship. The Operations Manual
and any and all other information, knowledge and
know-how including, without limitation, drawings,
materials, equipment, technology, methods, procedures, specifications, techniques, computer software
programs, computer software source codes, systems
and other data which Matco designates as confidential
or proprietary will be deemed confidential and proprietary for the purposes of this Agreement. The
obligations of confidentiality shall survive termination
or expiration of this Agreement for any reason.
ARTICLE 10
TRANSFER OF INTEREST
10.1 Transfer of Distributorship Interest. Neither
the Distributor nor any individual, partnership, or
corporation which owns any interest in the Distributor
will transfer any interest in this Agreement, in the
Distributor, in any capital or common stock in the
Distributor, or in all or substantially all of the assets
of the Distributorship, including the Mobile Store (the
“Distributorship Interest”), without the prior written
consent of Matco.
10.2 Conditions for Transfer. Matco will not unreasonably withhold its consent to any transfer, if the
following conditions are met: the Distributor is not in
default under any provision of this Agreement, including payment of any financial obligations to Matco; the
Distributor and Matco have signed a mutual general
release of any and all claims against each other and
their respective affiliates; it has been demonstrated to
Matco’s sole satisfaction that the transferee exhibits
the ability to operate the Distributorship, possesses

107a
an acceptable credit rating, has adequate financial
resources and capital to operate the Distributorship in
accordance with Matco’s requirements, and is not
involved, directly or indirectly, in any business that is
in any way competitive with a Matco Distributorship;
the transferee-distributor successfully completes the
Matco Business System Training (MBST) Program;
and the Distributor and transferee-distributor sign the
legal documents necessary to transfer this Agreement
to the transferee-distributor. Distributor and Spouse
acknowledge and agree that (a) any proposed assignment or transfer to Spouse of this Agreement, the
rights and responsibilities under this Agreement, or
any Distributorship Interest, or (b) any proposed delegation of duties of Distributor under this Agreement,
to Spouse, by contract, by operation of law, or
otherwise, shall not be effective unless approved in
advance, in writing by Matco, and Matco may rely on
the conditions described in this Section 10.2, and/or
any other reasonable conditions and qualifications, in
determining to grant or withhold its consent of or
approval to any such transfer, assignment, or delegation to Spouse.
10.3 Transfer to Corporation. The Distributor may
transfer this Agreement to a corporation formed for
the convenience of ownership upon prior written notice
to Matco, provided the Distributor owns 100% of the
capital stock of the corporation and personally guarantees, in a written guaranty satisfactory to Matco, to
make all payments and to fulfill all obligations and
conditions required under this Agreement.
10.4 Security Interest. The Distributor will not
grant a security interest in the Distributorship or this
Agreement without Matco’s prior written consent.
Matco will have the right as a condition of its consent,

108a
to require the secured party to agree that if the
Distributor defaults under any security interest, then
Matco will have the right and option (but not the
obligation) to be substituted for the Distributor as the
obligor to the secured party and to cure any default of
the Distributor without the acceleration of any indebtedness due from the Distributor.
10.5 Transfer by Matco. Matco will have the right
to transfer or assign this Agreement and all or any
part of its rights or obligations herein to any person or
legal entity without notice to the Distributor.
10.6 Non-Competition and Non-Solicitation Following
a Transfer. In addition, to the covenants regarding
non-competition and non-solicitation of Distributor,
Spouse and others as specified in Section 11.9
below, Matco encourages Distributor (if obtaining the
distributorship by virtue of a transfer) to obtain a noncompetition agreement from the previous distributor
that serviced the List of Calls, and Matco expects that
it will encourage any new distributor that acquires the
business, the route, the accounts or the distributorship
of the Distributor to obtain a noncompetition agreement from the outgoing or transferring Distributor.
The noncompetition agreement may assist in preventing competition from the previous distributor,
previous distributor’s spouse, and immediate family
members for a continuous uninterrupted period of one
(1) year from the date of a transfer permitted under
Section 10 above, or expiration or termination of
the previous distributor’s Distributorship Agreement
(regardless of the cause for termination). Competition
includes, but is not limited to, selling or attempting to
sell any Products or any products the same as or
similar to the Products to (i) any existing Customer on
the Distributor’s List of Calls who purchased one or

109a
more Products from the previous distributor during
the 12-month period immediately preceding the dates
referred to in this Section 10.6, or (ii) any Potential
Customer on the Distributor’s List of Calls and
Potential Customer List, located on, or identified in,
the previous distributor’s List of Calls and Potential
Customer List, as such lists may have been amended
as provided for in the previous distributor’s Distributorship Agreement and in accordance with Matco’s
policies, if the previous distributor had visited or made
one or more sales calls to such Potential Customer,
List of Calls, or person or business identified on the
Potential Customer List during the 12-month period
immediately preceding the date referred to in this
Section 10.6.
ARTICLE 11
DEFAULT AND TERMINATION
11.1 Termination by Distributor. The Distributor
may terminate this Agreement, at any time, with or
without cause, by giving forty-five days prior written
notice to Matco.
11.2 Termination by Distributor During First Six
Months. If the Distributor terminates this Agreement
for any reason within six months after the date of
this Agreement, and if the Distributor has not failed
to operate the Distributorship for more than six (6)
“business days” in total, or more than three (3)
consecutive business days during that six month
period, then Matco will (i) accept for return all new
Products purchased by the Distributor through or
from Matto during that 6-month period, and will credit
to the Distributor’s open purchase account an amount
equal to 100% of the Distributor’s purchase price for
the returned Products, and (ii) credit the Distributor’s

110a
open purchase account for the lesser of (a) $2,700, (b)
an amount equal to two months of payments under the
Distributor’s Matco Truck lease or purchase agreement, or (c) the amount required to terminate the
truck lease if less than two payments. The Distributor
and Matco will sign a joint and mutual release of all
claims that each of the parties and their affiliates,
employees and agents may have against the other
in such form as Matco may specify; however, the
Distributor will remain liable for any indebtedness to
Matco under this Agreement or the operation of the
Distributorship and any such indebtedness will be
excluded from the mutual release. A “business day” is
a weekday in which the shops or locations on the List
of Calls are open for business. “Failed to operate”
means not performing the typical and required route
functions, such as customer visits, product sales and
promotion, and collection of money owed.
11.3 Matco’s Termination Rights. Matco will have
the right to terminate this Agreement if the
Distributor (A) violates any material term, provision,
obligation, representation or warranty contained in
this Agreement or any other agreements entered into
with Matco including, but not limited to, agreements
regarding participation in the Matco Tools PSA
Program, (B) makes an assignment for the benefit of
creditors or if a voluntary or involuntary proceeding is
instituted by or against the Distributor in bankruptcy
or under any other insolvency or similar law,
(C) attempts to assign or transfer this Agreement
without Matco’s written consent, (D) abandons the
Distributorship, (E) fails to timely make any payment
due to Matco under this Agreement or under any other
agreement, promissory note or contract, or (F) refuses
to perform a physical inventory if required by Matco

111a
or refuses to permit Matco to audit his books and
records in accordance with Section 5.2.
11.4 Notice; Cure Periods. Matco will not have the
right to terminate this Agreement unless and until:
(A) written notice setting forth the alleged breach
giving rise to the termination has been delivered to the
Distributor in accordance with the terms of Section
13.2, and (13) the Distributor fails to correct the
breach within the period of time specified by law. If
applicable law does not specify a time period to correct
the breach, then the Distributor will have thirty days
to correct the breach except where the written notice
states that the Distributor is delinquent in any
payment due to Matco under this Agreement in which
case the Distributor will have ten days to make full
payment to Matco.
11.5 Immediate Termination Rights. Notwithstanding
Section 11.4, Matco will have the right to immediately
terminate this Agreement by giving the Distributor
written notice of termination, if the Distributor:
(A) abandons the Distributorship, including voluntary
or involuntary abandonment, and/or abandonment
due to repossession of the Matco Tools Mobile Store
and inventory, (B) is convicted of or pleads guilty to a
gross misdemeanor or felony, (C) is involved in any
conduct or act which materially impairs the goodwill
associated with Matco, the Business System, or the
Marks, (D) refuses to permit Matco to audit his books
and records in accordance with Section 5.2, (E) has
been found to have submitted a fraudulent credit
application, (F) commits any fraudulent act in connection with any of his/her agreements with Matco,
(G) fails to comply with Section 3.2 of this Agreement
by offering to sell or selling any products to customers
at any location not identified on the distributor’s List

112a
of Calls or Potential Customer List without Matco’s
express written authorization, (H) is disabled to the
extent Distributor cannot perform Distributor’s obligations hereunder for a period of (6) six consecutive
months, or for any (6) six months within a period of
(18) eighteen consecutive months, (1) dies, (J) after
curing a default pursuant to Sections 11.3 and 11.4,
commits the same default again within a twelve (12)
month period of the previous default, whether or not
cured after notice, (K) commits the same or different
default under this Agreement, three or more times
within any twelve (12) month period, whether or not
cured after notice, (L) makes an assignment for the
benefit of creditors or if a voluntary or involuntary
proceeding is instituted against the Distributor in
bankruptcy or under any other insolvency or similar
law, or (M) fails to submit to or undergo a drug and/or
alcohol test if required by Matco, or fails the drug
and/or alcohol test required by Matco.
11.6 Obligations Upon Termination. Upon the termination or expiration of this Agreement, the Distributor
will: pay Matco all amounts owed by the Distributor
to Matco including interest charged on distributor’s
Open Purchase Account balance at a rate of 22.5%
annually or the maximum rate permitted by law,
whichever is lower; provide Matco with the inventory
amounts and financial information of the Distributorship for the preceding twelve months; immediately
cease using all of the Marks and the Business System;
provide Matco with all Customer lists and other information relating to the Customers of the Distributorship;
return to Matco by pre-paid U.S. mail the Manual and
all other manuals, software, catalogs, brochures,
pamphlets, decals, signs, and other materials provided
to the Distributor by Matco, and/or destroy all electronic
versions of such materials and provide verification of

113a
such destruction to Matco; and remove all Marks,
logos, graphics and insignias indicating a relationship
with Matco from the Mobile Store and all other
property of the Distributor. In addition, Matco may
assess Distributor a late fee of $25 per week for each
week that the Distributor fails to pay the balance owed
on the Open Purchase Account following termination.
11.7 Return of Products. Within thirty days following: (A) the expiration or non-renewal of this
Agreement, or (B) termination of this Agreement by
Matco or by Distributor, Matco will, in accordance
with Matco’s then-current Product return policy,
permit the Distributor to return the new and unused
Products purchased by the Distributor from Matco,
and the amount of the Products returned will be
credited to the Distributor’s open purchase account,
subject to any restocking fees or other fees or charges
in accordance with Matco’s then-current Product return policy.
11.8 Warranty Returns. During the thirty day
period following termination of this Agreement, Matco
will accept Products returned to it by the Distributor
for warranty claim processing in accordance with
Matco’s then existing Warranty policy.
11.9 Non-Solicitation of Customers; Covenant Against
Competition. Distributor and Spouse, if applicable,
individually covenant that each of Distributor, Spouse,
Distributor’s employees, and the immediate family
members of Distributor and Spouse, except as otherwise approved in writing by Matco:
11.9.1 shall not, during the term of this Agreement, either directly or indirectly, for itself, or
through, on behalf of, or in conjunction with any
person, persons, partnership, limited liability company,

114a
or corporation, own, maintain, operate, engage in, or
have any interest in any business which is the same
as or similar to a Matco mobile tool distributorship
business, including without limitation, a business
that manufactures, sells, and/or distributes any
products that are the same as or similar to the Products (referred to herein as a “Competitive Business”);
11.9.2 shall not, during the term of this Agreement, either directly or indirectly, for itself, or
through, on behalf of, or in conjunction with any
person, persons, partnership, limited liability company, or corporation, sell or attempt to sell to any
customers or Potential Customers of the Distributorship any products that are the same or similar to
the Products;
11.9.3 shall not for a continuous uninterrupted
period of one (1) year from the date of: (A) a transfer
permitted under Article 10, above; (B) expiration or
termination of this Agreement (regardless of the
cause for termination); or (C) a final order of a duly
authorized arbitrator, panel of arbitrators, or court
of competent jurisdiction (after all appeals have
been taken) with respect to any of the foregoing or
with respect to the enforcement of this Section 11.9,
either directly or indirectly, for itself, or through, on
behalf of, or in conjunction with any persons,
partnership, limited liability company, or corporation, sell or attempt to sell any Products or any
products the same as or similar to the Products to
(i) any Customer who purchased one or more
Products from Distributor during the 12-month
period immediately preceding the dates referred to
in subclauses (A), (B), or (C) of this Section 11.9.3,
or (ii) any Potential Customer, located on, or identified in, the Distributor’s List of Calls, as such list

115a
may have been amended as provided for in this
Agreement and in accordance with Matco’s policies,
if Distributor had visited or made one or more sales
calls to such Potential Customer, List of Calls, or
person or business identified on the List of Calls
during the 12-month period immediately preceding
the date referred to in subclauses (A), (B), or (C) of
this Section 11.9.3.
11.10 Action in Lieu of Termination. In the event
Distributor is in default under this Agreement for
failure to comply with any of the terms or conditions
of this Agreement, and/or for failure to comply with
Matco’s policies, procedures or standards, including,
without limitation, the lesser of 80% of the National
Distributor Purchase Average requirement or 80% of
the District Distributor Purchase Average requirement (as described in Section 3.3) or the purchase
average to sales average ratio, as described in Section
3.3, and Matco has the right to terminate this
Agreement as provided for in this Article 11, then
Matco may, at its sole discretion and in lieu of
termination, take any one or more of the following
actions (as applied to the Distributor): modify
payment or shipping terms; impose new or different or
increased interest charges or fees; limit or restrict
Distributor’s access to special or additional services
or products from Matco; modify product return and
warranty benefits; and/or take such other action as
Matco, in its sole discretion, deems appropriate. Matco
may discontinue these adjustments at any time. In
addition, so long as Distributor continues to be in
default and/or if Distributor subsequently is in default
under this Agreement, Matco may pursue any remedy
available under this Agreement, as permitted by law,
including termination of the Agreement, as provided
for in this Article 11.

116a
ARTICLE 12
DISPUTE RESOLUTION
12.1 Arbitration. Except as expressly provided in
Section 12.5 of this Agreement, all breaches, claims,
causes of action, demands, disputes and controversies
(collectively referred to as “breaches” or “breach”)
between the Distributor, including his/her Spouse,
immediate family members, heirs, executors, successors, assigns, shareholders, partners or guarantors,
and Matco, including its employees, agents, officers
or directors and its parent, subsidiary or affiliated
companies, whether styled as an individual claim,
class action claim, private attorney general claim or
otherwise, arising from or related to this Agreement,
the offer or sale of the franchise and distribution rights
contained in this Agreement, the relationship of Matco
and Distributor, or Distributor’s operation of the
Distributorship, including any allegations of fraud,
mis-representation, and violation of any federal, state
or local law or regulation, will be determined
exclusively by binding arbitration on an individual,
non-class basis only in accordance with the Rules and
Regulations of the American Arbitration Association
(“Arbitration”).
12.2 Notice of Dispute; Cure Period. The party
alleging the breach must provide the other party with
written notice setting forth the facts of the breach in
detail, and neither party will have the right to
commence any Arbitration hearing until such written
notice is given. The party alleged to have breached this
Agreement will have thirty days from receipt of the
written notice to correct the alleged breach. If the
alleged breach is not corrected within the thirty day
period and subject to Section 12.6 below, then either
party will have the right to request Arbitration as

117a
provided herein to determine their rights under this
Agreement.
12.3 Limitation of Actions; Waiver of Claims.
UNLESS THIS PROVISION IS PROHIBITED BY
APPLICABLE LAW, ANY AND ALL CLAIMS AND
ACTIONS, BROUGHT BY ANY PERSON OR PARTY,
ARISING OUT OF OR RELATING TO THIS AGREEMENT, THE RELATIONSHIP OF MATCO AND
DISTRIBUTOR, THE OFFER OR SALE OF THE
FRANCHISE AND DISTRIBUTION RIGHTS CONTAINED IN THIS AGREEMENT, OR DISTRIBUTOR’S
OPERATION
OF
THE
DISTRIBUTORSHIP,
INCLUDING ANY ARBITRATION PROCEEDING,
OR ANY CLAIM IN ARBITRATION (INCLUDING
ANY DEFENSES AND ANY CLAIMS OF SET-OFF
OR RECOUPMENT), MUST BE BROUGHT OR
ASSERTED BEFORE THE EXPIRATION OF THE
EARLIER OF (A) THE TIME PERIOD FOR BRINGING AN ACTION UNDER ANY APPLICABLE
STATE OR FEDERAL STATUTE OF LIMITATIONS;
(B) ONE (1) YEAR AFTER THE DATE UPON
WHICH A PARTY DISCOVERED, OR SHOULD
HAVE DISCOVERED, THE FACTS GIVING RISE
TO AN ALLEGED CLAIM; OR (C) EIGHTEEN (18)
MONTHS AFTER THE FIRST ACT OR OMISSION
GIVING RISE TO AN ALLEGED CLAIM; OR IT IS
EXPRESSLY ACKNOWLEDGED AND AGREED BY
ALL PARTIES THAT SUCH CLAIMS OR ACTIONS
SHALL BE IRREVOCABLY BARRED. CLAIMS OF
THE PARTIES FOR INDEMNIFICATION SHALL
BE SUBJECT ONLY TO THE APPLICABLE STATE
OR FEDERAL STATUTE OF LIMITATIONS.
12.4 Powers of Arbitrator. The arbitrator shall
have the full authority to make a finding, judgment,
decision and award relating to the claims made in the

118a
demand for arbitration, as provided for in Section 12.1
above, and subject to the limitations in this Section
12.4. The Federal Rules of Evidence (the “Rules”) will
apply to all Arbitration hearings and the introduction
of all evidence, testimony, records, affidavits, documents and memoranda in any Arbitration hearing
must comply in all respects with the Rules and the
legal precedents interpreting the Rules. Both parties
will have the absolute right to cross-examine any
person who testifies against them or in favor of the
other party. The arbitrator has the right to award, or
include in his or her award, any relief authorized by
law which he or she deems proper in the circumstances, including, without limitation, money damages
(with interest on unpaid amounts from the date due),
specific performance, injunctive relief, and attorneys’
fees and costs, provided that the arbitrator will not
have the right or authority to declare any Mark
generic or otherwise invalid or to award any damages
waived by Section 12.8 below. The arbitrator will have
no authority to add to, delete or modify the terms and
provisions of this Agreement. All findings, judgments,
decisions and awards of the arbitrator will be limited
to the dispute or controversy set forth in the written
demand for Arbitration, and the arbitrator will have
no authority to decide any other issues. All findings,
judgments, decisions and awards by the arbitrator will
be in writing, will be made within ninety days after
the Arbitration hearing has been completed, and will
be final and binding on Matco and the Distributor
(including the Distributor’s Spouse, immediate family
members, owners, heirs, executors, successors, assigns,
shareholders, partners or guarantors (as applicable)).
Notwithstanding Section 12.10, the written decision of
the arbitrator will be deemed to be an order, judgment
and decree and may be entered as such in any Court

119a
of competent jurisdiction by either party in any
jurisdiction. The arbitrator’s findings and awards may
not be used to collaterally estop Matco, the Distributor
or any other party from raising any like or similar
issue, claim or defense in any other or subsequent
Arbitration, litigation, court hearing or other proceeding involving third parties or other Distributors.
12.5 Disputes not Subject to Arbitration. The
following disputes and controversies between the
Distributor and Matco will not be subject to
Arbitration: any dispute or controversy involving the
Marks or which arises under or as a result of Article 7
of this Agreement, any dispute or controversy
involving immediate termination of this Agreement by
Matco pursuant to Section 11.5 this Agreement, and
any dispute or controversy involving enforcement of
the covenants not to compete contained in this
Agreement.
12.6 Mediation. Before any breach, claim, demand,
dispute, cause of action, or other controversy regarding or pertaining to the termination or non-renewal of
this Agreement may be filed or submitted in any
arbitration proceeding under Section 12.1, such claim,
demand, cause of action, or controversy shall first be
submitted to non-binding mediation, administered
by an established, neutral mediation service. This
Section 12.6 shall apply to Matco, Distributor, and any
person in privity with or claiming through, on behalf
of, or in the name of, Distributor. All parties must sign
a confidentiality agreement prior to participating in
any mediation proceeding. The mediation must take
place at a location agreed to by Matco and Distributor
or, if no agreement can be reached and unless
prohibited by applicable law, in a city within thirty
(30) miles of Matco’s principal place of business at the

120a
time of the submission to mediation. The parties shall
mutually agree upon a mediator or neutral within
twenty-one (21) days after the demand for mediation
is made by one party to the other. If the parties cannot
agree upon a mediator, a mediator shall be appointed
in accordance with the rules of the mediation service.
The mediator or neutral shall have experience in franchising or distribution matters. The mediation shall be
conducted within thirty (30) days of the selection of a
mediator. The parties shall share equally the cost of
the mediator and the mediation services and related
expenses, but the parties shall bear their own costs to
attend and participate in the mediation, including
each party’s respective attorney’s fees and travel costs.
12.7 No Class Actions. No party except Matco
(including its employees, agents, officers or directors
and its parent, subsidiary or affiliated companies)
and the Distributor (including where applicable the
Distributor’s Spouse, immediate family members,
owners, heirs, executors, successors, assigns, shareholders, partners, and guarantors (as applicable)) may
join in or become a party to any Arbitration proceeding
arising under this Agreement, and the arbitrator will
not be authorized to permit any person or entity that
is not a party to this Agreement or identified in this
paragraph to be involved in or to participate in any
Arbitration conducted pursuant to this Agreement. No
matter how styled by the party bringing the claim, any
claim or dispute is to be arbitrated on an individual
basis and not as a class action. THE DISTRIBUTOR
EXPRESSLY WAIVES ANY RIGHT TO ARBITRATE
OR LITIGATE AS A CLASS ACTION OR IN A
PRIVATE ATTORNEY GENERAL CAPACITY.
12.8 Limitation of Damages. UNLESS THIS
LIMITATION IS PROHIBITED BY APPLICABLE

121a
LAW, EACH OF THE PARTIES (INCLUDING
DISTRIBUTOR’S OWNERS, AND SPOUSE IF
APPLICABLE) HEREBY AGREES THAT THE
OTHER PARTY WILL NOT BE LIABLE FOR
PUNITIVE, EXEMPLARY, INCIDENTAL, INDIRECT,
SPECIAL OR CONSEQUENTIAL DAMAGES,
INCLUDING, WITHOUT LIMITATION, LOSS OF
FUTURE PROFITS, ARISING OUT OF ANY CAUSE
WHATSOEVER, WHETHER BASED ON CONTRACT, TORT, STRICT LIABILITY, OR STATUTE
OR ORDINANCE, AND AGREES THAT IN THE
EVENT OF A DISPUTE, THE RECOVERY OF
EITHER PARTY WILL BE LIMITED TO THE
RECOVERY OF ANY ACTUAL DAMAGES
SUSTAINED BY IT.
12.9 Waiver of Jury Trials. UNLESS THE WAIVER
IS PROHIBITED BY LAW, IF ANY DISPUTE IS
NOT SUBJECT TO ARBITRATION UNDER THIS
AGREEMENT, THEN EACH OF THE PARTIES
AGREES THAT THE TRIAL OF ANY LEGAL
ACTION ARISING UNDER THIS AGREEMENT OR
THE RELATIONSHIP OF THE PARTIES WILL BE
HEARD AND DETERMINED BY A JUDGE WHO
WILL SIT WITHOUT A JURY. THE PARTIES
ACKNOWLEDGE THAT THEY HAVE OBTAINED
INDEPENDENT LEGAL ADVICE AS TO THE
EFFECT OF THIS JURY WAIVER PROVISION,
AND FURTHER ACKNOWLEDGE. THAT THEY
HAVE READ AND UNDERSTAND THE EFFECT OF
THIS JURY WAIVER PROVISION. EITHER PARTY
MAY FILE AN ORIGINAL OR COPY OF THIS
AGREEMENT WITH ANY COURT AS WRITTEN
EVIDENCE OF THE CONSENT BY THE PARTIES
TO THE WAIVER OF THEIR RIGHT TO TRIAL BY
JURY.

122a
12.10 Venue and Jurisdiction. Unless this requirement is prohibited by law, all arbitration hearings
must and will take place exclusively in Summit or
Cuyahoga County, Ohio. All court actions, mediations
or other hearings or proceedings initiated by either
party against the other party must and will be venued
exclusively in Summit or Cuyahoga County, Ohio.
Matco (including its employees, agents, officers or
directors and its parent, subsidiary or affiliated companies) and the Distributor (including where applicable
the Distributor’s Spouse, immediate family members,
owners, heirs, executors, successors, assigns, shareholders, partners, and guarantors) do hereby agree
and submit to personal jurisdiction in Summit or
Cuyahoga County, Ohio in connection with any Arbitration hearings, court hearings or other hearings,
including any lawsuit challenging the arbitration
provisions of this Agreement or the decision of the
arbitrator, and do hereby waive any rights to contest
venue and jurisdiction in Summit or Cuyahoga County,
Ohio and any claims that venue and jurisdiction are
invalid. In the event the law of the jurisdictions in
which Distributor operates the Distributorship require
that arbitration proceedings be conducted in that
state, the Arbitration hearings under this Agreement
shall be conducted in the state in which the principal
office of the Distributorship is located, and in the city
closest to the Distributorship in which the American
Arbitration Association has an office. Notwithstanding
this Article, any actions brought by either party to
enforce the decision of the arbitrator may be venued in
any court of competent jurisdiction.
12.11 Injunctive Relief. Nothing herein contained
shall bar Matco’s or Distributor’s right to obtain
injunctive relief against threatened conduct that will
cause it loss or damages, under the usual equity rules,

123a
including the applicable rules for obtaining restraining orders and preliminary injunctions.
12.12 Severability. It is the desire and intent of the
parties to this Agreement that the provisions of this
Article be enforced to the fullest extent permissible
under the laws and public policy applied in each jurisdiction in which enforcement is sought. Accordingly, if
any part of this Article is adjudicated to be invalid
or unenforceable, then this Article will be deemed
amended to delete that portion thus adjudicated to be
invalid or unenforceable, such deletion to apply only
with respect to the operation of this Article in the
particular jurisdiction in which the adjudication is
made. Further, to the extent any provision of this
Article is deemed unenforceable by virtue of its scope,
the parties to this Agreement agree that the same will,
nevertheless be enforceable to the fullest extent
permissible under the laws and public policies applied
in such jurisdiction where enforcement is sought,
and the scope in such a case will be determined by
Arbitration as provided herein, provided, however,
that if the provision prohibiting classwide or private
attorney general arbitration is deemed invalid, then
the provision requiring arbitration of breaches between
the parties shall be null and void and there shall be no
obligation to arbitrate any such breaches.
ARTICLE 13
MISCELLANEOUS
13.1 Waiver. The failure of Matco to enforce at any
time any provision of this Agreement will in no way
affect the validity or act as a waiver of this Agreement,
or any part, or the right of Matco thereafter to enforce
it. The Distributor acknowledges that Matco operates
a large and diverse distributorship network and that

124a
Matco is not obligated to enforce each distributorship
agreement in a uniform manner with respect to the
other distributors.
13.2 Notices. Any notice required under this
Agreement will be deemed to have been duly given if
it is addressed to the party entitled to receive it at the
address set forth on the cover page of this Agreement
and it is personally served on the party, is sent by
pre-paid United States certified mail, return receipt
requested, or is sent by a recognized overnight carrier
(Federal Express, UPS, Purolator) that requires a
signature acknowledging delivery.
13.3 Governing Law. This Agreement will be governed by and construed in accordance with the laws of
the State of Ohio, and the substantive law of Ohio will
govern the rights and obligations of and the relationship between the parties.
13.4 Severability. If any term or provision of
this Agreement is determined to be void, invalid, or
unenforceable, such provision will automatically be
voided and will not be part of this Agreement, but the
enforceability or validity of the remainder of this
Agreement will not be affected thereby.
13.5 Entire Agreement. This Agreement, including
all exhibits and addenda, supersedes all prior verbal
and written agreements between the parties. Subject
to our right to modify the Manual and the Business
System standards, no change, amendment or modification to this Agreement will be effective unless
made in writing and signed by both the Distributor
and an officer of Matco. Nothing in this Agreement or
in any related agreement, however, is intended to disclaim the representations Matco made in the Franchise
Disclosure Document that Matco furnished to you.

125a
13.6 Definitions. For purposes of this Agreement,
the following words will have the following definitions:
(A) “Abandon” will mean the conduct of the
Distributor, including acts of omission as well as
commission, indicating the willingness, desire or
intent of the Distributor to discontinue operating
the Distributorship in accordance with the Business
System and the standards and requirements set
forth in the Manual and this Agreement.
(B) “Customer” will mean, at any time during the
Term of this Agreement, or upon termination, a
person or business that has purchased Products
from the Distributor within the immediately preceding twelve-month period.
(C) “Mobile Store” will mean the truck used by
the Distributor solely in connection with the
operation of his Distributorship. The Mobile Store
will at all times during the Term of this Agreement
comply with all of Matco’s standards and requirements as to color, size, engine size, storage capacity,
graphics, on-board technology and design.
(D) “New Distributor Starter Inventory” will
mean the initial inventory of Matco Products
required to be purchased by the Distributor.
(E) “Operator” will mean the individual engaged
or employed by the Distributor for purposes of
operating the Distributorship under the terms of
any program authorized by Matco to permit the
hiring, by a Distributor, of another person to operate
an additional Mobile Store for the Distributorship.
(F) “Potential Customer” will mean a full time
professional mechanic or other individual in the
automotive after-market and related markets who

126a
in the normal course of business is required to use
and furnish his/her own tools.
ARTICLE 14
REPRESENTATIONS BY THE DISTRIBUTOR
14.1 Receipt of Completed Agreement and Disclosure
Documents. The Distributor acknowledges that he
received Matco’s Franchise Disclosure Document at
least 14 calendar days prior to the date this Agreement
was signed by him, and that he signed the acknowledgement of receipt attached to the Franchise Disclosure
Document.
14.2 Investigation by Distributor. The Distributor
acknowledges that he: has read this Agreement in its
entirety; has had full and adequate opportunity to
discuss the terms and conditions of this Agreement
with legal counsel or other advisors of the Distributor’s
own choosing; has had ample opportunity to investigate the Matco Business System; has had ample
opportunity to consult with current Matco distributors; has had ample opportunity to conduct due
diligence on the Distributor’s List of Calls and list of
Potential Customers; and has had all questions
relating to the Distributorship, including those of any
advisor, answered to the Distributor’s satisfaction.
14.3 Truth and Accuracy of Representations. The
Distributor and its Spouse represent and warrant to
Matco that (a) all statements, documents, materials,
and information, including the application, submitted
by the Distributor or its Spouse to Matco are true,
correct, and complete in all material respects; and (b)
neither the Distributor nor its Spouse, nor any of its or
their funding sources, is or has ever been a terrorist or
suspected terrorist, or a person or entity described
in Section 1 of U.S. Executive Order 13244, issued

127a
September 23, 2001, as such persons and entities are
further described at the Internet website www.ustre
as.gov/offices/enforcement/ofac. The Distributor agrees
to promptly advise Matco of any material change in
the information or statements submitted to Matco.
The Distributor acknowledges and understands that
Matco has entered into this Agreement in reliance on
the statements and information submitted to Matco by
the Distributor and its Spouse, and that any material
breach or inaccuracy is grounds for Matco’s termination of this Agreement.
14.4 No Representations. Except as may be disclosed in Matco’s Franchise Disclosure Document, the
Distributor has not received from either Matco, or
anyone acting on behalf of Matco, any representation
of the Distributor’s potential sales, income, profit, or
loss which may be derived from the Distributorship.
The Distributor understands that Matco will not be
bound by any unauthorized representations, including
those made by other Matco distributors or by lending
institutions based on information given to them to assist
in their evaluation of Matco’s business opportunity.
14.5 No Warranty of Success. The Distributor
understands that Matco makes no express or implied
warranties or representations that the Distributor will
achieve any degree of financial or business success in
the operation of the Distributorship. While Matco will
provide the Distributor with training, advice, consultation, and a list of Potential Customers, success in the
operation of the Distributorship depends ultimately on
the Distributor’s efforts and abilities and on other
factors beyond Matco’s control, including, but not
limited to, economic conditions and competition.
IN WITNESS WHEREOF, the parties hereto have
caused this Agreement to be signed on the date set

128a
forth above. The Distributor further acknowledges
that this Agreement will become effective and binding
only upon acceptance and execution by Matco in the
State of Ohio.
DISTRIBUTOR:
By: /s/ John M. Fleming
Name: John M. Fleming
Title: Distributor
Date: 7/6/12
DISTRIBUTOR’S SPOUSE:
By: /s/ Rae J. Fleming
Name: Rae J. Fleming
Title: Spouse
Date: 7/6/12
NMTC, INC. d/b/a MATCO TOOLS
By: /s/ [Illegible]
Name: [Illegible]
Title: SR U.P. Sales
Date: 7/16/12

129a
EXHIBIT 3
MATCO TOOLS
DISTRIBUTORSHIP AGREEMENT
This Distributorship Agreement (this “Agreement”)
is entered into by and between NMTC, Inc. d/b/a Matco
Tools (“Matco”), a Delaware corporation, and John M.
Fleming (the “Distributor” or “you”).
RECITALS
Matco is the manufacturer and distributor of quality
tools, tool boxes, and service equipment, and has
developed a distinctive business system relating to the
establishment and operation of Matco mobile distributorships that sell tools, tool boxes, service equipment,
and other goods and services, including, without limitation, apparel, model cars and other collectible items,
and consumables (such as mechanic’s hand soaps), and
such other items that Matco may in its sole discretion
offer (collectively, the “Products”) to professional mechanics and other businesses which operate from a single
location and purchase tools for their own use (the
“Business System”).
The Business System is identified by means of certain trade names, service marks, trademarks, logos,
and emblems, including, the trademarks and service
marks “MATCO®” and MATCO® TOOLS (the “Marks”).
Matco desires to appoint the Distributor as an
authorized Matco mobile distributor to sell and service
the Products in a certain geographic area and the
Distributor desires to serve in such capacity.
The Distributor desires to operate a Matco mobile
distributorship in accordance with the Business System
and the other standards and specifications established
by Matco, including requirements for regular weekly

130a
customer sales calls, minimum inventory and sales
levels, communications and computer software usage
and other operating requirements.
In consideration of the mutual promises contained
in this Agreement, the Distributor and Matco agree
and contract as follows:
ARTICLE 1
APPOINTMENT OF DISTRIBUTOR
1.1 Grant of Distributorship. Matco grants the
Distributor the right, and the Distributor undertakes
the obligation, on the terms and conditions set forth in
this Agreement, to purchase, resell, and service the
Products as a Matco mobile distributor under the
Business System (the “Distributorship”).
1.2 List of Calls and Potential. Customer List. The
Distributor will operate the Distributorship only at
those locations identified as potential stops along the
Distributor’s proposed route (the “List of Calls”) and in
the list of Potential Customers (defined in Section
13.6) (the “Potential Customer List”). The List of
Calls and Potential Customer List are identified and
attached to this Agreement as Exhibit A. Unless the
List of Calls and Potential Customer List is adjusted
or modified by Matco and the Distributor, the Distributor may not offer or sell Products to any person,
business, entity or other Potential Customer, other
than those identified in the List of Calls. The Distributor acknowledges that: (A) as of the date of this
Agreement there are a minimum of three hundred
twenty-five (325) Potential Customers, the location of
which will be identified on the List of Calls, (B) there
can be no assurance that the Potential Customers
identified in the List of Calls will actually become
Customers (defined in Section 13.6) of the Distributor,

131a
and (C) the number of Potential Customers identified
on the List of Calls may increase or decrease after the
date of this Agreement due to a variety of reasons,
which may include economic changes, competition, sales
and service from the Distributor, businesses that close
or reduce staffing levels, and other reasons. Matco is
under no obligation to supplement the List of Calls
with additional stops or Potential Customers in the
event the number of Potential Customers declines. It
is important that you review your List of Calls to make
sure you are satisfied with it before you sign your
Distributorship Agreement. We therefore encouraged
you to ride through your List of Calls and identify all
of your shops and Potential Customers before you
signed this Agreement. It is and was your responsibility to perform this due diligence. However, if you
requested, a Matco representative was made available
to ride with you to assist with this process and answer
any questions you might have had. Prior to or in conjunction with your signing this Agreement, you also
must sign a Ride Along Acknowledgement that you
either did a ride through of your List of Calls or chose
not to do so.
1.3 Exclusive Rights. The Distributorship is a
business which operates principally from a vehicle,
and which is authorized to resell the Products to
potential purchasers identified on the List of Calls
with Potential Customers. Except as permitted under
Section 1.4, and for so long as the Distributor is in
compliance with this Agreement, Matco will not operate, or grant a license or franchise to operate, a Matco
mobile distributorship that will be authorized to sell
Products to any Potential Customers identified on the
Distributor’s List of Calls, if such Customers purchase
Products at or from the business located and identified
on the List of Calls.

132a
1.4 Rights Reserved by Matco. The Distributor
acknowledges and agrees that except for the rights
expressly granted to the Distributor and provided
herein, Matco retains all rights to sell, and license or
authorize others to sell, Products to any customers, at
any location, and through any channels or methods of
distribution. Without limiting the foregoing, Matco
retains the following rights, on any terms and conditions Matco deems advisable, and without granting
Distributor any rights therein:
1.4.1 Matco, and any affiliates, licensees or franchisees of Matco, if authorized by Matco, will have
the absolute right to sell the Products, directly or
indirectly, or through non-mobile distributors, including commercial sales representatives, (A) to industrial
customers, industrial accounts, and owners of vehicle repair businesses (including businesses, entities,
governmental agencies, and others, including those
which may be listed on the Distributor’s List of
Calls, but excluding the Potential Customers) who
(i) have central purchasing functions, or (ii) may
purchase and/or acquire special order products
designed for multiple-party use, which are not
included as part of Matco’s regular or special purchase inventory list, or (iii) may purchase Products
through a bidding process, such as railroads, airlines,
manufacturers, governmental agencies and schools,
(B) to industrial and multiple-line and multiple
brand wholesale distributors who may resell such
Products to any potential purchaser or customer,
including the Customers; and (C) to vocational and
training schools and programs, and to the students
and employees of such schools and programs.
1.4.2 Matco, and any affiliates, licensees or franchisees of Matco, if authorized by Matco, will have

133a
the absolute right to sell the Products through
(A) mail orders, telephone orders, and the use of
catalogs distributed to potential customers (including Distributor’s Potential Customers and Customers),
(B) any current or future means of electronic commerce, including the Internet and Matco’s website,
and (C) at special and/or temporary venues (including race tracks, and other motor sports events).
1.4.3 Matco, and any present or future affiliates
of Matco, may manufacture and/or sell products that
are the same as or similar to the Products, and
Matco’s present or future affiliates may sell such
products directly, or indirectly through wholesalers,
suppliers, distributors or others, to potential customers
who are the same as or similar to the Distributor’s
Potential Customers and Customers. Matco and the
Distributor acknowledge and agree that Matco has
no control over the sales or distribution methods or
operations of its affiliates, and that Matco has no
liability or obligations to the Distributor due to any
sales or distribution activities of Matco’s affiliates.
1.5 Understandings and Acknowledgments. Matco
and the Distributor acknowledge and agree that Matco
shall have no liability or obligation to the Distributor
if any Customer or Potential Customer of the Distributor purchases or receives Products or competitive
products through any method or channel of distribution described in Section 1.4, or otherwise reserved to
Matco. Further, the Distributor and Matco acknowledge and agree that notwithstanding Section 1.3,
Matco has in the past granted (A) distributorships
that do not have any territorial restrictions or
limitations on the distributor, and (B) distributorships
that have territories in which the distributor is not
limited to selling Products to a specified number of

134a
customers. Matco shall use its reasonable efforts to
deter such distributors, and other distributors, from
selling Products to Potential Customers on the List of
Calls, but Matco cannot and does not provide the
Distributor with any guaranty or assurance that such
distributors will not offer and sell Products to the
Distributor’s Potential Customers.
1.6 Spouse. Matco, Distributor, and Spouse (defined
below) acknowledge and agree that Matco has granted
the rights under this Distributorship Agreement to
Distributor based in part on Distributor’s application
and Distributor’s promise and covenant that the person identified on the signature page of this Agreement
as “Distributor,” will operate the Mobile Store and
conduct the daily operations of the Distributorship.
Distributor has designated the person identified on
the signature page of this Agreement as “Spouse,” as
the person who will assist Distributor with certain
aspects of the operation of the Distributorship. Matco,
Distributor, and Spouse further acknowledge and
agree that both Distributor and Spouse are liable for
the financial obligations and debts of Distributor and
the Distributorship, and are responsible individually
for compliance with this Agreement and for causing
Distributor to comply with this Agreement. Without
limiting the foregoing, Distributor and Spouse acknowledge and agree to be individually bound by all of the
terms of this Agreement, including, in particular,
those contained in Section 3.11, Article 9, Section 11.9,
and Article 12.

135a
ARTICLE 2
TERM OF AGREEMENT; DISTRIBUTOR’S
OPTION TO REACQUIRE DISTRIBUTORSHIP
2.1 Term. The term of this Agreement will be for ten
(10) years, commencing on the date of this Agreement
(the “Term”). This Agreement will not be enforceable
until it has been signed by both the Distributor and
Matco.
2.2 Distributor’s Option to Reacquire Distributorship.
At the end of the Term of this Agreement, the
Distributor will have the right, at his option, to
reacquire the Matco Distributorship, and execute a
successor Distributorship Agreement, to serve the
existing Customers identified in Exhibit A, for an
additional ten (10) year period, provided the Distributor
complies in all respects with the following conditions:
(A) the Distributor has given Matco written notice at
least one hundred eighty (180) days, but not more than
one (1) year, prior to the end of the Term of this
Agreement of his intention to reacquire the Matco
Distributorship; (B) the Distributor has complied with
all of the material terms and conditions of this
Agreement, has materially complied with Matco’s
operating and quality standards and procedures, and
has timely paid all monetary obligations owed to
Matco throughout the Term of this Agreement; (C) the
Distributor has been in strict compliance with this
Agreement and the policies and procedures prescribed
by Matco for (i) the six (6) month period prior to the
Distributor’s notice of its intent to reacquire a successor Matco Distributorship, and (ii) the six (6) month
period prior to the expiration of the Term of this
Agreement; (D) the Distributor has agreed, in writing,
to make the reasonable capital expenditures necessary
to update, modernize, and/or replace the Mobile Store

136a
and equipment used by him in his Matco business to
meet the then-current specifications and the general
image portrayed by the Matco Business System;
(E) the Distributor agrees to sign and comply with
the then-current standard Distributorship Agreement
then being offered to new distributors by Matco at the
time the Distributor elects to exercise his option to
reacquire the Matco Distributorship; and (F) the
Distributor and Matco have signed a joint and mutual
general release of all claims each may have against the
other.
ARTICLE 3
DISTRIBUTOR’S DUTIES AND OBLIGATIONS
3.1 Promotion of Distributorship. The Distributor
will, on a full-time basis, diligently promote, market,
and work to increase Product sales, to increase the
Customer base, and to provide quality service and
warranty support to the Customers.
3.2 Restrictions on Sales. The Distributor will only
sell Products and other merchandise approved by
Matco, and will not sell any products, tools, equipment
or other merchandise which are competitive with any
of the Products, except for items that are traded-in by
the Distributor’s Customers, without Matco’s prior
written consent. Further, the Distributor shall not
offer for sale, sell, or distribute any product not
approved in advance by Matco (including, for example,
hazardous materials, pornographic materials, or products not related to the Distributor’s business) and
shall discontinue the offer, sale, or distribution of
products promptly upon notice from Matco. The Distributor may not operate the Distributorship or sell
any Products to any person, entity, or business, or at
any location not identified on the Potential Customer

137a
List, even if such Potential Customer or location is
adjacent to, or near, a location on the Distributor’s List
of Calls or Potential Customer List, nor may the
Distributor sell Products to any Customer of the
Distributor who moves to a location or business not
identified on the Potential Customer List.
3.3 Inventory. The Distributor will (i) at all times
maintain a minimum inventory of Products equal to or
in excess of the New Distributor Starter Inventory;
(ii) on a weekly basis, purchase Products from Matco
in an amount not less than (a) eighty percent (80%)
of the “National Distributor Purchase Average” (or
“NDPA”), or (b) eighty percent (80%) of the “District
Distributor Purchase Average” (or “DDPA”) for the
Distributor’s district, whichever is lower, based on
Distributor’s twelve (12) month rolling average, or, if
Distributor has been operating the Distributorship for
less than twelve (12) months, based on Distributor’s
year-to-date average; and (iii) maintain a minimum of
a sixty percent (60%) ratio of a calculation of the
Distributor’s year-to-date purchase average divided by
the Distributor’s year-to-date sales average.
3.4 Weekly Customer Sales Calls and Sales Meetings.
To ensure high quality service, the Distributor will
make personal sales calls to each of the stops, shops or
locations on the Distributor’s List of Calls every week.
The Distributor will also attend at least eighty percent
(80%) of district sales meetings that Matco schedules
in or for Distributor’s district each year for its distributors and district managers. Matco expects to schedule
a district sales meeting approximately once every five
(5) weeks, provided, however, that Matco may modify
the frequency and timing of the meetings upon prior
notice. Failure to comply with the weekly sales calls
requirements or sales meeting requirements described

138a
in this Section 3.4 shall be a material default under
this Agreement, and shall be grounds for termination
under Section 11.3. If the Distributor fails to make
personal sales calls to each shop, stop, or location on
the List of Calls at least weekly, or if the Distributor
fails to attend at least eighty percent (80%) of the district sales meetings in any twelve (12) month period,
then Matco may, in lieu of termination of this Agreement, terminate, reduce, or modify in all respects the
Distributor’s exclusive rights under Section 1.3 of
this Agreement, immediately upon written notice from
Matco to Distributor, and Matco will have the absolute
right to adjust the territory, the List of Calls or
Potential Customers accordingly or appoint or permit
one or more other distributors to sell Products to the
Distributor’s Potential Customers, or to sell directly or
indirectly, itself or through affiliate, Products to the
Distributor’s Potential Customers.
3.5 Time Payment Reserve Account Matco acknowledges having received from the Distributor a deposit
for the Distributor’s Time Payment Reserve Account
in the amount designated by Matco, which will be
administered in accordance with Matco’s Time Payment
Reserve Account policies.
3.6 Mobile Store; Uniforms. The Distributor must
purchase or lease a Mobile Store, of the type and from
a dealer or supplier approved by Matco, prior to beginning operations of the Distributorship. The Distributor
will use the name MATCO TOOLS®, the approved
logo and all colors and graphics commonly associated
with the Matco Business System on the Mobile Store
in accordance with Matco’s specifications. The Distributor will keep the interior and exterior of the Mobile
Store in a clean condition and will keep the Mobile
Store in good mechanical condition. The Mobile

139a
Store must be used solely for the operation of the
Distributor’s Matco business. If the Distributor desires
to change its Mobile Store or operate a different Mobile
Store during the Term of this Agreement, the Distributor must obtain the prior written authorization of
Matco’s Vice President of Sales before doing so. The
Distributor must wear Matco-approved uniforms, as
prescribed by Matco periodically, while operating the
Distributorship. The Distributor is required to maintain a professional appearance at all times and be
clean and well groomed while making calls on Potential
Customers.
3.7 Computer; Software; Data. The Distributor will
purchase or lease a new (not previously owned or
refurbished) computer system that complies with the
specifications established by Matco (and that Matco
may update periodically), will sign the Matco Distributor Business System Software License, Maintenance
and Support Agreement (the “Software License Agreement”) (Exhibit 0) as may be modified from time to
time, and will pay the required software license fees
and annual maintenance support fee set forth in the
Software License Agreement. The Distributor shall
comply with all of Matco’s standards and specifications
for computer hardware, software, and communications,
and the Distributor shall update its computer hardware,
software, and communications to comply with any new
or changed standards or specifications established by
Matco. The Distributor agrees to use all of the features
of the Matco software in operating the Distributorship,
including, without limitation, the order entry, inventory, accounts receivable and reporting features. The
Distributor will communicate with Matco, and will
transmit to, and receive documents from, Matco, electronically, in the manner specified by Matco in the
Manual (defined below) or as directed by Matco

140a
through the Matco Distributor Business System.
Except for the Matco Distributor Business System
software, the Distributor will have sole and complete
responsibility for: (a) the acquisition, operation, maintenance and upgrading of the computer system in order
to maintain compliance with Matco’s current standards as they may be modified from time to time:
(b) obtaining and maintaining access to the Internet
through a subscription with an Internet service provider or a then-current technologically capable equivalent
in accordance with Matco’s standards (which is
currently high-speed Internet access through cable,
DSL, or high-speed cellular); (c) the manner in which
the Distributor’s system interfaces with Matco’s
computer system and those of other third parties; and
(d) any and all consequences that may arise if the
Distributor’s system is not properly operated,
maintained, and upgraded. All data provided by the
Distributor, uploaded to Matco’s system from the
Distributor’s system, and/or downloaded from the
Distributor’s system to the Matco system is and will be
owned exclusively by Matco, and Matco will have the
right to use such data in any manner that Matco
deems appropriate without compensation to the
Distributor. In addition, all other data created or
collected by Distributor in connection with the Matco
Distributor Business System, or in connection with the
Distributor’s operation of the business, is and will be
owned exclusively by Matco during the term of, and
following termination or expiration of, the Agreement.
Copies and/or originals of such data must be provided
to Matco upon Matco’s request.
3.8 Matco Business System Training (MBST) Program. The Distributor must successfully complete the
“Matco Business System Training (MBST) Program,”
as defined in Section 4.1, before operating the Distrib-

141a
utorship. If the Distributor owns more than one (1) Matco
Distributorship, then the Matco Business System Training (MBST) Program must be successfully completed
by the Operator who will operate the Distributorship
to which this Agreement relates before the Distributorship opens for business. Matco may provide additional
training and certification for its distributors from time
to time and the Distributor (and the Operator, if
applicable) will attend this training and will complete
the certification procedures designated by Matco. At
its option, Matco may require distributors to pay all or
some portion of the cost of providing any such future
additional training and/or certification procedures.
3.9 Compliance with Laws. The Distributor and all
of his employees will comply with all federal, state and
local laws, ordinances, rules, orders and regulations
applicable to the operation of the Distributorship, including all traffic and safety regulations. The Distributor
will file all federal and state tax returns and will
timely pay all federal withholding taxes, federal insurance contribution taxes, and all other federal, state,
and local income, sales and other taxes.
3.10 Compliance with Manual. The Distributor will
operate the Distributorship in conformity with the
operating procedures and policies established in the
Matco Confidential Operating Manual (the “Manual”),
or otherwise in writing. Matco will loan the Distributor a copy of the Manual when the Distributor begins
the Matco Business System Training (MBST) Program.
Matco reserves the right to provide the Manual electronically or in an electronic or computer-readable
format, for example, via the Matco Distributor Business
System or another method, or on a CD.
3.11 Payment Obligations. The Distributor will
timely pay all amounts owed to Matco for Product

142a
purchases and under any credit agreement, promissory
note, or other agreement relating to the Distributorship. All payments shall be made in accordance with
Matco’s instructions and Operations Manual, including
payments by telephone and electronic funds transfer,
as described in Section 6.4 below.
3.12 Management of Distributorship. The Distributor
will be responsible for managing all aspects of the
Matco Business, including sales, collection of accounts
receivable, purchases, inventory management, and
hiring of Operators, if permitted by Matco. The Distributor may not hire Operators, managers or drivers,
or delegate any of his/her duties and obligations under
this Agreement unless approved in writing, in advance,
by Matco. Notwithstanding our Business System standards, some of which address safety, security, and
related matters, these matters are solely within the
Distributor’s control, and the Distributor retains all
responsibility for these matters in the operation of the
Distributorship.
3.13 Matco’s Inspection Rights. The Distributor will:
(A) permit Matco and its agents to inspect the Distributor’s Mobile Store and observe the Distributor’s
business operations at any time during normal business hours, (B) cooperate with Matco during any
inspections by rendering such assistance as Matco
may reasonably request, and (C) immediately, upon
written notice from Matco, take the steps necessary to
correct any deficiencies in the Distributor’s business
operations.
3.14 Use of the Internet. The Distributor specifically acknowledges and agrees that any Website (as
defined below) will be deemed “advertising” under this
Agreement, and will be subject to (among other things)
Matco’s approval under Section 7.4 below. (As used

143a
in this Agreement, the term “Website” means an
interactive electronic document, contained in a network
of computers linked by communications software, that
the Distributor operates or authorizes others to operate
and that refers to the Distributorship, the Marks,
Matco, and/or the Business System. The term Website
includes, but is not limited to, Internet and World
Wide Web home pages.) In connection with any
Website, the Distributor agrees to the following:
3.14.1 Before establishing the Website, the Distributor will submit to Matco a sample of the Website
format and information in the form and manner
Matco may reasonably require.
3.14.2 The Distributor may not establish or use
the Website without Matco’s prior written approval.
3.14.3 In addition to any other applicable requirements, the Distributor must comply with Matco’s
standards and specifications for Websites as prescribed by Matco from time to time in the Manual or
otherwise in writing. If required by Matco, the
Distributor will establish its Website as part of
Matco’s Website and/or establish electronic links to
Matco’s Website. As of the date of this Agreement,
Matco has established a Website for the entire
system, and has offered Distributor a web page (or
subpage) on Matco’s Website. Distributor shall
execute Matco’s “Matco Tools Web Page Agreement”
(attached as Exhibit Q hereto), which permits
Distributor to have its own subpage on Matco’s
website. Distributor shall pay all appropriate fees
under the Matco Tools Web Page Agreement, and
shall comply with Matco’s web policies as they may
be modified from time to time.

144a
3.14.4 If the Distributor proposes any material
revision to the Website or any of the information
contained in the Website, the Distributor must
submit each such revision to Matco for Matco’s prior
written approval as provided above.
3.15 Substance Abuse and Drug Testing. The Distributor acknowledges and agrees that driving a Mobile
Store in an unsafe manner, or under the influence of
alcohol or illegal drugs is potentially hazardous to the
Distributor and to third parties, may cause physical
injury to the Distributor and/or to third parties, and is
a violation of law and a violation of Matco policies. In
addition, such actions, and/or illegal or unauthorized
operation of the Mobile Store and/or the Distributorship,
may injure or harm the Marks and the goodwill associated with the Marks. The Distributor agrees not to
drive or operate the Mobile Store under the influence
of alcohol or illegal drugs and not to use or ingest
illegal drugs at any time. Matco may, from time to
time, upon notice to the Distributor and subject to
compliance with applicable law, require that the
Distributor submit to, and undergo periodic or random
drug and/or alcohol testing at a facility, clinic, hospital
or laboratory specified by Matco, at a reasonable
distance from the Distributor’s home, within the time
period specified by Matco, which shall not be less than
two (2) days, nor more than five (5) days following
Matco’s notice. Matco will bear the cost of any testing
or lab fees. The Distributor’s failure to submit to the
testing, or the failure to pass the testing and analysis,
will be grounds for immediate termination of the
Distributorship, upon notice from Matco. The Distributor must implement a drug-free workplace policy, which
may include a drug testing-policy for the Distributor’s
employees (if any), consistent with Matco’s policy and
consistent with and in compliance with applicable

145a
laws. During the Term of this Agreement, Matco may
periodically require that the Distributor certify that
the Distributor and any employees are in compliance
with the Distributor’s drug-free workplace policy,
consistent with and in compliance with applicable
local, state and federal laws.
3.16 Computer Transactions. The Distributor must
use his/her/its best efforts to timely and accurately
enter and maintain, in its entirety, all business pertinent data on the MDBS business system relative to
the operation of the Distributorship, including but not
limited to customer data, product data, sales, returns,
warranty, credit card transactions, and payments.
Transactions must be completed in strict compliance
with Matco’s and industry standards, specifications
and procedures, and any unauthorized adjustments,
or non-compliant use or recordation of transactions (or
failure to accurately record transactions or protect
customer information), are prohibited.
3.17 Document Processing. In consideration of Matco’s
time and expense to prepare franchise and financial
documents in connection with Distributor’s execution
of this Agreement and related documents, and if necessary, for Matco to file such documents with appropriate
government agencies, Distributor must pay Matco a
document processing fee of ninety-nine dollars ($99),
on or before signing the Agreement.
3.18 Late Fee. The Distributor must pay for all
Product purchases, and all charges, fees and other
amounts in a timely manner, as required by this
Ageement and any related or ancillary documents or
agreements. Product purchases and other fees and
charges will be charged to the Distributor’s Open
Purchase Account (“OPA”). If the Distributor fails to
make a payment within twenty-one (21) days of the

146a
date of an invoice from Matco, Distributor’s OPA will
be deemed delinquent. Matco may assess a late fee of
five percent (5%) of the overdue balance per week, with
a maximum late fee, per week, of one hundred dollars
($100).
ARTICLE 4
MATCO’S DUTIES
4.1 Matco Business System Training (MBST) Program. Matco will provide a classroom training program
to the Distributor and, if applicable, the Operator, in
Stow, Ohio, or at such other location as may be designated by Matco, to educate, familiarize and acquaint
the Distributor and the Operator with the Matco
Business Systems. The training will include instruction (and, in some instances, may include training by
videotape, computer-based training modules, or interactive video) on basic business procedures, purchasing,
selling and marketing techniques, customer relations,
basic computer operations, and other business and
marketing topics selected by Matco. After completion
of the classroom training, hands-on training on the
Distributor’s Mobile Store will be provided by Matco.
The classroom training at Stow, or other designated
location, together with the on-the-truck training comprises Matco’s “Matco Business System Training (MBST)
Program.” The Distributor and the Operator must
successfully complete the classroom training prior to
commencing business operations. The classroom training will be scheduled by Matco in its sole discretion
and will be for a minimum of seventy hours. The
Distributor must pay lodging and travel costs for
attendance at the classroom training program. Currently,
Matco has negotiated group lodging and meal accommodations and rates for distributors while attending
the classroom training program. Lodging is located

147a
near Matco’s headquarters, Cleveland Hopkins International Airport, and/or Akron-Canton Regional Airport.
The Distributor will be responsible for all expenses
(except for scheduled travel to and from the airport
and for daily travel to and from Matco’s headquarters)
incurred during classroom training programs. Lodging
and meal costs will be billed directly to the Distributor’s Open Purchase Account. If the Distributor or
initial Operator elects to bring their respective Spouse,
Matco will charge a flat fee in the amount of two
hundred ninety-five dollars ($295) for food, lodging,
and local transportation. The Distributor will pay all
other expenses incurred by the Distributor, the
Operator, and, if applicable, their Spouse(s), in connection with the attendance and/or participation of the
Distributor and the Operator in Matco’ s Matco Business System Training (MBST) Program, including the
Operator’s salary and fringe benefits.
4.2 Field Training. Following the Distributor’s successful completion of the classroom portion of Matco’s
Matco Business System Training (MBST) Program, a
field instructor, and/or a regional or district manager
designated by Matco (the “Designated Trainer”) will
assist and advise the Distributor in the operation of
his Matco business for a minimum of eighty hours over
a six (6) week period. This assistance may include
approximately one (1) week of training prior to or after
the Distributor’s classroom training, approximately
one (1) week of training during the period that the
Distributor commences sales activity, in conjunction
with the Distributor’s initial sales calls to Potential
Customers and locations identified on the List of Calls
and Potential Customer List, and a final phase of
training during a period following the Distributor’s
first week of operations. The Designated Trainer will
make sales calls with the Distributor and will provide

148a
training and assistance to the Distributor relating to
purchasing, selling and marketing techniques, customer
relations, computer operations, Product knowledge
and other topics relating to the Distributor’s operation
of the Distributorship.
4.3 Periodic Meetings. Matco will schedule periodic
meetings with Matco personnel and other distributors
for additional training, Product updates and business
seminars. The Distributor must attend at least eighty
percent (80%) of the Matco-scheduled district sales
meetings for its district in any twelve (12) month period.
4.4 Hiring of New Operator. In the event the
Distributor desires to hire an Operator to operate an
additional Mobile Store, the Distributor must notify
Matco of such intent, and obtain. Matco’s prior written
authorization and approval to hire or engage an
Operator. If the new Operator has not successfully
completed the Matco Business System Training (MBST)
Program prior to hiring by the Distributor, then the
new Operator will be required to successfully complete
the Matco Business System Training (MBST) Program
prior to operating the Distributorship. Matco will not
charge a training fee for training the new Operator,
but the Distributor will pay all travel, room and board,
living and other expenses in connection with the new
Operator’s attendance and/or participation in Matco’s
Matco Business System Training (MBST) Program.
Additionally, the Distributor will pay the Operator’s
salary and fringe benefits.
ARTICLE 5
THE PARTIES’ RELATIONSHIP
5.1 Independent Contractor. The Distributor is and
will hold himself out to be an independent contractor,
and not an agent or employee of Matco. The Distribu-

149a
tor is not authorized: (A) to sign in the name of Matco
(or on its behalf) any contract, check, note, or written
instrument; (B) to pledge the credit of Matco; (C) to
bind or obligate Matco in any way; or (D) to make any
promise, warranty, or representation on Matco’s behalf
with respect to the Products or any other-matter,
except as expressly authorized in writing by Matco.
5.2 Financial Records and Reports. The Distributor
will keep complete and accurate books, records, and
accounts of all financial and business transactions and
activities relating to the Distributorship, and will
permit Matco and its representatives to audit the
books, records and accounts during regular business
hours during the Term of this Agreement and for
one (1) year after termination or expiration of this
Agreement. The Distributor’s books, records and accounts
will be in the form designated by Matco, and the
Distributor will use the chart of accounts designated
by Matco for all financial statements. The Distributor
will submit to Matco, on a weekly basis, such business
reports as Matco may designate in writing. Matco may
request that the Distributor provide to Matco, within
ninety (90) days of the Distributor’s fiscal year end, a
physical inventory which must be verified by a Matco
District Manager, and an annual financial statement
prepared in a format that Matco may designate. Once
a physical inventory is completed, Distributor must
adjust his books and MDBS reports to reflect the
verified physical inventory numbers. Matco may require
that the financial statements include a profit and loss
statement, a balance sheet, a cash flow statement
and/or other information. Depending upon Distributor’s
overall business health and compliance with the terms
and conditions of this Agreement, Matco may waive
this physical inventory requirement and/or may extend
the frequency to a biannual basis. The Distributor

150a
must properly register for its/his/her sales tax filing in
its/his/her appropriate state and provide Matco with a
properly executed exemption certificate.
5.3 Insurance. The Distributor will purchase and
maintain comprehensive general liability insurance
covering bodily injury and property damage with minimum coverage of two million dollars ($2,000,000), and
vehicle liability insurance coverage for the Mobile
Store with minimum coverage of two million dollars
($2,000,000), insuring both the Distributor and Matco
against any loss, liability, damage, claim or expense of
any kind whatsoever, including claims for bodily
injury, personal injury and property damage resulting
from the operation of the Distributorship or the
operation of the Mobile Store or any other vehicle used
in connection with the Distributorship. In addition,
the Distributor will .purchase and maintain all risk
inland marine insurance coverage with limits, of at
least “replacement” cost for the Mobile Store and the
Products, cargo, computer system and equipment
used in connection with the Distributorship, and will
purchase and pay for any and all other insurance
required by law. All insurance policies maintained by
the Distributor will: (A) name Matco as an additional
named insured, (B) provide that Matco will receive
copies of all notices of cancellation, nonrenewal or
coverage change at least thirty (30) days prior to the
effective date, and (C) require the insurance company
to provide and pay for legal counsel to defend any
claims or actions brought against the Distributor or
Matco. Additional requirements concerning the insurance to be obtained and maintained by the Distributor,
if any, may be designated by Matco from time to time
in writing. If Distributor does not obtain and maintain
the proper insurance coverage, Matco may purchase
said insurance on Distributor’s behalf and charge

151a
Distributor’s Open Purchase Account for the premium
paid.
5.4 Indemnification. The Distributor will indemnify
and hold Matco harmless from any claims, damages,
judgments and losses, including attorney’s fees, arising
out of, from, in connection with, or as a result of
the Distributor’s operation of the Distributorship and
the business conducted under this Agreement, the
Distributor’s breach of this Agreement, the Distributor’s negligence, or any acts or omissions of the
Distributor in connection with the operation of the
Distributorship including, without limitation, claims,
damages, judgments and losses arising from any unauthorized statements, representations or warranties
made by the Distributor with respect to the Products,
arid those alleged to be caused by Matco’s negligence,
unless (and then only to the extent that) the claims,
damages, judgments, and losses are determined to be
caused solely by Matco’s gross negligence or willful
misconduct according to a final, unappealable ruling
issued by a court or arbitrator of competent jurisdiction.
5.5 Exercise of Matco’s Judgment. Matco has the
right to operate, develop, and change the Business
System in any manner that is not specifically precluded by this Agreement. Whenever Matco has reserved
in this Agreement a right to take or withhold an
action, or to grant or decline to grant the Distributor a
right to take or omit an action, except as otherwise
expressly and specifically provided in this Agreement,
Matco may make its decision or exercise its rights on
the basis of the information readily available to it, and
Matco’s judgment of what is in its best interests and/or
in the best interests of its franchise network, at the
time the decision is made, without regard to whether
other reasonable or even arguably preferable alternative

152a
decisions could have been made by Matco and without
regard to whether Matco’s decision or the action Matco
takes promotes its financial or other individual interest.
ARTICLE 6
PRODUCTS
6.1 Sale and Purchase of Products. Matco will sell
and the Distributor will buy the Products from Matco
at the prices and on the terms established and published by Matco from time to time. Distributor will
not purchase or attempt to purchase any products,
including Products, directly from vendors supplying
products to Matco, or from vendors or other sources
that may or may not sell to or supply products to Matco
or its distributors. Prices and terms applicable to each
order placed by the Distributor will be those in effect
on the date the order is accepted by Matco. Matco
reserves the right to add or delete Products, make
changes to the Products, increase Product prices, and
adjust the prices, terms, and discounts for the
Products, without notice or liability to the Distributor,
at any time.
6.2 Prices of Products. The Distributor will have the
absolute right to determine the prices at which the
Products are sold to the Distributor’s Customers. If
Matco institutes and implements a discount program,
incentive program, coupon program, or other product
sales or marketing program, the Distributor must
comply with the program, and honor all authorized
coupons, gift cards, gift certificates, and incentives.
6.3 Initial Inventory. Upon execution of this Agreement, the Distributor will place an order with Matco
for the New Distributor Starter Inventory. The Distributor will pay Matco for the New Distributor Starter
Inventory upon execution of this. Agreement. Shipment

153a
of the New Distributor Starter Inventory will be made
to the Distributor within twenty-eight (28) days of the
date of this Agreement.
6.4 Electronic Funds Transfers. All payments to
Matco by the Distributor on any promissory note or for
the purchase of Products and other goods and services
will be made by electronic funds transfers in accordance with the instructions by Global Payment Systems
contained in the Manual. The Distributor will, from
time to time during the Term of this Agreement, sign
such documents as Matco may request to authorize the
Distributor’s bank to transfer the payment amounts
designated by the Distributor to Matco’s bank.
6.5 Standard Payment Terms. Matco’s standard
payment terms for Products sold to the Distributor
are “payment due upon receipt of invoice.” If the
Distributor fails to make any payment to Matco for
Products in a timely manner, then Matco may require
full or partial payment in advance or seek other assurances of performance, including, but not limited to,
reducing credit limits and/or placing the Distributor
on credit hold prior to shipping any additional
Products to the Distributor. Matco may assess late
fees on the overdue amounts, as provided for in Section
3.18 above.
6.6 Security. The Distributor hereby grants Matco
a security interest in all of the Distributor’s Products,
accounts receivable and other assets to secure any
unpaid credit or financing provided to the Distributor
and the Distributor will sign such security agreements, financing statements and other documents as
Matco may request to legally perfect its security
interest.

154a
6.7 Shipment. The Distributor will be entitled to
one (1) qualifying shipment of Products per week from
Matco’s warehouse, freight prepaid by Matco, if the
Distributor has complied with Matco’s rules and policies
regarding the placement and payment of orders for
Products. Matco will ship Products “FOB” from Matco’s
warehouse, freight prepaid, but the title to the Products,
and the risk of loss, will pass to Distributor as soon as
the Products are delivered to the carrier at Matco’s
warehouse. Prepaid freight shipments will not accumulate if the Distributor fails to request a shipment
for any particular week. Additional shipments, special
orders, shipments to addresses other than the Distributor’s normal business address, and orders not
made in compliance with Matco’s standard order input
procedures, will be shipped from Matco’s warehouse,
freight collect, unless otherwise agreed to in writing
by Matco.
6.8 No Right To Withhold or Offset. The Distributor
will not withhold any payment due to Matco because
of any damage to the Products caused during transportation from Matco to the Distributor or as a result
of any legal or other claims the Distributor may allege
against Matco. The Distributor will not deduct any
charges for services, parts, or other items from any
payments due to Matco until such charges have been
agreed to in writing by Matco.
6.9 Acceptance of Orders/Force Majeure. All Product
orders placed by the Distributor will be subject to
acceptance by Matco. Matco will, with reasonable diligence and subject to Section 6.5, execute all accepted
Product orders received from the Distributor. However,
Matco expressly reserves the right at any time to
defer, postpone or forego any shipments of Products on
account of procedures or priorities established by any

155a
state, federal or local government or because of production failures, strikes or other labor disturbances,
inability or delay in obtaining raw materials or other
supplies, floods, fires, accidents, wars, incidents of terrorism or other causes or conditions beyond the control
of Matco, and Matco will not be liable to the Distributor for any damages or loss of profits caused by such
delay in executing or failing to execute such orders.
6.10 Taxes. The Distributor will pay, in addition to
the prices specified for the Products pursuant to
Matco’s then current price list, all applicable federal,
state, local and governmental taxes applicable to the
Distributor’s purchase of the Products.
6.11 Risk of Loss. After any Products ordered by the
Distributor have been identified in such order, the risk
of loss will at all times be borne by the Distributor. The
Distributor will be responsible for making all claims
against the carrier for damages to the Products and for
all other losses.
ARTICLE 7
TRADEMARKS, TRADE NAMES AND PATENTS
7.1 Grant of License. Matco grants to the Distributor
a non-exclusive, non-transferable right and license to
use the Marks in the normal course of operating the
Distributorship. The Distributor will only use the
Marks in connection with the sale of the Products sold
pursuant to the Business System and the terms of this
Agreement.
7.2 Rights of Matco. The Distributor will not take
any action which is adverse to Matco’s right, title or
interest in the Marks or Matco’s pending or issued
patents for various inventions and Products. The
Distributor will not register or attempt to register the

156a
Marks or apply for any patent rights for the Products.
The Distributor further agrees that nothing in this
Agreement will give the Distributor any right, title or
interest in the patent rights or Marks other than the
right of use in accordance with the terms of this
Agreement. The Distributor acknowledges the validity
and Matco’s exclusive ownership of the Marks and the
patent rights and agrees that any improvements made
by the Distributor relating to the Marks or the
Business System, as well as any and all goodwill
resulting from the Distributor’s use of the Marks
pursuant to this Agreement, will inure solely to the
benefit of Matco.
7.3 Conditions to Use of Marks. The Distributor will
not have the right to sublicense, assign or transfer its
license to use thc Marks. The Distributor will not use
the Marks as part of its corporate or other legal name,
or as part of any e-mail address, domain name, or
other identification of the Distributor in any electronic
medium. The Distributor will use the Marks only
in the form and manner and with the appropriate
legends as prescribed from time to time by Matco. The
Distributor will modify its use of the Marks from time
to time in the manner designated in writing by Matco.
The Distributor will sign all documents deemed
necessary by Matco to obtain or maintain protection
for the Marks.
7.4 Approval of Printed Materials. The Distributor
will obtain Matco’ s prior written approval for the use
of the Marks in any advertising, promotional or other
printed materials.
7.5 Defense of Actions. The Distributor will give
Matco immediate written notice of any claim made by
any party relating to the Marks or the Business
System and will, without compensation, cooperate in

157a
all respects with Matco in any legal proceedings
involving the Marks or the Business System. Matco
will have the sole and absolute right to detcrminc
whether it will commence or defend any litigation
involving the Marks or the Business System, and will,
at its expense, control and conduct any litigation
involving the Marks. If the Distributor is named as a
defendant in any action involving the Marks or the
Business System solely because the plaintiff is
alleging that the Distributor does not have the right to
use the Marks, then if the Distributor gives Matco
written notice of the action within ten (10) days after
the Distributor receives notice of the claim, Matco will
assume the defense of the action and will indemnify
and hold the Distributor harmless from any and all
damages assessed against the Distributor in
connection with the action.
ARTICLE 8
WARRANTY AND TOOL RETURNS
8.1 Warranty Policy. All Matco Products are subject
to the warranty and liability limitations of the written
Product warranty of Matco (the “Matco Warranty”).
Matco’s Warranty policy, which may change over time,
provides, generally, that any Product that is branded
with the “Matco” name is warranted against defects
in materials and workmanship. Matco, or one of its
authorized representatives, will, at Matco’s option,
repair or replace any tool or part that is subject to
the warranty without charge, if the defect or
malfunctioning tool or part is returned to Matco or its
representative, shipping prepaid. There are certain
limitations under the Matco Warranty, and the Distributor must read and understand the warranty policies.
The Distributor must follow Matco’s policies and
procedures regarding returning tools for warranty

158a
claims. Among the procedures that the Distributor
must follow is the requirement to send back the
products with the appropriate paperwork, product
specifications, codes and other required information.
In addition, the Distributor must pay all freight and
shipping charges to send the defective product to
Matco. In most cases, Matco will pay the shipping and
freight costs to send the Distributor a new or repaired
tool, part or product.
Also, there are certain warranty service functions
that the Distributor must perform. Currently, the
Distributor warranty responsibilities and functions
include the following: “in the field” repair of ratchets
and toolboxes. For ratchet repairs, the Distributor
must purchase repair kits, which currently range in
price from ten dollars ($10) to fourty dollars ($40) per
kit and must pay the shipping/freight charges to
return the defective part to Matco. Upon return of the
defective parts to Matco, Matco will credit the cost of
the ratchet repair kit. Matco intends to include ratchet
repair instructions on its website for distributors. You,
as the distributor, are not compensated for your time
to make these repairs. The Distributor is also currently responsible to perform minor warranty repairs
on toolboxes within the List of Calls, such as drawer
slides, casters (wheels), trim and/or drawer replacement if needed. Warranty repairs are handled on a
case-by-case basis after contacting Matco’s Customer
Service and/or Matco’s toolbox manufacturing facility.
There are no repair kits for toolboxes, and you are not
required to purchase items to repair toolboxes under
warranty.
The Matco Warranty may be amended or revised by
Matco at any time in its sole discretion. Matco will
have the right to adjust and resolve all warranty

159a
claims, either directly with the Customer or through
the Distributor, as Matco in its sole discretion may
determine, and any action by Matco with respect to
warranty claims will be binding upon the Distributor.
8.2 Tool Return Policy. Matco will make its thencurrent tool return policy available to the Distributor.
The current policy provides that during the term of the
Distributorship Agreement or after its expiration or
termination, the Distributor may return for credit to
its Open Purchase Account any eligible Matco Products
purchased from Matco and listed in the then current
Matco Tools Price List, excluding special order and
high obsolescence electronic products. The current tool
return policy specifies that the tools and other products that are eligible for return for credit are new,
unused, and not abused products that are in saleable
condition, and in their original packaging. The products
returned must be on the current inventory list and
cannot be discontinued items. Matco generally tries to
give distributors at least one hundred eighty (180)
days’ notice following an announcement that a product
has been discontinued to return the product for credit.
The Distributor may take advantage of the tool return
policy at any time, such as if the Distributor has
overstocked items, or wishes to rotate or adjust the
product mix in its inventory. Matco will credit the
Distributor’s Open Purchase Account for the eligible
returned Products less a restocking fee, which in most
cases is fifteen percent (15%) of the original purchase
price of the product. A good faith effort will be made
by Matco to issue credit within ninety (90) days of
acceptance of the returned Products. The specific
criteria for products that are eligible for return for
credit is stated in Matco’s tool return policy. The
Distributor must pay for the packaging and shipping
of such Products to Matco. Matco may revise its tool

160a
return policy at such times as it may determine, and
will inform the Distributor in writing of any changes
when made.
ARTICLE 9
CONFIDENTIALITY
The Distributor will not, during the Term of this
Agreement or thereafter, communicate, divulge or use
for the benefit of any other person or entity any confidential information, knowledge or know-how concerning
the methods of operation of a Matco Distributorship
which may be communicated to the Distributor by any
employees of Matco, or which arises by virtue of this
Agreement. The Distributor will divulge such confidential information only to his employees who must
have access to it in order to operate the Distributorship. The Operations Manual and any and all other
information, knowledge and know-how including,
without limitation, drawings, materials, equipment,
technology, methods, procedures, specifications, techniques, computer software programs, computer software
source codes, systems and other data which Matco designates as confidential or proprietary will be deemed
confidential and proprietary for the purposes of this
Agreement. The obligations of confidentiality shall
survive termination or expiration of this Agreement
for any reason.
ARTICLE 10
TRANSFER OF INTEREST
10.1 Transfer of Distributorship Interest. Neither
the Distributor nor any individual, partnership, or
corporation which owns any interest in the Distributor
will transfer any interest in this Agreement, in the
Distributor, in any capital or common stock in the

161a
Distributor, or in all or substantially all of the assets
of the Distributorship, including the Mobile Store (the.
“Distributorship Interest”), without the prior written
consent of Matco.
10.2 Conditions for Transfer. Matco will not unreasonably withhold its consent to any transfer, if the
following conditions are met: the Distributor is not in
default under any provision of this Agreement, including payment of any financial obligations to Matco; the
Distributor and Matco have signed a mutual general
release of any and all claims against each other and
their respective affiliates; it has been demonstrated to
Matco’s sole satisfaction that the transferee exhibits
the ability to operate the Distributorship, possesses an
acceptable credit rating, has adequate financial resources
and capital to operate the Distributorship in accordance with Matco’s requirements, and is not involved,
directly or indirectly, in any business that is in any
way competitive with a Matco Distributorship; the
transferee-distributor successfully completes the Matco
Business System Training (MBST) Program; and the
Distributor and transferee-distributor sign the legal
documents necessary to transfer this Agreement to the
transferee-distributor. Distributor and Spouse acknowledge and agree that (a) any proposed assignment or
transfer to Spouse of this Agreement, the rights and
responsibilities under this Agreement, or any Distributorship Interest, or (b) any proposed delegation of
duties of Distributor under this Agreement, to Spouse,
by contract, by operation of law, or otherwise, shall not
be effective unless approved in advance, in writing by
Matco, and Matco may rely on the conditions described
in this Section 10.2, and/or any other reasonable
conditions and qualifications, in determining to grant
or withhold its consent of or approval to any such
transfer, assignment, or delegation to Spouse.

162a
10.3 Transfer to Corporation. The Distributor may
transfer this Agreement to a corporation formed for
the convenience of ownership upon prior written
notice to Matco, provided the Distributor owns one
hundred percent (100%) of the capital stock of the
corporation and personally guarantees, in a written
guaranty satisfactory to Matco, to make all payments
and to fulfill all obligations and conditions required
under this Agreement.
10.4 Security Interest. The Distributor will not
grant a security interest in the Distributorship or this
Agreement without Matco’s prior written consent.
Matco will have the right as a condition of its consent,
to require the secured party to agree that if the
Distributor defaults under any security interest, then
Matco will have the right and option (but not the
obligation) to be substituted for the Distributor as the
obligor to the secured party and to cure any default of
the Distributor without the acceleration of any
indebtedness due from the Distributor.
10.5 Transfer by Matco. Matco will have the right
to transfer or assign this Agreement and all or any
part of its rights or obligations herein to any person or
legal entity without notice to the Distributor.
10.6 Non-Competition and Non-Solicitation Following
a Transfer. In addition, to the covenants regarding
non-competition and non-solicitation of Distributor,
Spouse and others as specified in Section 11.9 below,
Matco encourages Distributor (if obtaining the distributorship by virtue of a transfer) to obtain a noncompetition
agreement from the previous distributor that serviced
the List of Calls, and Matco expects that it will
encourage any new distributor that acquires the
business, the route, the accounts or the distributorship
of the Distributor to obtain a noncompetition

163a
agreement from the outgoing or transferring Distributor. The noncompetition agreement may assist in
preventing competition from the previous distributor,
previous distributor’s spouse, and immediate family
members for a continuous uninterrupted period of one
(1) year from the date of a transfer permitted under
Section 10 above, or expiration or termination of the
previous distributor’s Distributorship Agreement
(regardless of the cause for termination). Competition
includes, but is not limited to, selling or attempting to
sell any Products or any products the same as or
similar to the Products to (i) any existing Customer on
the Distributor’s List of Calls who purchased one or
more Products from the previous distributor during
the twelve (12) month period immediately preceding
the dates referred to in this Section 10.6, or (ii) any
Potential Customer on the Distributor’s List of Calls
and Potential Customer List, located on, or identified
in, the previous distributor’s List of Calls and Potential
Customer List, as such lists may have been amended
as provided for in the previous distributor’s Distributorship Agreement and in accordance with Matco’s
policies, if the previous distributor had visited or made
one or more sales calls to such Potential Customer,
List of Calls, or person or business identified on the
Potential Customer List during the twelve (12) month
period immediately preceding the date referred to in
this Section 10.6.
ARTICLE 11
DEFAULT AND TERMINATION
11.1 Termination by Distributor. The Distributor
may terminate this Agreement, at any time, with or
without cause, by giving forty-five (45) days prior
written notice to Matco.

164a
11.2 Termination by Distributor During First Six
Months. If the Distributor terminates this Agreement
for any reason within six (6) months after the date of
this Agreement, and if the Distributor has not failed
to operate the Distributorship for more than six (6)
“business days” in total, or more than three (3)
consecutive business days during that six (6) month
period, then Matco will (i) accept for return all new
Products purchased by the Distributor through or
from Matco during that six (6) month period, and will
credit to the Distributor’s open purchase account an
amount equal to one hundred percent (100%) of the
Distributor’s purchase price for the returned Products,
and (ii) credit the Distributor’s open purchase account
for the lesser of (a) two thousand seven hundred
dollars ($2,700), (b) an amount equal to two (2) months
of payments under the Distributor’s Matco Truck lease
or purchase agreement, or (c) the amount required to
terminate the truck lease if less than two (2) payments. The Distributor and Matco will sign a joint and
mutual release of all claims that each of the parties
and their affiliates, employees and agents may have
against the other in such form as Matco may specify;
however, the Distributor will remain liable for any
indebtedness to Matco under this Agreement or the
operation of the Distributorship and any such indebtedness will be excluded from the mutual release. A
“business day” is a weekday in which the shops or
locations on the List of Calls are open for business.
“Failed to operate” means not performing the typical
and required route functions, such as customer visits,
product sales and promotion, and collection of money
owed. The opportunity to terminate this Agreement
within the first six (6) months of operations pursuant
to this Section 11.2, shall not be applicable to, nor
available to, the Distributor if this Agreement is not

165a
the Distributor’s first Distributorship, and shall not
be available for any additional Distributorship or
any renewal, extension or successor Distributorship
Agreement.
11.3 Matco’s Termination Rights. Matco will have
the right to terminate this Agreement if the Distributor: (A) violates any material term, provision, obligation,
representation or warranty contained in this Agreement
or any other agreements entered into with Matco
including, but not limited to, agreements regarding
participation in the Matco Tools PSA Program, (B) makes
an assignment for the benefit of creditors or if a
voluntary or involuntary proceeding is instituted by or
against the Distributor in bankruptcy or under any
other insolvency or similar law, (C) attempts to assign
or transfer this Agreement without Matco’s written
consent, (D) abandons the Distributorship, (E) fails to
timely make any payment due to Matco under this
Agreement or under any other agreement, promissory
note or contract, or (F) refuses to perform a physical
inventory if required by Matco or refuses to permit
Matco to audit his books and records in accordance
with Section 5.2.
11.4 Notice; Cure Periods. Matco will not have the
right to terminate this Agreement unless and until:
(A) written notice setting forth the alleged breach
giving rise to the termination has been delivered to the
Distributor in accordance with the terms of Section
13.2, and (B) the Distributor fails to correct the breach
within the period of time specified by law. If applicable
law does not specify a time period to correct the
breach, then the Distributor will have thirty (30) days
to correct the breach except where the written notice
states that the Distributor is delinquent in any
payment due to Matco under this Agreement in which

166a
case the Distributor will have ten (10) days to make
full payment to Matco.
11.5 Immediate Termination Rights. Notwithstanding
Section 11.4, Matco will have the right to immediately
terminate this Agreement by giving the Distributor
written notice of termination, if the Distributor:
(A) abandons the Distributorship, including voluntary
or involuntary abandonment, and/or abandonment
due to repossession of the Matco Tools Mobile Store
and inventory, (B) is convicted of or pleads guilty to a
gross misdemeanor or felony, (C) is involved in any
conduct or act which materially impairs the goodwill
associated with Matco, the Business System, or the
Marks, (D) refuses to permit Matco to audit his books
and records in accordance with Section 5.2, (E) has
been found to have submitted a fraudulent credit
application, (F) commits any fraudulent act in connection with any of his/her agreements with Matco,
(G) fails to comply with Section 3.2 of this Agreement
by offering to sell or selling any products to customers
at any location not identified on the distributor’s List
of Calls or Potential Customer List without Matco’s
express written authorization, (H) is disabled to the
extent Distributor cannot perform Distributor’s obligations hereunder for a period of six (6) consecutive
months, or for any six (6) months within a period of
eighteen (18) consecutive months, (I) dies, (J) after
curing a default pursuant to Sections 11.3 and 11.4,
commits the same default again within a twelve (12)
month period of the previous default, whether or not
cured after notice, (K) commits the same or different
default under this Agreement, three or more times
within any twelve (12) month period, whether or not
cured after notice, (L) makes an assignment for the
benefit of creditors or if a voluntary or involuntary
proceeding is instituted against the Distributor in

167a
bankruptcy or under any other insolvency or similar
law, or (M) fails to submit to or undergo a drug and/or
alcohol test if required by Matco, or fails the drug
and/or alcohol test required by Matco.
11.6 Obligations Upon Termination. Upon the termination or expiration of this Agreement, the Distributor
will: pay Matco all amounts owed by the Distributor
to Matco including interest charged on distributor’s
Open Purchase Account balance at a rate of twentytwo and one-half percent (22.5%) annually or the
maximum rate permitted by law, whichever is lower;
provide Matco with the inventory amounts and financial information of the Distributorship for the preceding
twelve (12) months; immediately cease using all of the
Marks and the Business System; provide Matco with
all Customer lists and other information relating to
the Customers of the Distributorship; return to Matco
by pre-paid U.S. mail the Manual and all other manuals,
software, catalogs, brochures, pamphlets, decals, signs,
and other materials provided to the Distributor by
Matco, and/or destroy all electronic versions of such
materials and provide verification of such destruction
to Matco; and remove all Marks, logos, graphics and
insignias indicating a relationship with Matco from
the Mobile Store and all other property of the
Distributor. In addition, Matco may assess Distributor
a late fee of twenty-five dollars ($25) per week for each
week that the Distributor fails to pay the balance owed
on the Open Purchase Account following termination.
The Distributor acknowledges and understands that
an uncured default and/or the termination of the
Distributorship Agreement may also be a default
under notes, financing, or agreements that the
Distributor may have with third parties, including, by
way of example, the lease for the Mobile Store, and
such termination of this Agreement may cause an

168a
acceleration of payments under a note or lease and for
forfeiture of the Mobile Store or repossession of the
Mobile Store by the lessor or financing entity.
11.7 Return of Products. Within thirty (30) days
following: (A) the expiration or non-renewal of this
Agreement, or (B) termination of this Agreement by
Matco or by Distributor, Matco will, in accordance
with Matco’s then-current Product return policy,
permit the Distributor to return the new and unused
Products purchased by the Distributor from Matco,
and the amount of the Products returned will be
credited to the Distributor’s open purchase account,
subject to any restocking fees or other fees or charges
in accordance with Matco’s then-current Product
return policy.
11.8 Warranty Returns. During the thirty (30) day
period following termination of this Agreement, Matco
will accept Products returned to it by the Distributor
for warranty claim processing in accordance with
Matco’s then existing Warranty policy.
11.9 Non-Solicitation of Customers: Covenant Against
Competition. Distributor and Spouse, if applicable, individually covenant that each of Distributor, Spouse,
Distributor’s employees, and the immediate family
members of Distributor and Spouse, except as otherwise approved in writing by Matco:
11.9.1 shall not, during the term of this Agreement, either directly or indirectly, for itself, or through,
on behalf of, or in conjunction with any person,
persons, partnership, limited liability company, or
corporation, own, maintain, operate, engage in, or
have any interest in any business which is the same
as or similar to a Matco mobile tool distributorship
business, including without limitation, a business

169a
that manufactures, sells, and/or distributes any
products that are the same as or similar to the
Products (referred to herein as a “Competitive
Business”);
11.9.2 shall not, during the term of this Agreement, either directly or indirectly, for itself, or through,
on behalf of, or in conjunction with any person,
persons, partnership, limited liability company, or
corporation, sell or attempt to sell to any customers
or Potential Customers of the Distributorship any
products that are the same or similar to the Products;
11.9.3 shall not for a continuous uninterrupted
period of one (1) year from the date of: (A) a transfer
permitted under Article 10, above; (B) expiration or
termination of this Agreement (regardless of the
cause for termination); or (C) a final order of a duly
authorized arbitrator, panel of arbitrators, or court
of competent jurisdiction (after all appeals have
been taken) with respect to any of the foregoing or
with respect to the enforcement of this Section 11.9,
either directly or indirectly, for itself, or through, on
behalf of, or in conjunction with any persons, partnership, limited liability company, or corporation,
sell or attempt to sell any Products or any products
the same as or similar to the Products to (i) any
Customer who purchased one or more Products from
Distributor during the twelve (12) month period
immediately preceding the dates referred to in
subclauses (A), (B), or (C) of this Section 11.9.3, or
(ii) any Potential Customer, located on, or identified
in, the Distributor’s List of Calls, as such list may
have been amended as provided for in this Agreement and in accordance with Matco’s policies, if
Distributor had visited or made one or more sales
calls to such Potential Customer, List of Calls, or

170a
person or business identified on the List of Calls
during the twelve (12) month period immediately
preceding the date referred to in subclauses (A), (B),
or (C) of this Section 11.9.3.
11.10 Action in Lieu of Termination. In the event
Distributor is in default under this Agreement for
failure to comply with any of the terms or conditions
of this Agreement, and/or for failure to comply with
Matco’s policies, procedures or standards, including,
without limitation, the lesser of eighty percent (80%)
of the National Distributor Purchase Average requirement or eighty percent (80%) of the District Distributor
Purchase Average rcquirement (as described in Section
3.3) or the purchase average to sales average ratio, as
described in Section 3.3, and Matco has the right to
terminate this Agreement as provided for in this
Article 11, then Matco may, at its sole discretion and
in lieu of termination, take any one or more of the
following actions (as applied to the Distributor): modify
payment or shipping terms; impose new or different or
increased interest charges or fees; limit or restrict
Distributor’s access to special or additional services or
products from Matco; modify product return and
warranty benefits; and/or take such other action as
Matco, in its sole discretion, deems appropriate. Matco
may discontinue these adjustments at any time. In
addition, so long as Distributor continues to be in
default and/or if Distributor subsequently is in default
under this Agreement, Matco may pursue any remedy
available under this Agreement, as permitted by law,
including termination of the Agreement, as provided
for in this Article 11.

171a
ARTICLE 12
DISPUTE RESOLUTION
12.1 Arbitration. Except as expressly provided in
Section 12.5 of this Agreement, all breaches, claims,
causes of action, demands, disputes and controversies
(collectively referred to as “breaches” or “breach”) between
the Distributor, including his/her Spouse, immediate
family members, heirs, executors, successors, assigns,
shareholders, partners or guarantors, and Matco,
including its employees, agents, officers or directors
and its parent, subsidiary or affiliated companies,
whether styled as an individual claim, class action
claim, private attorney general claim or otherwise,
arising from or related to this Agreement, the offer or
sale of the franchise and distribution rights contained
in this Agreement, the relationship of Matco and Distributor, or Distributor’s operation of the Distributorship,
including any allegations of fraud, misrepresentation,
and violation of any federal, state or local law or
regulation, will be determined exclusively by binding
arbitration on an individual, non-class basis only in
accordance with the Rules and Regulations of the
American Arbitration Association (“Arbitration”).
12.2 Notice of Dispute: Cure Period. The party
alleging the breach must provide the other party with
written notice setting forth the facts of the breach in
detail, and neither party will have the right to commence any Arbitration hearing until such written
notice is given. The party alleged to have breached this
Agreement will have thirty (30) days from receipt of
the written notice to correct the alleged breach. If the
alleged breach is not corrected within the thirty (30)
day period and subject to Section 12.6 below, then
either party will have the right to request Arbitration

172a
as provided herein to determine their rights under this
Agreement.
12.3 Limitation of Actions: Waiver of Claims.
UNLESS THIS PROVISION IS PROHIBITED BY
APPLICABLE LAW, ANY AND ALL CLAIMS AND
ACTIONS, BROUGHT BY ANY PERSON OR PARTY,
ARISING OUT OF OR RELATING TO THIS AGREEMENT, THE RELATIONSHIP OF MATCO AND
DISTRIBUTOR, THE OFFER OR SALE OF THE
FRANCHISE AND DISTRIBUTION RIGHTS CONTAINED IN THIS AGREEMENT, OR DISTRIBUTOR’S
OPERATION OF THE DISTRIBUTORSHIP, INCLUDING ANY ARBITRATION PROCEEDING, OR ANY
CLAIM IN ARBITRATION (INCLUDING ANY
DEFENSES AND ANY CLAIMS OF SET-OFF OR
RECOUPMENT), MUST BE BROUGHT OR
ASSERTED BEFORE THE EXPIRATION OF THE
EARLIER OF (A) THE TIME PERIOD FOR
BRINGING AN ACTION UNDER ANY APPLICABLE STATE OR FEDERAL STATUTE OF
LIMITATIONS; (B) ONE (1) YEAR AFTER THE
DATE UPON WHICH A PARTY DISCOVERED, OR
SHOULD HAVE DISCOVERED, THE FACTS
GIVING RISE TO AN ALLEGED CLAIM; OR (C)
EIGHTEEN (18) MONTHS AFTER THE FIRST ACT
OR OMISSION GIVING RISE TO AN ALLEGED
CLAIM; OR IT IS EXPRESSLY ACKNOWLEDGED
AND AGREED BY ALL PARTIES THAT SUCH
CLAIMS OR ACTIONS SHALL BE IRREVOCABLY
BARRED. CLAIMS OF THE PARTIES FOR INDEMNIFICATION SHALL BE SUBJECT ONLY TO THE
APPLICABLE STATE OR FEDERAL STATUTE OF
LIMITATIONS.
12.4 Powers of Arbitrator. The arbitrator shall
have the full authority to make a finding, judgment,

173a
decision and award relating to the claims made in the
demand for arbitration, as provided for in Section 12.1
above, and subject to the limitations in this Section
12.4. The Federal Rules of Evidence (the “Rules”) will
apply to all Arbitration hearings and the introduction
of all evidence, testimony, records, affidavits, documents and memoranda in any Arbitration hearing
must comply in all respects with the Rules and the
legal precedents interpreting the Rules. Both parties
will have the absolute right to cross-examine any
person who testifies against them or in favor of the
other party. The arbitrator has the right to award, or
include in his or her award, any relief authorized by
law which he or she deems proper in the circumstances, including, without limitation, inoney damages
(with interest on unpaid amounts from the date due),
specific performance, injunctive relief, and attorneys’
fees and costs, provided that the arbitrator will not
have the right or authority to declare any Mark
generic or otherwise invalid or to award any damages
waived by Section 12.8 below. The arbitrator will have
no authority to add to, delete or modify the terms and
provisions of this Agreement. All findings, judgments,
decisions and awards of the arbitrator will be limited
to the dispute or controversy set forth in the written
demand for Arbitration, and the arbitrator will have
no authority to decide any other issues. All findings,
judgments, decisions and awards by the arbitrator will
be in writing, will be made within ninety (90) days
after the Arbitration hearing has been completed, and
will be final and binding on Matco and the Distributor
(including the Distributor’s Spouse, immediate family
members, owners, heirs, executors, successors, assigns,
shareholders, partners or guarantors (as applicable)).
Notwithstanding Section 12.10, the written decision of
the arbitrator will be deemed to be an order, judgment

174a
and decree and may be entered as such in any Court
of competent jurisdiction by either party in any
jurisdiction. The arbitrator’s findings and awards may
not be used to collaterally estop Matco, the Distributor
or any other party from raising any like or similar
issue, claim or defense in any other or subsequent
Arbitration, litigation, court hearing or other proceeding involving third parties or other Distributors.
12.5 Disputes not Subject to Arbitration. The
following disputes and controversies between the Distributor and Matco will not be subject to Arbitration:
any dispute or controversy involving the Marks or
which arises under or as a result of Article 7 of this
Agreement, any dispute or controversy involving
immediate termination of this Agreement by Matco
pursuant to Section 11.5 this Agreement, and any
dispute or controversy involving enforcement of the
covenants not to compete contained in this Agreement.
12.6 Mediation. Before any breach, claim, demand,
dispute, cause of action, or other controversy regarding or pertaining to the termination or non-renewal
of this Agreement may be filed or submitted in any
arbitration proceeding under Section 12.1, such claim,
demand, cause of action, or controversy shall first be
submitted to non-binding mediation, administered
by an established, neutral mediation service. This
Section 12.6 shall apply to Matco, Distributor, and any
person in privity with or claiming through, on behalf
of, or in the name of, Distributor. All parties must sign
a confidentiality agreement prior to participating in
any mediation proceeding. The mediation must take
place at a location agreed to by Matco and Distributor
or, if no agreement can be reached and unless prohibited by applicable law, in a city within thirty (30) miles
of Matco’s principal place of business at the time of the

175a
submission to mediation. The parties shall mutually
agree upon a mediator or neutral within twenty-one
(21) days after the demand for mediation is made by
one party to the other. If the parties cannot agree upon
a mediator, a mediator shall be appointed in accordance with the rules of the mediation service. The
mediator or neutral shall have experience in franchising or distribution matters. The mediation shall be
conducted within thirty (30) days of the selection of a
mediator. The parties shall share equally the cost of
the mediator and the mediation services and related
expenses, but the parties shall bear their own costs to
attend and participate in the mediation, including
each party’s respective attorney’s fees and travel costs.
12.7 No Class Actions. No party except Matco
(including its employees, agents, officers or directors
and its parent, subsidiary or affiliated companies) and
the Distributor (including where applicable the Distributor’s Spouse, immediate family members, owners,
heirs, executors, successors, assigns, shareholders, partners, and guarantors (as applicable)) may join in or
become a party to any Arbitration proceeding arising
under this Agreement, and the arbitrator will not be
authorized to permit any person or entity that is not a
party to this Agreement or identified in this paragraph
to be involved in or to participate in any Arbitration
conducted pursuant to this Agreement. No matter how
styled by the party bringing the claim, any claim or
dispute is to bc arbitrated on an individual basis and
not as a class action. THE DISTRIBUTOR EXPRESSLY
WAIVES ANY RIGHT TO ARBITRATE OR LITIGATE AS A CLASS ACTION OR IN A PRIVATE
ATTORNEY GENERAL CAPACITY.
12.8 Limitation of Damages. UNLESS THIS LIMITATION IS PROHIBITED BY APPLICABLE LAW,

176a
EACH OF THE PARTIES (INCLUDING DISTRIBUTOR’S OWNERS, AND SPOUSE IF APPLICABLE)
HEREBY AGREES THAT THE OTHER PARTY
WILL NOT BE LIABLE FOR PUNITIVE, EXEMPLARY, INCIDENTAL, INDIRECT, SPECIAL OR
CONSEQUENTIAL DAMAGES, INCLUDING, WITHOUT LIMITATION, LOSS OF FUTURE PROFITS,
ARISING OUT OF ANY CAUSE WHATSOEVER,
WHETHER BASED ON CONTRACT, TORT, STRICT
LIABILITY, OR STATUTE OR ORDINANCE, AND
AGREES THAT IN THE EVENT OF A DISPUTE,
THE RECOVERY OF EITHER PARTY WILL BE
LIMITED TO THE RECOVERY OF ANY ACTUAL
DAMAGES SUSTAINED BY IT.
12.9 Waiver of Jury Trials. UNLESS THE WAIVER
IS PROHIBITED BY LAW, IF ANY DISPUTE IS
NOT SUBJECT TO ARBITRATION UNDER THIS
AGREEMENT, THEN EACH OF THE PARTIES
AGREES THAT THE TRIAL OF ANY LEGAL
ACTION ARISING UNDER THIS AGREEMENT OR
THE RELATIONSHIP OF THE PARTIES WILL BE
HEARD AND DETERMINED BY A JUDGE WHO
WILL SIT WITHOUT A JURY. THE PARTIES
ACKNOWLEDGE THAT THEY HAVE OBTAINED
INDEPENDENT LEGAL ADVICE AS TO THE
EFFECT OF THIS JURY WAIVER PROVISION,
AND FURTHER ACKNOWLEDGE THAT THEY
HAVE READ AND UNDERSTAND THE EFFECT OF
THIS JURY WAIVER PROVISION. EITHER PARTY
MAY FILE AN ORIGINAL OR COPY OF THIS
AGREEMENT WITH ANY COURT AS WRITTEN
EVIDENCE OF THE; CONSENT BY THE PARTIES
TO THE WAIVER OF THEIR RIGHT TO TRIAL BY
JURY.

177a
12.10 Venue and Jurisdiction. Unless this requirement is prohibited by law, all arbitration hearings
must and will take place exclusively in Summit or
Cuyahoga County, Ohio. All court actions, mediations
or other hearings or proceedings initiated by either
party against the other party must and will be venued
exclusively in Summit or Cuyahoga County, Ohio. Matco
(including its employees, agents, officers or directors
and its parent, subsidiary or affiliated companies) and
the Distributor (including where applicable the Distributor’s Spouse, immediate family members, owners,
heirs, executors, successors, assigns, shareholders,
partners, and guarantors) do hereby agree and submit
to personal jurisdiction in Summit or Cuyahoga
County, Ohio in connection with any Arbitration
hearings, court hearings or other hearings, including
any lawsuit challenging the arbitration provisions of
this Agreement or the decision of the arbitrator, and
do hereby waive any rights to contest venue, and
jurisdiction in Summit or Cuyahoga County, Ohio and
any claims that venue and jurisdiction are invalid. In
the event the law of the jurisdictions in which
Distributor operates the Distributorship require that
arbitration proceedings be conducted in that state, the
Arbitration hearings under this Agreement shall be
conducted in the state in which the principal office of
the Distributorship is located, and in the city closest to
the Distributorship in which the American Arbitration
Association has an office. Notwithstanding this Article,
any actions brought by either party to enforce the
decision of the arbitrator may be venued in any court
of competent jurisdiction.
12.11 Injunctive Relief. Nothing herein contained
shall bar Matco’s or Distributor’s right to obtain
injunctive relief against threatened conduct that will
cause it loss or damages, under the usual equity rules,

178a
including the applicable rules for obtaining restraining orders and preliminary injunctions.
12.12 Severability. It is the desire and intent of the
parties to this Agreement that the provisions of this
Article be enforced to the fullest extent permissible
under the laws and public policy applied in each jurisdiction in which enforcement is sought. Accordingly, if
any part of this Article is adjudicated to be invalid
or unenforceable, then this Article will be deemed
amended to delete that portion thus adjudicated to be
invalid or unenforceable, such deletion to apply only
with respect to the operation of this Article in the
particular jurisdiction in which the adjudication is
made. Further, to the extent any provision of this
Article is deemed unenforceable by virtue of its scope,
the parties to this Agreement agree that the same
will, nevertheless be enforceable to the fullest extent
permissible under the laws and public policies applied
in such jurisdiction where enforcement is sought, and
the scope in such a case will be determined by
Arbitration as provided herein, provided, however,
that if the provision prohibiting classwide or private
attorney general arbitration is deemed invalid, then
the provision requiring arbitration of breaches between
the parties shall be null and void and there shall be no
obligation to arbitrate any such breaches.
ARTICLE 13
MISCELLANEOUS
13.1 Waiver. The failure of Matco to enforce at any
time any provision of this Agreement will in no way
affect the validity or act as a waiver of this Agreement,
or any part, or the right of Matco thereafter to enforce
it. The Distributor acknowledges that Matco operates
a large and diverse distributorship network and that

179a
Matco is not obligated to enforce each distributorship
agreement in a uniform manner with respect to the
other distributors.
13.2 Notices. Any notice required under this Agreement will be deemed to have been duly given if it is
addressed to the party entitled to receive it at the
address set forth on the cover page of this Agreement
and it is personally served on the party, is sent by prepaid United States certified mail, return receipt
requested, or is sent by a recognized overnight carrier
(Federal Express, UPS, Purolator) that requires a
signature acknowledging delivery.
13.3 Governing Law. This Agreement will be governed by and construed in accordance with the laws of
the State of Ohio, and the substantive law of Ohio will
govern the rights and obligations of and the relationship between the parties.
13.4 Severability. If any term or provision of this
Agreement is determined to be void, invalid, or unenforceable, such provision will automatically be voided
and will not be part of this Agreement, but the
enforceability, or validity of the remainder of this
Agreement will not be affected thereby.
13.5 Entire Agreement. This Agreement, including
all exhibits and addenda, supersedes all prior verbal
and written agreements between the parties. Subject
to our right to modify the Manual and the Business
System standards, no change, amendment or modification to this Agreement will be effective unless made
in writing and signed by both the Distributor and an
officer of Matco. Nothing in this Agreement or in any
related agreement, however, is intended to disclaim
the representations Matco made in the Franchise
Disclosure Document that Matco furnished to you.

180a
13.6 Definitions. For purposes of this Agreement,
the following words will have the following definitions:
(A) “Abandon” will mean the conduct of the
Distributor, including acts of omission as well as
commission, indicating the willingness, desire or
intent of the Distributor to discontinue operating
the Distributorship in accordance with the Business
System and the standards and requirements set
forth in the Manual and this Agreement.
(B) “Customer” will mean, at any time during the
Term of this Agreement, or upon termination, a
person or business that has purchased Products
from the Distributor within the immediately preceding twelve (12) month period.
(C) “Mobile Store” will mean the truck used by
the Distributor solely in connection with the
operation of his Distributorship. The Mobile Store
will at all times during the Term of this Agreement
comply with all of Matco’s standards and requirements as to color, size, engine size, storage capacity,
graphics, on-board technology and design.
(D) “New Distributor Starter Inventory” will mean
the initial inventory of Matco Products required to
be purchased by the Distributor.
(E) “Operator” will mean the individual engaged
or employed by the Distributor for purposes of
operating the Distributorship under the terms of
any program authorized by Matco to permit the
hiring, by a Distributor, of another person to operate
an additional Mobile Store for the Distributorship.
(F) “Potential Customer” will mean a full time
professional mechanic or other individual in the
automotive after-market and related markets who

181a
in the normal course of business is required to use
and furnish his/her own tools.
ARTICLE 14
REPRESENTATIONS BY THE DISTRIBUTOR
14.1 Receipt of Completed Agreement and Disclosure Documents. The Distributor acknowledges that
he received Matco’s Franchise Disclosure Document at
least fourteen (14) calendar days prior to the date this
Agreement was signed by him, and that he signed the
acknowledgement of receipt attached to the Franchise
Disclosure Document.
14.2 Investigation by Distributor. The Distributor
acknowledges that he: has read this Agreement in its
entirety; has had full and adequate opportunity to
discuss the terms and conditions of this Agreement
with legal counsel or other advisors of the Distributor’s
own choosing; has had ample opportunity to investigate the Matco Business System; has had ample
opportunity to consult with current Matco distributors;
has had ample opportunity to conduct due diligence on
the Distributor’s List of Calls and list of Potential
Customers; and has had all questions relating to the
Distributorship, including those of any advisor,
answered to the Distributor’s satisfaction.
14.3 Truth and Accuracy of Representations. The
Distributor and its Spouse represent and warrant to
Matco that (a) all statements, documents, materials,
and information, including the application, submitted
by the Distributor or its Spouse to Matco are true,
correct, and complete in all material respects; and
(b) neither the Distributor nor its Spouse, nor any of
its or their funding sources, is or has ever been a
terrorist or suspected terrorist, or a person or entity
described in Section 1 of U.S. Executive Order 13244,

182a
issued September 23, 2001, as such persons and
entities are further described at the Internet website
www.ustreas.gov/offices/enforcement/ofac. The Distributor agrees to promptly advise Matco of any material
change in the information or statements submitted to
Matco. The Distributor acknowledges and understands that Matco has entered into this Agreement in
reliance on the statements and information submitted
to Matco by the Distributor and its Spouse, and that
any material breach or inaccuracy is grounds for
Matco’s termination of this Agreement.
14.4 No Representations. Except as may be disclosed in Matco’s Franchise Disclosure Document, the
Distributor has not received from either Matco, or
anyone acting on behalf of Matco, any representation
of the Distributor’s potential sales, income, profit, or
loss which may be derived from the Distributorship.
The Distributor understands that Matco will not be
bound by any unauthorized representations, including
those made by other Matco distributors or by lending
institutions based on information given to them to assist
in their evaluation of Matco’s business opportunity.
14.5 No Warranty of Success. The Distributor understands that Matco makes no express or implied
warranties or representations that the Distributor will
achieve any degree of financial or business success in
the operation of the Distributorship. While Matco will
provide the Distributor with training, advice, consultation, and a list of Potential Customers, success in the
operation of the Distributorship depends ultimately on
the Distributor’s efforts and abilities and on other
factors beyond Matco’s control, including, but not
limited to, economic conditions and competition.
IN WITNESS WHEREOF, the parties hereto have
caused this Agreement to be signed on the date set

183a
forth above. The Distributor further acknowledges
that this Agreement will become effective and binding
only upon acceptance and execution by Matco in the
State of Ohio.
DISTRIBUTOR:
By: /s/ John M. Fleming
Name: John M. Fleming
Title: Distributor
Date: 10/22/13
DISTRIBUTOR’S SPOUSE:
By: /s/ Rae J. Fleming
Name: Rae J. Fleming
Title: Spouse
Date: 10-23-13
NMTC, INC. d/b/a MATCO TOOLS
By: /s/ Thomas M. Hill
Name: Timothy J. Gilmore Thomas M. Hill
Title: President V.P. FINANCE
Date: 10/24/13

184a
APPENDIX K
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
————
Case No. 3:19-cv-00463-WHO
————
JOHN FLEMING, on behalf of himself
and all others similarly situated,
Plaintiff,
v.
MATCO TOOLS CORPORATION, a Delaware
corporation; NMTC, Inc. d/b/a MATCO TOOLS,
a Delaware corporation; FORTIVE CORPORATION,
a Delaware corporation; and DOES 1-20, inclusive,
Defendants.
————
Date: April 3, 2019
Time: 2:00 p.m.
Dept.: Courtroom 2, 17th Floor
Judge: Hon. William Orrick
————
PLAINTIFF’S OPPOSITION TO
DEFENDANTS’ MOTION TO DISMISS OR,
IN THE ALTERNATIVE, TRANSFER VENUE
TO THE U.S. DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OHIO
————

185a
Peter Rukin (SBN 178336)
prukin@rukinhyland.com
Jessica Riggin (SBN 281712)
jriggin@rukinhyland.com
Valerie Brender (SBN 298224)
vbrender@rukinhyland.com
Dylan Cowart (SBN 324711)
dcowart@rukinhyland.com
RUKIN HYLAND & RIGGIN LLP
1939 Harrison Street, Suite 290
Oakland, CA 94612
Tel: (415) 421-1800
Fax: (415) 421-1700
Attorneys for Plaintiff John Fleming

186a
TABLE OF CONTENTS
Page
I. INTRODUCTION .....................................

1

II. FACTS .......................................................

2

III. MATCO’S
FORUM
SELECTION
CLAUSE IS UNENFORCEABLE ............

4

A. Matco’s Forum Selection Clause Is
Void Under Labor Code Section 925 ...

6

1. Section 925 Applies Where, As
Here, Fleming Has Alleged That
He And Other Similarly Situated
Distributors Were Misclassified
As Independent Contractors ..........

6

2. Fleming Entered Into and Extended His Employment Agreement
With Matco On Or After January
1, 2017. ...........................................

9

B. 20040.5 Voids Matco’s Forum Selection Clause ...........................................

10

1. The Federal Arbitration Act Does
Not Preempt Application of Section 20040.5 Because There is No
Enforceable Arbitration Agreement
Covering This Dispute ...................

10

a. The DA Expressly Provides
That No Arbitration Obligation
Exists .........................................

10

b. If Even There Were an Agreement to Arbitrate, It Would
Expressly Exclude Fleming’s
Claims .......................................

12

187a
c. Any Arbitration Agreement
Would Be Unconscionable and
Invalid .......................................

14

1. The Arbitration Provision Is Procedurally Unconscionable ..............

14

2. The Arbitration Clause Contains
Numerous Unconscionable Terms .

17

a. The Limitation on Remedies
and Shortened Statute of Limitation Are Unconscionable. ......

17

b. The One-Sided “Free Peek”
Provision is Unconscionable .....

18

c. The Unconscionable Provisions
Permeate the Agreement and
Cannot Be Severed, Rendering
the Arbitration Agreement
Unenforceable. ..........................

19

2. Matco’s
Dormant
Commerce
Clause Challenge to Section
20040.5 Fail .................................... .

20

3. Equitable Estoppel Is Not a Basis
to Override Section 20040.5...........

22

IV. THE MOTION TO TRANSFER SHOULD
BE DENIED BECAUSE THE RELEVANT PRIVATE AND PUBLIC INTEREST FACTORS UNDER 28 U.S.C.
§ 1404(A) WEIGH AGAINST TRANSFER

23

A. The Private Factors Weigh Against
Transfer ...............................................

23

B. The Public Factors Weigh Against
Transfer ...............................................

24

V. CONCLUSION..........................................

25

188a
TABLE OF AUTHORITIES
FEDERAL CASES

Page(s)

Alexander v. FedEx Ground Package Sys.,
765 F.3d 981 (9th Cir. 2014).....................

7, 8

AT&T Techs. v. Commc’ns Workers of Am.,
475 U.S. 643 (1986) ...................................

11

Atl. Marine Constr. Co. v. U.S. Dist. Court,
571 U.S. 49 (2013) ..................................... 23, 24
Black Star Farms L.L.C. v. Oliver,
600 F.3d 1225 (9th Cir. 2010) ...................

20

Brackett v. Hilton Hotels Corp.,
619 F. Supp. 2d 810 (N.D. Cal. 2008) .......

23

Cohen v. State Farm & Cas.
Co., No. 09–1051,
2009 WL 2500729
(E.D. Cal. Aug. 14, 2009) ..........................

24

Davis v. O’Melveny & Myers ,
485 F.3d 1066 (9th Cir. 2007) ...................

19

Decker Coal Co. v.
Commonwealth Edison Co.,
805 F.2d 834 (9th Cir. 1986) .....................

23

Doe 1 v. AOL L.L.C.,
552 F.3d 1077 (9th Cir. 2009) ...................

5

Dunham v. Envtl. Chem. Corp.,
No. C 06-03389 JSW, 2006 U.S. Dist.
LEXIS 61068 (N.D. Cal. Aug. 16, 2006) .. 16, 17
Gates Learjet Corp. v. Jensen,
743 F.2d 1325 (9th Cir. 1984) ...................

25

Graham Oil Co. v. ARCO Prods. Co.,
43 F.3d 1244 (9th Cir. 1994) .....................

17

189a
Great Atl. & Pac. Tea Co. v. Cottrell,
424 U.S. 366 (1976) ...................................

20

Hopkins v. BCI Coca-Cola Bottling Co.,
640 F. App’x 672 (9th Cir. 2016) ..............

11

IJL Dominicana S.A. v. It’s
Just Lunch Int’l, L.L.C.,
No. CV 08-5417-VAP (OPx), 2009 WL
305187 (C.D. Cal. Feb. 6, 2009) ................

18

Ingle v. Circuit City Stores, Inc.,
328 F.3d 1165 (9th Cir. 2003) .................. 17, 18
Int’l Franchise Ass’n v. City of Seattle,
803 F.3d 389 (9th Cir. 2015) ................... passim
Jackson v. S.A.W. Entm’t, Ltd.,
629 F. Supp. 2d 1018 (N.D. Cal. 2009) .... 18, 19
Jones v. GNC Franchising, Inc.,
211 F.3d 495 (9th Cir. 2000) ....................passim
Karl v. Zimmer Biomet Holdings, Inc.,
No. C 18-04176 WHA, 2018 U.S. Dist.
LEXIS 189997 (N.D. Cal. Nov. 6, 2018) ..passim
Kuhnhausen v. Dwyer,
No. 2:06-cv-1062-GEB-DAD, 2006 WL
2666076 (E.D. Cal. Sept. 14, 2006) ..........

24

Lau v. Mercedes-Benz USA, L.L.C.,
No. CV 11-1940 MEJ, 2012 WL 370557
(N.D. Cal. Jan. 31, 2012) ..........................

15

Lou v. MA Labs., Inc.,
No. C 12-05409 WHA, 2013 WL 2156316
(N.D. Cal. May 17, 2013) .........................passim

190a
LRN Corp. v. RGA Reinsurance Co.,
No. 2:14-cv-05771-SVW-RZ,
2015 U.S. Dist. LEXIS 190391
(C.D. Cal. Jan. 20, 2015) ...........................

25

McArdle v. AT&T Mobility L.L.C.,
No. 09-cv-01117-CW, 2017 U.S. Dist.
LEXIS 162751 (N.D. Cal. Oct. 2, 2017) ....

12

Milliner v. Bock Evans Fin. Counsel, Ltd.,
114 F. Supp. 3d 871 (N.D. Cal. 2015) .......

16

Mohamed v. Uber Techs., Inc.,
109 F. Supp. 3d 1185 (N.D. Cal. 2015) .....

18

Narayan v. EGL, Inc.,
616 F.3d 895 (9th Cir. 2010) .....................

6, 7

Nat’l Ass’n of Optometrists
& Opticians v. Harris,
682 F.3d 1144 (9th Cir. 2012) ...................

20

Perez v. Maid Brigade, Inc.,
No. C 07-3473 SI, 2007 WL
2990368 (N.D. Cal. Oct. 11, 2007) ............

14

Petersen v. Boeing Co.,
715 F.3d 276 (9th Cir. 2013) .....................

5

Pokorny v. Quixtar, Inc.,
601 F.3d 987 (9th Cir. 2010) .....................

16

PPG Indus. v. Pilkington PLC,
825 F. Supp. 1465, 1478 (D. Ariz. 1993) ..

13

Rocky Mt. Farmers Union v. Corey,
730 F.3d 1070 (9th Cir. 2013) ................... 20, 21
Roe v. SFBSC Mgmt., L.L.C.,
No. 14-cv-03616-LB, 2015
WL 930683 (N.D. Cal. Mar. 2, 2015) ........

19

191a
Rowen v. Soundview Commc’ns, Inc.,
No. 14-cv-05530-WHO, 2015 U.S. Dist.
LEXIS 24986 (N.D. Cal. Mar. 2, 2015) ....

5

Ruiz v. Affinity Logistics Corp.,
754 F.3d 1093 (9th Cir. 2014) ...................

8

S.-Cent. Timber Dev., Inc. v. Wunnicke,
467 U.S. 82 (1984) .....................................

20

Sakkab v. Luxottica Retail N. Am., Inc.,
803 F.3d 425 (9th Cir. 2015) ....................passim
Shelby v. Bacon,
51 U.S. (10 How.) 56 (1850) ......................

24

Sun v. Advanced China Healthcare, Inc.,
901 F.3d 1081, 1087 (9th Cir. 2018) .........

13

Tompkins v. 23andMe, Inc.,
No. 5:14-CV-01455-LHK, 2014 WL
2903752 (N.D. Cal. June 25, 2014) ..........

14

Tosco Corp. v. Cmtys. for a Better Env’t,
236 F.3d 495 (9th Cir. 2001) .....................

21

Turner v. Thorworks Indus.,
NO. CIV. S-05-02653 WBS
KJM, 2006 U.S. Dist. LEXIS
21668 (E.D. Cal. Mar. 28, 2006) ...............

22

Volt Info. Scis. v. Bd. of Trs.,
489 U.S. 468 (1989) ...................................

11

Zaborowski v. MHN Gov’t Servs.,
936 F. Supp. 2d 1145
(N.D. Cal. 2013) ................................... 15, 17, 18
FEDERAL STATUTES
28 U.S.C. § 1404 (2012) .............................. passim

192a
STATE CASES
1-800-Got Junk? L.L.C. v. Superior Court,
189 Cal. App. 4th 500 (2010) ....................
21
Ajamian v. CantorCO2e, L.P.,
203 Cal. App. 4th 771 (2012) ....................
16
Armendariz v. Found. Health Psychcare
Servs., Inc.,
24 Cal. 4th 83 (2000)................................passim
Carmona v. Lincoln Millennium Car
Wash, Inc.,
226 Cal. App. 4th 74 (2014) ......................
18
Dynamex Operations W. v. Superior Court,
4 Cal. 5th 903 (2018) ................................. 6, 7
Estrada v. FedEx Ground
Package Sys., Inc.,
64 Cal. Rptr. 3d 327 (2007).......................
8
Iskanian v. CLS Transp. L.A., L.L.C.,
59 Cal. 4th 348 (2014) ...............................
11
Martinez v. Master Prot. Corp.,
118 Cal. App. 4th 107 (2004) .................... 17, 18
Mayers v. Volt Mgmt. Corp.,
203 Cal. App. 4th 1194 (2012) ..................
16
S.G. Borello & Sons, Inc. v. Dep’t of Indus.
Relations,
48 Cal. 3d 341 (1989) ................................
7
Securitas Sec. Servs. USA, Inc.
v. Superior Court,
234 Cal. App. 4th 1109 (2015) ..................
12
Trivedi v. Curexo Technology Corp.,
189 Cal. App. 4th 387 (2010) ....................
16
Wherry v. Award, Inc.,
192 Cal. App. 4th 1242 (2011) ..................
18

193a
STATE STATUTES
Cal. Civ. Code § 2802 ...................................

25

Cal. Civ. Code § 3513 ...................................

23

Cal. Civ. Code § 3521 ...................................

23

Cal. Lab. Code § 925 ....................................passim
Cal. Lab. Code § 2699 ...................................

17

Cal. Bus. & Prof. Code § 20040.5 ................passim
OTHER
U.S. Const. Art. I, § 8, cl. 3...........................

20

United States Courts, National Judicial
Caseload Profile, (June 2018),
https://www.uscourts.gov/statisticsreports/federal-court-managementstatistics-june-2018...................................

20

194a
I. INTRODUCTION
The motion of Defendants Matco Tools Corporation,
NMTC Inc., and Fortive Corporation (“Matco”) to
dismiss or in the alternative transfer this action to the
Northern District of Ohio must be denied. Matco predicates its motion primarily on the existence of a
forum selection clause that is void and unenforceable
under controlling law. Specifically, Matco’s Ohio
forum selection clause undermines California’s strong
public policies as reflected in two statutes: California
Labor Code Section 925 (which renders void as against
public policy a choice of non-California forum selection
clause in an employment agreement covering Californiabased workers) and California Business and Professions Code Section 20040.5 (which prohibits such
forum selection clauses in franchise agreements).
Matco relegates its discussion of Section 925 to a onesentence footnote, but the venue-specific statute is
applicable by its express terms and voids Matco’s
Ohio selection clause. Further, the Ninth Circuit has
already held that forum selection clauses like Matco’s
are unenforceable under BPC Section 20040.5. Jones
v. GNC Franchising, Inc., 211 F.3d 495, 497–98 (9th
Cir. 2000) (forum selection clause invalid because
California policy at issue under California Business
and Professions Code section 20040.5 specifically
provided that California franchisees were entitled to a
California venue). Jones alone disposes of Matco’s
motion.
Matco trots out several arguments to avoid the
application of Jones and BPC Section 20040.5, but
none is persuasive. First, Matco claims that BPC
Section 20040.5 is preempted by the Federal Arbitration Act. Mot. at 10-11. It is hard to overstate the irony
of this contention. Matco opens its motion claiming

195a
that it seeks “to hold Plaintiff to the bargains he struck
and intend move [sic] to compel arbitration in Ohio.”
Mot. at 2. However, Matco neglects to point out to the
Court that the parties’ deal includes a provision that
expressly voids the arbitration agreement in its entirety
if a companion provision of the agreement (Fleming’s
waiver of representative claims under California’s
Labor Code Private Attorneys General Act) is deemed
unenforceable. Because the PAGA waiver is indeed
void under the Ninth Circuit decision in Sakkab v.
Luxottica Retai N. Am., Inc., 803 F.3d 425, 440, 449
(9th Cir. 2015), there is no agreement to arbitrate in
this case, and no basis to apply preemptive principles
of the FAA. In other words, holding Matco to its bargain in this case means finding that no agreement to
arbitrate exists. It also means giving effect to Matco’s
decision to carve-out from the arbitration agreement
claims like those of Plaintiff John Fleming (“Fleming”)
here, which involve Matco’s Marks. Finally, even if an
agreement to arbitrate these claims existed, it would
be unenforceable because Matco’s arbitration clause is
permeated by unconscionable terms. Because any
agreement to arbitrate would be invalid, there is no
legal basis to find that the FAA preempts application
of Section 20040.5.
Matco’s remaining arguments against Section
20040.5 are frivolous. Matco says that Section 20040.5
unconstitutionally discriminates against out of state
franchisors, but Matco’s interpretation is contrary to
the plain language of Section 20040.5 (which applies
to both in state and out of state franchisors) and
unsupported by dormant commerce clause jurisprudence. Meanwhile, Matco’s equitable estoppel argument is factually wrong and unsupported by case law.
Fleming is not claiming any benefit of the contracts he
executed—he is seeking statutorily owed unpaid

196a
wages, unreimbursed business expenses, and penalties. The weakness in Matco’s argument is underscored by the fact that the one case it cites does not
even address Section 20040.5. If Matco’s legal theory
were correct, every misclassification decision issued by
this Court and the Ninth Circuit would have been
wrongly decided.
Finally, because no valid and enforceable forum
selection clause exists, there is no basis to either
dismiss or transfer this case to the Northern District
of Ohio. All private and public factors under 28 U.S.C.
§ 1404(a) weigh in favor of retaining venue in the
Northern District of California.
II. FACTS
Matco manufactures and distributes mechanics
tools and service equipment. Dkt. 1 at ¶ 5. It relies on
workers like Fleming to carry out its business by
making weekly sales and service calls to existing and
prospective Matco customers through mobile distributorship stores. Id. at ¶ 15.
In order to work for Matco, Fleming was required to
sign a form franchise agreement with Matco. Id. at
¶ 9; Fleming Decl., ¶ 4, Ex. 1. The franchise agreement, also referred to as a “Distribution Agreement”
or “DA,” contained an arbitration clause and a forum
selection clause. Dkt. 16-2 (referred to herein as “DA”)
at ¶¶ 12.1, 12.10. Fleming did not negotiate its terms
and was not represented by counsel at the time he
signed the DA. Fleming Decl. ¶ 6.
After signing the DA, Fleming worked a Matco sales
and distribution route in Salinas Valley, California
and regularly worked 40-60 hours a week. Dkt. 1 at
¶ 9. Indeed, the DA required Fleming to work fulltime. Id. at ¶ 15. The DA also imposed numerous other

197a
requirements and restrictions on Fleming. It provided
that he could “only sell Products and other merchandise approved by Matco” and was prohibited from
“sell[ing] any products, tools, equipment or other merchandise which are competitive with” Matco’s Products. Id. at ¶ 17 (quoting DA, ¶ 3.2). Fleming was
further prohibited from selling “any product not
approved in advance by Matco.” Id. Meanwhile, Matco
retained the right to sell to the same customers to
whom Fleming sold by using Matco’s commercial sales
representatives, mail, internet, telephone orders, and
Matco affiliates. Id. at ¶ 18. Matco retained extensive
control over Fleming’s work, including, but not limited
to:


Requiring Fleming to attend the 70-hour
Matco Business Systems Training (MBST)
Program before he started working his
route, which included “business and marketing topics selected by Matco.” Dkt. 1 at
¶ 23(f);



Requiring Fleming to participate in an
eighty hour “field training” whereby a
trainer assisted and advised Fleming on
how to perform his work. Id.;



Restricting Fleming’s route stops to only
those customers and potential customers
on his pre-approved, Matco “List of Calls.”
Id. at ¶ 23(a);



Establishing Fleming’s truck inventory
levels. Id. at ¶ 23(c);



Requiring that Fleming make personal
sales calls every week to each of the stops,
shops, or locations on Fleming’s List of
Calls. Id. at ¶ 23(d);



198a
Requiring Fleming to attend at least 80%
of the district sales meetings that Matco
scheduled. Id. at ¶ 23(d);



Requiring Fleming to “purchase or lease a
Mobile Store of the type and from a dealer
or supplier approved by Matco;” “use the
name MATCO TOOLS, the approved logo
and all colors and graphics commonly
associated with the Matco Business System on the Mobile Store in accordance
with Matco’s specifications;” “keep the
interior and exterior of the Mobile Store in
a clean condition;” and “keep the Mobile
Store in good mechanical condition.” Id. at
¶ 24 (quoting DA ¶ 3.6);



Requiring that Fleming “wear Matcoapproved uniforms,” “maintain a professional appearance,” and “be clean and wellgroomed while making calls on Potential
Customers.” Id. at ¶ 26 (quoting DA ¶ 3.6);



Retaining the right to require Fleming to
“submit to, and undergo periodic or random drug and/or alcohol testing at a facility, clinic, hospital or laboratory specified
by Matco.” Id. at ¶ 23(g);



Requiring Fleming to “operate the Distributorship in conformity with the operating
procedures and policies established in the
Matco Confidential Operating Manual
(the “Manual”), or otherwise in writing.”
Id. at ¶ 23(h).



Requiring that Fleming maintain his
“books, records and accounts” in “the form
designated by Matco” and to “submit to

199a
Matco, on a weekly basis, such business
reports as Matco may designate in writing.” Id. at ¶ 23(k).
On January 25, 2019, Fleming filed a Class Action and
a Representative Private Attorneys General Act
Action alleging that by misclassifying Fleming and
similarly situated Distributors as independent contractors, Matco sought to avoid various duties and
obligations owed to employees under California’s
Labor Code and Industrial Welfare Commission
(“IWC”) wage orders, including overtime compensation, expense reimbursement, meal and rest period
premium payments, and other claims. Id. at ¶ 6.
III. MATCO’S FORUM SELECTION CLAUSE IS
UNENFORCEABLE
Matco’s motion to dismiss should be denied because
there is no enforceable forum selection clause warranting transfer of this case to Ohio. No matter how this
Court views Matco’s contract with Fleming—either as
an employment agreement or a franchise agreement
(and it is both)—California law and Ninth Circuit
precedent require a finding that the forum selection
clause is unenforceable. Here, two separate venuespecific statutes—Labor Code Section 925 and Business and Professions Code Section 20040.5—reflect
California’s strong public policy in favor of resolving
this dispute in California.
Under federal law, forum selection clauses may be
found unenforceable for at least three reasons, including “if enforcement would contravene a strong public
policy of the forum in which suit is brought.” Petersen
v. Boeing Co., 715 F.3d 276, 280 (9th Cir. 2013).1 While
1

The other two grounds for invaliding forum selection clauses
are “(1) if the inclusion of the clause in the agreement was the

200a
the mere fact that a substantive statutory right
embodies a state’s strong public policy is not alone
grounds to refuse to enforce a forum selection clause,
where that underlying policy is specific to venue,
courts have found that forum selection clauses contravene a strong public policy. Rowen v. Soundview
Communs., Inc., No. 14-cv-05530-WHO, 2015 U.S.
Dist. LEXIS 24986, at *10 (N.D. Cal. Mar. 2, 2015)
(Orrick, J.) (“absent a total foreclosure of remedy in
the transferee forum, courts tether their policy analysis to the forum selection clause itself, finding the
forum selection clause unreasonable only when it
contravenes a policy specifically related to venue.”);
compare Doe 1 v. AOL LLC, 552 F.3d 1077, 1083–85
(9th Cir. 2009) (reversing the district court and finding
a non-California forum selection clause unenforceable
where the transferee state court would not be able to
provide class action procedures and remedies under
the California consumer law). That is, where the state
law in question is venue-related and reflective of a
strong policy in favor of the local adjudication of a
dispute, a forum selection clause is unenforceable. See,
e.g., Jones, 211 F.3d at 497–98 (finding forum selection
clause invalid because California policy at issue under
section 20040.5 specifically provided that California
franchisees were entitled to a California venue).
product of fraud or overreaching; (2) if the party wishing to
repudiate the clause would effectively be deprived of his day in
court were the clause enforced’” Petersen, 715 F.3d at 280. These
also apply to the present facts. Plaintiff would not have his day
in Court if this action were transferred to Ohio, as proceeding in
Ohio would be financially overwhelming for Fleming. Fleming
Decl., ¶ 13. And Matco’s inclusion of a non-California forum selection clause in Fleming’s DA was an overreach, as it was prohibited by California law under Labor Code Section 925 and Business and Professions Code Section 20040.5.

201a
Indeed, Jones controls this case: Fleming entered
into a franchise agreement with Matco that included a
non-California forum selection clause; Jones holds
that such forum selection clauses in franchise agreements are unenforceable. And as Judge Alsup recently
found in Karl v. Zimmer Biomet Holdings, Inc., No. C
18-04176 WHA, 2018 U.S. Dist. LEXIS 189997, at *6–
9 (N.D. Cal. Nov. 6, 2018), California Labor Code
Section 925 is analogous to Section 20040.5. The
reasoning in Jones extends to Section 925 and makes
non-California forum selection clauses unenforceable
in employment agreements. Id. at *3–6. Both Labor
Code Section 925 and Business and Professions Code
Section 20040.5 make Matco’s forum selection clause
unenforceable as a matter of strong California public
policy.
A. Matco’s Forum Selection Clause Is Void
Under Labor Code Section 925
California Labor Code Section 925(a) (“Section 925”)
provides:
An employer shall not require an employee
who primarily resides and works in
California, as a condition of employment, to
agree to a provision that would do either of
the following:
(1) Require the employee to adjudicate
outside of California a claim arising in
California.
(2) Deprive the employee of the substantive
protection of California law with respect to a
controversy arising in California.

202a
Section 925 applies to contracts “entered into, modified, or extended on or after January 1, 2017.” Labor
Code section 925(f).
Matco all but ignores Section 925, claiming in a
footnote that the Labor Code does not apply to
“franchisor-franchisee dispute[s]” and that Fleming’s
employment contract was not “entered into, modified
or extended on or after January 1, 2017.” Mot. at 10 n.
5. Matco is incorrect on both counts. Section 925 voids
Matco’s forum selection clause.
1. Section 925 Applies Where, As Here,
Fleming Has Alleged That He And Other
Similarly Situated Distributors Were
Misclassified As Independent Contractors
Fleming alleges that while he and other similarly
situated Distributors were classified as independent
contractor franchisees, they were actually Matco’s
employees under California law. The California tests
for employment status presume that Fleming is an
employee unless Matco can meet a rigorous test that
shows that Fleming was a bona fide independent
contractor. Dynamex Operations W. v. Superior Court,
4 Cal. 5th 903, 955 (2018) (“The ABC test presumptively considers all workers to be employees, and
permits workers to be classified as independent contractors only if the hiring business demonstrates that
the worker in question satisfies each of three conditions”); see also Narayan v. EGL, Inc., 616 F.3d 895,
900 (9th Cir. 2010) (under the Borello analysis “once a
plaintiff comes forward with evidence that he provided
services for an employer, the employee has established
a prima facie case that the relationship was one of
employer/employee. . . . The burden [then shifts to the
employer, which may prove, if it can, that the pre-

203a
sumed employee was an independent contractor”). If
Fleming has alleged a plausible claim for independent
contractor misclassification, Section 925 applies. Karl,
2018 U.S. Dist. LEXIS 189997, at *6–9 (finding where
the plaintiff asserted a plausible claim for independent contractor misclassification, Section 925 applied to
choice of forum clause in question).
Here, Fleming has alleged a plausible misclassification claim under both the IWC Wage Orders and
Borello. First, Fleming and other Distributors were
not free from Matco’s control, either by contract or in
fact. Dynamex, 4 Cal. 5th at 955 (Prong A); see also
Dkt. 1 at ¶¶ 20–33. Second, Fleming is engaged in
work—sales and distribution of Matco tools—that is
within the usual course of Matco’s business. Id. (Prong
B). Third, Fleming was not engaged in an independent
trade or business of the same nature as the work
performed. Id. at 955–56 (Prong C) (“An individual
operates an independent business where they have
decided through “incorporation, licensure, advertisements, routine offerings to provide the services of the
independent business to the public or to a number of
potential customers, and the like.”). In fact, Matco
required Fleming to work full-time, prohibited him
from selling products competing with Matco products,
and restricted his ability to sell non-Matco products
without Matco’s approval. Dkt. 1 at ¶¶ 15, 17.
Fleming has also alleged he was misclassified as an
independent contractor under Borello. Matco retained
“all necessary control” over the work that Fleming
performed. S. G. Borello & Sons, Inc. v. Dep’t of Indus.
Relations, 48 Cal. 3d 341, 357 (1989); see Alexander v.
FedEx Ground Sys. Inc., 765 F.3d 981, 997 (9th Cir.
2014) (FedEx’s detailed job requirements, including
training, operating standards, and structured work-

204a
loads, and Fedex’s detailed equipment and appearance
requirements, including truck appearance and uniforms, gave FedEx all necessary control over the work
that drivers performed).
The Borello secondary factors either cut towards a
finding of employment status or are neutral. As
described above, Fleming’s work—the selling and
distribution of tools—was within Matco’s regular business. Alexander, 765 F.3d at 996 (“The work that the
drivers perform, the pickup and delivery of packages,
is ‘essential to FedEx’s core business.’”) (quoting
Estrada v. FedEx Ground Package Sys., Inc., 64
Cal.Rptr.3d 327, 334 (Ct. App. 2007)). Fleming was not
engaged in work distinct from his work with Matco. Id.
at 995 (factor favored employment status where
worked performed by drivers was wholly integrated
into FedEx’s operation, drivers looked and acted like
FedEx’s employees, the customers were FedEx’s, and
drivers’ business expansion was only available subject
to FedEx’s business needs). Fleming’s work was
performed under Matco’s training, supervision, and
direction. Id. (factor favored drivers, despite freedom
in their work, where FedEx also closely supervised
drivers through various methods). Matco’s agreements
were for 10-year periods, and Fleming worked for
Matco for over six years. DA, ¶ 2.1. Id. at 996 (length
of term of one to three years, subject to renewal, indicative of employment status). Fleming’s work for Matco
did not require any particular skill. Fleming Decl.,
¶ 3. And while Fleming bore most of the costs for
Matco’s business, it was done so through vendors that
were required or recommended by Matco. Dkt.1, at
¶¶ 24, 26, 28, 30. Ruiz v. Affinity, 754 F.3d 1093, 1104
(9th Cir. 2014) (where Affinity advanced drivers costs
of leasing and maintain their tools, and where Affinity
required drivers to use a specific type of phone and

205a
deducted the expense from drivers’ paychecks, this
factor favored drivers). Matco also retained a broad
right to discharge Fleming, including for violating any
material contract term, failing to make personal sales
calls at least weekly to each stop on the Fleming’s
route, and failing to submit to a drug and/or alcohol
test. Dkt. 1 at ¶ 32.
Because Fleming has alleged a plausible claim for
independent contractor misclassification and seeks
protections under the California Labor Code, Section
925 applies to this dispute. Karl, 2018 U.S. Dist.
LEXIS 189997, at *6–9. Indeed, to find otherwise
would reward employers for the wrongful conduct of
misclassifying their employees as independent contractors in order to circumvent the Labor Code, including Section 925.
2. Fleming Entered Into and Extended His
Employment Agreement With Matco On
Or After January 1, 2017.
Matco is incorrect that Fleming’s employment
agreement was not “entered into, modified or extended
on or after January 1, 2017.” Mot. at 10 n. 5. In fact,
Fleming modified and extended his agreement with
Matco every year through August 2018. Accordingly,
Section 925 applies here.
While Matco included Fleming’s DA with its motion,
it did not attach his entire agreement. As a term of the
DA, Matco required that Fleming execute an attachment to the DA titled “Exhibit O” – the Matco Distributor Business System Software License, Maintenance
and Support Agreement. Fleming Decl. ¶ 8 (required
to sign Exh. O as condition of employment), Exh. 1 at
34-38 (copy of Exh. O); DA ¶ 3.7 (“The Distributor . . .
will sign the Matco Distributor Business System

206a
Software License, Maintenance and Support Agreement (“the “Software License Agreement”)(Exhibit O)
as may be modified from time to time, and will pay the
required software license fees and annual maintenance support fee set forth in the Software License
Agreement.”). Exhibit O is a one-year agreement
that renews every year as long as Fleming paid the
“annual Systems Maintenance and Support charges”
and otherwise complied with the agreement. Fleming
Decl., Exh. 1 (¶ 3). If Fleming did not annually renew
the Software Agreement by paying the annual fee he
was subject to termination under the provisions of the
DA. DA ¶¶ 3.7, 11.3. Fleming complied with the terms
of the software licensing agreement and renewed that
portion of his employment agreement every year, thus
extending his employment with Matco, until December 2018. Fleming Decl., ¶¶ 9-11. His final renewal
was in August 2018. Fleming Decl. ¶ 11.
Because Fleming’s employment agreement was
renewed and extended after January 1, 2017, Section
925 applies. Karl, 2018 U.S. Dist. LEXIS 189997, at *9
(finding that “[t]hough plaintiff’s initial agreement
was signed in 2015 (before the effective date of Section
925), defendants later revised plaintiff’s compensation
on June 1, 2018 (after the effective date). . . . [T]he contract update emailed to plaintiff on June 1, 2018 was
an amendment that modified his initial agreement.
The modification condition required by Section 925 is
met.”). As Section 925 evinces the strong public policy
of litigating California labor disputes in California
under California law, Matco’s forum selection clause is
voidable “per public policy.” Karl, 2018 U.S. Dist.
LEXIS 189997, at *3–6.

207a
B. 20040.5 Voids Matco’s Forum Selection
Clause
Matco does not dispute that the Ninth Circuit has
held that a forum selection clause like Matco’s contained in a franchise agreement is void and unenforceable under California Business and Professions Code
section 20040.5.2 Jones, F.3d at 498 (holding forum
selection clause invalid because section 20040.5 specifically provided that California franchisees were entitled to a California venue). Instead, Matco posits three
arguments why this Court should decline to apply
Jones. As set forth below, none has merit.
1. The Federal Arbitration Act Does Not
Preempt Application of Section 20040.5
Because There is No Enforceable Arbitration Agreement Covering This Dispute
a. The DA Expressly Provides That No
Arbitration Obligation Exists
Despite liberally excerpting whole paragraphs of the
DA in their motion, Matco conveniently omits key language that renders the arbitration clause null and
void. Specifically, the DA’s severability clause provides that “if the provision prohibiting classwide or
private attorney general arbitration is deemed invalid,
then the provision requiring arbitration of breaches
between the parties shall be null and void and there
shall be no obligation to arbitrate any such breaches.”
DA, ¶ 12.12 (emphasis added). This blow-up provision

2

Section 20040.5 provides “A provision in a franchise agreement restricting venue to a forum outside this state is void with
respect to any claim arising under or relating to a franchise
agreement involving a franchise business operating within this
state.”

208a
fully disposes of Matco’s FAA preemption argument
and requires denial of this motion.
The analysis is straightforward. Matco’s arbitration
clause expressly waives Fleming’s representative private attorney general claims. Specifically, Section 12.7
provides that “[n]o matter how styled by the party
bringing the claim, any claim or dispute is to be arbitrated on an individual basis and not as a class action.
THE DISTRIBUTOR EXPRESSLY WAIVES ANY
RIGHT TO ARBITRATE OR LITIGATE AS A CLASS
ACTION OR IN A PRIVATE ATTORNEY GENERAL
CAPACITY.” DA, ¶ 12.7.
Under settled Ninth Circuit law, this clause constitutes an unlawful waiver of Fleming’s representative
claims under the Labor Code Private Attorneys General Act of 2004 (“PAGA”). Sakkab, 803 F.3d at
440 (“the waiver of [the Plaintiff’s] representative
PAGA claims may not be enforced.”). PAGA permits
aggrieved employees to act as private attorneys general on behalf of the State of California to collect civil
penalties for Labor Code violations. In light of this
public purpose, “an employee’s right to bring a PAGA
action is unwaivable,” and “an arbitration agreement
requiring an employee as a condition of employment to
give up the right to bring representative PAGA actions
in any forum is contrary to public policy.” Iskanian v.
CLS Transp. Los Angeles, LLC, 59 Cal. 4th 348, 360,
383 (2014); Sakkab, 803 F.3d at 449 (holding that the
FAA does not preempt the Iskanian rule); Hopkins v.
BCI Coca-Cola Bottling Co of Los Angeles., 640 F.
App’x 672, 673 (9th Cir. 2016) (“the Iskanian rule
applies to the arbitration agreement between Hopkins
and BCI Coca-Cola Bottling Company of Los Angeles
(BCI) and Hopkins’s waiver of his right to bring a representative PAGA action is unenforceable”)

209a
Contemplating the possibility that its waiver of private attorney general claims would be found unenforceable, Matco drafted its arbitration clause to render the entire agreement to arbitrate “null and void”
under that contingency, such that no obligation to
arbitrate exists. DA, ¶ 12.12 (“if the provision prohibiting . . . private attorney general arbitration is
deemed invalid, then the provision requiring arbitration of breaches between the parties shall be null and
void and there shall be no obligation to arbitrate any
such breaches.”). In turn, Section 12.1 of the DA
defines “breaches” as “all breaches, claims, causes of
action, demands, disputes and controversies.” In short,
by straightforward operation of plain contract terms,
the unenforceable PAGA waiver renders the entire
arbitration provision void ab initio.
“[T]he federal [arbitration] policy is simply to ensure
the enforceability, according to their terms, of private
agreements to arbitrate.” Volt Info. Scis. v. Bd. of Trs.,
489 U.S. 468, 476 (1989). While “doubts [of arbitrability] should be resolved in favor of coverage” (see AT&T
Techs., Inc. v. Commc’ns Workers of Am., 475 U.S. 643,
650 (1986) (internal quotations omitted)), the Court
must enforce the plain language of the contract where
there is no doubt. Indeed, where arbitration contracts
contain unambiguous “poison pill” provisions like the
blow-up provision in Matco’s agreement, district
courts have found that there is no agreement to arbitrate. See McArdle v. AT&T Mobility LLC, No. 09-cv01117-CW, 2017 U.S. Dist. LEXIS 162751, at *14–15
(N.D. Cal. Oct. 2, 2017) (no enforceable arbitration
agreement where a poison pill provision made “the
entirety of [the] arbitration provision...null and void”);
Securitas Sec. Servs. USA, Inc. v. Superior Court
(2015) 234 Cal. App. 4th 1109, 1125 (where unlawful
PAGA representative action waiver is not severable, it

210a
“presents an all-or-nothing proposition: . . . either the
employee forgoes his or her right to arbitrate such
claims, or the entire agreement to arbitrate disputes
is unenforceable and the parties must resolve their
disputes in superior court”). See also Sakkab, 803 F.3d
at 437 (“The FAA contemplates that parties may
simply agree ex ante to litigate high stakes claims if
they find arbitration’s informal procedures unsuitable.”).
Here, Matco drafted its arbitration agreement to
prohibit severance of the unlawful provision and settled rules of contract construction and arbitration
jurisprudence preclude relieving the company from
the consequences of that drafting decision. The Court
should hold Matco to its bargain. Because the agreement to arbitrate is null and void, there is no basis to
either dismiss Fleming’s claims or transfer the action.
Matco’s motion must be denied, and Fleming’s claims
against Matco, including his PAGA representative
action claim, should proceed before this Court.
b. If Even There Were an Agreement
to Arbitrate, It Would Expressly
Exclude Fleming’s Claims
Further, even if an agreement to arbitrate existed
(which it does not), it would exclude Fleming’s claims.
Specifically, Section 12.5 of the DA states that “any
dispute or controversy involving the Marks” is “not []
subject to Arbitration.” Because Fleming’s action is a
“controversy involving the Marks,” it falls outside the
scope of the arbitration clause.
Matco hired Fleming to run his tool route “in accordance with the [Matco] Business System,” which Matco

211a
states is “identified by. . . the Marks.”3 DA, at 1
(“Recitals”). Fleming’s independent contractor misclassification lawsuit challenges the legality of Matco’s
“business system,” which Fleming alleges is in fact an
employment arrangement. See Section III.A.1, supra.
Thus, Fleming’s claims are a “dispute or controversy
involving the Marks.”4 The language throughout the
DA is confirmation:

3

The DA states that Matco “developed a distinctive business
system relating to the establishment and operation of Matco
mobile distributorships” to sell Matco’s products, such as tools,
“to professional mechanics and other businesses,” which Matco
defines as its “Business System.” DA at 1 (“Recitals”). This Business System “is identified by means of certain trade names,
service marks, trademarks, logos, and emblems, including, the
trademarks and service marks “MATCO®” and MATCO®
TOOLS (the “Marks”).” Id. Matco “desire[d] to appoint the [Plaintiff] as an authorized Matco mobile distributor to sell and service
the Products in a certain geographic area.” And Plaintiff was
required to affirm that he “desire[d] to operate a Matco mobile
distributorship in accordance with the Business System. . . . “ Id.
4

The Ninth Circuit has found that when interpreting statutes,
the term “involving” “usually signifies something narrower than
‘relating to’ and often “connotes ‘includ[ing] (something) as a necessary part or result.’” Sun v. Advanced China Healthcare, Inc.,
901 F.3d 1081, 1087 (9th Cir. 2018) (citing to the New Oxford
American Dictionary 915 (3d ed. 2010)), while district courts
engaging in contract interpretation have sometimes read “involving” more expansively. PPG Indus. v. Pilkington PLC, 825 F.
Supp. 1465, 1478 (D. Ariz. 1993) (“The Court finds that the word
“involving” is the functional equivalent of the words “relating
to.””). Because the business system that Plaintiff is challenging
is identified by the Marks, the Marks are “a necessary part
or result” of Plaintiff’s independent contractor misclassification
claims. Indeed, some of the control that Matco retained over
Plaintiff’s work was defined by the Marks; for example, requiring
that Plaintiff include the Marks on his Mobile Store.



212a
Matco “grants to the Distributor a nonexclusive, non-transferable right and
license to use the Marks in the normal
course of operating the Distributorship”
and requires that Distributors “only use
the Marks in connection with the sale of
the Products sold pursuant to the Business System.” DA, ¶ 7.1.



Matco requires that Fleming uses the
mark “MATCO TOOLS®, the approved
logo and all colors and graphics commonly
associated with the Matco Business System on the Mobile Store in accordance
with Matco’s specifications.” DA, ¶ 3.6.



Fleming must submit a sample of any
website to Matco and obtain Matco’s prior
written approval if the website mentions
the Marks, Matco, and/or the Business
System. DA, ¶ 3.14.



Matco requires the Distributor to agree
not to drive the Mobile Store under the
influence of alcohol or illegal drugs and to
submit to a random drug test at Matco’s
request. Matco states that operating the
Mobile Store in an unsafe manner, or
under the influence of alcohol or illegal
drugs “may injure or harm the Marks.” DA
¶ 3.15.



Matco can terminate Fleming if he was
“involved in any conduct or act which
materially impairs the goodwill associated
with Matco, the Business System, or the
Marks.” DA, ¶ 11.5.

213a
Because Fleming’s claims “involv[e] the Marks,” they
are not subject to arbitration. Accordingly, there is no
ground to dismiss Fleming’s claims or transfer this
case.
c. Any Arbitration Agreement Would Be
Unconscionable and Invalid
Even assuming, arguendo, that an agreement to
arbitrate existed which encompassed Fleming’s
claims, it would be unconscionable and unenforceable.
To determine whether an arbitration agreement is
unconscionable, courts apply a sliding scale: “the more
substantively oppressive the contract term, the less
evidence of procedural unconscionability is required to
come to the conclusion that the term is unenforceable,
and vice versa.” Lou v. Ma Laboratories, Inc., 2013 WL
2156316, at *2 (N.D. Cal. May 17, 2013) (internal citations omitted). Here, the agreement is an adhesion
contract that is substantively unconscionable in multiple respects, rendering it unenforceable.
1. The Arbitration Provision Is Procedurally Unconscionable
An agreement is procedurally unconscionable when
it is based on “oppression” and “surprise” and results
from unequal bargaining strength between the parties. Armendariz v. Found. Health Psychcare Servs.,
Inc., 24 Cal. 4th 83, 114 (2000). “Oppression arises
from an inequality of bargaining power which results
in no real negotiation and an absence of meaningful
choice.” Tompkins v. 23andMe, Inc., No. 5:13-CV05682-LHK, 2014 WL 2903752, at *14 (N.D. Cal. June
25, 2014) (citation omitted). “Surprise” refers to “the
extent to which the supposedly agreed-upon terms of
the bargain are hidden in the prolix printed form
drafted by the party seeking to enforce the disputed

214a
terms.” Perez v. Maid Brigade, Inc., No. C 09-3473 SI,
2007 WL 2990368, at *5 (N.D. Cal. Oct. 11, 2007).
Here, the arbitration provision is a result of both
oppression and surprise. It is oppressive because it is
a contract of adhesion, and the oppression element of
the procedural unconscionability analysis is “nearly
always satisfied when the contract is one of adhesion.”
Armendariz, 24 Cal. 4th at 113. Indeed, the arbitration agreement is exactly the sort of contract of adhesion that California courts have found to be unconscionable. There can be no dispute that Matco was in
a superior bargaining position to Fleming, an individual seeking a job selling tools for the company. The
agreement Fleming signed was a standardized contract presented to every person who wished to work for
Matco, and it was a “take-it-or-leave-it standardized
employment form.” Lou, 2013 WL 2156316, at *2.
Matco does not contend that the DA was negotiable,
and Fleming quite reasonably did not believe that any
terms thereof were subject to negotiation. Fleming
Decl., ¶ 4; Lou, 2013 WL 2156316, at *2. Fleming’s
only option was to sign the agreement in its entirety—
including the arbitration clause—or walk away and
decline the opportunity to work for Matco. Indeed, in
the case of pre-employment arbitration agreements,
the economic pressure exerted by employers “may be
particularly acute, for the arbitration agreement
stands between the employee and necessary employment, and few employees are in a position to refuse a
job because of an arbitration requirement.” Id. at 115.
The arbitration clause also satisfies the surprise
element of procedural unconscionability. The arbitration provisions – set out in 12 paragraphs (12.1 to
12.12) out of 109 total paragraphs in the DA–were hidden in the lengthy adhesion contract. The arbitration

215a
provisions are also inconspicuous, not bolded or otherwise set apart from the rest of the text and are not on
a page requiring a separate signature. Courts have
found such buried and un-bolded arbitration provisions procedurally unconscionable. See Zaborowski v.
MHN Gov’t Servs., Inc., 936 F. Supp. 2d 1145, 1152
(N.D. Cal. 2013) (finding procedural unconscionability
where the arbitration clause appeared in paragraph
20 of 23 of the contract, was not highlighted or outlined, and did not require a separate signature); Lau
v. Mercedes-Benz USA, LLC, No. CV 11-1940 MEJ,
2012 WL 370557, at *8 (N.D. Cal. 2012) (finding procedural unconscionability where arbitration clause
was “imbedded inconspicuously” within the document
and not on a page requiring a signature).
Finally, Matco’s failure to provide Fleming with the
rules governing arbitration renders the arbitration
clause procedurally unconscionable under California
law. See Pokorny v. Quixtar, Inc., 601 F.3d 987, 997
(9th Cir. 2010) (finding that failing to attach the “full
description of the nonbinding conciliation and binding
arbitration processes . . . multiply the degree of procedural unconscionability); Milliner v. Bock Evans Fin.
Counsel, Ltd., 114 F. Supp. 3d 871, 879 (N.D. Cal.
2015) (finding increased procedural unconscionability
where the arbitration agreement did not provide the
applicable arbitration rules and did not otherwise
indicate where the plaintiffs could find them);
Ajamian v. CantorCO2e, L.P., 203 Cal. App. 4th 771,
797 (2012) (finding procedural unconscionability
where the agreement cited the rules that would govern
arbitration but did not provide a copy of them.5 Here,
5

See also Lou, 2013 WL 2156316, at *3 (similar); Mayers v.
Volt Mgmt. Corp., 203 Cal. App. 4th 1194 (2012) (finding “a high
degree of procedural unconscionability” where the contract was

216a
the Agreement states that arbitration would “take
place only in accordance with the Rules and Regulations of the American Arbitration Association” but did
not include a copy of these rules. DA, ¶ 12.1. Accordingly, Fleming did not and could not have understood
the obligations he was purportedly undertaking when
he signed the Agreement. Fleming Decl., ¶ 7. See Lou,
2013 WL 2156316, at *3 (where arbitration rules were
not provided, “it would have been unreasonable to
expect that the employee understood to what she was
obligating herself”). Indeed, AAA has multiple sets of
rules, including both Employment and Commercial,
and the DA does not specify which apply. Given that
the Commercial rules, for example, could require
Fleming to pay significant costs for the Arbitration—
another unconscionable provision—it is significant
that Fleming was prevented from knowing the rules to
which he was agreeing. See Dunham v. Envtl. Chem.
Corp., No. C 06-03389 JSW, 2006 U.S.Dist. LEXIS
61068, at *26 (N.D. Cal. Aug. 16, 2006) (“the cost-sharing provision of the [AAA] Commercial Rules is clearly
unconscionable under Armendariz”). Therefore, the
arbitration clause is procedurally unconscionable.
2. The Arbitration Clause Contains Numerous Unconscionable Terms
Arbitration provisions are substantively unconscionable when they are overly harsh or one-sided, or
lack a “modicum of bilaterality.” Armendariz, 24 Cal.
4th at 117. “Arbitration agreements that encompass
presented on a take-it-or leave-it basis and required plaintiff to
agree to arbitration with unknown rules); Trivedi v. Curexo Technology Corp., 189 Cal. App. 4th 387, 393 (2010) (recognizing that
“the failure to provide a copy of the arbitration rules to which the
employee would be bound, supported a finding of procedural
unconscionability”).

217a
unwaivable statutory rights must be subject to particular scrutiny.” Id. at 100. As discussed below, Matco’s
arbitration clause contains numerous unconscionable
terms which permeate the agreement, cannot be severed, and render the clause unenforceable.
a. The Limitation on Remedies and
Shortened Statute of Limitation Are
Unconscionable.
Arbitration involves a change in the forum for resolution of a dispute, not a change in available statutory
rights and remedies. Thus, courts have refused to
enforce arbitration clauses that limit available remedies. Armendariz, 24 Cal.4th at 103 (“an arbitration
agreement may not limit statutorily imposed remedies
such as punitive damages and attorney fees”); Graham
Oil Co. v. ARCO Prods. Co., 43 F.3d 1244, 1248 (9th
Cir. 1994) (rejecting arbitration clause that deprived
the plaintiff of its statutory right to punitive damages). Similarly, an arbitration agreement that imposes a shortened limitations period is substantively
unconscionable. See Martinez v. Master Protection
Corp., 118 Cal. App. 4th 107, 117 (2004) (provision
shortening statute of limitation for Labor Code claims
unconscionable).
Here, the arbitration clause expressly prohibits the
award of punitive damages (in addition to “exemplary,
incidental, indirect, special, or consequential damages”). DA, ¶ 12.8. The arbitration agreement also provides that “in the event of a dispute, the recovery of
either party will be limited to the recovery of any
actual damages sustained by it.” DA, ¶ 12.8. Both of
these provisions are not only facially unconscionable
and unenforceable but serve as unconscionable limitations on the likely relief in this case by precluding an
award of statutory penalties and civil penalties under

218a
PAGA. Cal. Labor Code § 2699(a) (allowing for civil
penalty to be recovered through civil action “brought
by an aggrieved employee on behalf of himself or
herself and other current or former employees.”);
Zaborowski, 936 F. Supp. 2d at 1155 (quoting Ingle v.
Circuit City Stores, Inc., 328 F.3d 1165, 1179 (9th Cir.
2003)) (“punitive damages waiver ‘improperly proscribes available statutory remedies’ afforded to plaintiffs bringing employment claims”).
The arbitration clause also shortens the statute of
limitations on Fleming’s claims to “the earlier of (A)
the time period for bringing an action under any applicable state or federal statute of limitations; (B) one (1)
year after the date on which a party discovered, or
should have discovered, the facts giving rise to an
alleged claim; or (C) eighteen (18) months after the
first act or omission giving rise to an alleged claim.”
DA, ¶ 12.3 (emphasis added). This provision is unconscionable and unenforceable. See Zaborowski, 936 F.
Supp. 2d at 1153 (shortened statute of limitations
unconscionable because it was not a “sufficient time
period to discover and pursue remedies”); Jackson v.
S.A.W. Entertainment Ltd., 629 F. Supp. 2d 1018,
1028–29 (N.D. Cal. 2009) (similar); Wherry v. Award,
Inc., 192 Cal. App. 4th 1242, 1249 (2011) (shortening
statute of limitation period by 50 percent constitutes
unlawful waiver of statutory rights); Martinez v.
Master Protection Corp., 118 Cal. App. 4th 107, 117–
18 (2004) (same).6
6

These unconscionable provisions are not saved by the precatory language “unless . . . prohibited by applicable law.” While the
unconscionable provisions render the agreement unenforceable,
they do not (from a contractual standpoint) unambiguously fall
within the category of provisions “prohibited by law.” Mohamed
v. Uber Techs. Inc, 109 F. Supp. 3d 1185, 1209 n. 25 (N.D. Cal.

219a
b. The One-Sided “Free Peek” Provision
is Unconscionable
The arbitration agreement also contains a one-sided
requirement that Fleming submit to mediation before
a mediator in a city within 30 miles of Matco’s principal place of business as a condition to arbitration. Such
“free peek” provisions are unconscionable under
California law. Carmona v. Lincoln Millennium Car
Wash, Inc, 226 Cal. App. 4th 74, 90 (2014) (“requiring
plaintiff to submit to an employer-controlled dispute
resolution mechanism (i.e. one without a neutral
mediator) suggests that defendant would receive a
‘free peek’ at plaintiff’s case, thereby obtaining an
advantage if and when plaintiff were to later demand
arbitration”). Indeed, this “free peek” provision is not
even free to Fleming, since he must bear half the
expenses of the mediation taking place on Matco’s
home turf, in addition to associated travel costs
and fees. DA, ¶ 12.6. Courts have consistently found
unconscionable contractual provisions that impose
arbitration-related expenses beyond that which an
individual would be required to bear if he were free to
pursue his statutory claims in court. Roe v. SFBSC
Mgmt., LLC, 2015 WL 930683, *11 (N.D. Cal. Mar. 2,
2015) (arbitration cost-splitting provisions substan2015), aff’d in part, rev’d in part and remanded by 848 F.3d 1201
(“a more accurate reading is that Armendariz simply renders
unenforceable employment contracts that purport to require
employees to bear those costs.”); see also IJL Dominica S.A. v. It’s
Just Lunch International, Inc., 2009 WL 305187, at *3–4 (C.D.
Cal. Feb. 6, 2009) (finding unconscionable arbitration provision
that waives punitive damages “to the extent permitted by law”).
To hold otherwise would encourage the drafting of blatantly
unconscionable arbitration agreements with numerous unconscionable provisions, with the hope that the Court would blue
pencil the agreement by rendering every such provision void.

220a
tively unconscionable and unenforceable under California law); Lou, 2013 WL 2156316, at *5 (to be
enforceable, arbitration agreement must meet “certain
minimum requirements, including limits on the costs
of arbitration”).
c. The Unconscionable Provisions Permeate the Agreement and Cannot Be
Severed, Rendering the Arbitration
Agreement Unenforceable.
To the extent Matco urges the Court to sever any
unconscionable provisions, severance would be inappropriate, as the arbitration agreement contains multiple unlawful provisions and there is no single provision the court could strike or restrict in order to
remove the “unconscionable taint” from the agreement. Armendariz, 24 Cal.4th at 124. Despite a “liberal federal policy favoring arbitration agreements, a
court cannot rewrite the arbitration agreement for the
parties.” Davis v. O’Melveny & Myers, 485 F.3d 1066,
1084 (9th Cir. 2007) (finding arbitration agreement
unenforceable where it was procedurally unconscionable and there were four substantively unconscionable
provisions). The arbitration agreement here should be
rejected in its entirety as the overwhelmingly onesided nature of the arbitration provisions demonstrates Matco’s intent to reserve for itself multiple
unfair advantages in the arbitration process while
passing off significant burdens to Fleming. The “overarching inquiry” must be “whether the interests of justice would be furthered by severance,” and there can
be no justice where “the party in the superior bargaining position [is] trying to impose arbitration not as an
alternative to litigation but rather as an inferior
forum.” Jackson v. S.A.W. Ent., 629 F. Supp. 2d 1018,
1030 (N.D. Cal. 2009). Rather than severing any

221a
unconscionable provisions, the arbitration agreement
should be voided in its entirety.
2. Matco’s Dormant Commerce Clause
Challenge to Section 20040.5 Fails
Matco’s argument that Section 20040.5 is unconstitutional misconstrues Dormant Commerce Clause
jurisprudence. The Commerce Clause of the United
States Constitution grants Congress the authority
“[t]o regulate commerce . . . among the several
states[.]” U.S. Const., art. I, § 8, cl. 3. This grant of
authority to Congress, however, “has long been recognized as a self-executing limitation on the power of the
States to enact laws imposing substantial burdens on
such commerce.” South-Central Timber Dev., Inc. v.
Wunnicke, 467 U.S. 82, 87 (1984). “A critical requirement for proving a violation of the dormant Commerce
Clause is that there must be a substantial burden on
interstate commerce.” Nat’l Ass’n of Optometrists &
Opticians v. Harris, 682 F.3d 1144, 1148 (9th Cir.
2012). “[N]ot every exercise of local power is invalid
merely because it affects in some way the flow of commerce between the States.” Great Atl & Pac. Tea Co. v.
Cottrell, 424 U.S. 366, 371 (1976) (stating that “States
retain broad power to legislate protection for their citizens in matters of local concern”). In analyzing challenges pursuant to the Dormant Commerce Clause,
courts examine whether a statute discriminates
against out-of-state entities on its face, in its purpose,
or in its practical effect. If so, it is unconstitutional
unless it “serves a legitimate local purpose” that could
not be served as well by available nondiscriminatory
means.” Int’l Franchise Ass’n v. City of Seattle, 803
F.3d 389, 399 (9th Cir. 2015). If there is no discrimination, courts will uphold the law “unless the burden
imposed on interstate commerce is clearly excessive in

222a
relation to the putative local benefits.” Id. A party
challenging a statute under the Dormant Commerce
Clause bears the burden of showing discrimination.
Black Star Farms, LLC v. Oliver, 600 F.3d 1225, 1230
(9th Cir. 2010).
Matco challenges only Section 20040.5’s alleged discriminatory purpose,7 arguing that— even though the
law is generally applicable to all franchisors doing
business in California—the intent of Section 20040.5
is to discriminate against out-of-state franchisors
because they may be called to court in California. (Mot.
at 11–12). Discriminatory purpose may be proven by a
stated discriminatory purpose or actions making clear
that the statute’s purpose is to discriminate against
7

To the extent Matco attempts to reframe its discriminatory
purpose argument as a discriminatory effects argument, it is nonsensical. A law is not “discriminatory simply because it affects instate and out-of-state interests unequally.” Rocky Mountain
Farmers Union v. Corey, 730 F.3d 1070, 1089 (9th Cir. 2013).
Matco’s contention that California franchisors derive a “competitive advantage” from a California venue because they can “rely
on consistent judicial interpretations” (Mot. at 12) is baseless as
Section 20040.5 does not dictate the substantive law that applies
to any case; obligations may differ based on the applicable law
and thus it does not ensure “consistent judicial interpretations.”
Moreover, Section 20040.5 is only applicable to franchisors operating within the state—California-headquartered franchisors
may also be sued elsewhere where jurisdiction exists. Third, even
if California franchisors could always require a California forum,
Section 20040.5 does not require state court venue, and a federal
forum is clearly available to diverse parties under Section
20040.5. The availability of diversity jurisdiction alleviates any
concern that the law deprives franchisors “from the protections of
federal law in diversity cases.” Mot. at 12; See Tosco Corp. v. Communities for a Better Environment, 236 F.3d 495, 502 (9th Cir.
2001) (“The purpose of diversity jurisdiction is to provide a federal forum for out-of-state litigants where they are free from prejudice in favor of a local litigant.”) (citations omitted).

223a
out-of-state interests. Rocky Mountain Farmers Union
v. Corey, 730 F.3d 1070, 1098 (9th Cir. 2013). Matco
has failed to meet its significant burden of demonstrating a discriminatory purpose, pointing only to legislative history that says no such thing.8 Indeed, Matco
must concede that “the Legislature’s stated need for
the statute was ostensibly to protect California-based
franchisees from costly out-of-state litigation”—ensuring they are effectively able to seek redress for unlawful conduct. (Mot. at 12). See Rocky Mountain Farmers
Union, 730 F.3d at 1098 (the court “will assume that
the objectives articulated by the legislature are actual
purposes of the statute unless an examination of the
circumstances forces us to conclude that they could not
have been a goal of the legislation”). And Matco’s only
cited case is inapposite. In 1800-Got-Junk? LLC
v. Superior Court., 189 Cal. App. 4th 500, 505, 518
(2010), the court enforced a choice of law provision in
a franchise agreement but could not—and did not—
enforce a forum selection clause because Section
20040.5 “categorically prohibits” forum selection
clauses in franchise agreements.
Because there is no discriminatory purpose behind
Section 20040.5, the court must uphold the law unless
Matco can show that “the burden imposed on interstate commerce is clearly excessive in relation to the
putative local benefits.” Int’l Franchise Ass’n, 803 F.3d
at 399. Yet Matco has presented no evidence of any
burden on interstate commerce—nor can it. The statute applies equally to in-state and out-of-state actors
8

Moreover, where there “is strong textual evidence” of an
acceptable purpose and “weaker textual evidence” of a potentially
suspect classification, the Ninth Circuit has found that a discriminatory purpose does not exist. Int’l Franchise Ass’n, Inc., 804
F.3d at 401.

224a
and solely classifies entities based on their business
model—that they are franchise arrangements—which
is a facially neutral classification for the purposes of a
Dormant Commerce Clause analysis. See id. at 400 (“A
distinction drawn based on a firm’s business model—
a characteristic [Defendant] contends is highly correlated with interstate commerce—does not constitute
facial discrimination against out-of-state entities or
interstate commerce.”). In contrast, Section 20040.5’s
legislative history contains proof of significant local
benefits. Dkt. 16-6 (“Many franchise contracts contain
clauses that require a civil action or proceeding arising
under or relating to a franchise agreement to be commenced in a designated out-of-state venue. . . . Few
franchisees can easily afford to defend or prosecute
their actions in another state. The author of AB 1920
contends that these contractual provisions put the
California franchisee at a great disadvantage in pursuing meritorious actions against a franchisor.”).
Matco points to no case in which a court has invalidated a similar state statute, and Plaintiff is aware of
none. See e.g. In’tl Franchise Ass’n, 803 F.3d at 389
(upholding an interpretation of a city’s wage ordinance
that required franchisors to comply with city’s minimum wage schedule). Matco has fallen far short of
meeting its burden to successfully challenge Section
20040.5.
3. Equitable Estoppel Is Not a Basis to
Override Section 20040.5
Matco’s estoppel argument suffers from several fatal
infirmities. Most fundamentally, the suggestion that
bringing a claim for independent contractor misclassification estops a plaintiff from avoiding obligations
imposed under the agreement is novel—and frivolous.
If that were true, every independent contractor mis-

225a
classification case from this Court would have been
wrongly decided, since all independent contractor
agreements contain certain provisions (such as a
clause contending that the worker is an independent
contractor) that the worker seeks to “avoid.” Unsurprisingly, Matco offers no persuasive authority9 for its
argument that the doctrine of equitable estoppel
trumps California’s strong public policy, as expressed
in Section 20040.5, against non-California forum
selection clauses in franchise agreements.10
IV. THE MOTION TO TRANSFER SHOULD BE
DENIED BECAUSE THE RELEVANT PRIVATE AND PUBLIC INTEREST FACTORS
UNDER 28 U.S.C. § 1404(A) WEIGH AGAINST
TRANSFER
Though Matco entirely ignores 28 U.S.C. § 1404(a),
it is the correct standard for evaluating whether transfer is appropriate under the present facts. Where, as
here, there is no enforceable forum selection clause,
courts considering a motion to transfer weigh both the
convenience of the parties (“private factors”) and public interest considerations in deciding whether to
9

Matco cites Turner v. Thorworks Indus., No. CIV S-05-02653
WBS KJM, 2006 U.S. Dist. LEXIS 21668 (E.D. Cal. Mar. 28,
2006), but Turner contains no discussion of or reference to Section
20040.5. Indeed, it appears that the plaintiff in Turner failed to
argue that the defendants’ forum selection clause was a violation
of California public policy.
10

Defendants also rely on Cal. Civ. Code § 3521 (“He who
takes the benefit must bear the burden”). However, Cal. Civ.
Code § 3513 states that “Any one may waive the advantage of a
law intended solely for his benefit. But a law established for a
public reason cannot be contravened by a private agreement.”
Because Section 20040.5 articulates California’s strong public
policy against exclusive, non-California forum selection clauses
in franchise agreements, it is nonwaivable.

226a
retain jurisdiction. Atl. Marine Constr. Co. v. United
States Dist. Court, 571 U.S. 49, 62 (2013); see also
Brackett v. Hilton Hotels Corp., 619 F.Supp.2d 810,
820 (N.D. Cal. 2008). In determining whether transfer
is proper under § 1404(a), courts must “balance the
preference accorded plaintiff’s choice of forum with the
burden of litigating in an inconvenient forum.” Decker
Coal Co. v. Commonwealth Edison Co., 805 F.2d 834,
843 (9th Cir. 1986). The “defendant must make a
strong showing of inconvenience to upset the plaintiff’s
choice of forum.” Id.
A. The Private Factors Weigh Against Transfer
In deciding a Section 1404(a) transfer motion, the
Ninth Circuit has held that courts should examine:
(1) the location where the contract was negotiated and
executed, (2) the state that is most familiar with the
governing law, (3) the plaintiff’s choice of forum,
(4) the respective parties’ contacts with the forum,
(5) the contacts relating to the plaintiff’s cause of
action in the chosen forum, (6) the differences in the
costs of litigation in the two forums, (7) the availability
of compulsory process to compel attendance of unwilling non-party witnesses, (8) the ease of access to
sources of proof, (9) the presence of a forum selection
clause, and (9) the relevant public policy of the forum
state. See Jones, 211 F.3d at 498–499 (citations and
quotation marks omitted).
Matco has failed to meet its burden. Here, the only
factor supporting Matco’s motion is that the DA contains a choice of forum provision—yet as described
above, that provision is void. See Section III, supra.
And all other factors support Fleming’s choice of forum
in the Northern District of California. First, the DA
was presented to Fleming in California, within the
Northern District of California’s jurisdiction. Fleming

227a
Decl. ¶ 4. Second, Plaintiff asserts claims pursuant to
California law, and, as described above, Labor Code
Section 925 requires that California law applies to the
instant action. California courts are clearly most
familiar with California law. See Kuhnhausen v.
Dwyer, No. 2:06 CV 1062 GEB DAD, 2006 WL
2666076, at *2 (E.D. Cal. Sept. 15, 2006) (noting the
interest in having a forum that is “at home with the
law”). Third, Fleming’s choice of forum is California
because his causes of action arose within California—
Fleming has only worked for Matco in California and
seeks to represent only Matco distributors who have
worked in California. Dkt. 1 at ¶ 32. Fourth, the
majority of witnesses are located in California, including Matco supervisors and class members.11 Fifth, it
would be significantly more expensive for Fleming to
litigate and to represent the interest of California
Matco distributors in Ohio. Fleming Decl. ¶ 13.
Finally, as discussed below, the public policy of
California undeniably supports this Court retaining
jurisdiction over this matter.
B. The Public Factors Weigh Against Transfer
Public interest factors similarly weigh in favor of
this Court retaining jurisdiction.12 Those factors
11

To the extent Matco argues that relevant documents exist
outside California, it would not weigh in favor of transfer. See
Cohen v. State Farm & Cas. Co., No. 09–1051, 2009 WL 2500729,
at *6 (E.D. Cal. Aug. 14, 2009) (“[T]echnological advances (i.e.
electronic filing, video and teleconferencing, express mail services, faxes, etc.) have substantially reduced the burden of having
to litigate in a distant forum.”).
12

Courts also consider public interest factors in the event
there is a valid forum selection clause. See Atl. Marine Const. Co.,
51 U.S. at 64. While there is no enforceable forum selection clause
here for the reasons articulated in Section III, supra, in the event
the Court finds a valid forum selection clause, the public interest

228a
include “the administrative difficulties flowing from
court congestion; the local interest in having localized
controversies decided at home; [and] the interest in
having the trial of a diversity case in a forum that is
at home with the law.” Atl. Marine Const. Co., 51 U.S.
at 62 n. 6 (citations omitted). First, the factor of relative court congestion weighs against transfer. Although Matco focuses on the gross number of cases in
each district, the Ninth Circuit has made clear that
“[t]he real issue is not whether a dismissal [or transfer] will reduce a court’s congestion but whether a trial
may be speedier in another court because of its less
crowded docket.” Gates Learjet Corp. v. Jensen, 743
F.2d 1325, 1337 (9th Cir. 1984). The Northern District
of California has a median time from filing to disposition in civil cases of 7 months, compared to 10.3
months in the Northern District of Ohio. United States
Courts, National Judicial Caseload Profile, (June
2018), available at https://www.uscourts.gov/statistics
-reports/federal-court-management-statistics-june-20
18. Therefore, transfer would not lead to a speedier
resolution.
Second, courts examine the public interest in adjudicating local controversies. “As some courts say—
borrowing a term from conflict of laws jurisprudence—
a case ought to be heard where its ‘center of gravity’
lies, thereby preventing the case from proceeding in an
illogical forum and imposing its attendant costs, such
as jury duty, on disinterested citizens.” LRN Corp. v.
RGA Reinsurance Co., No. 2:14-cv-05771-SVW-RZ,
2015 U.S. Dist. LEXIS 190391, at *4 (C.D. Cal. Jan.
20, 2015) (internal quotations and citations omitted).
This analysis examines the parties’ and the dispute’s
factors here still weigh in favor of this Court retaining jurisdiction.

229a
relationship to the potential forums, including where
the relevant agreements were negotiated and executed. Id.; see also Jones, 211 F.3d at 498. Here, Matco
presented Fleming the DA in California; Fleming
worked for Matco solely in California; and Matco
employs over a hundred of other drivers in California.
Fleming Decl., Exh. 1 at 40-42. In contrast, Fleming
has no connection to Matco’s proposed forum of Ohio.
This factor also weighs against transfer.
This last factor is familiarity with the underlying
law. Here, California law applies to the disputes at
issue. Indeed, Ohio law has no corollary to most of
Fleming’s claims, including no statute similar to
PAGA, no statute similar to Labor Code Section 2802,
no daily overtime, and no meal and rest breaks.
Accordingly, a California court is better situated to
decide Fleming’s claims.
V. CONCLUSION
For the foregoing reasons, Matco’s motion to dismiss, or in the alternative, transfer venue to the U.S.
District Court for the Northern District of Ohio should
be dismissed.
DATED: March 5, 2019
RUKIN HYLAND & RIGGIN LLP
By: /s/ Valerie Brender
Valerie Brender
Attorney for Plaintiff

230a
APPENDIX L
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
————
Case No. 3:19-cv-00463-WHO
————
JOHN FLEMING, on behalf of himself
and all others similarly situated,
Plaintiff,
v.
MATCO TOOLS CORPORATION, a Delaware corporation;
NMTC, INC. d/b/a MATCO TOOLS, a Delaware
corporation, FORTIVE CORPORATION, a Delaware
corporation; and DOES 1-20, inclusive,
Defendant.
————
Date: April 24, 2019
Time: 2:00 p.m.
Dept: Courtroom 2, 17th Floor
Judge: Hon. William H. Orrick
Complaint Filed: January 25, 2019
————
DEFENDANTS’ REPLY IN SUPPORT OF
MOTION TO DISMISS, OR, IN THE
ALTERNATIVE, TRANSFER VENUE TO
THE U.S. DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OHIO
[FORUM NON CONVENIENS]
————

231a
SEYFARTH SHAW LLP
Christian J. Rowley (SBN 187293)
crowley@seyfarth.com
Matthew A. Goodin (SBN 169674)
mgoodin@seyfarth.com
Eric M. Lloyd (SBN 254390)
elloyd@seyfarth.com
560 Mission Street, 31st Floor
San Francisco, California 94105
Telephone: (415) 397-2823
Facsimile: (415) 397-8549
Attorneys for Defendant
MATCO TOOLS CORPORATION, NMTC, INC
and FORTIVE CORPORATION

232a
TABLE OF CONTENTS
Page
I. INTRODUCTION .....................................

1

II. ARGUMENT IN REPLY ..........................

1

A. Section 20040.5 Does Not Preclude
The Forum-Selection Clause. .............

1

1. Plaintiff Concedes That Bradley Is
Dispositive ......................................

1

2. The Forum Selection Clause Is At
Issue—Not The Arbitration Provision. .................................................

1

a. Policy Arguments Untethered
To Venue, Such As Plaintiff’s
Attack On The Arbitration Provision, Are Irrelevant To The
Validity Of Forum-Selection
Clauses. .....................................

1

b. It Is Premature To Consider
Whether The Arbitration Provision Is Enforceable Because
The Governing Law Has Not
Been Determined. .....................

3

3. Section 20040.5 Violates The
Dormant
Commerce
Clause
Because It Burdens Out-Of-State
Economic Interests And Benefits
In-State Economic Interests. .........

4

4. Plaintiff Is Estopped From Contesting
The
Forum-Selection
Clause. ............................................

5

233a
B. Section 925 Cannot Preclude Enforcement Of The Forum-Selection Clause.
..............................................................

6

1. Section 925 Is Preempted By The
FAA. ................................................

6

2. Section 925 Does Not Apply To
Franchisees. ...................................

6

3. The Dormant Commerce Clause
Precludes Section 925. ...................

10

4. Section 925 Does Not Apply To
Plaintiff Because His Distributorship Agreements Were Not Entered Into, Modified Or Extended
After December 31, 2016. ..............

11

C. Plaintiff Has No Evidence Of Fraud
Or Overreaching, And His Concern
Regarding The Expense Of Out-OfState Litigation Is Irrelevant. .............

12

D. Plaintiff Has Not Identified Any
Public Interest Factors Constituting
Exceptional Circumstances That
Would Justify Invalidating The
Forum-Selection Clause. .....................

13

E. Plaintiff’s Discussion Of Private
Interest Factors Is Irrelevant. ............

14

F. Plaintiff’s Claims Are Covered By The
Forum-Selection Clause. .....................

14

III. CONCLUSION..........................................

15

234a
TABLE OF AUTHORITIES
Federal Cases

Page(s)

AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ...................................

3

Atl. Marine Constr. Co. v. Dist. Ct.,
134 S. Ct. 568 ...................................... 12, 13, 14
Balducci v. Congo Ltd.,
No. 17-cv-04062-KAW, 2017 U.S. Dist.
LEXIS 154523 (N.D. Cal. Sept. 21, 2017) .. 12, 14
Bell Prods. v. Hosp. Bldg. & Equip. Co.,
No. 16-cv-04515-JSC, 2017 U.S. Dist.
LEXIS 9183 (N.D. Cal. Jan. 23, 2017) .....

6

Bradley v. Harris Research,
275 F.3d 884 (9th Cir. 2001) .....................

1, 6

Brady Mktg. Co. v. KAI USA, Ltd.,
No. 16-cv-02854-RS, 2016 U.S. Dist.
LEXIS 115877 (N.D. Cal. Aug. 29, 2016) .

12

Buckeye Check Cashing, Inc. v. Cardegna,
546 U.S. 440 (2006) ...................................

2

Carnival Cruise Lines, Inc. v. Shute,
499 U.S. 585 (1991) ...................................

4

Corp. Express Office Prods.,
Inc. v. Can Guelpen,
No. C 02-04588 WHA, 2002 U.S. Dist.
LEXIS 27642 (N.D. Cal. Dec. 12, 2002) .. 3, 11, 15
Cream v. N. Leasing Sys., Inc.,
No. 15-cv-1208, 2015 U.S. Dist. LEXIS
100537 (N.D. Cal. Jul. 31, 2015) ..............

2

Doe 1 v. AOL LLC,
662 F.3d 1077 (9th Cir. 2009) ...................

3

235a
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018) ...............................

3

Glob. Quality Foods, Inc. v.
Van Hoekelen Greenhouses,
No. 16-cv-00920-LB, 2016 U.S. Dist.
LEXIS 107121 (N.D. Cal. Aug. 12, 2016) ...

13

Goldman v. U.S. Transp.
& Logistics, LLC,
No. 17-cv-00691-BAS-NLS,
2017 U.S. Dist. LEXIS 210423
(S.D. Cal. Dec. 20, 2017) ...........................

12

Harris v. Gulf Ins. Co.,
297 F. Supp. 2d 1220 (N.D. Cal. 2003) .....

15

Int’l Franchise Ass’n v. City of Seattle,
803 F.3d 389 (9th Cir. 2015) .....................

10

Juarez v. Jani-King of Cal., Inc.,
273 F.R.D. 571 (N.D. Cal. 2011) ............... 6, 7, 8
Juarez v. Jani-King of Cal., Inc.,
No. 12-17759, 728 Fed. App’x 755 (9th
Cir. Jun. 26, 2018) ....................................

7

Karl v. Zimmer Biomet Holdings, Inc.,
No. C 18-04176 WHA, 2018 U.S.
Dist. LEXIS 189997 (N.D. Cal. Nov. 6,
2018) ...................................................... 9, 11, 12
Lizdale v. Advanced Planning Servs., Inc.,
No. 10-cv-0834, 2011 U.S. Dist. LEXIS
31277 (S.D. Cal. Mar. 25, 2011) ...............

2

Manetti-Farrow, Inc. v. Gucci Am., Inc.,
858 F.2d 509 (9th Cir. 1988) .....................

4

Monastiero v. appMobi, Inc.,
No. C 13-05711 SI, 2014 U.S. Dist.
LEXIS 67202 (N.D. Cal. May 15, 2014) ...

13

236a
Murphy v. Schneider Nat’l, Inc.,
362 F.3d 1133 (9th Cir. 2004) ................... 4, 10
Narayan v. EGL, Inc.,
616 F.3d 895 (9th Cir. 2010) .....................

7

Nationwide Biweekly Admin.,
Inc. v. Owen,
873 F.3d 716 (9th Cir. 2017) ................... 4, 5, 10
Rhode v. Becerra,
342 F. Supp. 3d 1010 (S.D. Cal. 2015) .....

5

Rowen v. Soundview Cmmc’ns, Inc.,
No. 14-cv-05530-WHO, 2015 U.S. Dist.
LEXIS 24986 (N.D. Cal. Mar. 2, 2015) ...passim
SeeComm Network Servs. Corp.
v. Colt Telecomm.,
No. C 04-1283, 2004 U.S. Dist. LEXIS
18049 (N.D. Cal. Sept. 3, 2004) ................

2, 3

Spradlin v. Lear Siegler Mgmt. Servs. Co.,
926 F.2d 865 (9th Cir. 1991) .....................

12

Turner v. Thorworks Indus.,
No. CIV S-05-02653 WBS
KJM, 2006 U.S. Dist. LEXIS
21668 (E.D. Cal. Mar. 28, 2006) ............. 5, 6, 11
Walters v. Metro. Educ. Enters., Inc.,
519 U.S. 202 (1997) ...................................

9

Washington v. Cashforiphones.com,
No. 15-cv- 0627-JAH (JMA),
2016 U.S. Dist. LEXIS 192253
(S.D. Cal. Jun. 1, 2016) .............................

2

237a
STATE CASES
Cislaw v. Southland Corp.,
4 Cal. App. 4th 1284
(Cal. Ct. App. 1992) .................................. 5, 7, 8
Dynamex Ops. West, Inc. v. Super. Ct.,
4 Cal. 5th 903 (Cal. 2018) ....................... 7, 9, 10
Imperial Merchant Servs., Inc. v. Hunt,
47 Cal. 4th 381 (Cal. 2009) .......................

9

1-800-Got Junk? LLC v. Super. Ct.,
189 Cal. App. 4th 500
(Cal. Ct. App. 2010) ..................................

4, 5

Patterson v. Domino’s Pizza, LLC,
60 Cal. 4th 474 (Cal. 2014) .......................

8, 9

S.G. Borello & Sons, Inc. v.
Dep’t of Indus. Rels.,
48 Cal. 3d (Cal. 1989) ...............................

7

Shoemaker v. Myers,
52 Cal. 3d 1 (Cal. 1990) ............................

9

FEDERAL STATUTES
9 U.S.C. § 2 ...................................................

6

15 U.S.C. § 1127 ...........................................

5, 8

STATE STATUTES
Cal. Bus. & Prof. Code § 20040.5 ................passim
Cal. Civ. Code § 1719 ...................................

9

Cal. Code Civ. Proc. § 410.42(a)(1) ..............

6

Cal. Corp. Code § 31005(a)(1)-(3) .................

8

Cal. Lab. Code § 925(f) .................................

11

California Labor Code § 925 .......................passim

238a
RULES
Rule 23 ..........................................................

3

REGULATIONS
16 C.F.R. § 436.1(h)(1)..................................

8

OTHER AUTHORITIES
Vazquez v. Jan-Pro Franchising Int’l Inc.,
Case No. 0:17-cv-16096 .............................

10

239a
I. INTRODUCTION
Plaintiff strains to make this motion seem more
complex than it is. The Opposition is devoted to arguments that have no bearing on Plaintiff’s burden to
justify his decision to file suit in California in contravention of the Ohio forum-selection clause. For
instance, Plaintiff’s attack on the enforceability of the
arbitration provision in his Distributorship Agreements is immaterial—policy arguments unrelated to
venue are irrelevant to the validity of a forumselection clause. Likewise, California Labor Code Section 925 (“Section 925”) provides no support for Plaintiff’s position. The statute does not apply to franchisees, it is preempted by the FAA, and it violates the
Dormant Commerce Clause. Regardless, Plaintiff does
not qualify for Section 925’s protections because his
Distributorship Agreements were not entered into,
modified or renewed on or after January 1, 2017—and
the self-renewing software license agreement Plaintiff
entered into before that date did not “modify or renew”
his 10 year Distributorship Agreements annually, as
Plaintiff implausibly claims. These, and the other distractions permeating the Opposition, cannot mask the
absence of exceptional circumstances precluding the
enforcement of the forum-selection clause. This case
should be dismissed, or, transferred to the Northern
District of Ohio.
II. ARGUMENT IN REPLY
A. Section 20040.5 Does Not Preclude The
Forum-Selection Clause.
1. Plaintiff Concedes That Bradley Is Dispositive.
Plaintiff does not dispute two foundational arguments supporting this motion. First, the FAA applies

240a
here. (Dkt. No 16 (“MPA”) at 10 n.4.) Second, because
the FAA applies, Section 20040.5 is preempted. (Id. at
10:12-11:4 (citing Bradley v. Harris Research, 275 F.3d
884 (9th Cir. 2001).) Tacitly recognizing that Bradley
controls, Plaintiff obfuscates, arguing that the arbitration provision in his Distributorship Agreements is
unenforceable. The Court should disregard this red
herring.
2. The Forum Selection Clause Is At
Issue—Not The Arbitration Provision.
a. Policy Arguments Untethered To
Venue, Such As Plaintiff’s Attack On
The Arbitration Provision, Are Irrelevant To The Validity Of ForumSelection Clauses.
Defendants seek to enforce the forum-selection
clause in the Distributorship Agreements. That is
where the Court’s focus should remain.
Plaintiff, however, attempts to distract from the relevant inquiry by arguing that the arbitration provision is unenforceable. His position is untenable.
Courts have repeatedly rejected smokescreens
advanced by parties who seek to avoid a forumselection clause by claiming the contract containing
the clause is unenforceable. E.g., Washington v. Cashforiphones.com, No. 15-cv- 0627-JAH (JMA), 2016 U.S.
Dist. LEXIS 192253, *12-13 (S.D. Cal. Jun. 1, 2016)
(“When the issue before a district court is limited to
venue[,] the court need not address the validity of an
entire contract.”); SeeComm Network Servs. Corp. v.
Colt Telecomm., No. C 04-1283, 2004 U.S. Dist. LEXIS
18049, *12-13 (N.D. Cal. Sept. 3, 2004) (“To hold that
the Forum-Selection Clause is invalid because the contract as a whole is invalid. . . requires the Court to

241a
assess the merits of the case. [This] analysis is clearly
backwards. The question before the Court is the validity of the Forum-Selection Clause, not the validity of
the contract as a whole.”); Cream v. N. Leasing Sys.,
Inc., No. 15-cv-1208, 2015 U.S. Dist. LEXIS 100537,
*18-19 (N.D. Cal. Jul. 31, 2015) (same); Lizdale v.
Advanced Planning Servs., Inc., No. 10-cv-0834, 2011
U.S. Dist. LEXIS 31277, *15-16, (S.D. Cal. Mar. 25,
2011) (same). See also Buckeye Check Cashing, Inc. v.
Cardegna, 546 U.S. 440, 445 (2006) (“an arbitration
provision is severable from the remainder of the contract”). The validity of the arbitration provision in the
Distributorship Agreements has no bearing on this
motion. Instead, what matters is whether the forumselection clause is enforceable.
Plaintiff’s attempt to sidetrack the Court’s attention
from the enforceability of the forum-selection clause
must be rebuffed. As this Court held in Rowen v.
Soundview Cmmc’ns, Inc. (a case cited in the Opposition), “absent a total foreclosure of remedy in the
transferee forum, courts tether their policy analysis to
the forum selection clause itself, finding the forum
selection clause unreasonable only when it contravenes a policy specifically related to venue.” Rowen v.
Soundview Cmmc’ns, Inc., No. 14-cv-05530-WHO,
2015 U.S. Dist. LEXIS 24986, *10-11 (N.D. Cal. Mar.
2, 2015) (rejecting arguments against enforceability of
forum-selection clause unrelated to venue) (emphasis
added). Further, “even if the foreclosure is likely or
practically certain, courts still refuse to consider policies unrelated to venue [because] the mere ability to
argue the application of California law means no foreclosure of remedy and prevents consideration of policies unrelated to venue.” Id. at *10 n.2 (“The foreclosure of a remedy must be inevitable[.]”). Indeed, there
is no total foreclosure of remedy here, because Plaintiff

242a
may argue that California law applies.1 Id. at *18
(“Plaintiff is free to pursue remedies in federal court

1

Plaintiff’s suggestion that he may be precluded from
pursuing certain claims in Ohio is irrelevant. Plaintiff may argue
that California law applies, and so his concern is of no consequence. Rowen, 2015 U.S. Dist. LEXIS 24986 at *18-19. In addition, Doe 1 v. AOL LLC, cited by Plaintiff for the proposition that
transfer is inappropriate where the transferee court would be
unable to provide class action procedures, is inapposite. Rule 23
would apply in the Northern District of Ohio, just as it applies in
this Court (though it bears noting the Distributorship Agreements contain class action waivers, which have been repeatedly
upheld by the Supreme Court). Cf. Doe 1 v. AOL LLC, 662 F.3d
1077, 1083-85 (9th Cir. 2009) (forum-selection clause requiring
litigation in Virginia state court unenforceable because Virginia
state courts did not permit consumer disputes to be tried as class
actions). See also AT&T Mobility LLC v. Concepcion, 563 U.S.
333, 348 (2011); Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1619
(2018). Finally, Plaintiff’s contention that language in the
Distributorship Agreements purporting to waive private attorney
general claims voids the arbitration provision must be disregarded because it is untethered to the forum-selection clause.
Rowen, 2015 U.S. Dist. LEXIS 24986 at *10-20; SeeComm
Network Servs. Corp., 2004 U.S. Dist. LEXIS 18049 at *12-13. In
any event, Plaintiff’s interpretation of this language is incorrect.
The Distributorship Agreements contemplate that private attorney general claims shall be excluded from arbitration if required
by law. (Swanson Dec. ¶¶ 4-5, Exs. 1 and 3 at § 12.12 (“[I]f the
provision prohibiting classwide or private attorney general
arbitration is deemed invalid, then the provision requiring
arbitration of breaches between the parties shall be null and void
and there shall be no obligation to arbitrate any such breaches.”)
(emphasis added).) Plaintiff’s interpretation of Section 12.12
makes little sense, as it would invalidate the parties’ obligation
to arbitrate individual claims brought in the same lawsuit as
class or private attorney general claims. See Corp. Express Office
Prods., Inc. v. Can Guelpen, No. C 02-04588 WHA, 2002 U.S. Dist.
LEXIS 27642, *6 (N.D. Cal. Dec. 12, 2002) (rejecting interpretation of contract that “would lead to an absurdity”) (“No contract

243a
in New York and is free to argue for application of
California law.”) (internal punctuation omitted).
Plaintiff’s argument concerning the enforceability of
the arbitration provision thus warrants no consideration.
b. It Is Premature To Consider Whether
The Arbitration Provision Is Enforceable Because The Governing Law Has
Not Been Determined.
Plaintiff’s attack on the arbitration provision is also
misguided because it presumes that California law
applies, despite the Distributorship Agreements’ Ohio
choice of law provision. (Swanson Dec. ¶¶ 4-5, Exs. 1
and 3 at § 13.3.) This Court, however, has not issued
any rulings on the validity of the choice of law provision, and it should not now. “[T]he choice-of-law analysis is irrelevant to determining if the enforcement of
a forum selection clause contravenes a strong public
policy.” Rowen, 2015 U.S. Dist. LEXIS 24986 at *1819 (finding “no reason why the [transferee] court will
not or cannot entertain. . . choice of law arguments”).
That is precisely why Plaintiff’s focus on the enforceability of the arbitration provision is ill-conceived—neither the parties nor the Court know which body of law
applies, and that question cannot be resolved in connection with this motion.

provision should be interpreted in a manner that would render
other provisions meaningless.”).

244a
3. Section 20040.5 Violates The Dormant
Commerce Clause Because It Burdens
Out-Of-State Economic Interests And
Benefits In-State Economic Interests.
Plaintiff’s discussion of the Dormant Commerce
Clause misses the point of Defendants’ argument.
Matco has legitimate interests in ensuring uniformity
across its nationwide franchisees’ operations and in
having its franchise agreements governed by the same
body of law. See 1-800-Got-Junk? LLC v. Super. Ct.,
189 Cal. App. 4th 500, 515 (Cal. Ct. App. 2010). Section 20040.5 disrupts these interests by requiring litigation in California instead of the parties’ agreed upon
forum of Ohio. Moreover, Section 20040.5 strips away
the application of federal law to the analysis of the
enforceability of forum-selection clauses. Federal law,
which governs the enforceability of forum-selection
clauses, provides that parties’ relative bargaining
power is irrelevant. Yet Section 20040.5 purports to
override federal law by imposing a state law standard
presupposing that out-of-state forum-selection clauses
are invalid due to purported inequality in bargaining
power. (RJN ¶ 1, Ex. A.) Murphy v. Schneider Nat’l,
Inc., 362 F.3d 1133, 1141 (9th Cir. 2004) (citing Carnival Cruise Lines, Inc. v. Shute, 499 U.S. 585, 595
(1991) (parties’ bargaining power is irrelevant);
Manetti-Farrow, Inc. v. Gucci Am., Inc., 858 F.2d 509,
513 (9th Cir. 1988) (federal law controls interpretation
of forum-selection clauses). Section 20040.5, therefore,
provides California franchisors with a competitive
advantage over out-of-state franchisors, the latter of
which cannot rely on consistent interpretations of
their contracts.
The Ninth Circuit’s opinion in Nationwide Biweekly
Admin, Inc. demonstrates why Section 20040.5 imper-

245a
missibly burdens interstate commerce. There, the
court held that a law restricting the issuance of
licenses to corporations incorporated in California
likely discriminated against out-of-state economic
interests because permitting “states to require local
incorporation as a condition of engaging in interstate
commerce” promoted economic “Balkanization” that
could result in national corporations having “to incorporate in all 50 states in order to do business.” Nationwide Biweekly Admin., Inc. v. Owen, 873 F.3d 716, 737
(9th Cir. 2017). The fact that the law required
California and out-of-state businesses to obtain the
license mattered not—as the court noted, the statute
discriminated against non-California businesses by
requiring them to incorporate in California in order to
receive a license. Id.
Section 20040.5 also fosters impermissible economic
“Balkanization” because only California franchisors
may utilize forum-selection clauses requiring litigation in their home state. See Rhode v. Becerra, 342 F.
Supp. 3d 1010, 1015 (S.D. Cal. 2015) (rejecting argument that California Proposition 63 did not violate the
Dormant Commerce Clause because it applied to instate and out-of-state online retailers) (“What is important is that California’s resident businesses are the
only businesses that may sell directly to ammunition
consumers. Sales of any quantity, by all other sellers,
anywhere else in the country, must be funneled
through a California resident vendor licensed to sell
ammunition.”). As Section 20040.5’s legislative history
confirms, out-of-state forum-selection clauses in franchise agreements “usually” point to “the state of the
franchisor’s headquarters.” (RJN ¶ 1, Ex. A.) In other
words, Section 20040.5 specifically targets out-of-state
businesses and precludes them from achieving uniformity in their franchise operations—the very

246a
essence of a franchise. See 1-800-Got-Junk? LLC, 189
Cal. App. 4th at 515; Cislaw v. Southland Corp., 4 Cal.
App. 4th 1284, 1292 (Cal. Ct. App. 1992) (“[T]he franchisor’s interest in the reputation of its entire system
allows it to exercise certain controls over the enterprise without running the risk of transforming its
independent contractor franchisee into an agent.”); 15
U.S.C. § 1127 (franchisors obligated to maintain control over use of trademarks).
“[I]n all but the narrowest circumstances, state laws
violate the [Dormant] Commerce Clause if they mandate differential treatment of in-state and out-of-state
economic interests that benefits the former and burdens the latter.” Nationwide Biweekly Admin., Inc.,
873 F.3d at 736. This is not one of those narrow circumstances. Because Section 20040.5’s stated purpose
of protecting California franchisees from the costs of
out-of-state litigation can be achieved through nondiscriminatory means (see MPA at 13:1-10), the statute should not apply here.
4. Plaintiff Is Estopped From Contesting
The Forum-Selection Clause.
Plaintiff offers no authority refuting Turner v.
Thorworks Indus., in which the court held that
California franchisees were precluded from avoiding
enforcement of an Ohio forum-selection clause because
their claims “necessarily [relied] upon the Franchise
Agreement and the relationships thereby created.”
Turner v. Thorworks Indus., No. CIV S-05-02653 WBS
KJM, 2006 U.S. Dist. LEXIS 21668, *9-10 (E.D. Cal.
Mar. 28, 2006). Moreover, his proffered distinction of
the instant matter from Turner fails to address the
crux of Defendants’ argument. As explained below,
franchisor-franchisee relationships differ markedly
from typical independent contractor-principal rela-

247a
tionships. (See Section IV.B.2, infra.) Plaintiff’s suggestion that the standards applicable to a garden
variety independent contractor misclassification case
render Turner inapplicable is therefore inapt. As in
Turner, and as confirmed by Plaintiff’s Complaint (see
MPA at 14:5-24), Plaintiff’s claims are derivative of
the Distributorship Agreements and the relationships
they created. Plaintiff is therefore estopped from contesting the forum-selection clause, which is a term of
the very agreements giving rise to his claims.
B. Section 925 Cannot Preclude Enforcement
Of The Forum-Selection Clause.
1. Section 925 Is Preempted By The FAA.
The Court should deem Section 925 preempted for
the same reason that the Ninth Circuit held Section
20040.5 to be preempted in Bradley. See Bell Prods. v.
Hosp. Bldg. & Equip. Co., No. 16-cv-04515-JSC, 2017
U.S. Dist. LEXIS 9183, *12 (N.D. Cal. Jan. 23, 2017)
(FAA preempts Cal. Code Civ. Proc. § 410.42(a)(1),
which voids forum-selection clauses in subcontractor
agreements, pursuant to Bradley). Like Section
20040.5, Section 925 applies to only one type of contract—an employment contract. See Cal. Lab. Code
§ 925. (See also Supplemental Request for Judicial
Notice (“Supp. RJN”) ¶ 1, Ex. A.) Accordingly, because
Section 925 does not apply to “any contract,” it is
preempted. See 9 U.S.C. § 2; Bradley, 275 F.3d at 890,
892; Bell Prods., 2017 U.S. Dist. LEXIS 9183 at *12.
2. Section 925 Does Not Apply To Franchisees.
Section 925 has no application here because the
statute does not apply to franchise agreements. See
Cal. Lab. Code § 925. (See also Supp. RJN ¶ 1, Ex. A
(legislative history of Section 925 confirms the statute

248a
applies only to employment contracts).) There are fundamental differences between an independent contractor misclassification case and a case involving a
franchisee claiming to be an employee of a franchisor
that render Section 925 irrelevant to the instant matter.
In Juarez v. Jani-King of Cal., Inc., this Court
denied certification of California Labor Code claims
filed against a franchisor on behalf of a putative class
of franchisees who operated janitorial services franchises. Juarez v. Jani-King of Cal., Inc., 273 F.R.D.
571, 574, 581-583 (N.D. Cal. 2011). Like Plaintiffs
here, the Juarez plaintiffs alleged that they were misclassified as independent contractors by virtue of the
work they performed as franchisees. Id. at 575. The
Juarez plaintiffs therefore argued that the rebuttable
presumption of employment applicable to independent
contractor misclassification claims should apply to
their case. Id. at 580-583 (citing S.G. Borello & Sons,
Inc. v. Dep’t of Indus. Rels., 48 Cal. 3d (Cal. 1989);
Narayan v. EGL, Inc., 616 F.3d 895 (9th Cir. 2010)).
The Court rejected the Juarez plaintiffs’ argument,
holding that the rebuttable presumption of employment did not apply to franchisees. Id. Central to the
Court’s ruling was the fact that the heavily regulated
franchisor-franchisee business model differs starkly
from a typical independent contractor-principal relationship:
Jani-King responds that many of the abovementioned franchise agreement terms are
policies Jani-King must abide by under
California’s law governing franchises. [. . . ]
Jani-King argues that Plaintiffs’ common
proof shows nothing more than that which
makes the owners franchisees. Jani-King also

249a
argues that Plaintiffs, not Jani-King, should
have the burden of establishing an employeremployee relationship. [. . . ] The Court agrees
with Jani-King. It is true that under
California law, in determining whether a
plaintiff is an employee or an independent
contractor, once a plaintiff comes forward
with evidence that he provided services for an
employer, the employee has established a
prima facie case that the relationship was one
of employer/employee. However, Plaintiffs
cite no authority suggesting that this rebuttable presumption applies to franchisees.
There are substantial public policy reasons
for the [rebuttable presumption of employment in independent contractor misclassification cases]: with the hiring of employees
comes the additional expenses of compliance
with California’s Labor Code, and employers
have a strong motive to avoid these costs
through creatively classifying their workers
as independent contractors. This is why
California does not permit circumvention of
the Labor Code through label or subterfuge.
Franchisors, however, are subject to a considerable amount of regulation that does not
apply to independent contractors or employees. [. . .] Thus the above policy concerns do
not weigh as heavily in the franchise context.
[. . .] For this reason, California courts have
consistently held that a principal-agent relationship only exists when the franchisor
retains complete or substantial control over
the daily activities of the franchisee’s business.

250a
Id. at 581-583 (franchisees must show that the “franchisor exercised ‘control beyond that necessary to protect and maintain its interest in its trademark, trade
name and goodwill’ to establish a prima facie case of
an employer-employee relationship”). The Court thus
spurned the plaintiffs’ attempt to upend the franchise
model through the introduction of a test for employment that ignored the realities of the parties’ franchisor-franchisee relationships. Id. at 583 (“Once it sets
aside the policies required to protect Jani-King’s service mark and good will, the Court finds very little—if
any—common evidence tending to prove an employeremployee relationship between Jani-King and its franchisees.”).2 See also Cislaw, 4 Cal. App. 4th at 1292
(“[T]he franchisor’s interest in the reputation of its
entire system allows it to exercise certain controls over
the enterprise without running the risk of transforming its independent contractor franchisee into an
agent.”).
The California Supreme Court is also cognizant that
“[f]ranchising is different” than other businesses, and
accordingly, it has avoided subverting the franchise
model, which has existed for over 150 years, and,
which “employs millions of people, carries payrolls in
the billions of dollars, and generates trillions of dollars
in total sales.” Patterson v. Domino’s Pizza, LLC, 60
Cal. 4th 474, 489 (Cal. 2014). Of course, franchising is
a “heavily regulated” form of business (Cislaw, 4 Cal.
App. 4th at 1288) with what constitutes a franchise
2

The District Court granted Jani-King’s motion for summary
judgment after the denial of certification. Plaintiffs appealed the
District Court’s order, and the Ninth Circuit remanded Juarez for
further proceedings in light of Dynamex Ops. West, Inc. v. Super.
Ct., 4 Cal. 5th 903 (Cal. 2018). See Juarez v. Jani-King of Cal.,
Inc., No. 12-17759, 728 Fed. App’x 755 (9th Cir. Jun. 26, 2018).

251a
defined on the federal level and in many states, including California. The hallmark is the identification and
association with the franchisor’s trademark. See, e.g.,
16 C.F.R. § 436.1(h)(1) and Cal. Corp. Code
§ 31005(a)(1)-(3). Because federal law requires trademark owners to maintain control over the use of their
trademarks, see 15 U.S.C. § 1127 (2000), franchisors
must necessarily exercise a certain level of control over
the operational standards their franchisees implement in distributing goods or services under those
marks. Patterson, 60 Cal. 4th at 490.
In Patterson, the California Supreme Court rejected
the application of vicarious liability to a franchisor for
the acts of a franchisee’s employees where the franchisor had not “retained or assumed a general right of
control over. . . relevant day-to-day aspects of the
workplace behavior of the franchisee’s employees.” Id.
at 497-498 (“Any other guiding principle would disrupt
the franchise relationship.”). Like the Ninth Circuit in
Juarez, the Patterson court’s decision reflects an
appreciation that the very existence of franchising
depends upon the success of a relationship between
franchisor and franchisee that is incompatible with
the principles of typical agency relationships:
Under the business format model, the franchisee pays royalties and fees for the right to
sell products or services under the franchisor’s name and trademark. In the process, the
franchisee also acquires a business plan,
which the franchisor has crafted for all of its
stores. This business plan requires the franchisee to follow a system of standards and
procedures. A long list of marketing, production, operational, and administrative areas is
typically involved. [. . . ] The business format

252a
arrangement allows the franchisor to raise
capital and grow its business, while shifting
the burden of running local stores to the franchisee. The systemwide standards and controls provide a means of protecting the trademarked brand at great distances. The goal—
which benefits both parties to the contract—
is to build and keep customer trust by ensuring consistency and uniformity in the quality
of goods and services, the dress of franchise
employees, and the design of the stores themselves. [. . . ] The franchisee is often an entrepreneurial individual who is willing to invest
his time and money, and to assume the risk of
loss, in order to own and profit from his own
business. In the typical arrangement, the
franchisee decides who will work as his employees, and controls day-to-day operations in
his store. The franchise arrangement puts the
franchisee in a better position than other
small business owners. It gives him access to
resources he otherwise would not have,
including the uniform operating system itself.
Id. at 489-491 (internal citations omitted).
Section 925 should not be mechanically applied here
simply because Plaintiff alleges employment-related
claims. Plaintiff never entered into an employment
contract with Defendants, and his relationships with
them are governed by the extensive body of law covering franchises. Indeed, Section 20040.5, which became
effective before Section 925, explicitly covers forumselection clauses in franchise agreements (though Section 20040.5 is inapplicable here). See Cal. Bus. &
Prof. Code § 20040.5. It is implausible that the Legislature intended for Section 925 to apply to franchise

253a
agreements given that forum-selection clauses in such
contracts have been governed by Section 20040.5 since
the latter statute’s enactment. See Imperial Merchant
Servs., Inc. v. Hunt, 47 Cal. 4th 381, 390 (Cal. 2009)
(“‘We do not presume that the Legislature performs
idle acts, nor do we construe statutory provisions so as
to render them superfluous.’”) (citing Walters v. Metro.
Educ. Enters., Inc., 519 U.S. 202, 209 (1997) and
Shoemaker v. Myers, 52 Cal. 3d 1, 22 (Cal. 1990)) (holding that a civil remedies provision in Cal. Civ. Code
§ 1719 would be rendered superfluous if read in conjunction with the rest of the Civil Code). Much as the
traditional tests for employment have been deemed
inapplicable to cases involving franchisees, so, too,
should Section 925.
Karl v. Zimmer Biomet Holdings, Inc., cited by
Plaintiff, is inapposite in light of the foregoing. There,
the court held that an independent contractor alleged
a plausible misclassification theory under Dynamex
Ops. W. v. Super. Ct., 4 Cal. 5th 903 (Cal. Ct. App.
2018). Karl v. Zimmer Biomet Holdings, Inc., No. C 1804176 WHA, 2018 U.S. Dist. LEXIS 189997, *8-9 (N.D.
Cal. Nov. 6, 2018). The court thus determined that
Section 925 precluded the forum-selection clause in
the plaintiff’s independent contractor agreement,
which had been modified on or after January 1, 2017.
Id. at *8-12. Karl, however, did not involve a franchisee claiming to be the employee of a franchisor, and,
as explained above, the typical independent contractor
misclassification tests do not provide the appropriate
vehicle for determining whether Plaintiff should have
been treated as an employee.3 The case therefore pro3

The Ninth Circuit is considering the applicability of
Dynamex to franchisees in Vazquez v. Jan-Pro Franchising Int’l
Inc., Case No. 0:17-cv-16096. Regardless, Ohio law may govern

254a
vides no support for the application of Section 925
here.
3. The Dormant Commerce Clause Precludes
Section 925.
Section 925 violates the Dormant Commerce
Clause.4 The legislative history of Section 925 reveals
a blatant discriminatory purpose:
[G]iven that employees may not have the freedom to select their employer with particularity, let alone negotiate the terms of their
employment contracts, employers largely
have the upper hand when requiring an
employee to agree to choice of law, choice of
venue, and choice of forum provisions. [. . . ]
As such, choice of law and choice of forum
agreements contained in . . . employment contracts, to a great degree, are arguably not procured “freely and voluntarily.” [. . . ] Thus, as
a matter of public policy, this bill appears to
level the playing field between. . . employers
and employees in many otherwise nonnegotiable contracts in a reasonable fashion.
Furthermore, as noted by the California
Employment Lawyers Association, in support
of the bill, this bill also levels the playing field
between California and non-California businesses and employers[.]
(Supp. RJN ¶ 2, Ex. B (emphasis added).) See Int’l
Franchise Ass’n v. City of Seattle, 803 F.3d 389, 401
this dispute, and it would be premature to conclude that
Dynamex, or any other test under California law, applies here.
4

See MPA at 7:7-17 (discussing standards for determining
Dormant Commerce Clause violation).

255a
(9th Cir. 2015) (“[S]tatutes struck down for their
impermissible purpose have contained language. . .
seeking to level the playing field.”); Nationwide
Biweekly Admin., Inc., 873 F.3d at 736 (“[I]n all but
the narrowest circumstances, state laws violate the
[Dormant] Commerce Clause if they mandate differential treatment of in-state and out-of-state economic
interests that benefits the former and burdens the latter.”). The Legislature clearly intended to favor
California businesses over out-of-state businesses
insofar as Section 925 aims to minimize a perceived
competitive advantage separating the two. Moreover,
Section 925 disturbs out-of-state employers’ employee
relations, because there is no assurance that the same
laws, court rules and regulations will apply to their
employment contracts given that it thwarts federal
law holding that inequality in bargaining power is
irrelevant to the validity of forum-selection clauses.
Murphy, 362 F.3d at 1141. Finally, the Legislature’s
ostensible purpose of protecting California residents
could be served by non-discriminatory means, such as
requiring California and non-California employers to
pay costs unique to out-of-state litigation. (See MPA at
13:1-10.) In light of the foregoing, the Dormant Commerce Clause precludes Section 925.5

5

In addition, Plaintiff’s Section 925 argument fails because he
is estopped from contesting the validity of the forum-selection
clause. (See MPA at 13:11-14:24 (discussing Turner).)

256a
4. Section 925 Does Not Apply To Plaintiff
Because His Distributorship Agreements
Were Not Entered Into, Modified Or
Extended After December 31, 2016.
Even if Section 925 could apply here, it would not in
light of the undisputed facts. Section 925 only applies
to employment contracts “entered into, modified, or
extended on or after January 1, 2017.” Cal. Lab. Code
§ 925(f). Plaintiff, however, terminated one of his Distributorship Agreements in September 2015, and, his
other Distributorship Agreement (entered into in July
2012) was not modified or extended after December 31,
2016. (Swanson Dec. ¶¶ 4-5, Exs. 1-3.)
The self-renewing Software License, Maintenance
and Support Agreement (“Software Agreement”) that
Plaintiff contends he “entered into” on or after
January 1, 2017, and which purportedly “modified and
extended” his Distributorship Agreement, does not
salvage his argument. The Distributorship Agreement
that remained effective after December 31, 2016 had a
term of 10 years. (Swanson Dec. ¶ 4, Ex. 1 at § 2.1.) It
was not “renewed” by virtue of the Software Agreement’s annual automatic renewal. (See Dkt. No. 21-1
(“Fleming Dec.”) Ex. 1 at p. 35, ¶ 3.) Such an interpretation of Plaintiff’s agreements would render the 10
year term set forth in the Distributorship Agreement
meaningless. See Corp. Express Office Prods., Inc.,
2002 U.S. Dist. LEXIS 27642 at *6 (“No contract provision should be interpreted in a manner that would
render other provisions meaningless.”). Indeed, as the
Software Agreement’s terms make clear, it is a standalone contract that existed separate and apart from
the Distributorship Agreement. (Fleming Dec. Ex. 1 at
p. 38, ¶ 11 (“This Agreement sets forth the entire
understanding of the parties and supersedes any and

257a
all prior agreements, arrangements and understandings relating to the subject matter hereof . . . .”).) Moreover, Plaintiff’s admission that he renewed the Software Agreement he signed in approximately July 2012
by paying annual fees—as opposed to executing a new
document that was appended to his Distributorship
Agreement—confirms that the Distributorship Agreement was not “entered into, modified or extended” on
or after December 31, 2016. Cal. Lab. Code § 925(f).
(See also Fleming Dec. ¶¶ 4-12.) Karl, therefore, does
not support Plaintiff’s argument because the agreement in question there was modified by virtue of a
written amendment in 2018, and there was no such
written amendment here. See Karl, 2018 U.S. Dist.
LEXIS 189997 at *9-12. The Software Agreement thus
lends nothing to Plaintiff’s Opposition.
C. Plaintiff Has No Evidence Of Fraud Or
Overreaching, And His Concern Regarding
The Expense Of Out-Of-State Litigation Is
Irrelevant.
Plaintiff demoted his arguments that the forumselection clause resulted from overreaching, and, that
he will be deprived of his day in court, to a footnote
that fails to explain the merit of either position.
The sole evidence supporting Plaintiff’s contention
that he will be deprived of his day in court consists of
the following statement in his declaration: “The costs
associated with litigating a case in Ohio would be personally overwhelming—with respect to the costs connected with litigation, and with respects to the costs of
travel and lodging.” (Fleming Dec. ¶ 13.) The expense
of out of state litigation, however, is irrelevant and
cannot be considered. Rowen, 2015 U.S. Dist. LEXIS
24986 at *21-22 (holding that the “lower expenses of
litigating in California. . . are irrelevant under Atl.

258a
Marine Constr. Co.). See also Balducci v. Congo Ltd.,
No. 17-cv-04062-KAW, 2017 U.S. Dist. LEXIS 154523,
*11-12 (N.D. Cal. Sept. 21, 2017) (assertion of
increased expense and inconvenience was “inadequate
to show that litigating this case in Colorado would
effectively deprive [plaintiff] of his day in court”).
Plaintiff’s claim of overreaching is supported only by
the argument of counsel and it thus fails. Goldman v.
U.S. Transp. & Logistics, LLC, No. 17-cv-00691-BASNLS, 2017 U.S. Dist. LEXIS 210423, *7-10 (S.D. Cal.
Dec. 20, 2017) (rejecting counsel’s argument where
plaintiff failed to produce evidence of fraud or overreaching) (quoting Spradlin v. Lear Siegler Mgmt.
Servs. Co., 926 F.2d 865, 869 (9th Cir. 1991) (“Argument by counsel serves only to elucidate the legal principles and their application to the facts at hand; it cannot create the factual predicate.”)).
Plaintiff thus has failed to carry his burden of
showing that the forum-selection clause is unenforceable. See Brady Mktg. Co. v. KAI USA, Ltd., No. 16-cv02854-RS, 2016 U.S. Dist. LEXIS 115877, *4-5 (N.D.
Cal. Aug. 29, 2016) (plaintiff has burden of showing
that forum-selection clause was the product of fraud or
overreaching, that he would be deprived of his day in
court, or that the clause contravenes a strong public
policy) (citing Atl. Marine Constr. Co.).
D. Plaintiff Has Not Identified Any Public
Interest Factors Constituting Exceptional
Circumstances That Would Justify Invalidating The Forum-Selection Clause.
Public interest factors “rarely defeat” the application of a valid, mandatory forum-selection clause.
Monastiero v. appMobi, Inc., No. C 13-05711 SI, 2014

259a
U.S. Dist. LEXIS 67202, *13-14 (N.D. Cal. May 15,
2014). They certainly do not here.
Court Congestion: Plaintiff highlights that cases
filed in this Court have a median time to disposition
that is 3.3 months shorter than cases filed in the
Northern District of Ohio. Fair enough. He disregards,
however, that the June 2018 report he cites states that
the median time from filing to trial is more than eight
months longer in this Court than in the Northern District of Ohio. (Supp. RJN ¶ 3, Ex. C (21.4 months in
N.D. Ohio, 29.7 months in N.D. Cal.).) Regardless of
how the numbers are sliced and diced, they do not provide a basis for overriding the valid forum-selection
clause. Atl. Marine Constr. Co. v. Dist. Ct., 134 S. Ct.
568, 581 (“a valid forum-selection clause [should be]
given controlling weight in all but the most exceptional cases”) (internal citation and punctuation omitted).
Local Interest In The Case: Plaintiff’s myopic focus
on his interests disregards that Ohio has an equivalent local interest. Rowen, 2015 U.S. Dist. LEXIS
24986 at *22 (“[T]here are interests other than
Rowen’s at play, including those of Soundview, a
Georgia corporation that negotiated the contracts with
Georgia venue and choice of law provisions, and Lotus,
the Nevada limited liability company. The effects of
this litigation, while undoubtedly affecting Rowen as
a resident of California, also have effects in Georgia
and Nevada.”). Plaintiff’s “interest in having this dispute settled in California does not make this an
‘exceptional case’ that defeats application of a valid
forum selection clause.” Id. at *22-23.
Interest In Having Trial In A Forum That Is At
Home With The Law: Plaintiff conflates familiarity
with the applicable law, and, the question of which

260a
State’s law applies, insofar as he posits that his claims
lack counterparts under Ohio law. The relevant
inquiry, however, is not whether California or Ohio
law applies, but instead, the transferor and transferee
courts’ familiarity with the governing law. Glob.
Quality Foods, Inc. v. Van Hoekelen Greenhouses, No.
16-cv-00920-LB, 2016 U.S. Dist. LEXIS 107121, *2627 (N.D. Cal. Aug. 12, 2016); Rowen, 2015 U.S. Dist.
LEXIS 24986 at *10-20. Because the governing law
remains an open question (see Section II.A.2, supra),
this factor is necessarily neutral. “[F]ederal judges
routinely apply the law of a State other than the State
in which they sit,” and so the Northern Districts of
California and Ohio are equally able to apply the laws
of other states. Rowen, 2015 U.S. Dist. LEXIS 24986
at *21 (quoting Atl. Marine Constr. Co.).
E. Plaintiff’s Discussion Of Private Interest
Factors Is Irrelevant.
The Court must disregard Plaintiff’s discussion of
private interest factors relating to the enforcement of
the forum-selection clause. Balducci, 2017 U.S. Dist.
LEXIS 154523 at *20 (courts “should not consider the
parties’ private interests because such considerations
were waived by agreement to the forum selection
clause”). The forum-selection clause is mandatory and
valid.6 Private interest factors, therefore, are irrelevant. Rowen, 2015 U.S. Dist. LEXIS 24986 at *20 (“a
district court may consider arguments about publicinterest factors only”) (quoting Atl. Marine Constr.
Co.).

6

See MPA at 15 n.8 (explaining that the forum-selection
clause is mandatory).

261a
F. Plaintiff’s Claims Are Covered By The
Forum-Selection Clause.
The Distributorship Agreements could not be more
clear that, with limited exceptions, all claims of any
nature are covered by the arbitration provision containing the Ohio forum-selection clause:
12.5 Disputes not Subject to Arbitration.
The following disputes and controversies
between the Distributor and Matco will not be
subject to Arbitration: any dispute or controversy involving the Marks or which arises
under or as a result of Article 7 of this Agreement, any dispute or controversy involving
immediate termination of this Agreement by
Matco pursuant to Section 11.5 of this Agreement, and any dispute or controversy involving enforcement of the covenants not to compete contained in this Agreement.
(Swanson Dec. ¶¶ 4-5, Exs. 1 and 3 at § 12.5.)
The “Marks” referenced in Section 12.5 of the Distributorship Agreements are “certain trade names,
service marks, trademarks, logos and emblems, including, the trademarks and service marks “Matco®” and
MATCO® TOOLS (the ‘Marks’).” (Id. Exs. 1 and 3 at
p. 1 (Recitals).)
Plainly, the Distributor Agreements contemplate
the exclusion of litigation concerning certain of
Matco’s intellectual property from the arbitration provision. (Id. Exs. 1 and 3 at § 12.5; see also id. Exs. 1
and 3 at § 12.4 (“the arbitrator will not have the right
or authority to declare any Mark generic or otherwise
invalid”).)
Plaintiff urges the Court to adopt a tortured interpretation of Section 12.5. His claims have nothing to

262a
do with his use of the Marks, nor their validity, yet he
claims that Section 12.5 excludes each cause of action
alleged from the arbitration provision. Taken to its
logical conclusion, Plaintiff’s position would render
Section 12.5 meaningless because every conceivable
claim brought by a franchisee or Defendants would be
exempt from arbitration—yet the very point of a franchise relationship is that a franchisee is permitted to
use the franchisor’s trademarks. (See Section II.B.2,
supra.) Plaintiff’s absurd interpretation of Section
12.5 must be dismissed, for it is clear that his employment-related claims are covered by the forumselection clause. Corp. Express Office Prods., Inc., 2002
U.S. Dist. LEXIS 27642 at *6 (rejecting proposed
interpretation of contract that “would lead to an
absurdity”); see also Harris v. Gulf Ins. Co., 297 F.
Supp. 2d 1220, 1226 (N.D. Cal. 2003) (“The Court cannot adopt an interpretation that would lead to such
absurd results.”).

263a
III. CONCLUSION
For all the foregoing reasons, and those stated
in Defendants’ opening memorandum, Defendants
request that the Court dismiss this matter, or, transfer it to the Northern District of Ohio, pursuant to the
forum non conveniens doctrine.
DATED: March 12, 2019
Respectfully submitted,
SEYFARTH SHAW LLP
By: /s/ Eric M. Lloyd
Christian J. Rowley
Matthew A. Goodin
Eric M. Lloyd
Attorneys for Defendants
Matco Tools Corporation,
NMTC, Inc. and Fortive
Corporation

264a
APPENDIX M
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. ____
————
IN RE MATCO TOOLS CORPORATION, NMTC, INC.
AND FORTIVE CORPORATION,
v.

Petitioners,

U.S. DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA,
Respondent;
JOHN FLEMING
Real Party in Interest.
————
On Review from the United States District Court
for the Northern District of California
Civil Action No. 3:19-cv-004663-WHO
————
PETITION FOR WRIT OF MANDAMUS
STAY REQUESTED
————

265a
SEYFARTH SHAW LLP
Christian J. Rowley (SBN 187293)
crowley@seyfarth.com
Eric Lloyd (SBN 254390)
elloyd@seyfarth.com
Matthew A. Goodin (SBN 169674)
mgoodin@seyfarth.com
560 Mission Street, 31st Floor
San Francisco, California 94105
Telephone: (415) 397-2823
Facsimile: (415) 397-8549
Counsel for Petitioners Matco Tools Corporation,
NMTC, Inc. d/b/a Matco Tools and
Fortive Corporation

266a
CORPORATE DISCLOSURE STATEMENT
The undersigned counsel certifies that: Prior to June
3, 2016, MATCO TOOLS CORPORATION was known
as NMTC, INC. d/b/a/ MATCO TOOLS. Further,
MATCO TOOLS CORPORATION is a wholly-owned
subsidiary of FORTIVE CORPORATION. FORTIVE
CORPORATION is a publicly-held corporation and no
publicly-held corporation owns 10 percent or more of
its stock.
/s/ Eric M. Loyd
Eric M. Lloyd
Attorney for Petitioners
Dated: May 31, 2019

267a
TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT .............. I
INTRODUCTION AND RELIEF SOUGHT ............... 1
ISSUE PRESENTED .................................................. 5
RELEVANT FACTS .................................................... 5
A. Fleming Entered Into Two Franchise
Agreements Containing An Ohio ForumSelection Clause ................................................ 5
B. Citing The Forum Selection Clause,
Petitioners Moved To Dismiss Or
Transfer Fleming’s Lawsuit ............................. 7
C. Fleming’s Opposition Implored The
Court To Ignore The Forum-Selection
Clause And To Instead Focus On The
Validity Of The Arbitration Provision ............. 9
D. Petitioners’ Reply Explained That The
Validity Of The Forum-Selection Clause,
And Not The Arbitration Provision, Was
At Issue .......................................................... 11
E. The District Court Denied Petitioners’
Motion Because It Found The Arbitration
Provision Was Void Not Because It Found
The Forum-Selection Clause Unenforceable ...... 12
LEGAL STANDARDS ............................................... 14
A. This Petition Meets The Criteria For
Mandamus Relief ........................................... 14
B. Courts Adjudicating Forum Non Conveniens Motions Premised On Forum-Selection Clauses Must Give The Parties’ Choice
Of Forum “Controlling Weight In All But
The Most Exceptional Circumstances.” ......... 15

268a
REASONS WHY A WRIT SHOULD ISSUE ............ 16
A. The District Court’s Order Contains A
Clear Error Of Law ......................................... 16
1. The District Court Disregarded The
Precedent Of The Supreme Court And
This Court By Failing To Analyze The
Enforceability
Of
The
ForumSelection Clause ........................................ 17
2. The District Court Evinced Clear
Hostility To Arbitration By Failing To
Apply The Correct Test To Determine
The Validity Of The Forum-Selection
Clause ........................................................ 22
B. Mandamus Is Warranted Because
Petitioners Have Been Deprived Of Their
Rights Under The FAA ................................... 24
C. This Petition Raises An Important Issue
Of First Impression That Will Arise
Repeatedly Given The Spike In
Arbitration Agreements.................................. 28
CONCLUSION .......................................................... 29
CERTIFICATE OF FILING AND SERVICE ........... 31
CERTIFICATE OF COMPLIANCE WITH
TYPE-VOLUME LIMITATION, TYPEFACE
REQUIREMENTS, AND TYPE STYLE
REQUIREMENTS ..................................................... 32
STATEMENT OF RELATED CASES ...................... 33

269a
TABLE OF AUTHORITIES
Federal Cases

Page(s)

In re Apple, Inc.,
581 Fed. App’x 886 (Fed. Cir.
Sept. 11, 2014)................................................. 25
Argueta v. Banco Mexicano, S.A.,
87 F.3d 320 (9th Cir. 1996) ............................. 15
ASPIC Eng’g & Constr. Co. v.
ECC Centcom Constructors LLC,
913 F.3d 1162 (9th Cir. 2019) ......................... 28
AT&T Mobility LLC v. Concepcion,
131 S. Ct. 1740 (2011) ................... 22, 24, 26, 27
Atl. Marine Constr. Co. v. Dist. Ct.,
134 S. Ct. 568 (2013) ................................passim
Autoridad de Energia ElEctrica v. Vitol S.A.,
859 F.3d 140 (1st Cir. 2017) ..................... 17, 29
Bauman v. Dist. Ct.,
557 F.2d 650 (9th Cir. 1977) ........................... 14
Bradley v. Harris Research Inc.,
275 F.3d 884 (9th Cir. 2001) ......................... 2, 8
The Bremen v. Zapata Off-Shore Co.,
407 U.S. 1 (1972) ....................................... 16, 17
Christensen v. Dist. Ct.,
844 F.2d 694 (9th Cir. 1988) ........................... 14
Corp. Express Office Prods., Inc. v. Can Guelpen,
No. C 02-04588 WHA, 2002 U.S. Dist.
LEXIS 27642 (N.D. Cal. Dec. 12, 2002) ......... 20
Cream v. N. Leasing Sys., Inc.,
No. 15-cv-1208, 2015 U.S. Dist. LEXIS
100537 (N.D. Cal. Jul. 31, 2015) .............. 11, 18

270a
Dean Witter Reynolds Inc. v. Byrd,
470 U.S. 213 (1985) ......................................... 22
DeGeorge v. Dist. Ct.,
219 F.3d 930 (9th Cir. 2000) ........................... 14
DIRECTV, Inc. v. Imburgia,
136 S. Ct. 463 (2015) ....................................... 22
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018) ......................... 21, 22, 24
Fountain v. Oasis Legal Fin., LLC,
86 F. Supp. 3d 1037 (D. Minn. 2015) ............. 18
Goldman v. US. Transp. & Logistics, LLC,
No. 17-cv-00691-BAS-NLS, 2017 U.S. Dist.
LEXIS 210423 (S.D. Cal. Dec. 20, 2017) ........ 17
Hegwer v. Am. Hearing & Assocs.,
No. C 11-04942 SBA, 2012 U.S. Dist.
LEXIS 24313 (N.D. Cal. Feb. 27, 2012) ......... 18
Henry Schein, Inc. v. Archer and White Sales, Inc.,
139 S. Ct. 524 (2019) ................................. 22, 27
Henson v. Dist. Ct.,
869 F.3d 1052 (9th Cir. 2017) ......................... 24
In re Howmedica Osteonics Corp.,
867 F.3d 390 (3d Cir. 2017), cert. denied
sub nom. Nordyke v. Howmedica
Osteonics Corp., 138 S. Ct. 1288 (2018) ......... 25
Kasey v. Molybdenum Corp. of Am.,
408 F.2d 16 (9th Cir. 1969) ............................. 28
Kindred Nursing Ctrs. Ltd. P’ship v. Clark,
137 S. Ct. 1421 ................................... 22, 23, 24
Knopick v. UBS AG,
137 F. Supp. 3d 728 (M.D. Pa. 2015) ............. 18
Lizdale v. Advanced Planning Servs., Inc.,
No. 10-cv-0834, 2011 U.S. Dist. LEXIS
31277 (S.D. Cal. Mar. 25, 2011) ............... 11, 18

271a
In re Lloyd’s Register N. Am., Inc.,
780 F.3d 283 (5th Cir. 2015) ........................... 25
Manetti-Farrow, Inc. v. Gucci Am., Inc.,
858 F.2d 509 (9th Cir. 1988) ........................... 15
McGovern v. U.S.,
No. 18-CV-1794-CAB-LL, 2019 U.S.
Dist. LEXIS 12595 .......................................... 21
Murphy v. Schneider Nat’l, Inc.,
362 F.3d 1133 (9th Cir. 2004) ................... 16, 23
Muzumdar v. Wellness Intl Network, Ltd.,
438 F.3d 759 (7th Cir. 2006) ............... 17, 19, 29
In re Orange, SA,
818 F.3d 956 (9th Cir. 2016) ........................... 25
Pacific Car & Foundry Co. v. Pence,
403 F.2d 949 (9th Cir. 1968) ........................... 25
Rent-A-Center, W., Inc. v. Jackson,
561 U.S. 63 (2010) ........................................... 22
Richards v. Lloyd’s of London,
135 F.3d 1289 (9th Cir. 1998) ......................... 16
In re Rolls Royce Corp.,
775 F.3d 671 (5th Cir. 2014) ........................... 25
Rucker v. Oasis Legal Fin.,
632 F.3d 1231 (11th Cir. 2011) ................. 17, 29
Sakkab v. Luxottica Retail N. Am., Inc.,
803 F.3d 425 (9th Cir. 2015) ............... 10, 13, 21
See Comm Network Servs. Corp. v.
Colt Telecomm.,
No. C 04-1283, 2004 U.S. Dist. LEXIS
18049 (N.D. Cal. Sept. 3, 2004) ................ 11, 18
Simula, Inc. v. Autoliv, Inc.,
175 F.3d 716 (9th Cir. 1999) ........................... 25

272a
Stachurski v. DirecTV, Inc.,
642 F. Supp. 2d 758 (N.D. Ohio 2009) ........... 21
Textile Unlimited v. A..BMH and Co.,
240 F.3d 781 (9th Cir. 2001) ....................... 8, 27
Van Cauwenberghe v. Biard,
486 U.S. 517 (1988) ......................................... 24
In re Van Dusen,
654 F.3d 838 ........................................ 14, 25, 26
Washington v. Cashforiphones.com,
No. 15-cv-0627-JAH (JMA), 2016 U.S. Dist.
LEXIS 192253 (S.D. Cal. Jun. 1, 2016) .... 11, 18
State Cases
Iskanian v. CLS Transp. Los Angeles, LLC,
59 Cal. 4th 348 (Cal. 2014) ............................. 13
Love v. Crestmont Cadillac,
90 N.E.3d 123 (Ohio Ct. App. 2017) ............... 21
Federal Statutes
9 U.S.C. § 4 ............................................... 3, 26, 27
9 U.S.C. § 16(a)(1)(B)................................ 3, 26, 27
National Labor Relations Act ............................ 22
State Statutes
Cal. Bus. & Prof. Code § 20040.5 ................passim
Cal. Lab. Code § 925 ............................................. 9
Cal. Lab. Code § 925(f) ......................................... 9

273a
INTRODUCTION AND RELIEF SOUGHT
Real Party In Interest John Fleming (“Fleming”)
entered into two franchise agreements (“distributorship
agreements”) with an arbitration provision containing
an Ohio forum-selection clause. Despite the forumselection clause, Fleming filed suit against Petitioners
Matco Tools Corporation, NMTC, Inc. and Fortive
Corporation (“Petitioners”) in the U.S. District Court
for the Northern District of California in January
2019. Petitioners then promptly moved to dismiss or
transfer this matter pursuant to the doctrine of forum
non conveniens. The District Court, however, denied
Petitioners’ motion. And while the denial of aforum
non conveniens motion is not, in and of itself, remarkable, the circumstances of this case are, and mandamus
review is therefore warranted.
Binding Supreme Court precedent requires that a
plaintiff resisting enforcement of a forum-selection
clause has the burden of proving that the clause itself
is invalid. Numerous courts, including the First, Seventh
and Eleventh Circuits, and numerous district courts in
the Ninth Circuit, have held that a plaintiff cannot
carry this burden by arguing that the contract containing the forum-selection clause is invalid. And where
(as here) a mandatory forum-selection clause has not
been proven invalid, it must be enforced, except in the
rare circumstance in which certain enumerated public
interest factors heavily disfavor transfer or dismissal.
The District Court disregarded this black letter law.
The Order denying Petitioners’ forum non conveniens
motion sidesteps altogether Fleming’s burden to prove
that the Ohio forum-selection clause was invalid.
Instead, the District Court created a new test out of
whole cloth solely because the forum-selection clause
is set forth in an arbitration provision. Thus, rather

274a
than determining whether Fleming had proven the
forum-selection clause was unenforceable, it instead
ruled that conventional enforceability analysis would
be irrelevant if, as it determined, the underlying
arbitration provision was invalid.
This clear departure from the proper procedural
inquiry had a ripple effect that resulted in the
erroneous denial of Petitioners’ motion. Based on its
improperly reached invalidity ruling, the District
Court concluded that the FAA did not preempt the
application of a California statute which purports to
invalidate out-of-state forum-selection clauses in franchise agreements one which this Court has already
deemed preempted.1 The District Court then held
that the private interest factors relating to the forumselection clause—factors which are irrelevant to
enforcement of a valid, mandatory forum-selection
clause—and public interest factors compelled denial of
Petitioners’ motion.
The District Court’s erroneous ruling is premised on
an impermissible hostility to arbitration. The Order
makes painstakingly clear that the District Court
scrapped the analysis required by the Supreme Court
solely because the forum-selection clause is contained
within an arbitration provision. The District Court therefore disregarded the Supreme Court’s long-standing
edict that arbitration agreements must be placed on
“equal footing” with other types of contracts.
The impact of the District Court’s error is devastating to Petitioners because they have effectively been
stripped of their rights under the FAA. The FAA
provides a party to an arbitration agreement the right
1

See Bradley v. Harris Research Inc., 275 F.3d 884, 886 , 890
(9th Cir. 2001) (FAA preempts Cal. Bus. & Prof. Code § 20040.5).

275a
to move for an order directing that “arbitration
proceed in the manner provided for” in the agreement.
9 U.S.C. § 4. Moreover, if such motion is denied, the
party may seek an immediate appeal. Id. § 16(a)(1)(B).
Petitioners, however, cannot exercise these fundamental rights unless this case is dismissed or transferred
to Ohio, the contractually-designated forum. That is
because the Northern District of California cannot
order arbitration outside its jurisdiction, which precluded Petitioners from seeking in this proceeding an
order directing arbitration as provided for in Fleming’s
distributorship agreements. In addition, even though
the District Court’s Order effectively forecloses arbitration under the distributorship agreements, Petitioners
lack appellate recourse because denial of a forum non
conveniens motion is not immediately appealable. The
District Court’s Order therefore interferes with arbitration by denying to Petitioners safeguards afforded
them by the FAA and Supreme Court precedent
favoring arbitration.
Courts are certain to face the same issue presented
in this Petition. This Court has not addressed whether
forum non conveniens motions concerning forumselection clauses in arbitration agreements should be
subjected to a different analysis than motions concerning forum selection clauses contained in other types of
contracts. The swift rise in the use of arbitration agreements in recent years ensures that other plaintiffs
will seek to exploit the arbitration loophole created by
the District Court’s Order. This Court would provide
needed clarity by resolving the issue presented here
now, on a record that squarely presents it.
Petitioners respectfully petition this Court to issue
a writ of mandamus vacating the District Court’s
Order denying their forum non conveniens motion,

276a
and, directing the District Court to either: (1) transfer
this case to the United States District Court for the
Northern District of Ohio as provided in the forumselection clause at issue; or (2) dismiss the case. In
addition, Petitioners request that the Court stay the
proceedings in the District Court, as contemplated by
the Circuit Advisory Committee Note to Circuit Rules
21-1 to 21-4.
ISSUE PRESENTED
1. Did the District Court err in holding that in order
to rule on the enforceability of a forum-selection clause
set forth in an arbitration provision, it first had to
determine the validity of the arbitration provision?
RELEVANT FACTS
A. Fleming Entered Into Two Franchise Agreements Containing An Ohio Forum-Selection
Clause.
1. Matco Tools Corporation (“Matco”), which is
headquartered in Stow, Ohio, markets high quality,
durable and innovative mechanic repair tools,
diagnostic equipment and toolboxes. (Petitioners’
Appendix (“PA”) 000027 at ¶ 3.) Matco contracts with
franchisees who sell Matco’s products in designated
areas through their “mobile stores.” (Id.) Prior to June
3, 2016, Matco was known as NMTC Inc. (“NMTC”).
(Id.) Defendant Fortive Corporation is the corporate
parent of Matco. (Id.)
2. Fleming
entered
into
two
separate
distributorship agreements with NMTC in July 2012
and October 2013, respectively. (PA 000027 at ¶¶ 4-5,
PA 000029-52, PA 000086-111.) Starting in July 2012,
Fleming operated at least one Matco distributorship in
the Monterey, California area, until December 2018.

277a
(PA 000027-28 at ¶¶ 4-5, 7.) All of Fleming’s customers
and potential customers were based in California. (PA
000028 at ¶ 7.) In connection with the operation of his
distributorships, Fleming purchased tools from NMTC
(and its successor entity, Matco) which he then sold to
his customers. (Id.)
3. Pursuant to his distributorship agreements,
Fleming agreed to arbitrate any and all claims against
Petitioners. Fleming’s distributorship agreements state,
in relevant part:
12.1 Arbitration. Except as expressly provided in Section 12.5 of this Agreement, all
breaches, claims, causes of action, demands,
disputes and controversies (collectively referred
to as “breaches” or “breach”) between the
Distributor, including his/her Spouse, immediate family members, heirs, executors,
successors, assigns, shareholders, partners or
guarantors, and Matco, including its employees, agents, officers or directors and its parent,
subsidiary or affiliated companies, whether
styled as an individual claim, class action
claim, private attorney general claim or
otherwise, arising from or related to this
Agreement, the offer or sale of the franchise
and distribution rights contained in this
Agreement, the relationship of Matco and
Distributor, or Distributor’s operation of the
Distributorship including any allegations of
fraud, misrepresentation, and violation of any
federal, state or local law or regulation, will
be determined exclusively by binding arbitration on an individual, non-class basis only in
accordance with the Rules and Regulations of

the American
(“Arbitration”).

278a
Arbitration

Association

(PA 000046-47, 000105-106.)
4. In addition, Fleming agreed to arbitrate any and
all disputes against Petitioners in the State of Ohio:
12.10 Venue and Jurisdiction. Unless this
requirement is prohibited by law, all arbitration hearings must and will take place
exclusively in Summit or Cuyahoga County,
Ohio. All court actions, mediations or other
hearings or proceedings initiated by either
party against the other party must and will
be venued exclusively in Summit or Cuyahoga
County, Ohio. Matco (including its employees,
agents, officers or directors and its parent,
subsidiary or affiliated companies) and the
Distributor (including where applicable the
Distributor’s Spouse, immediate family members, owners, heirs, executors, successors,
assigns, shareholders, partners, and guarantors) do hereby agree and submit to personal
jurisdiction in Summit or Cuyahoga County,
Ohio in connection with any Arbitration hearings, court hearings or other hearings, including
any lawsuit challenging the arbitration provisions of this Agreement or the decision of the
arbitrator, and do hereby waive any rights to
contest venue and jurisdiction in Summit or
Cuyahoga County, Ohio and any claims that
venue and jurisdiction are invalid. In the
event the law of the jurisdictions in which
Distributor operates the Distributorship require
that arbitration proceedings be conducted in
that state, the Arbitration hearings under
this Agreement shall be conducted in the

279a
state in which the principal office of the
Distributorship is located, and in the city
closest to the Distributorship in which the
American Arbitration Association has an
office. Notwithstanding this Article, any
actions brought by either party to enforce the
decision of the arbitrator may be venued in
any court of competent jurisdiction.
(PA 000049, 000108.)
5. Fleming terminated his October 2013 distributorship agreement in September 2015 and his July
2012 distributorship agreement in December 2018.
(PA 000027 at ¶¶ 4-5.) Thereafter, in January 2019,
Fleming filed a putative class action lawsuit alleging
that Petitioners misclassified him as an “independent
contractor.” (PA 000240-269.)
B. Citing The Forum Selection Clause, Petitioners
Moved To Dismiss Or Transfer Fleming’s
Lawsuit.
6. Petitioners promptly moved to enforce the Ohio
forum-selection clause in Fleming’s distributorship
agreements by filing a motion to dismiss, or, to transfer, pursuant to the doctrine of forum non conveniens
on February 19, 2019.2 (PA 000001-24.) Citing the U.S.
Supreme Court’s decision in Atl. Marine Constr. Co. v.
Dist. Ct., 134 S. Ct. 568 (2013), Petitioners explained
that Fleming could not carry his burden to show that
the mandatory forum-selection clause was invalid, for
2

Petitioners did not also file an petition to compel arbitration
because the District Court could not order the parties to arbitrate
in Ohio. (PA 000022 at T B.3.d (citing Textile Unlimited, Inc. v.
A..BMH and Co., Inc., 240 F.3d 781, 785 (9th Cir. 2001) (FAA
confines arbitration to the district in which petition to compel is
filed)).)

280a
the following reasons: first, Fleming did not allege,
and could not prove, that the inclusion of the forumselection clause in his distributorship agreements
resulted from fraud or overreaching (PA 000015-16 at
¶ B.1.); second, Fleming would receive his day in court
if the forum-selection clause were enforced (PA 000016
at ¶ B.1); and third, enforcement of the forum-selection clause would not contravene a strong public policy
of California because the FAA preempts California
Business and Professions Code section 20040.5, which
purports to void non-California forum-selection clauses
in franchise agreements (PA 000017-18 at ¶ B.3.a
(citing Bradley, 275 F.3d at 892)).
7. Accordingly, because the forum-selection clause
was valid, Petitioners argued that, pursuant to Atl.
Marine, Fleming’s choice of forum was to be afforded
no weight, and the District Court was obligated to consider only public interest factors in deciding whether
to enforce the forum-selection clause. (PA 000022-24.)
Given that the public interest factors—administrative
difficulties resulting from court congestion; the local
interest in the matter; and familiarity with the applicable law were either neutral or favored litigation in
Ohio, Petitioners asked the District Court to dismiss
the Complaint, or, transfer Fleming’s lawsuit to the
Northern District of Ohio. (Id.)
C. Fleming’s Opposition Implored The Court To
Ignore The Forum-Selection Clause And To
Instead Focus On The Validity Of The
Arbitration Provision.
8. In his opposition, Fleming failed to meaningfully
address the factors which framed his burden to show
that the forum-selection clause was invalid. He did

281a
not contest that the FAA preempts Section 20040.5.3
(PA 000131-133, 000137.) He did not introduce any
evidence proving that the inclusion of the forumselection clause in the distributorship agreements
resulted from fraud or overreaching. (PA 000132 at
n.1.) And, he baldly claimed that he would be denied
his day in court if the case were transferred to Ohio.
(Id.)
9. Fleming instead attacked the enforceability of the
arbitration provision containing the forum-selection
clause. As relevant here, Fleming argued that the
arbitration provision was unenforceable because, he
maintained, Sections 12.7 and 12.12 of the distributorship agreements purportedly voided the obligation
to arbitrate pursuant to this Court’s decision in
Sakkab v. Luxottica Retail N. Am., Inc., 803 F.3d 425
(9th Cir. 2015), which held that pre-dispute PAGA
waivers are unenforceable.4 Consequently, Fleming
3

Fleming also argued that Cal. Lab. Code section 925 (“Section
925”) precluded enforcement of the forum-selection clause. (PA
000133-137.) Section 925, however, cannot provide an independent grounds for affirmance because Fleming did not enter into,
modify or extend his distributorship agreements on or after
January 1, 2017, the effective date of the statute. See Cal. Lab.
Code § 925(f). (PA 000027, 000219-220.)
4

Section 12.7 of the distributorship agreements states
“THE DISTRIBUTOR EXPRESSLY WAIVES ANY RIGHT TO
ARBITRATE OR LITIGATE . . . IN A PRIVATE ATTORNEY
GENERAL CAPACITY.” (PA 000048, 000107.) Section 12.12
then states that “if the provision prohibiting . . . private attorney
general arbitration is deemed invalid, then the provision requiring arbitration of breaches between the parties shall be null and
void and there shall be no obligation to arbitrate any such
breaches.” (PA 000049, 000108.) As explained below, the District
Court held that Sections 12.7 and 12.12 voided the arbitration
provision. Petitioners respectfully disagree with that conclusion.
However, this Court need not reach this issue because, as shown

282a
posited, the forum-selection clause was invalid because
it was set forth within a purportedly invalid arbitration agreement. (PA 000137-139.) Fleming then argued
that the District Court was obligated to consider both
private and public interest factors in deciding whether
to dismiss or transfer the case, all which supposedly
favored denial of the motion. (PA 000150-152.)
D. Petitioners’ Reply Explained That The Validity
Of The Forum-Selection Clause, And Not The
Arbitration Provision, Was At Issue.
10. In reply, Petitioners demonstrated that Fleming
had failed to carry his burden of showing that the
forum-selection clause was invalid. First, Petitioners
pointed out that Fleming did not contest that the FAA
applied, nor that the FAA preempts Section 20040.5.
(PA 000209 at ¶ II.A.1.) Second, citing numerous
district courts in this Circuit,5 Petitioners explained
that Fleming’s focus on the enforceability of the arbitration provision was misplaced because its validity
below, the District Court erred in even reaching the validity of
the arbitration provision.
5

Washington v. Cashforiphones.com, No. 15-cv-0627-JAH
(JMA), 2016 U.S. Dist. LEXIS 192253, *12-.13 (S.D. Cal. Jun. 1,
2016) (“When the issue before a district court is limited to venue
[. . . ,] the court need not address the validity of an entire
contract”); SeeComm Network Servs. Corp. v. Colt Telecomm., No.
C 04-1283, 2004 U.S. Dist. LEXIS 18049, *12-13 (N.D. Cal. Sept.
3, 2004) (“To hold that the Forum-Selection Clause is invalid
because the contract as a whole is invalid . . . requires the Court
to assess the merits of the case. [This] analysis is clearly
backwards. The question before the Court is the validity of the
Forum-Selection Clause, not the validity of the contract as a
whole.”); Cream v. N. Leasing Sys., Inc., No. 15-cv-1208, 2015
U.S. Dist. LEXIS 100537, *18-19 (N.D. Cal. Jul. 31, 2015) (same);
Lizdale v. Advanced Planning Servs., Inc., No. 10-cv-0834, 2011
U.S. Dist. LEXIS 31277, *15-16, (S.D. Cal. Mar. 25, 2011).

283a
was not at issue. Instead, the District Court was
obligated to focus on whether the forum-selection
clause was enforceable. (PA 000209-211 at ¶ II.A.2.a.)
Further, Petitioners noted that any attack on the
arbitration provision premised on California law (such
as Fleming’s) was premature given that the distributorship agreements contained an Ohio choice of law
provision. (PA 000211 at ¶ II.A.2.b.) Finally, Petitioners
implored the District Court to disregard Fleming’s
discussion of the private interest factors relating to the
enforcement of the forum-selection clause, pursuant to
Atl. Marine, given that the forum-selection clause was
mandatory and valid. (PA 000222 at ¶¶ E.-F.)
E. The District Court Denied Petitioners’ Motion
Because It Found The Arbitration Provision
Was Void—Not Because It Found The ForumSelection Clause Unenforceable.
11. The District Court denied Petitioners’ motion.
(PA 000238.) At the outset, it acknowledged that
Petitioners were “correct in stating that, typically,
forum selection clauses are considered prima facie
valid and courts are not to consider other parts of the
contract, or the validity of the contract as a whole,
when ruling on a motion to dismiss or transfer.”
(PA 000229.) Nonetheless, and citing no authority, it
decided to “make a threshold determination on the
validity of the arbitration provision to determine if it
preempts Section 20040.5.” (PA 000230.)
12. The District Court reasoned that:
The analysis required here is less straightforward than in the typical motion to dismiss or
transfer because the only reason that a directly
on point state statute does not invalidate the
Distribution Agreement’s forum selection clause

284a
is the preemptive effect of an allegedly invalid
arbitration provision. Put differently, but for
the existence of the arbitration provision,
Section 20040.5 would apply and the forum
selection clause would be void. This motion
hinges on the preemptive effect of the arbitration provision and I cannot turn a blind eye
toward questions of its validity.
(PA 000230.)
13. The District Court further dismissed the
authorities cited by Petitioners for the proposition that
the validity of a contract does not affect the enforceability of a forum-selection clause:
[Petitioners’] cited authority to the contrary
does not apply because none of the cases
involve similar state statutes or the preemptive effects of arbitration agreements under
the FAA. Instead, each stands for the uncontroversial proposition that generally it is
inappropriate to analyze the validity of the
contract as a whole when determining the
applicability of a forum selection clause.
(PA 000230 (citations omitted).)
14. The District Court then held that the arbitration provision was void in light of Sections 12.7 and
12.12, citing Ninth Circuit and California law precluding the enforcement of pre-dispute waivers of PAGA
claims, and concluding, (incorrectly and without any
authority) that the outcome would be no different
under Ohio law. (PA 000231-233 (citing Sakkab and
Iskanian v. CLS Transp. Los Angeles, LLC, 59 Cal. 4th
348 (Cal. 2014).)

285a
15. Consequently, because the District Court found
the arbitration provision void, it held that “the FAA
does not preempt Cal. Bus. & Prof. Code § 20040.5 and
the forum selection clause has no effect.” (PA 000233.)
And having refused to accord the parties’ agreement
any weight, it then analyzed both the private interest
factors and public interest factors relating to the
enforcement of the forum-selection clause, determined
that they favored Fleming, and declined to transfer
the case. (PA 000235-237.)
LEGAL STANDARDS
A. This Petition Meets
Mandamus Relief.

The

Criteria

For

This Court considers five factors when assessing
whether mandamus relief is appropriate: (1) whether
the petitioner has other adequate means to attain the
relief he or she desires, (2) whether the petitioner will
be damaged or prejudiced in a way not correctable on
appeal, (3) whether the district court’s order is clearly
erroneous as a matter of law, (4) whether the district
court’s order makes an “oft-repeated error,” or “manifests a persistent disregard of the federal rules”; and
(5) whether the district court’s order raises new and
important problems, or legal issues of first impression.
In re Van Dusen, 654 F.3d 838, 841 (citing Bauman v.
Dist. Cr, 557 F.2d 650, 654-55 (9th Cir. 1977)). Not all
of these factors are relevant in every case. Christensen
v. Dist. Cr, 844 F.2d 694, 697 (9th Cir. 1988); DeGeorge
v. Dist. Cr, 219 F.3d 930, 940 (9th Cir. 2000) (Bauman
factors may be mutually exclusive).
As explained more fully below, mandamus review is
warranted because (a) the District Court erroneously
decided an important legal issue of first impression
in this Circuit, and (b) without mandamus review,

286a
Petitioners would effectively and permanently be
deprived of rights explicitly accorded to them by the
FAA.
B. Courts Adjudicating Forum Non Conveniens
Motions Premised On Forum-Selection Clauses
Must Give The Parties’ Choice Of Forum
“Controlling Weight In All But The Most
Exceptional Circumstances.”
Federal law governs the validity and enforceability
of forum-selection clauses. Argueta v. Banco Mexicano,
S.A., 87 F.3d 320, 324 (9th Cir. 1996); Manetti-Farrow,
Inc. v. Gucci Am., Inc., 858 F.2d 509, 514 (9th Cir. 1988).
Pursuant to federal law, “a valid forum-selection
clause [should be] given controlling weight in all but
the most exceptional cases.” Atl. Marine Constr. Co.,
134 S. Ct. at 580 (alterations in original and internal
quotation omitted). As the Supreme Court explained:
When parties have contracted in advance to
litigate disputes in a particular forum, courts
should not unnecessarily disrupt the parties’
settled expectations. A forum-selection clause
. . . may, in fact, have been a critical factor in
their agreement to do business together in the
first place. In all but the most unusual cases,
therefore, “the interest of justice” is served by
holding parties to their bargain.
Id. at 583.
“[T]he plaintiff bears the burden of establishing that
transfer to the forum for which the parties bargained
is unwarranted.” Id. at 582. To overcome the presumption that a forum-selection clause is valid, a plaintiff
must show that: “(1) [the] inclusion of the clause in the
agreement was the product of fraud or overreaching;
(2) [the] party wishing to repudiate the clause would

287a
effectively be deprived of his day in court were the
clause enforced; and (3) [enforcement] would contravene a strong public policy of the forum in which suit
is brought.” Murphy v. Schneider Nat’l, Inc., 362 F.3d
1133, 1140 (9th Cir. 2004) (citing Richards v. Lloyd’s
of London, 135 F.3d 1289, 1294 (9th Cir. 1998); The
Bremen v. Zapata Off-Shore Co., 407 U.S. 1 (1972))
(internal punctuation omitted).
Further, where a valid forum-selection clause is
mandatory, the plaintiff “has waived the right to
challenge the preselected forum as inconvenient or
less convenient.” Atl. Marine Constr. Co., 134 S. Ct.
at 582. “A court accordingly must deem the privateinterest factors [relating to the enforcement of a
forum-selection clause] to weigh entirely in favor of
the preselected forum” and “consider arguments about
public-interest factors only.” Id. at 582-583. The public
interest factors courts may consider—which “will rarely
defeat a transfer motion”—are “the administrative
difficulties flowing from court congestion; the local
interest in having localized controversies decided at
home; [and] the interest in having the trial of a
diversity case in a forum that is at home with the law.”
Id. at 581 n.6.
REASONS WHY A WRIT SHOULD ISSUE
A. The District Court’s Order Contains A Clear
Error Of Law.
The District Court’s Order is premised on a clear
legal error—the conclusion that the forum non conveniens
analysis differs where a forum-selection clause is set
forth in an arbitration agreement as opposed to another
type of contract.

288a
1. The District Court Disregarded The Precedent Of The Supreme Court And This Court
By Failing To Analyze The Enforceability Of
The Forum-Selection Clause.
Circuit courts and district courts alike agree: the
validity of a forum-selection clause is not dependent
upon the validity of the contract containing it. A plaintiff resisting dismissal or transfer to another forum
has the “heavy burden” of proving that a presumptively valid forum-selection clause is unenforceable.
Atl. Marine Constr. Co., 134 S. Ct. at 583 n.8; The
Bremen, 407 U.S. at 15, 17. The validity of the contract
containing a forum-selection clause is a separate
question having no bearing on the enforceability of the
forum-selection clause. E.g., Autoridad de Energia
ElEctrica v. Vitol S.A., 859 F.3d 140, 147-148 (1st
Cir. 2017) (forum-selection clauses enforceable where
contracts containing them were purportedly void);
Muzumdar v. Wellness Int’l Network, Ltd., 438 F.3d
759, 762 (7th Cir. 2006) (rejecting as an “absurdity”
appellants’ argument that forum-selection clauses were
void because contracts were purportedly unenforceable
as part of an illegal pyramid scheme); Rucker v. Oasis
Legal Fin., 632 F.3d 1231, 1237-38 (11th Cir. 2011)
(rejecting argument that forum-selection clause was
void because it was set forth in purportedly void illegal
gambling contracts); Goldman v. U.S. Transp. &
Logistics, LLC, No. 17-cv-00691-BAS-NLS, 2017 U.S.
Dist. LEXIS 210423, *9-10 (S.D. Cal. Dec. 20, 2017)
(“other courts have rejected similar challenges made
to an agreement as a whole, as opposed to specifically
a forum selection clause contained in the agreement”);
Hegwer v. Am. Hearing & Assocs., No. C 11-04942
SBA, 2012 U.S. Dist. LEXIS 24313, *6-8 (N.D. Cal.
Feb. 27, 2012) (“[W]hether other provisions of the
Employment Agreement are unconscionable is not

289a
germane to the salient issue presented; namely,
whether the Plaintiff has carried his heavy burden of
establishing that the forum selection clause is
unreasonable.”) (“Enforcement of the forum selection
clause has no bearing on the enforceability of the
arbitration clause.”).6
The logic of courts that have rejected arguments
concerning the validity of the underlying contract is
plain. A forum-selection clause is an agreement “in
advance to litigate disputes in a particular forum.” Atl.
Marine Constr. Co., 134 S. Ct. at 583. Requiring courts
which the parties have not selected as the forum for
their disputes to determine whether a contract is
valid, as a condition precedent to enforcing a forumselection clause, is precisely backwards. Where the
validity of a contract is in dispute, the court previously
designated as the parties’ forum of choice should rule
on the enforceability of the contract, provided that the
forum-selection clause is valid.

6

See also PA 000209-210 (citing Washington, 2016 U.S. Dist.
LEXIS 192253 at *12-13; SeeComm Network Servs. Corp., 2004
U.S. Dist. LEXIS 18049 at *12-13; Cream, 2015 U.S. Dist. LEXIS
100537 at *18-19; Lizdale, 2011 U.S. Dist. LEXIS 31277 at *1516). See also Fountain v. Oasis Legal Fin., LLC, 86 F. Supp. 3d
1037, 1044-46 (D. Minn. 2015) (granting forum non conveniens
motion due to forum-selection clause in purportedly void purchase agreement) (“[N]umerous courts . . . have addressed the
validity of a forum-selection clause before determining the
validity of a contract as a whole. [. . .] This Court will do the
same.”) (internal citations omitted); Knopick v. UBS AG, 137 F.
Supp. 3d 728, 733 (M.D. Pa. 2015) (“[I]t is the legality of the forum
selection clause, and not of the underlying contract, that
governs[.]”) (“The validity of the underlying contracts [is] . . . more
properly addressed to the court or courts that the parties
themselves selected to settle their disputes.”).

290a
As the Seventh Circuit explained in Muzumdar, the
opposite approach would lead to “absurdity”:
Appellants also spend a good deal of time
trying to convince us that because the contracts themselves are void and unenforceable
as against public policy i.e., they set out a
pyramid scheme—the forum selection clauses
are also void. The logical conclusion of the
argument would be that the federal courts in
Illinois would first have to determine whether
the contracts were void before they could
decide whether, based on the forum selection
clauses, they should be considering the cases
at all. An absurdity would arise if the courts
in Illinois determined the contracts were not
void and that therefore, based on valid forum
selection clauses, the cases should be sent to
Texas—for what? A determination as to
whether the contracts are valid?
Muzumdar, 438 F.3d at 762.
Muzumdar foreshadowed the District Court’s error
here. Petitioners and Fleming agreed to resolve their
disputes through binding arbitration in Ohio, and, to
resolve challenges to the arbitration provision in
Ohio. (PA 000046-47, 000048, 000105-106, 000108.)
Fleming violated these agreements by filing suit in the
Northern District of California. Consistent with their
contractual obligations under the distributorship
agreements, Petitioners thus sought dismissal or a
transfer to Ohio, the forum the parties agreed would
rule on the validity of the arbitration provision if any
challenges to it arose.
Now contemplate the outcome if the District Court,
applying the same analytical framework, held that the

291a
arbitration provision was valid and enforceable, and
that the forum-selection clause was therefore valid
and enforceable: this case would have been dismissed
or transferred to the Northern District of Ohio—for a
determination as to whether the arbitration provision
that the Northern District of California deemed valid
and enforceable, is, in fact, valid and enforceable.
What, then, is the purpose of a forum-selection clause
if a court other than the one designated by the parties
must wade into the merits of their dispute to determine whether a forum-selection clause is enforceable?
See Corp. Express Office Prods., Inc. v. Can Guelpen,
No. C 02-04588 WHA, 2002 U.S. Dist. LEXIS 27642,
*6 (N.D. Cal. Dec. 12, 2002) (“No contract provision
should be interpreted in a manner that would render
other provisions meaningless.”).
Moreover, if trial courts must rule on the validity of
a contract before turning to the forum-selection clause,
how can they do so where, as here, the contract
contains a choice of law provision, the validity of which
has yet to be determined?7 (PA 000050 at § 13.3,
000109 at § 13.3.)

7

The District Court erred in concluding that the private
attorney general claim waiver in the distributorship agreements
would void the arbitration provision under either California or
Ohio law. (PA 000233.) To the contrary, Ohio law permits predispute waivers of private attorney general claims. E.g.,
Stachurski v. DirecTV, Inc., 642 F. Supp. 2d 758, 770 (N.D. Ohio
2009) (arbitration provision with private attorney general claim
waiver not substantively nor procedurally unconscionable); Love
v. Crestmont Cadillac, 90 N.E.3d 123, 130 (Ohio Ct. App. 2017)
(rejecting argument that arbitration provision violated public
policy due to private attorney general claim waiver). However,
this Court need not reach this issue because the District Court
erred in denying Petitioners’ motion to transfer based on the
supposed invalidity of the arbitration provision. In any event,

292a
The District Court’s Order clashes with the generally accepted rule that courts adjudicating aforum
non conveniens motion must focus their analyses on
whether a forum-selection clause is enforceable—not
whether the contract containing such a clause is
enforceable. Moreover, the rationale for the District
Court’s stark departure from this rule is premised on
an impermissible aversion to arbitration agreements,
as explained below.
2. The District Court Evinced Clear Hostility
To Arbitration By Failing To Apply The
Correct Test To Determine The Validity Of
The Forum-Selection Clause.
Time and again, the Supreme Court has affirmed
that the FAA8 “requires courts to place arbitration
agreements ‘on equal footing with all other contracts.’
Kindred Nursing Ctrs. Ltd. P’ship v. Clark, 137 S. Ct.
1421, 1424 (quoting DIRECTV, Inc. v. Imburgia, 136
S. Ct. 463, 465 (2015)); see also, e.g., AT&T Mobility
LLC v. Concepcion, 131 S. Ct. 1740, 1745 (2011) (“courts
must place arbitration agreements on an equal footing
with other contracts”); Dean Witter Reynolds Inc. v.
Byrd, 470 U.S. 213, 218 (1985) (FAA “leaves no place
for the exercise of discretion by a district court”).
“Under the [FAA], arbitration is a matter of contract,
and courts must enforce arbitration contracts accordSakkab, which the District Court cited as authority for invalidating the PAGA waiver, has been called into question by the
Supreme Court’s decision in Epic Sys. Corp. v. Lewis, 138 S. Ct.
1612 (2018). See McGovern v. U.S., No. 18-CV-1794-CAB-LL,
2019 U.S. Dist. LEXIS 12595, *22 n.5 (“It is difficult to reconcile
Epic with [Sakkab].”).
8

The FAA applies to the arbitration provision containing
the forum-selection clause. (PA 000017 at n.5; PA 000209; PA
000229-230.)

293a
ing to their terms.” Henry Schein, Inc. v. Archer and
White Sales, Inc., 139 S. Ct. 524, 529 (2019) (citing
Rent-A-Center, W., Inc. v. Jackson, 561 U.S. 63, 67
(2010)).
Accordingly, as the Supreme Court has repeatedly
pronounced, rules that “[single] out arbitration agreements for disfavored treatment” are impermissible.
See, e.g., Epic Sys. Corp., 138 S. Ct. at 1622-23
(rejecting argument that the National Labor Relations
Act bars class action waivers in employment arbitration agreements; FAA’s savings “clause offers no
refuge for ‘defenses that apply only to arbitration or
that derive their meaning from the fact that an
agreement to arbitrate is at issue’) (“A defense of that
kind . . . is one that impermissibly disfavors
arbitration[.]”); Kindred Nursing Ctrs. Ltd., 137 S. Ct.
at 1425-28 (striking down Kentucky’s “clear statement
rule,” which held that a power of attorney “could not
entitle a representative to enter into an arbitration
agreement without specifically saying so,” on the
ground that it evinced the “kind of ‘hostility to
arbitration’ that led Congress to enact the FAA”).
The District Court, therefore, was obligated to apply
the same analysis to determine the validity of the
forum-selection clause contained within the arbitration provision in Fleming’s distributorship agreements
as it would have had the agreements lacked an
arbitration provision.
The District Court, however, forged its own path.
The Order paid lip service to the test a plaintiff
resisting a forum-selection clause must meet to carry
his or her burden of proving it is unenforceable (see PA
000227 (citing Murphy, 362 F.3d at 1140)) only to
repudiate it. In place of this test, the District Court
substituted a policy judgment unsupported by any

294a
authority that because the forum-selection clause is
contained within an arbitration provision, the “typical”
analysis did not apply, and that it “must make a
threshold determination on the validity of the arbitration provision to determine if it preempts Section
20040.5. . . because the only reason that a directly on
point state statute does not invalidate the Distribution
Agreement’s forum selection clause is the preemptive
effect of an allegedly invalid arbitration provision.” (PA
000229.). (See also PA 000230 (dismissing authorities
holding that courts should not consider the validity of
a contract as a whole because they did not involve
arbitration agreements).)
The denial of Petitioners’ motion, therefore, is
rooted in the District Court’s decision to single out the
arbitration provision in the distributorship agreements for disfavored treatment in comparison to other
types of contracts. That is precisely the sort of “judicial
hostility to arbitration agreements” that prompted
Congress to enact the FAA and this Court should
accordingly intervene to correct the District Court’s
clear error. See AT&T Mobility LLC, 131 S. Ct. at
1745; see also Epic Sys. Corp., 138 S. Ct. at 1622-23;
Kindred Nursing Ctrs. Ltd., 137 S. Ct. at 1425-28.
B. Mandamus Is Warranted Because Petitioners
Have Been Deprived Of Their Rights Under The
FAA.
Absent a writ, Petitioners will have no alternative
avenue for relief. An order denying a forum non
conveniens motion is not immediately appealable. Van
Cauwenberghe v. Biard, 486 U.S. 517, 529 (1988). The
inability to immediately appeal an order of a district
court is one factor supporting issuance of a writ.
Henson v. Dist. Ct., 869 F.3d 1052, 1058 (9th Cir. 2017)

295a
(unavailability of “contemporaneous ordinary appeal”
supports issuance of writ).
Accordingly, it has long been this Court’s view (one
which is shared by other Circuits) that “Venue provisions deal with rights too important to be denied
review. [E]rror in denying change of venue cannot be
effectively remedied on appeal from final judgment.”
Pacific Car & Foundry Co. v. Pence, 403 F.2d 949, 951
(9th Cir. 1968).9 See also, e.g., In re Rolls Royce Corp.,
775 F.3d 671, 683 (5th Cir. 2014) (granting mandamus
where district court refused to transfer case to venue
identified in forum-selection clause); In re Lloyd’s
Register N. Am., Inc., 780 F.3d 283, 289 (5th Cir. 2015)
(same); In re Apple, Inc., 581 Fed. App’x 886, 888
(Fed. Cir. Sept. 11, 2014). See also In re Howmedica
Osteonics Corp., 867 F.3d 390, 411 (3d Cir. 2017)
(granting mandamus where district court transferred
case in violation of forum-selection clause), cert. denied
sub nom. Nordyke v. Howmedica Osteonics Corp., 138
9

Subsequent decisions limiting Pacific Car & Foundry Co. are
distinguishable. For instance, in In re Orange, SA, this Court held
that the petitioner failed to identify a clear legal error, or, any
purported harm aside from the expenditure of ordinary litigation
costs. In re Orange, SA, 818 F.3d 956, 961-964 (9th Cir. 2016).
Moreover, the forum-selection clause there was not contained
within an arbitration provision—as the Court acknowledged, its
analysis may have differed had the converse been true. See id. at
962-963 (discussing Simula, Inc. v. Autoliv, Inc., 175 F.3d 716
(9th Cir. 1999) (“The fact that the forum selection clause in
Simula was an arbitration provision weighed heavily in our
analysis. We stated that all doubts are to be resolved in favor of
arbitrability, and, as a result, the plaintiff’s claims need only
touch matters covered by the contract. Here, we do not interpret
an arbitration clause, and accordingly, do not apply the strong
presumption that prompted us in Simula to construe broadly
the scope of the arbitration clause.”) (internal citations and
punctuation omitted).

296a
S. Ct. 1288 (2018). Petitioners, therefore, lack any
other adequate means to obtain the relief sought. See
In re Van Dusen, 654 F.3d at 841.
The prejudice that will befall Petitioners if they
are restricted to post-judgment review of the District
Court’s Order will be of such severity that it cannot be
corrected through normal appellate avenues. Id. The
FAA grants Petitioners the right to seek “an order
directing that . . . arbitration proceed in the manner
provided for” in Fleming’s distributorship agreements.
9 U.S.C. § 4. Indeed, the “principal purpose of the
FAA is to ensure that private arbitration agreements
are enforced according to their terms.” AT&T Mobility
LLC, 131 S. Ct. at 1748 (internal citations and
punctuation omitted).
To that end, and in furtherance of the “liberal
federal policy favoring arbitration agreements,” the
FAA provides parties attempting to enforce an arbitration agreement with the ability to seek immediate
appellate review of an order denying a motion to
compel arbitration. See 9 U.S.C. § 16(a)(1)(B); AT&T
Mobility LLC, 131 S. Ct. at 1749.
The District Court’s erroneous ruling eradicated
these mandatory safeguards.
Fleming’s decision to flout the forum-selection
clause, left unchecked, thwarts Petitioners’ rights
under the FAA, in at least three significant ways.
First, Petitioners will not receive the benefit of their
contractual agreement to have an Ohio court resolve
Fleming’s challenges to the arbitration provision.10
10

The Supreme Court recently affirmed that a trial court must
enforce provisions delegating questions of arbitrability to an
arbitrator “even if the court thinks that the argument that the
arbitration agreement applies to a particular dispute is wholly

297a
(PA 000049; 000108.) Second, Petitioners cannot seek
an order compelling the parties to arbitrate pursuant
to the terms of the distributorship agreements
from the Northern District of California because the
District Court cannot order arbitration in Ohio. 9
U.S.C. § 4; Textile Unlimited, 240 F.3d at 785. Third,
because Petitioners cannot seek an order compelling
arbitration in a manner consistent with the terms of
the distribution agreements, they will never have the
ability to exercise the right under the FAA to immediately appeal the denial of a petition to enforce the
contractually agreed upon terms of the arbitration
provision. See 9 U.S.C. § 16(a)(1)(B).
The District Court’s Order therefore interferes with
the hallmarks of the FAA: it denies arbitration on the
terms set forth in the distributorship agreements
without providing Petitioners the requisite appellate
recourse. See AT&T Mobility LLC, 131 S. Ct. at 1750
(striking down law that interfered with arbitration).
Mandamus is the only procedure by which Petitioners may vindicate their rights under the FAA. If writ
relief does not issue, Petitioners will be deprived of the
ability to seek enforcement of the arbitration provision
pursuant to its terms, and no appellate court will be
able to review the preemptive denial of enforcement of
its terms.
Thus, this Petition is premised on an extraordinary
situation: the de facto denial of Petitioners’ rights
under the FAA. See Kasey v. Molybdenum Corp. of
Am., 408 F.2d 16, 20 (9th Cir. 1969) (“[W]e are not
groundless.” Henry Schein, Inc., 139 S. Ct. at 526. Much as
agreements to delegate threshold questions of arbitrability to an
arbitrator must be upheld, so, too, should agreements to delegate
arbitrability challenges to a particular tribunal.

298a
unaware that judicial economies are nonexistent if the
focus of mandamus is too narrow. If, on appeal, it is
determined that the 1404(a) motion was improperly
ruled upon, a new trial is necessary. Alternatively, and
perhaps more persuasively, it may be that the abuse
is not susceptible to correction on appeal and, by postponing review, courts are denying effective appeal.”)
(denying mandamus where transfer would not have
served interests of justice because case had been
pending over nine years).
C. This Petition Raises An Important Issue Of
First Impression That Will Arise Repeatedly
Given The Spike In Arbitration Agreements.
This case presents an issue of first impression that
is certain to arise again. As this Court has recognized,
“We have become an arbitration nation.” ASPIC Eng’g
& Constr. Co. v. ECC Centcom Constructors LLC, 913
F.3d 1162, 1169 (9th Cir. 2019). District courts throughout the Ninth Circuit will thus undoubtedly be asked
to enforce forum-selection clauses contained within
arbitration agreements with increasing frequency, making the issue presented here one of ongoing importance.
Moreover, it is an issue as to which this Court’s
guidance is urgently needed. While district courts
within this Circuit appear to agree with the First,
Seventh and Eleventh Circuits that a court ruling on
the enforceability of a forum-selection clause should
not adjudicate the validity of the underlying contract,11
this Court has not yet determined whether the test to
determine the enforceability of forum-selection clauses

11

See Autoridad de Energia ElEctrica, 859 F.3d at 147-148;
Muzumdar, 438 F.3d at 762; Rucker, 632 F.3d at 1237-38.

299a
differs if the underlying contract is an arbitration
agreement.
This case therefore provides an appropriate vehicle
for clarifying whether courts should disregard the
Supreme Court’s mandate in Atl. Marine that a party
resisting a forum-selection clause has the burden of
proving the clause unenforceable where the underlying contract is one for arbitration.
CONCLUSION
Petitioners respectfully ask that this Court issue a
writ of mandamus vacating the District Court’s Order
denying their forum non conveniens motion, and, because
the record is adequate, direct the District Court to
either: (1) transfer this case to the United States
District Court for the Northern District of Ohio; or
(2) dismiss the case. In addition, Petitioners request
that the Court issue an order staying matters in the
District Court pending the resolution of this mandamus proceeding.
Respectfully submitted,
/s/ Eric Lloyd
SEYFARTH SHAW LLP
Christian J. Rowley (SBN 187293)
crowley@seyfarth.com
Eric Lloyd (SBN 254390)
elloyd@seyfarth.com
Matthew A. Goodin (SBN 169674)
mgoodin@seyfarth.com
560 Mission Street, 31st Floor
San Francisco, California 94105
Telephone: (415) 397-2823
Facsimile: (415) 397-8549
COUNSEL FOR PETITIONERS

300a
CERTIFICATE OF FILING AND SERVICE
I hereby certify that on May 31, 2019, I filed the
foregoing Petition for Writ of Mandamus with the
Clerk of the Court for the United States Court of Appeals
for the Ninth Circuit using the Appellate Electronic
Filing system. I further certify that, on the same day,
I served one paper copy of the same Petition in compliance with Rule 25 by certified mail, return receipt
requested and/or hand delivery, upon each of the
following; recipients whose e-mail addresses are listed
below also received service by e-mail on May 31, 2019:
RUKIN HYLAND & RIGGIN LLP
Peter Rukin (SBN 178336)
prukin@rukinhyland.com
Jessica Riggin (SBN 281712)
jriggin@rukinhyland.com
Valerie Brender (SBN 298224)
vbrender@rukinhyland.com
Dylan Cowart (SBN 324711)
dcowart@rukinhyland.com
1939 Harrison Street, Suite 290
Oakland, CA 94612
Telephone: (415) 421-1800]
Facsimile: (415) 421-1700
The Honorable William H. Orrick
United States District Judge
Northern District of California
San Francisco Courthouse
Courtroom 2, 17th Floor
450 Golden Gate Avenue
San Francisco, CA 94102
/s/ Eric M. Lloyd
Eric M. Lloyd
Counsel for Petitioner

301a
CERTIFICATE OF COMPLIANCE WITH
TYPE-VOLUME LIMITATION,
TYPEFACE REQUIREMENTS, AND
TYPE STYLE REQUIREMENTS
1. The foregoing brief complies with the typevolume limitation of FED. R. APP. P. 21(a)(2)(C) and
Circuit Rule 29-2(c) because, excluding the parts of the
document exempted by FED. R. APP. P. 32(f):
This brief contains 8,039 words on 30 pages.
In addition, the word count divided by 280 equals 28.7,
which is less than the maximum ratio of 30 prescribed
by Circuit Rules 29-2(c) and 32-3(2).
2. The foregoing brief complies with the typeface
requirements of FED. R. APP. P. 32(a)(5) and the type
style requirements of FED. R. APP. P. 32(a)(6) because:
This brief has been prepared in a proportionally spaced typeface using Microsoft Word
2016 in plain, 14-point Times New Roman
typeface; footnotes use the same typeface and
type style.
/s/ Eric M. Lloyd
Eric M. Lloyd
Counsel for Petitioner
Dated: May 31, 2019

302a
APPENDIX N
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
Case No. 19-71352
————
IN RE MATCO TOOLS CORPORATION, NMTC, INC.
and FORTIVE CORPORATION,
Petitioners,
v.
U.S. DISTRICT COURT FOR THE NORTHERN
DISTRICT OF CALIFORNIA,
Respondent,
JOHN FLEMING,
Plaintiff-Real Party in Interest.
————
ON REVIEW FROM THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF CALIFORNIA
Case No. 3:19-CV-004663-WHO
Hon. William H. Orrick
————
PLAINTIFF-REAL PARTY IN INTEREST’S
ANSWER TO PETITION
FOR A WRIT OF MANDAMUS
————

303a
Peter Rukin, SBN 178336
Jessica Riggin, SBN 281712
Valerie Brender, SBN 298224
Dylan Cowart, SBN 324711
RUKIN HYLAND & RIGGIN LLP
1939 Harrison Street, Ste. 290
Oakland, CA 94612
Telephone: (415) 421-1800
Facsimile: (415) 421-1700
Attorneys for Plaintiff-Real
Party in Interest, John Fleming
————
CORPORATE DISCLOSURE STATEMENT
(FRAP 26.1)
None of the plaintiffs, who are individuals, have
“parent companies” or issue shares to the public, and
no publicly held corporation owns 10% or more of any
stock in any plaintiff.
————

304a
TABLE OF CONTENTS
Page
CORPORATE DISCLOSURE STATEMENT .....

ii

TABLE OF AUTHORITIES ................................

iv

I. INTRODUCTION AND SUMMARY OF
ARGUMENT .............................................

1

II. FACTUAL AND PROCEDURAL HISTORY .........................................................

6

A. Fleming, a California Worker, Signed
a Franchise Agreement with Matco
Containing a “No Arbitration”
Provision. .............................................

6

B. Matco Acknowledged Below That Its
Forum Selection Clause Would Be
Invalid Under Business and Professions Code Section 20040.5 in the
Absence of an Agreement to Arbitrate. ....................................................

8

C. The District Court Found That
Matco’s Forum Selection Clause Was
Unenforceable Under Jones, and That
Bradley Did Not Apply Because the
Parties Agreed Not to Arbitrate Their
Dispute. ................................................

10

III. STANDARD OF REVIEW ........................

12

IV. ARGUMENT .............................................

13

A. The Petition Must Be Denied Because
There Was No Clear Error of Law. .....

13

305a
TABLE OF CONTENTS—Continued
Page(s)
B. Matco’s Additional Grounds for
Review Are Insufficient to Support a
Writ of Mandamus...............................

21

1. Writs Related to Venue Provisions
Are Routinely Denied, Even
Though Denials of Motions to
Transfer Are Not Immediately
Appealable. ....................................

21

2. This Petition Raises a FactSpecific Issue That Is Neither
Novel nor Likely to Arise Repeatedly. ................................................

24

V. CONCLUSION..........................................

25

STATEMENT OF RELATED CASES ................

26

CERTIFICATE OF COMPLIANCE....................

27

CERTIFICATE OF SERVICE.............................

28

306a
TABLE OF AUTHORITIES
Federal Cases

Page(s)

Argueta v. Banco Mexicano, S.A.,
87 F.3d 320 (9th Cir. 1996) ......................

14

AT&T Mobility L.L.C. v. Concepcion,
563 U.S. 333 (2011) ..................................

15

Atl. Marine Constr. Co. v. U.S. Dist. Court,
571 U.S. 49 (2013) ....................................

10

Bauman v. U.S. Dist. Court,
557 F.2d 650 (9th Cir. 1977) ....................

13

Blair v. Rent-A-Center, Inc.,
No. 17-17221, 2019 U.S. App. LEXIS
19476 (9th Cir. June 28, 2019) ................passim
Bradley v. Harris Research,
275 F.3d 884 (9th Cir. 2001) ...................passim
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018) ..............................

17

Hopkins v. BCI Coca-Cola Bottling Co.,
640 F. App'x 672 (9th Cir. 2016) .............

18

In re Apple, Inc.,
581 F. App'x 886 (Fed. Cir. 2014) ............

22

In re Estate of Saunders,
745 F.3d 953 (9th Cir. 2014) ....................

18

In re Howmedica Osteonics Corp.,
867 F.3d 390 (3d Cir. 2017) .....................

22

In re Lloyd's Register N. Am., Inc.,
780 F.3d 283 (5th Cir. 2015) ....................

22

In re Morgan,
506 F.3d 705 (9th Cir. 2007) ....................

18

307a
TABLE OF AUTHORITIES—Continued
Page(s)
In re Rolls Royce Corp.,
775 F.3d 671 (5th Cir. 2014) ....................

22

In re Swift Transp. Co.,
830 F.3d 913 (9th Cir. 2016) .................... 13, 18
In re United States,
791 F.3d 945 (9th Cir. 2015) ....................

13

In re Van Dusen,
654 F.3d 838 (9th Cir. 2011) ....................

13

Jones v. GNC Franchising, Inc.,
211 F.3d 495 (9th Cir. 2000) ...................passim
Karl v. Zimmer Biomet Holdings, Inc.,
No. C 18-04176 WHA, 2018 U.S. Dist.
LEXIS 189997 (N.D. Cal. Nov. 6, 2018) ..

10

Orange, S.A. v. U.S. Dist. Court,
818 F.3d 956 (9th Cir. 2016) ....................

23

Pac. Car & Foundry Co. v. Pence,
403 F.2d 949 (9th Cir. 1968) ....................

22

Sakkab v. Luxottica Retail N. Am., Inc.,
803 F.3d 425 (9th Cir. 2015) ...................passim
The Bremen v. Zapata Off-Shore Co.,
407 U.S. 1 (1972) .................................... 2, 3, 11
Thompson v. Paul,
547 F.3d 1055 (9th Cir. 2008) ..................

16

Tibble v. Edison Int’l,
843 F.3d 1187 (9th Cir. 2016) ...................

18

United States v. Sherman,
581 F.2d 1358 (9th Cir. 1978) .................. 1, 12

308a
TABLE OF AUTHORITIES—Continued
Page(s)
Valenzuela-Gonzalez v. U.S. Dist. Court,
915 F.2d 1276 (9th Cir. 1990) .................. 12, 13
Visendi v. Bank of Am., N.A.,
733 F.3d 863 (9th Cir. 2013) ....................

18

Volt Info. Scis. v. Bd. of Trs.,
489 U.S. 468 (1989) ..................................

20

Zimmer Biomet Holdings, Inc. v. U.S. Dist.
Court,
No. 18-73216, 2019 U.S. App. LEXIS
5699 (9th Cir. Feb. 26, 2019) ...................

10

STATE CASES
Eagle v. Fred Martin Motor Co.,
809 N.E.2d 1161 (Ohio Ct. App. 2004) ....

19

Iskanian v. CLS Transp. L.A., L.L.C.,
59 Cal. 4th 348 (2014) .............................. 9, 18
FEDERAL STATUTES
9 U.S.C. § 1 (2018) ........................................

2

9 U.S.C. § 16 (2018) ..................................... 5, 23
28 U.S.C. § 1404 (2018) ............................... 12, 22
STATE STATUTES
Cal. Lab. Code § 925 .................................... 10, 12
Cal. Bus. & Prof. Code § 20040.5 ...............passim

309a
I. INTRODUCTION AND SUMMARY OF ARGUMENT
Respondent John Fleming (“Fleming”) requests that
the Court dismiss the mandamus petition and lift the
stay on district court proceedings. Mandamus is a
“drastic remedy” only available in “extraordinary circumstances.” United States v. Sherman, 581 F.2d
1358, 1361 (9th Cir. 1978). There is nothing “remarkable,” Petition for Writ of Mandamus (“Pet.”) at 1, about
the District Court’s denial of Matco’s motion to
transfer. Far from “forg[ing] its own path,” Pet. at 23,
the District Court issued a well-reasoned decision
grounded in settled law.
What is extraordinary, however, are the material
misstatements and omissions in Matco’s Petition. Not
only does Matco misrepresent the operative Supreme
Court test governing enforcement of choice of forum
clauses and ignore settled principles of federal arbitration law, but it has failed to bring to this Court’s
attention controlling Ninth Circuit authority that
upends the analytical house of cards it has constructed.
The District Court’s analysis below was guided by
two key Ninth Circuit decisions. In Jones v. GNC
Franchising, 211 F.3d 495 (9th Cir. 2000), this Court
affirmed a district court’s denial of a motion to transfer
pursuant to a forum selection clause. Jones, like this
case, involved a franchise agreement containing a
forum selection clause that ran afoul of California
Business and Professions Code Section 20040.5.1 In

1

California Business and Professions Code Section 20040.5
provides that “[a] provision in a franchise agreement restricting
venue to a forum outside this state is void with respect to any

310a
affirming the district court’s order, this Court held
that the forum selection clause was invalid because
the “strong public policy” under California Business
and Professions Code Section 20040.5 specifically
provided that California franchisees were entitled to a
California venue. Jones, 211 F.3d at 498 (citing M/S
Bremen v. Zapata Off-Shore Co., 407 U.S. 1, 15 (1972)).
Subsequently, in Bradley v. Harris Research, Inc.,
275 F.3d 884 (9th Cir. 2001), this Court was confronted with another choice of forum clause subsumed
in a franchise agreement that also contained an
otherwise valid and enforceable arbitration clause.
The Court concluded that Section 20040.5 was not “a
generally applicable contract defense that applies to
any contract, but only to forum selection clauses in
franchise agreements,” and was therefore preempted
by the Federal Arbitration Act, 9 U.S.C. § 1 et seq.
(2018) (“FAA”).2 Id. at 892.
In order to determine whether Jones or Bradley controlled—and accordingly whether the forum selection
clause at issue was enforceable—the District Court
had to decide whether the parties were subject to a
claim arising under or relating to a franchise agreement involving a franchise business operating within this state.”
2

As discussed infra at (IV)(A), Bradley’s holding has been
called into question twice by this Court, first expressly in Sakkab
v. Luxottica Retail N. Am., Inc., 803 F. 3d 425, 432 (9th Cir. 2015)
and again implicitly just two weeks ago in Blair v. Rent-A-Center,
No. 17-17221, 2019 U.S. App. LEXIS 19476, at *11 (9th Cir. June
28, 2019) (“a rule is generally applicable if it appl[ies] equally to
arbitration and non-arbitration agreements . . . a rule is not generally applicable if it prohibits outright the arbitration of a particular type of claim”) (internal quotations and citations omitted);
see also PA000229 at n.2 (District Court noting that “Bradley has
been called into question by the Ninth Circuit’s decision in
Sakkab”).

311a
valid agreement to arbitrate. The District Court
looked to the parties’ agreement, which contained one
provision that required Fleming to waive his representative claims under California’s Labor Code Private Attorneys General Act, Section 2698 et. seq.
(“PAGA”), and another provision that voided the entire
arbitration agreement ab initio (such that no arbitration agreement existed in the first instance) in the
event the PAGA waiver was unlawful. The District
Court correctly applied this Court’s precedent to determine that the PAGA waiver was unlawful and concluded that no valid arbitration agreement existed by
plain operation of the parties’ contract terms; it then
applied this Court’s decision in Jones to nullify the
choice of forum clause. PA000232 (citing Sakkab, 803
F.3d at 430–31); see also Blair, 2019 U.S. App. LEXIS
19476, at *13–15.
Inexplicably, Matco’s mandamus petition fails to
mention Jones and affirmatively misstates the controlling rule of law it represents. Pet. at 15–16 (describing
three-part M/S Bremen test in the conjunctive rather
than disjunctive and stating that “plaintiff must show”
all three factors). Ignoring Jones leads Matco to make
outright misstatements of law, like claiming that “The
District Court [] was obligated to apply the same analysis to determine the validity of the forum-selection
clause contained within the arbitration provision in
Fleming’s distributorship agreements as it would have
had the agreements lacked an arbitration provision.”
Pet. at 23. Read literally, that sentence demands that
the District Court ignore Bradley and apply Jones,
which would void the very choice of forum clause
Matco is seeking to enforce. Indeed, entire swaths of
Matco’s mandamus petition are incomprehensible in
light of Matco’s disregard of Jones. See Pet. at 22–24

312a
(contending that, in the absence of an arbitration provision, the choice of forum clause is enforceable).
Matco’s FAA preemption arguments are equally
defective, starting with its misrepresentation that
Fleming below “did not contest that the FAA preempts
Section 20040.5.” Pet. at 9. In fact, Fleming expressly
disputed that the FAA preempted Section 20040.5 in
this case. PA000137–139. As Fleming argued, and the
District Court correctly found, the FAA does not
preempt application of Section 20040.5 in this case
because Matco and Fleming did not agree to arbitration of this dispute. Instead, Matco drafted a clause
that provided for no arbitration in the event the PAGA
waiver it drafted was unlawful. Matco has never
coherently explained why the FAA would preempt Section 20040.5 in the face of the parties’ agreement not
to arbitrate their dispute.
In summary, the District Court’s analysis was correct and consistent with controlling circuit authority.
The District Court determined that the choice of forum
clause was unlawful under Jones, and that Section
20040.5 was not preempted under Bradley because the
parties’ arbitration agreement was void ab initio by its
own terms. The District Court made no determination
disfavoring arbitration. It did not find that the parties’
underlying franchise agreement was invalid. It simply
examined the arbitration agreement at Matco’s urging
to determine whether Section 20040.5 was preempted
by the FAA. Because the District Court did not make
a clear error as a matter of law, Matco’s mandamus
petition is without merit and should be denied.
Finally, there is no truth to Matco’s contention that
it has no means other than mandamus to enforce its
alleged right to arbitration. Section 12.10 of Matco’s
forum selection clause expressly required arbitration

313a
in California where, as here, California law voids a
forum selection clause that deprives California franchisees of a California forum. Had Matco moved to
compel arbitration in California, it would have had the
right to directly appeal any denial of that motion
under Section 16 of the FAA, including any determination that the arbitration agreement’s blow up provision had been triggered. 9 U.S.C. § 16(a)(1)(C) (appeal
may be taken from an order denying an application to
compel arbitration). Instead, Matco moved to transfer
the case to Ohio, knowingly assuming the risk that it
would not have the ability to appeal the denial of that
motion. Matco’s inability to directly appeal the District
Court’s (correct) determination that the arbitration
agreement’s blow up provision was triggered by the
unlawful PAGA waiver is thus entirely a problem of
Matco’s own making. Under these circumstances,
mandamus is unwarranted.
II. FACTUAL AND PROCEDURAL HISTORY
A. Fleming, a California Worker, Signed a
Franchise Agreement with Matco Containing a “No Arbitration” Provision.
Matco manufactures and distributes mechanics
tools and service equipment. PA000241 ¶ 5. It relies
on workers like Fleming to carry out its business by
making weekly sales and service calls to existing and
prospective Matco customers through mobile distributorship stores. PA000244 ¶ 15.
Fleming, a California-based Matco distributor, was
required to sign a form franchise agreement in order
to work for Matco. PA000242–243 ¶ 9, PA000156 ¶ 4,
PA000193 ¶ 3. The franchise agreement, also referred
to as a “Distribution Agreement” or “DA,” contained a
forum selection clause. PA000049 ¶ 12.10. Fleming did

314a
not negotiate its terms and was not represented by
counsel at the time he signed the DA. PA000156 ¶ 6.
Fleming’s DA also contained clauses related to arbitration, which described the circumstances under
which the parties had agreed to arbitrate. PA000046–
47 ¶ 12.1, PA000049 ¶ 12.12. Under Section 12.12, the
severability clause related to arbitration, the parties
agreed that “if the provision prohibiting classwide or
private attorney general arbitration is deemed invalid,
then the provision requiring arbitration of breaches
between the parties shall be null and void and there
shall be no obligation to arbitrate any such breaches.”
Id. Section 12.1 of the DA defines “breaches” as “all
breaches, claims, causes of action, demands, disputes
and controversies.” PA000046 ¶ 12.1
Matco’s arbitration clause expressly waives
Fleming’s representative PAGA claims. Specifically,
Section 12.7 provides that “[n]o matter how styled by
the party bringing the claim, any claim or dispute is to
be arbitrated on an individual basis and not as a class
action. THE DISTRIBUTOR EXPRESSLY WAIVES
ANY RIGHT TO ARBITRATE OR LITIGATE AS A
CLASS ACTION OR IN A PRIVATE ATTORNEY
GENERAL CAPACITY.” PA000048 ¶ 12.7.
After signing the DA, Fleming worked a Matco sales
and distribution route in Salinas Valley, California
and regularly worked 40–60 hours a week. PA000242–
243 ¶ 9. Matco required Fleming to work full-time.
PA000244 ¶ 15. Matco also imposed numerous other
requirements and restrictions on Fleming, including
requiring that he make personal sales calls every week
to each of the stops, shops or locations on his list of
calls, wear Matco’s uniform, and drive a Matcoapproved and Matco-labeled truck. PA000245 ¶ 23(d),
PA000247 ¶¶ 24, 26.

315a
On January 25, 2019, Fleming filed a Class Action
and a Representative Private Attorneys General Act
Action alleging that by misclassifying Fleming and
similarly situated Distributors as independent contractors, Matco sought to avoid various duties and
obligations owed to employees under California’s
Labor Code and Industrial Welfare Commission
(“IWC”) wage orders, including overtime compensation, expense reimbursement, meal and rest period
premium payments, and other claims. PA000242 ¶ 6.
B. Matco Acknowledged Below That Its Forum
Selection Clause Would Be Invalid Under
Business and Professions Code Section
20040.5 in the Absence of an Agreement to
Arbitrate.
In its briefing below, Matco recognized this Court’s
holding in Jones, 211 F.3d at 498, that Section 20040.5
evinces a “strong public policy,” which invalidates
“non-California forum selection clauses in franchise
agreements signed by California franchise businesses.” PA000017; see also PA000013 (acknowledging
the general rule that forum selection clauses may be
invalidated because “enforcement would contravene a
strong public policy of the forum in which the suit is
brought”) (internal quotations and citations omitted).
Matco did not dispute that Fleming signed a franchise
agreement in California and worked exclusively in
California.
In urging the District Court to apply Bradley rather
than Jones, Matco expressly placed the existence and
scope of its arbitration agreement with Fleming at
issue. PA000010 (“Pursuant to his Distributorship
Agreements, Plaintiff agreed to arbitrate any and all
claims against NMTC, Matco and Fortive”); see also
PA000015 (asking the District Court to find that

316a
“Plaintiff’s causes of action all clearly fall within the
scope of the forum-selection clause” because “the arbitration provision is all-encompassing”).
In response, Fleming presented Judge Orrick with
three independent reasons why no valid agreement to
arbitrate existed, nullifying Matco’s FAA preemption
argument. First, Fleming pointed out that the parties’
agreement included a provision that expressly voided
the arbitration agreement ab initio if Fleming’s waiver
of representative claims under PAGA was unenforceable, and that—as a matter of law—the PAGA waiver
was unenforceable. PA000137–139 (citing Iskanian v.
CLS Transp. Los Angeles, LLC, 59 Cal. 4th 348, 360,
383 (2014) (“an employee’s right to bring a PAGA
action is unwaivable”) and Sakkab, 803 F.3d at 440
(finding that the FAA does not preempt the Iskanian
rule and that “the waiver of [the Plaintiff’s] representative PAGA claims may not be enforced.”)). As a
result, under the terms of the arbitration agreement
that Matco drafted, there was no valid arbitration
agreement and no basis to find FAA preemption.
PA000139.
Second, Fleming argued that “even if an agreement
to arbitrate existed (which it does not), it would
exclude Fleming’s claims.” PA000139. Specifically,
Fleming argued that Section 12.5 of the DA states that
“any dispute or controversy involving the Marks” is
“not [] subject to Arbitration.” Id. Fleming argued that
because his action was a “controversy involving the
Marks,” it fell outside the scope of the arbitration
clause. PA000139–141.

317a
Third, Fleming argued that the arbitration agreement was procedurally and substantively unconscionable, and thus invalid.3 PA000141–146.
C. The District Court Found That Mateo’s
Forum Selection Clause Was Unenforceable
Under Jones, and That Bradley Did Not
Apply Because the Parties Agreed Not to
Arbitrate Their Dispute.
The District Court began its analysis by recognizing
that where there is a valid forum selection clause, the
Supreme Court has held that a court may only consider the “public interest” factors, and not the “private
interest factors.” PA000227 (citing Atl. Marine Constr.
Co v. United States Dist. Ct., 571 U.S. 49, 62–64). The
District Court went on to find that Fleming “must
show either that the forum selection clause is not valid
or that the public interest factors . . . make transfer
inappropriate.” PA000228.
3

Fleming also argued that the choice of forum clause was
unlawful and unenforceable under California Labor Code Section
925, a law that expressly applies to claims in court and arbitration and which (unlike Section 20040.5) has never been deemed
preempted by the FAA. PA000133–137; see also Karl v. Zimmer
Biomet Holdings, Inc., No. C 18-04176 WHA, 2018 U.S. Dist.
LEXIS 189997, at *6–9 (N.D. Cal. Nov. 6, 2018) (finding where
the plaintiff asserted a plausible claim for independent contractor
misclassification, Section 925 applied to the choice of forum
clause in question), mandamus denied, Zimmer Biomet Holdings,
Inc. v. United States Dist. Court, No. 18-73216, 2019 U.S. App.
LEXIS 5699 (9th Cir. Feb. 26, 2019). Contrary to Matco’s representation, Pet. at 9, n.3, Fleming also produced evidence that
Fleming’s employment agreement was “entered into, modified or
extended on or after January 1, 2017,” pursuant to the requirements of Section 925. PA000136. Labor Code Section 925 provides an independent basis for affirming the District Court’s
Order.

318a
In analyzing whether the forum selection clause was
valid, the District Court reviewed the applicability of
Section 20040.5 pursuant to Jones and Bradley.
PA000228–233. The District Court recognized that
under this Court’s ruling in Jones, Section 20040.5
“expresses a strong public policy of the State of
California” and that a forum selection clause which
“‘requires a California franchisee to resolve claims
related to the franchise agreement in a non-California
court,’ such as the one here, ‘directly contravenes this
strong public policy and is unenforceable under the
directives of Bremen.’” PA000228 (quoting Jones, 211
F.3d at 498).
The District Court then turned to Bradley and
observed that Section 20040.5 is preempted by the
FAA where there is an agreement to arbitrate the disputes, stating that: “This motion hinges on the
preemptive effect of the arbitration provision and I
cannot turn a blind eye toward questions of its validity.” PA000230 (citing Bradley, 275 F.3d at 890). The
District Court recognized that Section 20040.5 is
preempted by the federal policy enshrined in the FAA
only when there is an agreement to arbitrate the disputes between the parties. Id.
Turning to the parties’ agreement, the District
Court found that under Sakkab and Iskanian, “the
Distribution Agreement’s PAGA waiver contained in
¶12.7 constitute[d] an impermissible pre-dispute
agreement to waive Fleming’s PAGA claims.”
PA000232. The District Court found that “combined
with the severability provision of ¶ 12.12, the provision requiring arbitration of breaches between
Fleming and Matco is null and void and neither party
has an obligation to arbitrate.” Id. Because the agreement to arbitrate in this case is “null and void” by the

319a
parties’ own agreement, the District Court found that,
pursuant to Jones, Section 20040.5 applies to the dispute between the parties and “the forum selection
clause has no effect.” PA000233. The Court declined to
address Fleming’s California Labor Code Section 925
argument because Fleming’s Section 20040.5 argument was dispositive. PA000233 at n.3.
After determining that the forum selection clause
was void pursuant to Section 20040.5, the District
Court looked to 28 U.S.C. Section 1404(a) to determine
whether to transfer the case “[f]or the convenience of
parties and witnesses [or] in the interest of justice.”
PA000235–236. The District Court analyzed both the
“private interest” and the “public interest” factors pursuant to the precedent of this Court and the United
States Supreme Court, concluding that “the private
factors, to a great degree, and the public factors, to a
much lesser extent favor Fleming” and denied Petitioner’s motion to transfer.” PA000236–238.
III. STANDARD OF REVIEW
This Court has described the writ of mandamus as
a “drastic remedy,” only available in “extraordinary
circumstances.” Sherman, 581 F.2d at 1361. The Court
“must be firmly convinced that the district court has
erred, and that the petitioner’s right to the writ is clear
and indisputable.” Valenzuela-Gonzalez v. United
States Dist. Court, 915 F.2d 1276, 1279 (9th Cir. 1990)
(internal quotation marks and citations omitted).
While the Court considers five factors in determining whether mandamus should be granted, see Pet. at
14 (citing Bauman v. United States, 557 F.2d 650, 654–
55 (9th Cir. 1977)), the third factor—whether there is
a clear error of law—is the most important. “[T]he
absence of factor three—clear error as a matter of

320a
law—will always defeat a petition for mandamus.” In
re Swift Transp. Co., 830 F.3d 913, 916 (9th Cir. 2016)
(citing In re United States, 791 F.3d 945, 955 (9th Cir.
2015)). “Clear error is a highly deferential standard of
review.” Id. (citing In re Van Dusen, 654 F.3d 838, 841
(9th Cir. 2011). This Court “will not grant mandamus
relief simply because a district court commits an error,
even one that would ultimately require reversal on
appeal.” Id. (citing In re Van Dusen, 654 F.3d at 845).
IV. ARGUMENT
A. The Petition Must Be Denied Because There
Was No Clear Error of Law.
Matco’s mandamus petition grossly mischaracterizes the District Court’s Order. Far from “disregard[ing] . . . black letter law,” Pet. at 2, the District
Court straightforwardly applied controlling circuit
precedent. Matco, on the other hand, has provided this
Court with a misleading summary of legal principles
and deficient analysis of applicable law.
The Supreme Court has recognized three independent reasons for declining to enforce a forum selection
clause: “(1) its incorporation into the contract was the
result of fraud, undue influence, or overweening bargaining power; (2) the selected forum is so gravely difficult and inconvenient that the complaining party will
for all practical purposes be deprived of its day in
court; or (3) enforcement of the clause would contravene a strong public policy of the forum in which the
suit is brought.” Argueta v. Banco Mexicano, S.A., 87
F.3d 320, 324–25 (9th Cir. 1996) (internal citations
and quotations omitted) (emphasis added). Contrary
to Matco’s representation, Pet. at 15–16, the test is in
the disjunctive. A party challenging the enforceability
of a forum selection clause because it contravenes a

321a
strong public policy of the forum in which the suit is
brought need make no additional showing regarding
fraud or overreaching. Jones, 211 F.3d at 497–98.
Section 20040.5 is such a statute. It represents California’s strong public policy that disputes involving a
California franchisee be adjudicated in California.
Where, as here, a plaintiff brings suit in California,
and the parties’ forum selection clause is contained in
a franchise agreement, the forum selection clause is
invalid and unenforceable. Id. Although Matco has
inexplicably failed to bring Jones to this Court’s attention, it conceded the case’s import below. PA000017
(citing Jones, 211 F.3d at 498) (“Defendants are aware
the Ninth Circuit has ruled that California Business
and Professions Code section 20040.5, which voids
non-California forum-selection clauses in franchise
agreements signed by California franchise businesses,
is a ‘strong public policy’” that requires nonenforcement of a forum selection clause).
Meanwhile, in Bradley, this Court held that Section
20040.5 was preempted by the FAA where the parties
had agreed to arbitrate. Bradley, 275 F.3d at 887–88
(observing that the district court found that there was
an enforceable arbitration clause). The Court reasoned
that because Section 20040.5 applied to a certain kind
of contract (franchise agreements), it was not a “generally applicable contract defense” that applied to all
types of contracts and hence was subject to FAA
preemption. Id. at 892–93.
Subsequent to Bradley, however, the U.S. Supreme
Court and two panels of the Ninth Circuit have all construed the phrase “generally applicable contract
defense” to mean a contract defense that does not single out arbitration agreements for unfavorable treatment. See Sakkab, 803 F.3d at 432–33; Blair, 2019

322a
U.S. App. LEXIS 19476, at *10–18; AT&T Mobility,
LLC v. Concepcion, 563 U.S. 333, 339–340 (2011).
Because Section 20040.5 does not single out arbitration agreements for unfavorable treatment, Bradley’s
holding cannot be squared with the Supreme Court’s
current savings clause jurisprudence. Indeed, in
Sakkab, this Court expressly suggested that
Concepcion undermined Bradley’s interpretation of
the FAA’s savings clause. See Sakkab, 803 F.3d at 433
(noting that Concepcion “cuts against [Bradley’s] construction of the saving clause.”). Overruling Bradley
would provide independent grounds for dismissing
Matco’s mandamus petition. See Thompson v. Paul,
547 F.3d 1055, 1058–59 (9th Cir. 2008) (“We can
affirm on any ground supported by the record.”).
But this Court need not overrule Bradley to dismiss
this mandamus petition, because the District Court
followed Bradley. PA000229 at n.2 (recognizing that
Bradley has been called into question but not yet overruled). Indeed, the District Court expressly recognized
that, under Bradley, the presence of an enforceable
arbitration agreement would require a finding that
Section 20040.5 was preempted. PA000229. Accordingly, the District Court looked to see whether the parties had an operative agreement to arbitrate the
underlying dispute. PA000231–233. Not only was this
analysis correct in light of Jones and Bradley, but it
was invited by Matco, which premised its motion to
transfer on the existence of an arbitration agreement
between the parties. PA000009, PA000013.
Matco’s attack on Judge Orrick—accusing him of
having an “impermissible hostility to arbitration” and
“pa[ying] lip service” to the law—is meritless. See Pet.
at 3, 23. The District Court honored federal arbitration
policy by holding Matco to the terms of the arbitration

323a
agreement it drafted and imposed on Fleming. Matco’s
mandamus petition regurgitates entire sections of the
underlying franchise agreement but neglects to
include the key provision relied on by the District
Court which renders the entire arbitration clause void
ab initio. See Pet. at 6–7. The franchise agreement’s
severability clause provides that “if the provision prohibiting classwide or private attorney general arbitration is deemed invalid, then the provision requiring
arbitration of breaches between the parties shall be
null and void and there shall be no obligation to arbitrate any such breaches.” PA000049 ¶ 12.12 (emphasis
added). In turn, Section 12.7 of the DA provides that
“[n]o matter how styled by the party bringing the
claim, any claim or dispute is to be arbitrated on an
individual basis and not as a class action. THE DISTRIBUTOR EXPRESSLY WAIVES ANY RIGHT TO
ARBITRATE OR LITIGATE AS A CLASS ACTION
OR IN A PRIVATE ATTORNEY GENERAL CAPACITY.” PA000048 ¶ 12.7.
The District Court properly analyzed these provisions under general contract interpretation principles
and in light of federal arbitration policy. Under settled
Ninth Circuit law, Section 12.7 of the franchise agreement constitutes an unlawful waiver of Fleming’s representative claims under the PAGA. Sakkab, 803 F.3d
at 440 (“the waiver of [the Plaintiff’s] representative
PAGA claims may not be enforced.”).4 PAGA permits
4

In a footnote, Matco makes cryptic reference to the continued
vitality of Sakkab in light of the Supreme Court’s decision in Epic
Systems v. Lewis, 138 S. Ct. 1612 (2018). Pet. at 21, n. 7. But this
mandamus petition is an inappropriate vehicle for revisiting
Sakkab (if that is even what Matco suggests) for three reasons.
First, Matco has waived any such argument by failing to raise it
before the district court and or in the body of its Petition. See
Estate of Saunders v. C.I.R., 745 F.3d 953, 962 n.8 (9th Cir. 2014)

324a
aggrieved employees to act as private attorneys general on behalf of the State of California to collect civil
penalties for Labor Code violations. In light of this
public purpose, “an employee’s right to bring a PAGA
action is unwaivable,” and “an arbitration agreement
requiring an employee as a condition of employment to
give up the right to bring representative PAGA actions
in any forum is contrary to public policy.” Iskanian, 59
Cal. 4th at 360, 383; Sakkab, 803 F.3d at 449 (holding
that the FAA does not preempt the Iskanian rule);
Hopkins v. BCI Coca-Cola Bottling Co of Los Angeles.,
640 F. App’x 672, 673 (9th Cir. 2016) (waiver of right
to bring a representative PAGA action is unenforceable under Iskanian).5
(“Arguments raised only in footnotes . . . are generally deemed
waived.”); Tibble v. Edison Int’l, 843 F.3d 1187, 1193 (9th Cir.
2016) (en banc) (“we do not ‘entertain[] arguments on appeal that
were not presented or developed before the district court.’”) (quoting Visendi v. Bank of Am., N.A., 733 F.3d 863, 869 (9th Cir.
2013)). Second, this Court recently reaffirmed Sakkab post-Epic
Systems. See Blair, 2019 U.S. App. LEXIS 19476, at *15–18.
Third, the argument does not present grounds for mandamus
review. Swift, 830 F.3d at 917 (“If ‘no prior Ninth Circuit authority prohibited the course taken by the district court, its ruling is
not clearly erroneous’” and mandamus is not appropriate) (quoting In re Morgan, 506 F.3d 705, 713 (9th Cir. 2007)).
5

Matco now argues, for the first time, and in a footnote, that
the PAGA waiver would not be void under Ohio law. See Pet. at
21, n.7. This argument is procedurally improper. Saunders, 745
F.3d at 962 n.8 (argument raised only in footnote is generally
waived); Tibble, 843 F.3d at 1193 (argument not raised below is
waived). It is also wrong. The cases that Matco relies upon do not
involve PAGA or a PAGA-like statute, but rather the Ohio Consumer Sales Protection Act (“CSPA”), which is nothing like
PAGA. Most critically, the CSPA does not allow private litigants
“the right to act as a private attorney general to recover the full
measure of penalties the state could recover”—the touchstone of
PAGA. Sakkab, 803 F.3d at 433, 439. In any event, that District

325a
Contemplating the possibility that its waiver of private attorney general claims would be unenforceable,
Matco drafted its arbitration clause to render the
entire agreement to arbitrate “null and void” under
that contingency, such that no obligation to arbitrate
exists. PA000049 ¶ 12.12 (“if the provision prohibiting
. . . private attorney general arbitration is deemed
invalid, then the provision requiring arbitration of
breaches between the parties shall be null and void
and there shall be no obligation to arbitrate any such
breaches.”). Put differently, Section 12.12 creates a
condition precedent to the existence of an agreement
to arbitrate. If the PAGA waiver is invalid, no agreement to arbitrate exists ab initio. And if no agreement
to arbitrate exists, then the choice of forum clause is
unenforceable under controlling Ninth Circuit law.
See Jones, 211 F.3d at 498. In short, the unenforceable
PAGA waiver renders the entire arbitration provision
void ab initio by straightforward operation of plain
contract terms.
Matco accuses the District Court of disrespecting
arbitration, Pet. at 23–24, but it is Matco that misunderstands federal arbitration jurisprudence. The FAA
is not a field preemption statute. See Volt Info. Scis. v.
Bd. of Trs., 489 U.S. 468, 477 (1989). “[T]he federal
[arbitration] policy is simply to ensure the enforceability, according to their terms, of private agreements to
Court’s finding that the waiver would be void under either
California or Ohio law is not clearly wrong, since Ohio courts
have also found pre-dispute waivers of private attorney general
actions unenforceable when those waivers violate public policy.
See, e.g., Eagle v. Fred Martin Motor Co., 809 N.E.2d. 1161, 1183
(Ohio Ct. App. 2004) (finding that, combined with a confidentiality clause, the private attorney general waiver “imped[es] the
remedial function of the CSPA” and is invalid as against public
policy).

326a
arbitrate.” Id. at 476. Although Matco may wish it had
drafted its agreement differently, it cannot now
rewrite the terms. Workers regularly are held to the
terms of arbitration agreements drafted by company
attorneys; companies that impose such agreements
must be held to the written terms as well.
Matco’s remaining arguments are nonsensical.
Matco says that the District Court improperly
“scrapped” the traditional analysis requiring deference to a choice of forum clause “solely because the
forum selection clause is contained within an arbitration provision.” Pet. at 3. As discussed above, the
reverse is true. Controlling circuit precedent—which
Matco acknowledged below but omitted from its Petition—renders the forum selection clause here unenforceable in the absence of a valid arbitration agreement. See Jones, 211 F.3d at 498. The District Court
examined the arbitration provision at Matco’s urging
to determine whether the forum selection clause,
which would otherwise be unenforceable under Jones,
could be saved—not out of some gratuitous hostility to
arbitration.
Matco also spends five pages arguing that a district
court faced with a forum selection clause should not
examine the “validity of the contract containing it.”
Pet. at 17–21. Of course, that is not what the District
Court did here. Fleming did not argue below that the
forum selection clause was unenforceable because the
franchise agreement containing it was invalid, and the
District Court made no finding regarding the lawfulness of the franchise agreement. Rather, Fleming
attacked the forum selection clause—and only the
forum selection clause—on the ground that it is unenforceable under Jones. In turn, the District Court
examined the arbitration clause simply to determine

327a
whether the parties were subject to an agreement to
arbitrate, such that this Court’s decision in Bradley,
rather than Jones, would control.
The District Court’s analysis follows governing law,
and it makes sense. Because the FAA is not a field
preemption statute, the mere appearance of the word
“arbitration” in a contract does not preempt Section
20040.5. Where, as here, the underlying contract
reflects the parties’ agreement not to arbitrate a dispute, then the District Court would have committed
clear error by refusing to invalidate the forum selection clause under Section 20040.5 and Jones. Instead,
the District Court correctly applied Sakkab, found the
parties had not agreed to arbitrate, and properly
denied the motion to transfer under Jones.
B. Mateo’s Additional Grounds for Review Are
Insufficient to Support a Writ of Mandamus
1. Writs Related to Venue Provisions Are
Routinely Denied, Even Though Denials
of Motions to Transfer Are Not Immediately Appealable.
Without a showing of clear error, Matco is not entitled to mandamus review. Matco alleges that mandamus review is warranted because “[v]enue provisions
deal with rights too important to be denied review.”
Pet. at 24–25 (quoting Pac. Car & Foundry Co. v.
Pence, 403 F.2d 949 (9th Cir. 1968)). But as Matco’s
own cited cases reflect, there is no special rule permitting interlocutory review of transfer rulings. See, e.g.,
Pac. Car & Foundry, 403 F.2d at 951–52 (permitting
review of “clearly erroneous orders entered under §
1404(a)”); In re Lloyd's Register N. Am., Inc., 780 F.3d
283, 290 (5th Cir. 2015) (reviewing a transfer ruling
only after establishing that the party had shown that

328a
the district court committed “clear abuses of discretion
that produce patently erroneous results.”); In re Rolls
Royce Corp., 775 F.3d 671, 677 (5th Cir. 2014) (establishing that the petitioner’s right to review on an order
regarding transfer was “clear and indisputable”
because the district court had committed a “clear
abuse of discretion,” and “produce[d] a patently erroneous result.”); In re Apple, Inc., 581 F. App’x 886, 888
(Fed. Cir. 2014) (“We will grant mandamus relief only
when a district court’s clear abuse of discretion produces a patently erroneous result.”); In re Howmedica
Osteonics Corp., 867 F.3d 390, 401 (3d Cir. 2017)
(requiring “a clear and indisputable abuse of discretion or . . . error of law” in granting mandamus review
for 1404(a) orders).
Matco says that review now is urgent, but this Court
has found that challenges to a district court’s denial of
a dismissal for forum non conveniens can be properly
reviewed after a final judgment. Orange, S.A. v.
United States Dist. Court, 818 F.3d 956, 963–64 (9th
Cir. 2016) (“[I]f appellate courts were to issue writs of
mandamus routinely after denial of a motion to dismiss for forum non conveniens, they would be allowing
non-statutory rights of interlocutory appeal.”). As a
result, this Court routinely denies mandamus petitions for review of orders denying forum non conveniens and 1404(a) motions. See id. at 964–65. This case
is no different.
Matco also claims that the District Court’s order
“eradicated the[] mandatory safeguards” of the FAA
because it will be unable to move to compel arbitration
or take an appeal from the denial of a motion to compel
arbitration under 9 U.S.C. § 16(a)(1)(B). Pet. at 26–27.
Matco, however, could have moved to compel arbitration in the District Court below, with the right to

329a
appeal any denial of its motion to compel arbitration
to this Court under Section 16 of the FAA. Transferring the case to Ohio as a predicate to such a motion
was unnecessary and improper, because the plain
terms of the franchise agreement provide that any
arbitration hearing must be conducted in California,
not Ohio. Specifically, Section 12.10 of the franchise
agreement provides that arbitration proceedings are
to be venued in Ohio unless “the law of the jurisdictions in which Distributor operates the Distributorship require that arbitration proceedings be conducted
in that state,” in which case “the Arbitration hearings
under this agreement shall be conducted in the state
in which the principal office of the Distributorship is
located, and in the city closest to the Distributorship.”
PA000049. Because Section 12.10 of the franchise
agreement, read in tandem with Section 20040.5,
requires that any arbitration proceeding be conducted
in California, Matco could have filed a motion to compel arbitration in the District Court below (although
that motion would have failed due to the absence of a
valid and enforceable arbitration agreement).
2. This Petition Raises a Fact-Specific Issue
That Is Neither Novel nor Likely to Arise
Repeatedly.
Finally, there is no merit to Matco’s contention that
the blow-up clause in its franchise agreement—a feature of the agreement it drafted—is of some greater,
circuit-wide significance. Matco recasts the District
Court’s analysis as “adjudicat[ing] the validity of the
underlying contract” when “ruling on the enforceability of a forum-selection clause,” Pet. at 29, but as noted
above (supra at IV(A)), the District Court did no such
thing. Matco’s motion to transfer and this Court’s precedent required the District Court to determine

330a
whether an arbitration agreement existed, so that it
could decide whether Jones or Bradley controlled. This
is the same analysis that other courts have undertaken when deciding whether there was FAA preemption. See, e.g., Bradley, 275 F.3d at 888. There is no
novel issue here for this Court to decide.
V. CONCLUSION
For the reasons set forth above, the Court should
deny Defendants’ petition in full.
DATED: July 11, 2019
Respectfully submitted,
By: /s/ Peter Rukin
Peter Rukin
Jessica Riggin
Valerie Brender
Dylan Cowart
RUKIN HYLAND & RIGGIN LLP
1939 Harrison Street, Ste. 290
Oakland, CA 94612
Telephone: (415) 421-1800
Facsimile: (415) 421-1700
Attorneys for PlaintiffReal Party in Interest
————
STATEMENT OF RELATED CASES
(Circuit Rule 28-2.6)
Fleming is not aware of any related cases pending in
this Circuit.
————
CERTIFICATE OF COMPLIANCE

331a
This brief complies with the type-volume limitations
of Fed. R. App. P. 21(d) and 32(a)(7)(B) because this
brief contains 5,967 words, excluding the parts of the
brief exempted by Fed. R. App. P. 32(f).
This brief complies with the typeface requirements
of Fed. R. App. P. 32(a)(5) and the type style requirements of Fed. R. App. P. 32(a)(6) because this brief has
been prepared in a proportionately spaced typeface
using Microsoft Word 2010 Times New Roman 14point font.
Date: July 11, 2019
/s/ Peter Rukin
Peter Rukin
Jessica Riggin
Valerie Brender
Dylan Cowart
RUKIN HYLAND & RIGGIN LLP
1939 Harrison Street, Ste. 290
Oakland, CA 94612
Telephone: (415) 421-1800
Facsimile: (415) 421-1700
Attorneys for PlaintiffReal Party in Interest

CERTIFICATE OF SERVICE

332a
I hereby certify that on July 11, 2019, I electronically filed the foregoing PLAINTIFF-REAL PARTY IN
INTEREST’S ANSWER TO PETITION FOR A WRIT
OF MANDAMUS with the Clerk of the Court for the
United States Court of Appeals for the Ninth Circuit
by using the appellate CM/ECF system and mailed,
via United States Mail, a true copy thereof to the
address shown below. Participants in the case who are
registered CM/ECF users will be served by the appellate CM/ECF system.
United States District Court
Northern District of California
San Francisco Courthouse
450 Golden Gate Avenue,
San Francisco, California 94102
Respondent
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct. Executed on July 11, 2019, at Oakland,
California.
/s/ Peter Rukin
Peter Rukin
RUKIN HYLAND & RIGGIN LLP
Attorneys for PlaintiffReal Party In Interest

